NO. 20-___
(Related to No. 20A98)
In the

Supreme Court of the United States
MIKE KELLY, U.S. Congressman; SEAN PARNELL; THOMAS A. FRANK;
NANCY KIERZEK; DEREK MAGEE; ROBIN SAUTER; MICHAEL KINCAID; and
WANDA LOGAN,
v.

Petitioners,

COMMONWEALTH OF PENNSYLVANIA; PENNSYLVANIA GENERAL
ASSEMBLY; THOMAS W. WOLF, in his official capacity as Governor of the
Commonwealth of Pennsylvania; and KATHY BOOCKVAR, in her official capacity
as
Secretary of the Commonwealth of Pennsylvania,
Respondents.
On Petition for A Writ of Certiorari
to the Supreme Court of Pennsylvania
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
Gregory H. Teufel
Counsel of Record
OGC Law, LLC
1575 McFarland Rd., Suite 201
Pittsburgh, PA 15228
412-253-4622
gteufel@ogclaw.net

TABLE OF CONTENTS
APPENDIX A
Order Granting Application for Extraordinary Jurisdiction,
Vacating Commonwealth Court’s Order, and Dismissing
Petition for Review with Prejudice, Hon. Mike Kelly, et al. v.
Commonwealth of Pennsylvania, et al., No. 68 MAP 2020
(Pa. Nov. 28, 2020) .................................................................................................1a
APPENDIX B
Order Denying Emergency Application for Stay, Hon. Mike Kelly,
et al. v. Commonwealth of Pennsylvania, et al., No. 68 MAP 2020
(Pa. Dec. 3, 2020) ...................................................................................................16a
APPENDIX C
Memorandum Opinion Setting Forth Basis for Court’s
November 25, 2020 Order of an Emergency Preliminary Injunction,
Hon. Mike Kelly et al. v. Commonwealth of Pennsylvania, et al.,
No. 620 M.D. 2020 (Pa. Commw. Ct. Nov. 27, 2020) ............................................17a
APPENDIX D
Order Granting Preliminary Injunctive Relief, Hon. Mike Kelly, et al.
v. Commonwealth of Pennsylvania, et al., No. 620 M.D. 2020
(Pa. Commw. Ct. Nov. 25, 2020) ...........................................................................30a
APPENDIX E
Petition for Review, Hon. Mike Kelly, et al.
v. Commonwealth of Pennsylvania, et al., No. 620 M.D. 2020
(Pa. Commw. Ct. Nov. 21, 2020) ..........................................................................32a
APPENDIX F
Emergency Application for Stay of Court’s Order of November 28, 2020,
Hon. Mike Kelly, et al. v. Commonwealth of Pennsylvania, et al.,
No. 68 MAP 2020 (Pa. Dec. 2, 2020) .....................................................................69a
APPENDIX G
Motion for Emergency/Special Prohibitory Injunction, Hon. Mike Kelly, et al.
v. Commonwealth of Pennsylvania, et al., No. 620 M.D. 2020
(Pa. Commw. Ct. Nov. 22, 2020) ...........................................................................109a

APPENDIX H
Memorandum of Law in Support of Motion for Emegency/Special
Prohibitory Injuction, Hon. Mike Kelly, et al.
v. Commonwealth of Pennsylvania, et al., No. 620 M.D. 2020
(Pa. Commw. Ct. Nov. 22, 2020) ...........................................................................119a
APPENDIX I
Response to Application for the Court to Exercise Extraordinary Jurisdiction,
Hon. Mike Kelly, et al. v. Commonwealth of Pennsylvania, et al.,
No. 68 MAP 2020 (Pa. Nov. 27, 2020) ...................................................................166a
APPENDIX J
U.S Constitution Article I, § 4, clause 1................................................................237a
U.S Constitution Article II, § 1, clause 2 ..............................................................237a
U.S Constitution Amendment I ............................................................................237a
U.S Constitution Amendment XIV .......................................................................237a
Pa. Constitution Article III, § 1 (1838) .................................................................238a
Pa. Constitution Article VII, § 1............................................................................239a
Pa. Constitution Article VII, § 4............................................................................239a
Pa. Constitution Article VII, § 14..........................................................................239a
Pa. Constitution Article VII, § 19 (1957) ..............................................................240a
Pa. Constitution Article VIII, § 6 (1864) ...............................................................240a
Pa. Constitution Article VIII, § 18 (1949) .............................................................240a
Pa. Constitution Article XI, § 1 .............................................................................241a
Act of October 31, 2019, P.L. 552, No. 77 .............................................................242a
Act of March 27, 2020, P.L. No. 41, No. 12 ...........................................................311a
25 Pa. Stat. § 2602(z.6) ..........................................................................................336a
3 U.S.C. § 15 ...........................................................................................................342a

3 U.S.C. § 16 ...........................................................................................................343a
APPENDIX K
Pa. Dep’t State, Pennsylvania Guidance for Mail-in and Absentee Ballots
Received from the United States Postal Service after 8:00 p.m. on
Tuesday, November 3, 2020 (Oct. 28, 2020, Version 1.0).....................................345a
Pa. Dep’t State, Statewide Return and Recount Directive and Procedures
(Nov. 1, 2020) ........................................................................................................................348a
APPENDIX L
Pa. Dep’t State, Unofficial Returns........................................................................................353a

APPENDIX A
0001a
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

THE HONORABLE MIKE KELLY, SEAN
PARNELL, THOMAS A. FRANK, NANCY
KIERZEK, DEREK MAGEE, ROBIN
SAUTER, MICHAEL KINCAID, AND
WANDA LOGAN

v.

COMMONWEALTH OF PENNSYLVANIA,
PENNSYLVANIA GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, KATHY
BOOCKVAR

APPEAL OF: COMMONWEALTH OF
PENNSYLVANIA, HONORABLE THOMAS
W. WOLF, KATHY BOOCKVAR

: No. 68 MAP 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 28th day of November, 2020, pursuant to 42 Pa.C.S. § 726,1 we
GRANT the application for extraordinary jurisdiction filed by the Commonwealth of
Pennsylvania, Governor Thomas W. Wolf, and Secretary of the Commonwealth Kathy
Boockvar (“Commonwealth”), VACATE the Commonwealth Court’s order preliminarily
enjoining the Commonwealth from taking any further action regarding the certification of
the results of the 2020 General Election, and DISMISS WITH PREJUDICE the petition
Section 726 provides that “[n]otwithstanding any other provision of law, the Supreme
Court may, on its own motion or upon petition of any party, in any matter pending before
any court or magisterial district judge of this Commonwealth involving an issue of
immediate public importance, assume plenary jurisdiction of such matter at any stage
thereof and enter a final order or otherwise cause right and justice to be done.” 42 Pa.C.S.
§ 726.
1

0002a
for review filed by the Honorable Mike Kelly, Sean Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin Sauter, and Wanda Logan (“Petitioners”).

All other

outstanding motions are DISMISSED AS MOOT.
Petitioners filed the petition for review in Commonwealth Court on November 21,
2020, setting forth a facial challenge to those provisions of Act 77 of 2019,2 establishing
universal mail-in voting in the Commonwealth of Pennsylvania. Petitioners sought a
declaration that the aforementioned provisions were unconstitutional and void ab initio,
and injunctive relief prohibiting the certification of the results of the General Election held
on November 3, 2020. As a remedy, Petitioners sought to invalidate the ballots of the
millions of Pennsylvania voters who utilized the mail-in voting procedures established by
Act 77 and count only those ballots that Petitioners deem to be “legal votes.” Alternatively,
Petitioners advocated the extraordinary proposition that the court disenfranchise all 6.9
million Pennsylvanians3 who voted in the General Election and instead “direct[] the
General Assembly to choose Pennsylvania’s electors.” Petition for Review at 24.
Upon consideration of the parties’ filings in Commonwealth Court, we hereby
dismiss the petition for review with prejudice based upon Petitioners’ failure to file their
facial constitutional challenge in a timely manner. Petitioners’ challenge violates the
doctrine of laches given their complete failure to act with due diligence in commencing
their facial constitutional challenge, which was ascertainable upon Act 77’s enactment. It
is well-established that “[l]aches is an equitable doctrine that bars relief when a
complaining party is guilty of want of due diligence in failing to promptly institute an action
to the prejudice of another.” Stilp v. Hafer, 718 A.2d 290, 292 (Pa. 1998).

2

Act of October 31, 2019, P.L. 552, No. 77 (“Act 77”).

3

See Pennsylvania Department of State, Unofficial Returns,
https://www.electionreturns.pa.gov/ (last visited Nov. 27, 2020).

2

available

at:

0003a
The want of due diligence demonstrated in this matter is unmistakable. Petitioners
filed this facial challenge to the mail-in voting statutory provisions more than one year
after the enactment of Act 77. At the time this action was filed on November 21, 2020,
millions of Pennsylvania voters had already expressed their will in both the June 2020
Primary Election and the November 2020 General Election and the final ballots in the
2020 General Election were being tallied, with the results becoming seemingly apparent.
Nevertheless, Petitioners waited to commence this litigation until days before the county
boards of election were required to certify the election results to the Secretary of the
Commonwealth. Thus, it is beyond cavil that Petitioners failed to act with due diligence
in presenting the instant claim. Equally clear is the substantial prejudice arising from
Petitioners’ failure to institute promptly a facial challenge to the mail-in voting statutory
scheme, as such inaction would result in the disenfranchisement of millions of
Pennsylvania voters.4
Accordingly, we grant the application for extraordinary jurisdiction, vacate the
Commonwealth Court’s order preliminarily enjoining the Commonwealth from taking any
further action regarding the certification of the results of the 2020 General Election, and
dismiss with prejudice Petitioners’ petition for review. All other outstanding motions are
dismissed as moot.
Justice Wecht files a concurring statement.
Chief Justice Saylor files a concurring and dissenting statement in which Justice
Mundy joins.

4

While the Commonwealth also relies upon Section 13(3) of Act 77, providing for a 180day period in which constitutional challenges may be commenced, given our reliance
upon the doctrine of laches, we do not speak to this basis for dismissal.
3

0004a
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

THE HONORABLE MIKE KELLY, SEAN
PARNELL, THOMAS A. FRANK, NANCY
KIERZEK, DEREK MAGEE, ROBIN
SAUTER, MICHAEL KINCAID, AND
WANDA LOGAN

v.

COMMONWEALTH OF PENNSYLVANIA,
PENNSYLVANIA GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, KATHY
BOOCKVAR

APPEAL OF: COMMONWEALTH OF
PENNSYLVANIA, HONORABLE THOMAS
W. WOLF, KATHY BOOCKVAR

: No. 68 MAP 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING STATEMENT
JUSTICE WECHT

Filed: November 28, 2020

I join the Court’s order because I wholeheartedly agree that, whatever the merits
of Petitioners’ claims regarding the constitutionality of Act 77,1 their request for
retrospective relief as to the 2020 General Election is barred by the doctrine of laches. I
write separately to explain my view as to the limited relief available when courts are faced
with a wholesale challenge to the results of an election.
As today’s order aptly notes, “[l]aches is an equitable doctrine that bars relief when
a complaining party is guilty of want of due diligence in failing to promptly institute an

1

Act of October 31, 2019, P.L. 552, No. 77.

0005a
action to the prejudice of another.” Stilp v. Hafer, 718 A.2d 290, 292 (Pa. 1998) (citing
Sprague v. Casey, 550 A.2d 184, 187 (Pa. 1988); see also Costello v. United States, 365
U.S. 265, 282 (1961); cf. Sprague, 550 A.2d at 188 (“He who seeks equity must do
equity.”). Whether laches should apply is a fact-specific question to be determined case
by case. See Leedom v. Thomas, 373 A.2d 1329, 1332 (Pa. 1977). A respondent who
resorts to laches must establish two elements: First, the party must demonstrate a lack
of diligence on behalf of the claimant. In that regard, “[t]he test is not what the plaintiff
knows, but what he might have known by the use of the means of information within his
reach with the vigilance the law requires of him.” Taylor v. Coggins, 90 A. 633, 635 (Pa.
1914). Second, the respondent must show an “injury or material prejudice” resulting from
that delay. Gabster v. Mesaros, 220 A.2d 639, 641 (Pa. 1966).
Traditionally, “the defendant bears the burden to demonstrate that enforcing the
plaintiff’s rights would be inequitable under the circumstances.” Sernovitz v. Dershaw,
127 A.3d 783, 791 (Pa. 2015). In the context of a challenge to the results of an election,
however, due consideration must also be accorded to the rights of those voters who cast
ballots in good faith reliance upon the laws passed by their elected representatives. See
Hunter v. Hamilton Cty. Bd. of Elections, 635 F.3d 219, 243 (6th Cir. 2011) (“To
disenfranchise citizens whose only error was relying on [state] instructions . . . [is]
fundamentally unfair.”). Given the impracticality of joining as essential parties the millions
of Pennsylvanians whose votes Petitioners seek to discard here, the judiciary must
consider their interests when balancing the equities. Cf. Delisle v. Boockvar, 234 A.3d
410, 411 (Pa. 2020) (per curiam) (Wecht, J., concurring) (“[I]t cannot be gainsaid that
there is no post hoc remedy sufficient to cure the arbitrary deprivation of the ‘right of

[68 MAP 2020] - 2

0006a
suffrage,’ which ‘is a fundamental matter in a free and democratic society.’” (quoting
Reynolds v. Sims, 377 U.S. 533, 561-62 (1964)).2
Respondents’ recitations lay bare Petitioners’ want of diligence in this case.
Petitioners could have brought this action at any time between October 31, 2019, when
Governor Wolf signed Act 77 into law, and April 28, 2020, when this Court still retained
exclusive jurisdiction over constitutional challenges to it. See Act 77 § 13(2)-(3). The
claims then could have been adjudicated finally before the June primary, when no-excuse
mail-in voting first took effect under Act 77—and certainly well before the General
Election, when millions of Pennsylvania voters requested, received, and returned mail-in
ballots for the first time. Petitioners certainly knew all facts relevant to their present claims
during that entire period. Indeed, “the procedures used to enact [Act 77] were published
in the Legislative Journal and available to the public” since at least October 2019. See
Stilp, 718 A.2d at 294. Likewise, “[t]he provisions of the Constitution that the [General
Assembly] purportedly violated were also readily available.” See id. And yet, Petitioners
did nothing.3 Petitioner Wanda Logan ran and lost in a special election in February after

2

See also Richard L. Hasen, Beyond the Margin of Litigation: Reforming U.S.
Election Administration to Avoid Electoral Meltdown, 62 Wash. & Lee L. Rev. 937, 998
(2005) (“Courts should see it as in the public interest in election law cases to aggressively
apply laches so as to prevent litigants from securing options over election administration
problems.”).
3

Even worse, at least one Petitioner actively encouraged his supporters to cast
mail-in ballots for him in his bid for Congress. See Ryan Deto, Sean Parnell is suing Pa.
over mail-in voting, even though he praised mail-in voting earlier this year, PITTSBURGH
CITY PAPER (Nov. 21, 2020), https://www.pghcitypaper.com/pittsburgh/sean-parnell-issuing-pa-over-mail-in-voting-even-though-he-praised-mail-in-voting-earlier-thisyear/Content?oid=18413927.

[68 MAP 2020] - 3

0007a
certain aspects of Act 77 took effect.4 And not only she, but U.S. Representative Mike
Kelly and congressional candidate Sean Parnell also participated in the 2020 primary
elections under Act 77, as modified by Act 12,5 in June of this year.6 But it occurred to
none of them to challenge the constitutionality of Act 77 before then, or indeed before
participating in and contemplating the results of the 2020 General Election.
Because “[a]n election is the embodiment of the popular will, the expression of the
sovereign power of the people,” In re Wheelock’s Contested Election, 82 Pa. 297, 299
(1876), any request to invalidate its results must meet a high evidentiary threshold. See
Soules v. Kauaians for Nukolii Campaign Comm., 849 F.2d 1176, 1180 (9th Cir. 1988)
(“The voiding of a state election ‘is a drastic if not staggering’ remedy.”) (citation omitted).
Extraordinary claims demand extraordinary proof. To that end, it is well-settled that to
annul an election in this Commonwealth “requires proof of fraud or other unlawful
practices of such magnitude and so interwoven with the casting and counting of the votes
as to obviously deprive the election returns of all validity.” See Winograd v. Coombs, 20
A.2d 315, 316 (Pa. 1941); cf. Appeal of Zupsic, 670 A.2d 629, 638 (Pa. 1996); In re Ayre,
134 A. 477, 478 (Pa. 1926) (“To warrant throwing out the vote of an entire district[,] the
disregard of the law must be so fundamental as to render it impossible to separate the
lawful from the unlawful votes.”).

See Act 77 §§ 14, 15 (instructing that the Act “shall apply to elections held on or
after April 28, 2020,” but providing that all but two sections “shall take effect immediately”).
4

5

Act of March 27, 2020, P.L. 41, No. 12.

6

Parnell lost in the General Election to incumbent U.S. Representative Conor Lamb.

[68 MAP 2020] - 4

0008a
Petitioners cannot carry their enormous burden. They have failed to allege that
even a single mail-in ballot was fraudulently cast or counted. Notably, these Petitioners
sought to intervene in a federal lawsuit in which the campaign of President Donald J.
Trump—an ostensible beneficiary of Petitioners’ efforts to disenfranchise more than onethird of the Commonwealth’s electorate—explicitly disclaimed any allegation of fraud in
the conduct of Pennsylvania’s General Election. See Donald J. Trump for President, Inc.
v. Secretary Commonwealth of Pennsylvania, No. 20-3371 (3d Cir. Nov. 27, 2020), slip
op. at 2 (“[A]s [Trump Presidential Campaign] lawyer Rudolph Giuliani stressed, the
Campaign ‘doesn’t plead fraud. . . . [T]his is not a fraud case.’” (quoting Mot. To Dismiss
Hr’g Tr. 118:19-20, 137:18)). The absence of fraud allegations from this matter—not to
mention actual evidence of fraud—alone is fatal to Petitioners’ claims.
More importantly, though, there is no basis in law by which the courts may grant
Petitioners’ request to ignore the results of an election and recommit the choice to the
General Assembly to substitute its preferred slate of electors for the one chosen by a
majority of Pennsylvania’s voters. The United States Constitution’s Presidential Electors
Clause commands that “[e]ach State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors, equal to the whole Number of Senators and
Representatives to which the State may be entitled in the Congress.” U.S. CONST. art. II,
§ 1, cl. 2. While the method of appointment varies somewhat by State,7 see McPherson
v. Blacker, 146 U.S. 1, 25-26 (1892) (describing alternative “method[s] of appoint[ing]”
presidential electors), our General Assembly “direct[ed]” the “Manner” of appointing

7

Most notably, Maine and Nebraska allocate their electors by congressional district,
with the winner of the States’ popular vote receiving two additional “bonus” electors.

[68 MAP 2020] - 5

0009a
Pennsylvania’s electors by popular vote nearly a century ago pursuant to its broad
lawmaking power.8
Unchanged since its enactment in 1937, Article XV of the Election Code9
prescribes the prevailing method of selecting the Commonwealth’s electors:
At the general election to be held in the year 1940, and every fourth year
thereafter, there shall be elected by the qualified electors of the
Commonwealth, persons to be known as electors of President and VicePresident of the United States, and referred to in this act as presidential
electors, equal in number to the whole number of senators and
representatives to which this State may be entitled in the Congress of the
United States.
25 P.S. § 3191.10 The Code further describes the electors’ constitutional duties:
The electors chosen, as aforesaid, shall assemble at the seat of
government of this Commonwealth, at 12 o’clock noon of the day which is,
or may be, directed by the Congress of the United States,[11] and shall then
and there perform the duties enjoined upon them by the Constitution and
laws of the United States.
Id. § 3192 (emphasis added). Lastly, the Code outlines the electors’ power to replace a
member of their delegation due to that member’s death or “fail[ure] to attend at the seat
8

Significantly, among the first election laws adopted by our Legislature in October
1788, following the Commonwealth’s ratification of the U.S. Constitution the previous
December, was one providing for the popular election of presidential electors on a general
ticket with congressional representatives. See 1 THE DOCUMENTARY HISTORY OF THE FIRST
FEDERAL ELECTIONS, 1788-1790 at 281, 299-302 (Merrill Jensen & Robert A. Becker, eds.,
1990).
9

Act of June 3, 1937, P.L. 1333, art. I, § 101, codified as amended at 25 P.S.
§§ 2600-3591.
10

As far as ascertaining the specific identities of the electors, the Code elsewhere
provides for their nomination by “[t]he nominee of each political party for the office of
President of the United States.” 25 P.S. § 2878.
Federal law provides that “[t]he electors of President and Vice President of each
State shall meet and give their votes on the first Monday after the second Wednesday in
December next following their appointment at such place in each State as the legislature
of such State shall direct.” 3 U.S.C. § 7. This year, electors shall meet in Harrisburg on
December 14, 2020.
11

[68 MAP 2020] - 6

0010a
of government at the time appointed by law,” id. § 3193, and also establishes their
entitlement to a per diem to compensate for travel expenses, id. § 3194 (providing for “the
sum of three dollars for every day spent in traveling to, remaining at, and returning from
the place of meeting aforesaid, and . . . mileage at the rate of three cents per mile to and
from his home”).
Conspicuously absent from the Election Code are any mechanisms by which to
circumvent these procedures so as to permit the General Assembly to substitute its
preferred slate of electors for that “elected by the qualified electors of the
Commonwealth.” Id. § 3191. Thus, any effort to alter that “method of appointment,”
McPherson, 146 U.S. at 25, at this late stage would require the adoption of new law in
accordance with constitutional mandates, including presentment of the legislation to the
governor to sign or veto. See PA. CONST. art. III, § 9; Wolf v. Scarnati, 233 A.3d 679, 687
(Pa. 2020); cf. Smiley v. Holm, 285 U.S. 355, 367-68 (1932) (holding “that the exercise of
the authority” to regulate federal elections conferred upon state legislatures by the federal
Constitution “must be in accordance with the method which the state has prescribed for
legislative enactments,” including observance of “the veto power”); Arizona State
Legislature v. Arizona Indep. Redistricting Comm’n, 576 U.S. 787, 807-08 (2015).12
In any event, even if the Legislature were inclined to intervene, Petitioners’ efforts
would be futile with respect to the foregoing election regardless. Congress has declared
Moreover, taken to its logical end, Petitioners’ plea to “prohibit[] [Respondents]
from certifying the results of the General Elections which include mail-in ballots,” Pet. for
Review at 24, if accepted, necessarily would bar the certification of every election that
took place on November 3—including half of the Pennsylvania Senate, the full
membership of the Pennsylvania House of Representatives (and Representative Kelly’s
own election to the United States House for that matter). Given the quorum quandary
such a move would precipitate, it is unclear how the General Assembly—whose members
are set to begin “[t]heir term of service” on December 1, PA. CONST. art. II, § 2—could
possibly be reconstituted in time to select an alternate slate of electors by the federal
“safe harbor” deadline of December 8, see 3 U.S.C. § 5, absent the election certifications
that Petitioners seek to block.
12

[68 MAP 2020] - 7

0011a
that each State’s method “for its final determination of any controversy or contest
concerning the appointment of all or any of the electors of such State” must have been
established “by laws enacted prior to the day fixed for the appointment of the electors”—
i.e., before November 3, 2020. See 3 U.S.C. § 5 (emphasis added). Accordingly, to
persist in seeking to overturn the result of any election by legislative putsch is a fool’s
errand—and an arguably unconstitutional one at that.

See PA. CONST. art. I, § 5

(“Elections shall be free and equal; and no power, civil or military, shall at any time
interfere to prevent the free exercise of the right of suffrage.”).
Having delayed this suit until two elections were conducted under Act 77’s new,
no-excuse mail-in voting system, Petitioners—several of whom participated in primary
elections under this system without complaint—play a dangerous game at the expense
of every Pennsylvania voter. Petitioners waived their opportunity to challenge Act 77
before the election, choosing instead to “lay by and gamble upon receiving a favorable
decision of the electorate.” Toney v. White, 488 F.2d 310, 314 (5th Cir. 1973) (en banc).
Unsatisfied with the results of that wager, they would now flip over the table, scattering to
the shadows the votes of millions of Pennsylvanians. It is not our role to lend legitimacy
to such transparent and untimely efforts to subvert the will of Pennsylvania voters.13
Courts should not decide elections when the will of the voters is clear.

See Koter v. Cosgrove, 844 A.2d 29, 33 (Pa. Cmwlth. 2004) (“The continuing and
efficient operation of government is dependent upon the prompt resolution of election
contests. Our system depends upon the timely certification of a winner.”).
13

[68 MAP 2020] - 8

0012a

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

THE HONORABLE MIKE KELLY, SEAN
PARNELL, THOMAS A. FRANK, NANCY
KIERZEK, DEREK MAGEE, ROBIN
SAUTER, MICHAEL KINCAID, AND
WANDA LOGAN

v.

COMMONWEALTH OF PENNSYLVANIA,
PENNSYLVANIA GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF,
KATHY BOOCKVAR
APPEAL OF: COMMONWEALTH OF
PENNSYLVANIA, HONORABLE
THOMAS W. WOLF, KATHY BOOCKVAR

: No. 68 MAP 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

CONCURRING AND DISSENTING STATEMENT
CHIEF JUSTICE SAYLOR

Filed: November 28, 2020

I agree with the majority that injunctive relief restraining certification of the votes
of Pennsylvanians cast in the 2020 general election should not have been granted and
is unavailable in the present circumstances. As the majority relates, there has been too
much good-faith reliance, by the electorate, on the no-excuse mail-in voting regime
created by Act 77 to warrant judicial consideration of the extreme and untenable

APPENDIX B
0016a
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

THE HONORABLE MIKE KELLY, SEAN
PARNELL, THOMAS A. FRANK, NANCY
KIERZEK, DEREK MAGEE, ROBIN
SAUTER, MICHAEL KINCAID, AND
WANDA LOGAN

v.

COMMONWEALTH OF PENNSYLVANIA,
PENNSYLVANIA GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, KATHY
BOOCKVAR

APPEAL OF: COMMONWEALTH OF
PENNSYLVANIA, HONORABLE THOMAS
W. WOLF, KATHY BOOCKVAR

: No. 68 MAP 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 3rd day of December, 2020, the Emergency Application for Stay
of this Court’s Order of November 28, 2020 is DENIED.

A True Copy Elizabeth E. Zisk
As Of 12/03/2020

Attest: ___________________
Chief Clerk
Supreme Court of Pennsylvania

0013a
remedies proposed by Appellees.1 Accordingly, I join the per curiam Order to the extent
that it vacates the preliminary injunction implemented by the Commonwealth Court.2
That said, there is a component of Appellees’ original complaint, filed in the
Commonwealth Court, which seeks declaratory relief and is unresolved by the above
remedial assessment. Additionally, I find that the relevant substantive challenge raised
by Appellees presents troublesome questions about the constitutional validity of the new
mail-in voting scheme.3
Accord Donald J. Trump for President, Inc. v. Sec’y Commonwealth of Pa, No. 203371, slip op. at 21 (3d Cir. Nov. 27, 2020) (relating that “the public interest strongly
favors finality, counting every lawful voter’s vote, and not disenfranchising millions of
Pennsylvania voters who voted by mail”). See generally LAWRENCE H. TRIBE, AMERICAN
CONSTITUTIONAL LAW 599, 600 (3d ed. 2000) (explaining that there is no “general
principle that all constitutional violations must be remediable in the courts” and that “it is
simply untenable that there must be a judicial remedy for every constitutional violation”
(quoting Webster v. Doe, 486 U.S. 592, 613, 108 S. Ct. 2047, 2059 (1988) (Scalia, J.,
dissenting)); RICHARD H. FALLON, JR. & DANIEL J. MELTZER, NEW LAW, NONRETROACTIVITY, AND CONSTITUTIONAL REMEDIES, 104 HARV. L. REV. 1731, 1786 (1991)
(describing rights without “individually effective remedies” as a “fact of our legal
tradition”).
1

2

The only caveat is that I would do so in the direct appeal proceedings and without a
special grant of extraordinary jurisdiction. See infra.
Appellees explain that early decisions of this Court interpreted the phrase “offer to
vote,” as it appears in the provisions of the Pennsylvania Constitution governing public
elections, to require in-person voting as an element of suffrage, subject only to
exceptions delineated in the Constitution itself. See PA. CONST., art. VII §1 (discussing
the qualification of Pennsylvania electors in terms of the election district “where he or
she shall offer to vote” (emphasis added)); Chase v. Miller, 41 Pa. 403, 419 (1982) (“To
‘offer to vote’ by ballot is to present oneself, with proper qualifications, at the time and
place appointed, and to make manual delivery of the ballot to the officers appointed by
law to receive it.”); In re Contested Election in Fifth Ward of Lancaster City, 281 Pa.
131, 136-37 (1924) (discussing constitutionally-prescribed exceptions to in-person
voting). Appellants’ answer appears to be that times have changed, even if a governing
provision of the Constitution has not. See Brief for Appellants at 23 (“Both [the Chase
and Lancaster County decisions] based their holdings on a fear of absentee voting that
(continued…)
3

[68 MAP 2020] - 2

0014a
One of Appellants’ main responses is that the citizenry, and perhaps future
generations, are forever bound by the Legislature’s decision to insert, into Act 77 itself,
a 180-day time restriction curtailing challenges to the substantive import of the
enactment. See Act of Oct. 31, 2019, P.L. 552, No. 77, §13(3). However, I find this
assessment to be substantially problematic.4 Further, as Appellees observe, ongoing
amendments to an unconstitutional enactment so insulated from judicial review may
have a compounding effect by exacerbating the disparity between what the Constitution
requires and the law as it is being enforced.

Thus, Appellees raise a colorable

challenge to the viability of this sort of limitation, which can result in effectively
amending the Constitution via means other those which the charter itself sanctions.
See PA. CONST., art. XI (Amendments).
To the degree that Appellees wish to pursue this challenge in the ordinary
course, upon the realization that their proposed injunctive remedies will be considered
no further, I would allow them to do so in the Commonwealth Court upon a remand. In
this regard, relative to the declaratory component of the request for relief, I also would
not invoke the doctrine of laches, since the present challenge arises in the first election
cycle in which no-excuse mail-in voting has been utilized.

Moreover, “laches and

(…continued)
no longer exists, and is not reflected in other current, constitutional voting practices
provided for by the Election Code.”). To the degree that Act 77’s time limitation on
judicial review would be deemed itself to violate the Constitution, see infra, I believe the
resolution of the underlying substantive controversy merits close review.
Notably, this Court has otherwise previously rejected the Legislature’s attempt to
impose time limitations on challenges to legislation that do not themselves comport with
constitutional norms. See, e.g., Glen-Gery Corp. v. ZHB of Dover Twp., 589 Pa. 135,
155, 907 A.2d 1033, 1044-45 (2006).
4

[68 MAP 2020] - 3

0015a
prejudice can never be permitted to amend the Constitution.” Sprague v. Casey, 520
Pa. 38, 47, 550 A.2d 184, 188 (1988).
Consistent with my position throughout this election cycle, I believe that, to the
extent possible, we should apply more ordinary and orderly methods of judicial
consideration, since far too much nuance is lost by treating every election matter as
exigent and worthy of this Court’s immediate resolution. In this respect, I would honor
the Commonwealth Court’s traditional role as the court of original and original appellate
jurisdiction for most election matters. Finally, I am decidedly against yet another award
of extraordinary jurisdiction at the Secretary’s behest.

Justice Mundy joins this Concurring and Dissenting Statement.

[68 MAP 2020] - 4

APPENDIX B
0016a
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

THE HONORABLE MIKE KELLY, SEAN
PARNELL, THOMAS A. FRANK, NANCY
KIERZEK, DEREK MAGEE, ROBIN
SAUTER, MICHAEL KINCAID, AND
WANDA LOGAN

v.

COMMONWEALTH OF PENNSYLVANIA,
PENNSYLVANIA GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, KATHY
BOOCKVAR

APPEAL OF: COMMONWEALTH OF
PENNSYLVANIA, HONORABLE THOMAS
W. WOLF, KATHY BOOCKVAR

: No. 68 MAP 2020
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 3rd day of December, 2020, the Emergency Application for Stay
of this Court’s Order of November 28, 2020 is DENIED.

A True Copy Elizabeth E. Zisk
As Of 12/03/2020

Attest: ___________________
Chief Clerk
Supreme Court of Pennsylvania

APPENDIX C
0017a

Filed 11/27/2020 Commonwealth Court

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin
Sauter, Michael Kincaid, and Wanda
Logan,
Petitioners
v.
Commonwealth of Pennsylvania,
Pennsylvania General Assembly,
Honorable Thomas W. Wolf,
Kathy Boockvar,
Respondents

:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 620 M.D. 2020

BEFORE: HONORABLE PATRICIA A. McCULLOUGH, Judge
OPINION NOT REPORTED
MEMORANDUM OPINION
BY JUDGE McCULLOUGH

FILED: November 27, 2020

As this Court’s November 25, 2020, Order of an Emergency
Preliminary Injunction has been appealed to the Pennsylvania Supreme Court, this
opinion shall set forth the basis for said Order and shall also satisfy the requirements
of Rule 1925 of the Pennsylvania Rules of Appellate Procedure, Pa.R.A.P. 1925.
The overarching consideration for the emergency preliminary injunction pending the
evidentiary hearing scheduled for November 27, 2020 is the compelling exigencies
raised in this case which are of statewide and national concern. Petitioners raise
matters that go to the core of the electoral process and involve the constitutionality
of how the citizens of this Commonwealth may cast their votes, not only for the

0018a
offices sought by Petitioners, but also, for the office of president and vice president
of the United States of America as well as statewide, regional and local offices.
On November 21, 2020, the Honorable Mike Kelly, Sean Parnell,
Thomas A. Frank, Nancy Kierzek, Derek Magee, Robin Sauter, Michael Kincaid,
and Wanda Logan (collectively, Petitioners), filed a Complaint for Declaratory and
Injunctive Relief in this Court against the Commonwealth of Pennsylvania, the
Pennsylvania General Assembly, the Honorable Thomas W. Wolf, and Kathy
Boockvar (collectively, Respondents), which this Court indicated it would treat as a
petition for review addressed to the Court’s original jurisdiction (Petition). In the
Petition, Petitioners allege that the Act of October 31, 2019, P.L. 552, No. 77 (Act
77), which added and amended various absentee and mail-in voting provisions in the
Pennsylvania Election Code (Election Code),1 is unconstitutional and void ab initio
because it purportedly contravenes the requirements of the Pennsylvania
Constitution. Petitioners allege that Article VII, section 14 of the Pennsylvania
Constitution provides two exclusive mechanisms by which a qualified elector may
cast his or her vote in an election: (1) by submitting his or her vote in propria persona
at the polling place on election day; and (2) by submitting an absentee ballot, but
only if the qualified voter satisfies the conditions precedent to meet the requirements
of one of the four, limited exclusive circumstances under which absentee voting is
authorized under the Pennsylvania constitution. (Petition, ¶16.) Petitioners allege
that mail-in voting in the form implemented through Act 77 is an attempt by the
legislature to fundamentally overhaul the Pennsylvania voting system and permit
universal, no-excuse, mail-in voting absent any constitutional authority. Id., ¶17.
Petitioners argue that in order to amend the Constitution, mandatory procedural
1

Act of June 3, 1937, P.L. 1333, as amended, 25 P.S. §§ 2600-3591.

2

0019a
requirements must be strictly followed. Specifically, pursuant to Article XI, Section
1, a proposed constitutional amendment must be approved by a majority vote of the
members of both the Pennsylvania House of Representatives and Senate in two
consecutive legislative sessions, then the proposed amendment must be published
for three months ahead of the next general election in two newspapers in each
county, and finally it must be submitted to the qualified electors as a ballot question
in the next general election and approved by a majority of those voting on the
amendment. According to Petitioners, the legislature did not follow the necessary
procedures for amending the Constitution before enacting Act 77 which created a
new category of mail-in voting; therefore, the mail-in ballot scheme under Act 77 is
unconstitutional on its face and must be struck down. Id., ¶¶27, 35-37. As relief,
Petitioners seek, inter alia, a declaration and/or injunction that prohibits
Respondents from certifying the November 2020 General Election results, which
include mail-in ballots that are permitted on a statewide basis and are allegedly
improper because Act 77 is unconstitutional.
On

November

Emergency/Special

22,

Prohibitory

2020,

Petitioners

Injunction

filed

(Emergency

a

Motion

Motion),

and

for
a

Memorandum of Law in Support of the Emergency Motion. In the Emergency
Motion, Petitioners seek to enjoin Respondents from taking official action to
tabulate, compute, canvass, certify, or otherwise finalize the results of the November
3, 2020 General Election. They submit that this Court must intervene immediately
in order to prevent irreparable injury from the resulting wrongs of an election
conducted pursuant to an unconstitutional and invalid mail-in ballot voting scheme
(Motion at 2.) They claim their right to relief is clear and they are likely to succeed
on the merits because they have showed that a substantial legal question must be
3

0020a
resolved to determine the rights of the parties. They contend that the Pennsylvania
Constitution requires voting to take place in person, subject only to specified
absentee voting exceptions. They point out that Article VII, Section 14 provides the
only such exceptions to the in propria persona voting requirement of the
Pennsylvania Constitution, in four specific circumstances. It states:
(a) The Legislature shall, by general law, provide a manner
in which, and the time and place at which, qualified
electors who may, on the occurrence of any election, be
absent from the municipality of their residence, because
their duties, occupation or business require them to be
elsewhere or who, on the occurrence of any election, are
unable to attend at their proper polling places because of
illness or physical disability or who will not attend a
polling place because of the observance of a religious
holiday or who cannot vote because of election day duties,
in the case of a county employee, may vote, and for the
return and canvass of their votes in the election district in
which they respectively reside.
(b) For purposes of this section, “municipality” means a
city, borough, incorporated town, township or any similar
general purpose unit of government which may be created
by the General Assembly.
PA. CONST. Art. VII, § 14.
Petitioners argue that outside of the aforementioned prescribed
situations, the Constitution does not provide a mechanism for the legislature to allow
for expansion of absentee voting. Consequently, Act 77 is illegal and void ab initio
because it attempts to expand the constitutionally-established exceptions to in
propria persona voting requirements. (Motion at 30-31.) According to Petitioners,
Act 77 did this by creating a false distinction between the existent “absentee voting”

4

0021a
and “mail-in voting” – and “absentee voting” is only constitutionally authorized
under the four limited circumstances specifically delineated in Section 14.
Petitioners contend that without an immediate temporary injunction,
Pennsylvania’s electoral votes will be cast, electors will be appointed and this Court
will lose any authority to provide relief to Petitioners. Id. at 22. Petitioners argue
that greater injury will result from allowing the certification of election results
pursuant to an unconstitutional no excuse mail-in voting scheme than from
prohibiting it. Specifically, they contend that no voters will be disenfranchised by
the result of a slight delay in certifying the results. Conversely, they argue, if the
limited injunction is not granted, the harm to all Pennsylvanians is irreparable
because they will suffer the fruits of an unconstitutional election. Id. at 24.
By order of November 22, 2020, this Court observed that Petitioners had
not properly served the Petition upon the Respondents, directed service of the
Petition and the Court’s order in accordance with Rule 1514 of the Pennsylvania
Rules of Appellate Procedure, Pa.R.A.P. 1514, and further directed that Petitioners
file proof of service thereof with the Prothonotary by 10:00 a.m. Monday, November
23, 2020. Upon the filing of the proof of service, the Court scheduled an expedited
telephonic status conference with all counsel of record and unrepresented parties for
November 23, 2020, at 3:00 p.m. when this status conference convened in the matter,
the Secretary of the Commonwealth and the Governor had not certified the results
of the November 5, 2020 general election. Indeed, during the course of the status
conference counsel for Respondents stated to this Court that the Secretary was only
in the process of certifying the results of the election.

5

0022a
Following the status conference with counsel, the Court entered an order
on November 23, 2020, directing Respondents to file Preliminary Objections,
directing the DNC Services Corporation/Democratic National Committee (Proposed
Intervenor)2 to file an amicus curiae brief in support of its proposed Preliminary
Objections filed with the Court, and further directing Petitioners to file answers and
briefs in opposition to the Preliminary Objections.

The parties were asked

specifically to address the application of Section 13(1), (2) and (3) of Act 77, and
whether a party is permitted to challenge the constitutionality of Act 77 in any court
subsequent to the expiration of the 180 days. (Per Curiam Order, November 23,
2020 at 1.)
Pursuant to the Court’s November 23, 2020 order, the Pennsylvania
General Assembly filed its Preliminary Objections and a Memorandum of Law in
Support thereof, and Secretary Kathy Boockvar (Secretary), the Honorable Thomas
W. Wolf, and the Commonwealth of Pennsylvania (collectively, Executive
Respondents), together filed Preliminary Objections and a brief in support thereof.
Proposed Intervenor has filed an amicus brief in support of its Preliminary
Objections.
By order of November 24, 2020, this Court, upon further consideration
of Petitioners’ Emergency Motion, ordered Respondents to file and serve answers to
Petitioners’ Emergency Motion, and directed that Proposed Intervenor may file a
brief as amicus curiae in opposition to Petitioners’ Emergency Motion, by 12:30
p.m. on the same date. Petitioners complied with the Court’s order and filed answers
2

On November 23, 2020, the DNC Services Corporation/Democratic National Committee
(Proposed Intervenor), sought leave to intervene in this matter. As of the filing of this
memorandum opinion, the Court has not yet ruled upon Proposed Intervenor’s motion for leave to
intervene. The Court notes, however, that Proposed Intervenor filed proposed Preliminary
Objections to the Petition with this Court on November 23, 2020.

6

0023a
and briefs in opposition to the General Assembly’s and Executive Respondents’
Preliminary Objections. The General Assembly and Executive Respondents have
filed their respective answers to Petitioners’ Emergency Motion, and Executive
Respondents also filed a brief in opposition to the Emergency Motion. Finally,
Proposed Intervenor filed an amicus curiae brief in opposition to Petitioners’
Motion.3 The Petitioners’ Emergency Motion was thus ripe for disposition by order
and opinion.
However, the very next morning after the status conference, on
November 24, 2020, the Executive Respondents filed a brief with an appended Press
Release dated 11/24/20 from the Department of State (Executive Respondents’ Br.
in Op. to Motion for Emergency Injunction, Exhibit A.) The Press Release stated
that “Following certification of the presidential vote submitted by all 67 counties
late Monday, [the Secretary] today certified the results of the November 3 election
in Pennsylvania for president and vice president of the United States.” Id.
The Press Release as well as Respondents’ briefs, assert that
certification only occurred regarding the results for president and vice president.
Based on this information in the Press Release, Respondents argue the entire dispute
is moot. A review of the Department’s website did not contain any additional
information regarding the status of the certification process, nor the entry of any
formal public record of such certification. Also, nothing was entered regarding
certification of the election results.
3

The Court notes that proposed amici curiae Christine Todd Whitman, John Danforth,
Lowell Weicker, Constance Morella, Christopher Shays, Carter Phillips, Stuart Gerson, Donald
Ayer, John Bellinger III, Edward J. Larson, Michael Stokes Paulsen, Alan Charles Raul, Paul
Rosenzweig, Robert Shanks, Stanley Twardy, Keith E. Whittington, and Richard Bernstein
(Proposed Amici Curiae), have filed an Application for Leave to File Amicus Brief in opposition
to Petitioners’ Motion (Application). Proposed Amici Curiae have attached a brief in opposition
to Petitioners’ Motion as Exhibit 1 to their Application.

7

0024a
On November 25, 2020, Petitioners responded to Executive
Respondents’ Brief in Opposition to Motion for Emergency Injunction and Press
Release by filing a Supplemental Application for Emergency Relief, which raises
additional compelling concerns and questions of fact in support of their underlying
Petition for Review regarding the formal requirements and status of the certification
process, and whether Respondents might have short-circuited the certification
process to purportedly avert this Courts’ determination on the merits by declaring
victories in the presidential and vice presidential elections, while leaving
certification of the elections for the other offices for another time. Petitioners’
Supplemental Application for Emergency Relief also raise the issue of whether the
results of an election can be certified piecemeal. It is also noted Petitioners alleged
that notwithstanding Respondents’ Press Release, the dispute was not moot because
the certification process for the presidential and vice presidential elections had not
been perfected because there were additional steps that need to be completed,
including: issuance of commissions to persons elected, pursuant to 25 P.S. § 3160;
issuance of certificates election, and transmission of such certificates to the Speaker
of the House of Representatives of the United States, in the case of the election of
representatives in Congress, pursuant to 25 P.S. § 3163; issuance of certificates of
election to the persons elected members of the Senate and House of Representatives
of the Commonwealth, and presentation of the several returns of the same elections
before the senate and House of Representatives pursuant to 25 P.S. § 3164; delivery
of the returns of elections for Auditor General and State Treasurer to the President
of the Senate, so that they be “declared elected thereto,” the making and filing of
certificates for all such elections, the issuance of commissions for all such elections,
and the issuance of commissions for each election of Judge of every court, pursuant
8

0025a
to 25 P.S. § 3165; issuance of certificates of election to successful candidates of
elections pursuant to 25 P.S. § 2621; delivery of certificates of election for each
presidential and vice presidential elector pursuant to 25 P.S. § 3166 (Petitioners’
Supplemental Application for Emergency Relief at 4.)
Accordingly, in careful consideration of the exigencies and time
constraints in this matter of statewide and national import, and the longstanding
constitutional mandate that every citizen of this Commonwealth is entitled to no less
than a fair and free election, it was necessary to preliminarily enjoin, on an
emergency and temporary basis, Executive Respondents from undertaking any other
actions with respect to the certification of the results of the presidential and vice
presidential elections, if indeed anything else needs to be done, pending an
evidentiary hearing to ascertain the facts of this matter and to determine if the dispute
is moot.
Inasmuch as the Secretary had not certified the remaining results of the
2020 general election, it was also necessary to enjoin, on an emergency and
preliminary basis, any attempt to certify these results as well. In light of the factual,
constitutional and legal issues raised, it was incumbent upon the Court to
immediately enter such emergency preliminary injunction to maintain the status quo
and ensure that all of the parties and the citizens of the Commonwealth of
Pennsylvania were not denied their right to a fair and free election.
Based upon the record before it, this Court has sufficient grounds to
enjoin Respondents from further certification activities on an emergency
preliminary basis, pending the results of the evidentiary hearing it had scheduled
for this date, after which the Court would have determined if a preliminary injunction

9

0026a
should issue.4 Since the Court is sitting in equity it has the power to fashion such
relief as it is vitally important that the status quo be preserved pending further
judicial scrutiny. Com. ex rel. Corbett v. Snyder, 977 A.2d 28, 43 (Pa. Cmwlth.
2009). (“[t]he purpose of preliminary injunctive relief is to maintain the status quo
until the case can be investigated and adjudicated.”)
There is no harm to Respondents by the relief fashioned by this Court.
The “Safe Harbor” provision of 3 U.S.C. §5 does not expire until December 8, 2020,
and the Electoral College does not vote for president and vice president until
December 14, 2020.

Additionally, Petitioners appear to have established a

likelihood to succeed on the merits because Petitioners have asserted the
Constitution does not provide a mechanism for the legislature to allow for expansion
of absentee voting without a constitutional amendment. Petitioners appear to have
a viable claim that the mail-in ballot procedures set forth in Act 77 contravene Pa.
4

FNA preliminary injunction may issue only upon the showing of six essential
prerequisites, described as follows:
First, a party seeking a preliminary injunction must show that an
injunction is necessary to prevent immediate and irreparable harm
that cannot be adequately compensated by damages . . . . Second,
the party must show that greater injury would result from refusing
an injunction than from granting it, and, concomitantly, that
issuance of an injunction will not substantially harm other interested
parties in the proceedings . . . . Third, the party must show that a
preliminary injunction will properly restore the parties to their status
as it existed immediately prior to the alleged wrongful conduct . . . .
Fourth, the party seeking an injunction must show that the activity
it seeks to restrain is actionable, that its right to relief is clear, and
that the wrong is manifest, or, in other words, must show that it is
likely to prevail on the merits . . . . Fifth, the party must show that
the injunction it seeks is reasonably suited to abate the offending
activity . . . . Sixth and finally, the party seeking an injunction must
show that a preliminary injunction will not adversely affect the
public interest.
Reed v. Harrisburg City Council, 927 A.2d 698, 702-03 (Pa. Cmwlth. 2007).

10

0027a
Const. Article VII Section 14 as the plain language of that constitutional provision
is at odds with the mail-in provisions of Act 77. Since this presents an issue of law
which has already been thoroughly briefed by the parties, this Court can state that
Petitioners have a likelihood of success on the merits of its Pennsylvania
Constitutional claim.
Without the emergency relief ordered by this Court, there would be the
likelihood of irreparable harm to Petitioners. As to Petitioner Kelly, although it
appears that he gained the most votes in the election for the office he seeks, that
result has yet to be certified. Further, he may suffer irreparable harm prospectively
should he seek election to public office in the future. If what may be an
unconstitutional mail-in voting process remains extant, such mail-in ballots may
make the difference as to whether he is successful or not.
As to Petitioners Parnell and Logan, mail-in ballots may have made the
difference as to whether they have won or lost their respective elections. Hence, their
fates may well turn upon the constitutionality of Act 77. The other voters in this case
assert their constitutional voting rights as citizens of Pennsylvania would be
irreparably harmed.
Conversely, since the relief ordered by the Court is on an emergency
basis, Respondents face no irreparable harm. In any event, the matter of irreparable
harm would have been assessed at the evidentiary hearing.
The relief ordered by this Court is also in the public interest. Any
claim that the voters of this Commonwealth are disenfranchised by this Court’s order
are spurious. The Order at issue does nothing more than preserve the status quo
pending further and immediate review. That being said, this Court is mindful that
one of the alternative reliefs noted by Petitioners would cause the
11

0028a
disenfranchisement of the nearly seven million Pennsylvanians who voted in the
2020 General Election. Specifically, Respondents claim that a temporary stay would
disenfranchise voters as the legislature would appoint the electors to the Election
College. However, as noted, the legislature is not authorized to appoint the electors
to the Electoral College until December 8, the “Federal Safe Harbor” date for
certifying results for presidential electors. The Court agrees it would be untenable
for the legislature to appoint the electors where an election has already occurred, if
the majority of voters who did not vote by mail entered their votes in accord with a
constitutionally recognized method, as such action would result in the
disenfranchisement of every voter in the Commonwealth who voted in this election
– not only those whose ballots are being challenged due to the constitutionality of
Act 77. However, this is not the only equitable remedy available in a matter which
hinges upon upholding a most basic constitutional right of the people to a fair and
free election. Hence, Respondents have not established that greater harm will result
in providing emergency relief, than the harm suffered by the public due to the results
of a purportedly unconstitutional election.5

5

The U.S. Supreme Court has addressed various circumstances concerning
disenfranchisement of votes. For instance, it has held the right to vote is foundational to our
Republic and this fundamental right “can be denied by a debasement or dilution of the weight of a
citizen’s vote just as effectively as by wholly prohibiting the free exercise of the franchise.”
Reynolds v. Sims, 377 U.S. 533, 555 (1964). Reynolds, which established the “one person, one
vote” doctrine, is the seminal case on voter dilution. Under this concept, a mail-in voting process
that would exceed the limits of absentee voting prescribed in Pa. Const. Article VII sec 14 could
be construed as violating the “one person one vote.” In that event, the sheer magnitude of the
number of mail-in ballots would not be a basis to disregard not only this provision of the
Pennsylvania Constitution but also the “one person, one vote” doctrine established by Reynolds,
one of the bedrock decisions of the U.S. Supreme Court.

12

0029a
For all of the above reasons, the Court respectfully submits that the
emergency preliminary injunction was properly issued and should be upheld pending
an expedited emergency evidentiary hearing

s/ Patricia A. McCullough
PATRICIA A. McCULLOUGH, Judge

13

APPENDIX D
0030a
IN THE COMMONWEALTH COURT OF PENNSYLVANIA
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin
Sauter, Michael Kincaid, and Wanda
Logan,
Petitioners
v.
Commonwealth of Pennsylvania,
Pennsylvania General Assembly,
Honorable Thomas W. Wolf,
Kathy Boockvar,
Respondents

:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 620 M.D. 2020

ORDER
NOW, November 25, 2020, upon consideration of Petitioners’ Motion for
Emergency/Special Prohibitory Injunction (Emergency Motion), the subsequent
filings by the parties, and the new allegations raised in Petitioners’ Supplemental
Application for Emergency Relief filed at 11:42 p.m. on November 24, 2020
(Supplemental Emergency Application), it is hereby preliminarily ordered and
decreed as follows:
1. As to the Supplemental Emergency Application, to the extent that there
remains any further action to perfect the certification of the results of the
2020 General Election (the “Election”) for the offices of President and Vice
President of the United States of America, Respondents are preliminarily
enjoined from doing so, pending an evidentiary hearing to be held on
Friday, November 27, 2020 at 11:30 am via WebEx.
2. As to the Emergency Motion, filed on November 22, 2020, inasmuch as
Respondents, based on their Press Release and briefs, have not undertaken
certification of any of the other results of the Election, Respondents are
preliminarily enjoined from certifying the remaining results of the Election,
pending the evidentiary hearing on Friday, November 27, 2020 at 11:30
am via WebEx.

APPENDIX
0031a D

3. Respondents shall file and serve an Answer and Memorandum of Law in
opposition to the Supplemental Emergency Application by 3:00 p.m.
TODAY, November 25, 2020.
4. A scheduling order concerning the evidentiary hearing will follow.

/s/ Patricia A. McCullough
PATRICIA A. McCULLOUGH, Judge

Order Exit
11/25/2020

APPENDIX E
0032a

APPENDIX E
0033a

APPENDIX E
0034a

APPENDIX E
0035a

APPENDIX E
0036a

APPENDIX E
0037a

APPENDIX E
0038a

APPENDIX E
0039a

APPENDIX E
0040a

APPENDIX E
0041a

APPENDIX E
0042a

APPENDIX E
0043a

APPENDIX E
0044a

APPENDIX E
0045a

APPENDIX E
0046a

APPENDIX E
0047a

APPENDIX E
0048a

APPENDIX E
0049a

APPENDIX E
0050a

APPENDIX E
0051a

APPENDIX E
0052a

APPENDIX E
0053a

APPENDIX E
0054a

APPENDIX E
0055a

APPENDIX E
0056a

APPENDIX E
0057a

APPENDIX E
0058a

APPENDIX E
0059a

APPENDIX E
0060a

APPENDIX E
0061a

APPENDIX E
0062a

APPENDIX E
0063a

APPENDIX E
0064a

APPENDIX E
0065a

APPENDIX E
0066a

APPENDIX E
0067a

APPENDIX E
0068a

APPENDIX F

Received 12/2/2020 12:30:15 PM Supreme Court Middle District
0069a
Filed 12/2/2020 12:30:00 PM Supreme Court Middle District
68 MAP 2020

IN THE SUPREME COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK,
DEREK MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,
Petitioners,
v.

Docket No. 68 MAP 2020
EMERGENCY APPLICATION FOR
STAY OF COURT’S ORDER OF
NOVEMBER 28, 2020
Filed on behalf of Petitioners,
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin
Sauter, Michael Kincaid, and
Wanda Logan

COMMONWEALTH OF
PENNSYLVANIA, PENNSYLVANIA
Counsel of Record for Petitioners:
GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF,
Gregory H. Teufel
and KATHY BOOCKVAR,
Pa. Id. No. 73062
OGC Law, LLC
Respondents.
1575 McFarland Road, Suite 201
Pittsburgh, PA 15228
412-253-4622
412-253-4623 (facsimile)
gteufel@ogclaw.net

0070a
EMERGENCY APPLICATION FOR STAY OF COURT’S ORDER
OF NOVEMBER 28, 2020
Petitioners, the Honorable Mike Kelly, Sean Parnell, Thomas A.
Frank, Nancy Kierzek, Derek Magee, Robin Sauter, Michael Kincaid, and
Wanda Logan, by and through their undersigned counsel, jointly submit this
Emergency Application for Stay of this Court’s Order of November 28, 2020
(“the Order”), pending the filing and disposition of a Petition for Writ of
Certiorari in the Supreme Court of the United States. It would be
reasonable for this Court to stay its vacatur of the Commonwealth Court’s
preliminary injunction until the Supreme Court of the United States can
make a determination on Petitioners’ petition for a writ of certiorari. To the
extent that the actions prohibited by the vacated Commonwealth Court
preliminary injunction have already taken place, Petitioners request an
injunction to restore the status quo ante, compelling Respondents to nullify
any such actions already taken, until the Supreme Court of the United
States can make a determination on Petitioners’ petition for a writ of
certiorari.
ARGUMENT
On an application for stay pending appeal, the movant must (1)
“make a substantial case on the merits,” (2) “show that without the stay,
irreparable injury will be suffered,” and (3) that “the issuance of the stay will

0071a
not substantially harm other interested parties in the proceedings and will
not adversely affect the public interest.” Maritrans G.P., Inc. v. Pepper,
Hamilton & Scheetz, 573 A.2d 1001, 1003 (1990); see also Hollingsworth v.
Perry, 558 U.S. 183, 190 (2010) (enunciating similar considerations for stay
applications to the U.S. Supreme Court). All of these elements are met
here.
I.

Petitioners are likely to succeed on appeal.
There is, at a minimum, a “reasonable probability” that the Supreme

Court of the United States will take the Petitioners’ appeal and a “fair
prospect” that it will reverse this Court’s decision. See Hollingsworth, 558
U.S. at 190 (enunciating stay standards). This Court’s decision violates
Petitioners due process rights and rights to petition under the Fourteenth
and First Amendments to the U.S. Constitution and also does not reach the
critical issue that Pennsylvania’s General Assembly exceeded its powers
by unconstitutionally allowing no-excuse absentee voting, including for
federal offices, in the November 3, 2020 General Election (“the Election”).
The opinion below forecloses any means of remedying Petitioners’ injuries.
A.

The power delegated to the Pennsylvania General
Assembly by the U.S. Constitution to determine the manner
of holding federal elections and select presidential electors
is constrained by restrictions imposed by the Pennsylvania
Constitution.
2

0072a
The U.S. Constitution delegates the power to determine the manner
of holding federal elections and to select presidential electors in
Pennsylvania to the Pennsylvania General Assembly. Article I, § 4, clause
1 (“Elections Clause”), of the U.S. Constitution provides:
The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each
State by the Legislature thereof; but the Congress may at any
time by Law make or alter such Regulations, except as to the
Places of chusing Senators.
Article II, § 1, Clause 2 (“Electors Clause”) of the U.S. Constitution
provides:
Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors, equal to the whole
Number of Senators and Representatives to which the State
may be entitled in the Congress: but no Senator or
Representative, or Person holding an Office of Trust or Profit
under the United States, shall be appointed an Elector.
In exercising those delegated powers, the General Assembly is
constrained by restrictions imposed onto it by the Pennsylvania Constitution.
See McPherson v. Blacker, 146 U.S. 1, 25 (1892) (“What is forbidden or
required to be done by a state is forbidden or required of the legislative power
under the state constitutions as they exist.”); Smiley v. Holm, 285 U.S. 355,
369 (1932) (citing McPherson and noting that state legislatures are
constrained by restrictions imposed by state constitutions on their exercise
of the lawmaking power, even when enacting election laws pursuant to U.S.
3

0073a
Constitutional authority); Ariz. State Leg. v. Ariz. Indep. Redistricting
Comm’n, 576 U.S. 787, 808 (2015) (holding that redistricting is a legislative
function to be performed in accordance with a state constitution’s
prescriptions for lawmaking, which may include referendums).
When a state legislature violates its state constitution, purportedly in
furtherance of its plenary authority to regulate federal elections and appoint
electors, it also violates the U.S. Constitution. “A significant departure from
the legislative scheme for appointing Presidential electors presents a
federal constitutional question.” Bush v. Gore, 531 U.S. 98, 113 (2000)
(Rehnquist, C.J., Scalia J., Thomas, J., concurring).
1.

In-Person voting is a criterion for qualifying to vote
under the Pennsylvania Constitution, subject only to
specified absentee voting exceptions.

Article I, § 4 and Article II, § 1 of the U.S. Constitution grant plenary
authority to state legislatures to enact laws that govern the conduct of
elections. Yet, while the “legislature may enact laws governing the conduct
of elections[,]... ‘no legislative enactment may contravene the requirements
of the Pennsylvania or United States Constitutions.’” Kauffman v. Osser,
441 Pa. 150, 157, 271 A.2d 236, 240 (Pa. 1970) (Cohen, J. dissenting)
(citations omitted).

4

0074a
At issue here is the Pennsylvania General Assembly’s attempt, and
success if the Supreme Court of the United States should not hear this
case, in implementing by legislation a no-excuse absentee voting system
for state and federal elections that violates the Pennsylvania Constitution
and U.S. Constitution. Under 158-year-old Pennsylvania Supreme Court
precedent, voting in-person at the election in the district for which a voter is
registered is a qualification for voting under the Pennsylvania Constitution.
See Pa. Const. Art. VII, § 1; Chase v. Miller, 41 Pa. 403, 418-19 (1862); In
re Contested Election in Fifth Ward of Lancaster City, 281 Pa. 131, 134-35,
126 A. 199 (1924) (hereinafter Lancaster City).
The current Pennsylvania Constitution sets out the following
qualifications for voting: (1) 18 years of age or older; (2) citizen of the
United States for at least one month; (3) has residence in Pennsylvania for
the 90 days immediately preceding the election; and (4) has residence in
the “election district where he or she shall offer to vote at least 60 days
immediately preceding the election ….” Pa. Const. Art. VII, § 1 (emphasis
added). “For the orderly exercise of the right resulting from these
qualifications … the Legislature must prescribe necessary regulations ….
But this duty and right inherently imply that such regulations are to be
subordinate to the right …. As a corollary of this, no constitutional
5

0075a
qualification of an elector can in the least be abridged, added to, or altered
by legislation or the pretence of legislation.” In re Contested Election in
Fifth Ward of Lancaster City, 126 A. 199, 201 (Pa. 1924).
To “offer to vote” by ballot, is to present oneself, with proper
qualifications, at the time and place appointed, and to make
manual delivery of the ballot to the officers appointed by law to
receive it. The ballot cannot be sent by mail or express, nor can
it be cast outside of all Pennsylvania election districts and
certified into the county where the voter has his domicil. We
cannot be persuaded that the constitution ever contemplated any
such mode of voting, and we have abundant reason for thinking
that to permit it would break down all the safeguards of honest
suffrage. The constitution meant, rather, that the voter, in propria
persona, should offer his vote in an appropriate election district,
in order that his neighbours might be at hand to establish his right
to vote if it were challenged, or to challenge if it were doubtful.
***
Our Constitution and laws treat the elective franchise as a sacred
trust…. All of which the [1839 act] reverses and disregards, and
opens a wide door for most odious frauds, some of which have
come under our judicial cognizance.
Chase, 41 Pa. at 418-425 (1862); Lancaster City, 281 Pa. 134-35
(upholding the same).
Article VII, § 14(a) provides the only such exceptions to the in propria
persona voting requirement of the Pennsylvania Constitution, in four
specific circumstances. It states:
(a) The Legislature shall, by general law, provide a
manner in which, and the time and place at which,
qualified electors who may, on the occurrence of
any election, be absent from the municipality of their
residence, because their duties, occupation or
business require them to be elsewhere or who, on
the occurrence of any election, are unable to attend
6

0076a
at their proper polling places because of illness or
physical disability or who will not attend a polling
place because of the observance of a religious
holiday or who cannot vote because of election day
duties, in the case of a county employee, may vote,
and for the return and canvass of their votes in the
election district in which they respectively reside.
Pa. Const. Art. VII, § 14(a). Outside of these four enumerated exceptions,
the Pennsylvania Constitution prohibits absentee voting.
2.

Act 77 is illegal and void ab initio because the
General Assembly does not have the authority to
enact legislation in contravention of the powers
delegated to it by the Pennsylvania and U.S.
Constitutions.

“The Legislature can confer the right to vote only upon those
designated by the fundamental law, and subject to the limitations therein
fixed.” Lancaster City, 281 Pa. at 137 (citation omitted). Act 77
unconstitutionally expands the scope of absentee voting to all voters in
contravention of the Pennsylvania Constitution. Act 77, as amended,
defines a “qualified mail-in elector” as “a qualified elector.” 25 Pa. Stat. §
2602(z.6). A “qualified elector” is “any person who shall possess all of the
qualifications for voting now or hereafter prescribed by the Constitution of
this Commonwealth, or who, being otherwise qualified by continued
residence in his election district, shall obtain such qualifications before the

7

0077a
next ensuing election.” Id. § 2602(t). In short, Act 77 qualifies all electors as
mail in electors.
Moreover, newly created 25 Pa. Stat. § 3150.11 states:
Qualified mail-in electors.
(a) General rule.-- A qualified mail-in elector shall be
entitled to vote by an official mail-in ballot in any
primary or election held in this Commonwealth in
the manner provided under this article.
(b) Construction.-- The term “qualified mail-in
elector” shall not be construed to include a person
not otherwise qualified as a qualified elector in
accordance with the definition in section 102(t).
Separately, absentee voting is defined in 25 Pa. Stat. § 3146.1, which
outlines a variety of categories of eligibility that are each consistent with
Article VII, § 14 of the Pennsylvania Constitution. See also 25 Pa. Stat. §
2602(w) (defining 14 types of qualified absentee electors). While Act 77
purports to create a distinction between the existent “absentee voting” and
“mail-in voting,” there is no distinction – except that mail-in voting is simply
absentee voting without any of the inconvenient conditions precedent that
the Pennsylvania Constitution requires. 1

1.

In an attempt to create the distinction between absentee and mail-in, the
Pennsylvania General Assembly defined "qualified mail-in elector" is a
“qualified elector who is not a qualified absentee elector.” The definitional
distinction is non-yielding because there is no longer any functional purpose
to applying for an absentee ballot.
8

0078a
This Court in Chase v. Miller struck down unconstitutional military
absentee voting during the Civil War. Pennsylvania was one of the first
states in the nation to allow for absentee voting, originating with the Military
Absentee Act of 1813, which allowed “members of the state militia and
those in the service of the United States to vote as long as the company
the soldier was serving was more than two miles from his polling place on
election day.” John C. Fortier & Norman J. Ornstein, The Absentee Ballot
and the Secret Ballot: Challenges for Election Reform, 36 U. Mich. J.L.
Reform 483, 497 (2003). At the time the Military Absentee Act was passed,
the Pennsylvania Constitution imposed no restrictions with regard to
absentee voting. However, in 1838, Pennsylvania amended its constitution
to require voters to “reside in the election district where he offers to vote,
ten days immediately preceding such election.” Id. (citing Pa. Const. Art. III,
§ 1 (1838)). This created a conflict with the Military Absentee Act as reenacted in 1839, which allowed for absentee voting, and the newly
amended Pennsylvania Constitution, which no longer did. Id.
In the 1861 election, Pennsylvania soldiers voted under the Military
Absentee Act of 1839, and legal challenges came soon after. In 1862, this
Court decided Chase v. Miller, analyzing the constitutionality of the Military
Absentee Ballot Act of 1839 under the Pennsylvania Constitution. This
9

0079a
Court held that the act was unconstitutional because the purpose of the
1838 constitutional amendment was to require in-person voting in the
election district where a voter resided at least 10 days before the election.
Chase, 41 Pa. at 418-19.
Following this Court’s invalidation of the 1839 Military Absentee
Voting Act, the Pennsylvania General Assembly amended the
Pennsylvania Constitution (in 1864) to include, for the first time, a provision
allowing for absentee voting by active military personnel. See Josiah Henry
Benton, Voting in the Field: A Forgotten Chapter of the Civil War, at 199
(1915). From 1864 to 1949, only qualified electors engaged in actual
military service were permitted to vote by absentee ballot under the
Pennsylvania Constitution. Pa. Const. Art. VIII, § 6 (1864). However, this
limitation did not prevent the legislature from, again, attempting to pass
unconstitutional legislation to expand absentee voting.
In 1924, this Court decided Lancaster City, striking down as
unconstitutional the Act of May 22, 1923 (P.L. 309; Pa. St. Supp. 1924,
§9775a1, et seq.), providing civilians the right to vote by absentee ballot.
Quoting Chase, this Court reaffirmed Chase’s analysis of the Pennsylvania
Constitution’s in-person voting requirements. Lancaster City, 281 Pa. at
135. This Court held the Act of May 22, 1923 unconstitutional because the
10

0080a
Pennsylvania Constitution still required electors to “offer to vote” in the
district where they reside, and that those eligible to “vote other than by
personal presentation of the ballot” were specifically named in the
Constitution (i.e., active military). Id. at 136-37. The Court relied on two
primary legal principles in its ruling:
[1] ‘In construing particular clauses of the
Constitution it is but reasonable to assume that in
inserting such provisions the convention
representing the people had before it similar
provisions in earlier Constitutions, not only in our
own state but in other states which it used as a
guide, and in adding to, or subtracting from, the
language of such other Constitutions the change
was made deliberately and was not merely
accidental.’ Com v. Snyder, 261 Pa. 57, 63, 104 Atl.
494, 495.
***
[2] The old principle that the expression of an intent
to include one class excludes another has full
application here…. ‘The residence required by the
Constitution must be within the election district
where the elector attempts to vote; hence a law
giving to voters the right to cast their ballot at some
place other than the election district in which they
reside [is] unconstitutional.’
Id. The Court went further to note that “[h]owever laudable the purpose of
the act of 1923, it cannot be sustained. If it is deemed necessary that such
legislation be placed upon our statute books, then an amendment to the
Constitution must be adopted permitting this to be done.” Id. at 138. This
principle was affirmed between 1864 and 1924 in many other states with
11

0081a
similar constitutional provisions, both with regard to absentee voting by
regular citizens as well as by soldiers away from home. Id. (citations
omitted).
3.

Article VII, § 1 and § 4 of the Pennsylvania
Constitution have not materially changed since this
Court struck down legislation unconstitutionally
expanding mail-in voting in Lancaster City.

While the Pennsylvania Constitution has been amended many times,
for purposes not relevant here, since Lancaster City, the determinative
constitutional provisions relied upon by Chase and Lancaster City remain
either entirely unchanged, or materially so. Previously numbered Article
VIII, § 1, and Article VIII, § 8, those provisions are now found in the
Pennsylvania Constitution as Article VII, § 1, and Article VII, § 4. Article VII,
Section 4 remains exactly the same as it did when the 1924 case was
decided. See Pa. Const. Art. VII, § 4 (“All elections by the citizens shall be
by ballot or by such other method as may be prescribed by law: Provided,
That secrecy in voting be preserved.”). Article VII, § 1 has only distinctly
changed in three ways since the 1924 case: (1) the voting age requirement
was changed to 18, from 21; (2) the state residency requirement was
lowered from 1 year, to 90 days; and (3) Clause 3 of Article VII, § 1 was
amended to allow a Pennsylvania resident who moves to another
Pennsylvania county within 60 days of an election to vote in their previous
12

0082a
county of residence. Pa. Const. Art. VII, § 1. None of these changes to
Article VII, Section 1 have any material importance to the case at hand and
were not relevant to this Court’s decision in Lancaster County. The
Pennsylvania Constitution thus remains, for all purposes relevant to the
holding in Lancaster City, unchanged since 1924 with regard to the
qualifications and requirements for voting at an election. Chase and
Lancaster City are not only instructive to this case, but indeed are
determinative as still-valid, precedential case law on the issues in question.
a. Post-World-War-II and the modern
absentee voting provision in the
Pennsylvania Constitution
In 1949, the Pennsylvania Constitution was amended to also allow
bedridden or hospitalized war veterans the ability to vote absentee. Pa.
Const. Art. VIII, § 18 (1949). In 1957, the Pennsylvania General Assembly
began the process of amending the constitution to allow civilian absentee
voting in instances where unavoidable absence or physical disability
prevented them from voting in person. See In re General Election,
November 3, 1964, 423 Pa. 504, 508, 224 A.2d 197 (1966). Because of the
restrictions and safeguards under Article XI, the 1957 amendment to the
constitution did not go into effect until 1960. Id. The constitutional
amendment effectively expanded eligibility for absentee voting to include
13

0083a
only two categories of qualified electors: (1) those who on election day
would be absent from their municipality of residence because of their
duties, occupation, or business; and (2) those who are unable to attend
their proper polling place because of illness or physical disability. Pa.
Const. Art. VII, § 19 (1957).
Issues arose immediately with the canvassing and computation of
ballots under the newly expanded absentee voting system, and any
challenges to absentee ballots that were rejected by the board of elections
resulted in the challenged ballots being placed with ballots that were not
challenged, making it impossible to correct upon a subsequent
determination that the decision to reject the challenge was incorrect. See In
re General Election, November 3, 1964, 423 Pa. 504, 509. In response,
“the legislature added further amendments by the Act of August 13, 1963,
P.L. 707, 25 Pa. Stat. § 3146.1 et seq. (Supp. 1965)” to require the board
of elections to mark any ballot that was disputed as “challenged,” hold a
hearing on the objections, and the decision was opened up to review by the
court of common pleas in the county involved. Id. Until all challenges were
resolved, the board of elections was required to desist from canvassing and
computing all challenged ballots to avoid the possible mixing of valid and
invalid ballots. Id. In 1967 following the Constitutional Convention, the
14

0084a
Pennsylvania Constitution was reorganized and Article VII, § 19 was
renumbered to Article VII, § 14.
On November 5, 1985, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
added religious observances to the list of permissible reasons for
requesting an absentee ballot (the “1985 Amendment”). The 1985
Amendment began as HB 846, PN 1963, which would have amended the
Pennsylvania Election Code to provide absentee ballots for religious
holidays and for the delivery and mailing of ballots. See Pa. H. Leg. J. No.
88, 167th General Assembly, Session of 1983, at 1711 (Oct. 26, 1983)
(considering HB 846, PN 1963, entitled “An Act amending the
‘Pennsylvania Election Code,’ … further providing for absentee ballots for
religious holidays and for the delivery and mailing of ballots.”). In doing so,
the Pennsylvania General Assembly recognized that because the
Pennsylvania Constitution specifically delineates who may receive an
absentee ballot, a constitutional amendment was necessary to implement
these changes. HB 846, PN 1963 was thus changed from a statute to a
proposed amendment to the Pennsylvania Constitution. Id. (statement of
Mr. Itkin) (“T]his amendment is offered to alleviate a possible problem with
respect to the legislation. The bill would originally amend the Election Code
15

0085a
to [expand absentee balloting] …. Because it appears that the Constitution
talks about who may receive an absentee ballot, we felt it might be better in
changing the bill from a statute to a proposed amendment to the
Pennsylvania Constitution.”).
On November 4, 1997, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
expanded the ability to vote by absentee ballot to qualified voters that were
outside of their municipality of residence on election day; where previously
absentee voting had been limited to those outside of their county of
residence (the “1997 Amendment”). Pa. H. Leg. J. No. 31, 180th General
Assembly, Session of 1996 (May 13, 1996) (emphasis added). The
legislative history of the 1997 Amendments recognized the long-known
concept that there existed only two forms of voting: (1) in-person, and (2)
absentee voting and that the 1997 Amendment would not change the
status quo; namely that “people who do not work outside the municipality
[or county] or people who are ill and who it is a great difficulty for them to
vote but it is not impossible for them to vote, so they do not fit in the current
loophole for people who are too ill to vote but for them it is a great difficulty
to vote, they cannot vote under [the 1997 Amendment].” Id. at 841
(statement of Mr. Cohen).
16

0086a
Because the Pennsylvania Constitution has not been amended,
pursuant to Article XI, to allow for no-excuse mail-in voting, the legislative
efforts to authorize no-excuse mail-in voting are fatally defective and
inherently unconstitutional, having no lawful basis or effect. See, e.g.,
Kremer v. Grant, 529 Pa. 602, 613, 606 A.2d 433, 439 (1992) (“[T]he failure
to accomplish what is prescribed by Article XI infects the amendment
process with an incurable defect”); Sprague v. Cortes, 636 Pa. 542, 568,
145 A.3d 1136, 1153 (2016) (holding that matters concerning revisions of
the Pennsylvania Constitution require “the most rigid care” and demand
“[n]othing short of literal compliance with the specific measures set forth in
Article XI.”) (citation omitted). This amounts to a violation of both the
Pennsylvania Constitution and the U.S. Constitution, the latter which, while
granting the General Assembly plenary authority to enact laws governing
the conduct of elections and for the appointment of electors, does not allow
the General Assembly to violate the Pennsylvania Constitution in doing so.
B.

This Court violated Petitioners’ First and Fourteenth
Amendment rights by depriving petitioners of their right to
vote in lawful elections and right to petition, without the
requisite due process

At least with respect to federal elections, this Court was not free to
deny the Petitioners any practical means of remedying their injuries that
were caused by the Pennsylvania General Assembly implementing no17

0087a
excuse absentee balloting in Pennsylvania by means of a statute rather
than a Pennsylvania Constitutional amendment. A fundamental
requirement of due process is "the opportunity to be heard." Grannis v.
Ordean, 234 U.S. 385, 394 (1914). It is an opportunity which must be
granted at a meaningful time and in a meaningful manner. Mathews v.
Eldridge, 424 U.S. 319, 333 (1976); Goldberg v. Kelly, 397 U.S. 254, 267
(1970) (quoting Armstrong v. Manzo, 380 U.S. 545, 552 (1965). Central to
the principle of due process is a requirement that an individual be allowed a
fair hearing before the government may deprive him or her of a protected
interest. See Cleveland Bd. of Ed. v. Loudermill, 470 U.S. 532, 542 (1985).
This Court has held that the right of access to judicial proceedings is
a component of the right to petition government for a redress of grievances
and is constitutionally protected. See California Motor Transp. Co. v.
Trucking Unlimited, 404 U.S. 508, 510 (1972) (“The right of access to the
courts is indeed but one aspect of the right of petition.” (citations omitted).
Consistently, the U.S. Supreme Court has reviewed such deprivation of
access to the courts under a Due Process Clause, and Equal Protection
framework. See, e.g., Boddie v. Connecticut, 401 U.S. 371 (1971); Ortwein
v. Schwab, 410 U.S. 656 (1973); but see Sosna v. Iowa, 419 U.S. 393

18

0088a
(1975) (declining to apply Boddie the restriction of access did not amount to
a “total deprivation”).
In Boddie, the U.S. Supreme Court found that the collection of fees
and costs required to bring an action for divorce was in violation of the
Fourteenth Amendment’s due process guarantee. The U.S. Supreme Court
noted that access to the courts is seldom an element of due process
because courts are “not usually the only available, legitimate means of
resolving private disputes.” Boddie, 401 U.S. at 375. The U.S. Supreme
Court explained that where a “judicial proceeding becomes the only
effective means of resolving the dispute at hand and denial of a
defendant's full access to that process raises grave problems for its
legitimacy.” Id. at 376. The U.S. Supreme Court concluded: "In short,
‘within the limits of practicability, a state must afford to all individuals a
meaningful opportunity to be heard if it is to fulfill the promise of the Due
Process Clause.” Id. at 377. (internal citations omitted). Weighing the
burden of the fees, with the countervailing justifications for the fee, the U.S.
Supreme Court concluded that none of the government considerations
(recouping costs and preventing frivolous litigation) were “sufficient to
override the interest of these plaintiff-appellants.” Id. at 381. When a state
fails to correct a violation of the state’s constitution in the context of federal
19

0089a
elections and fails to provide any avenue for relief for federal election
challengers, it violates the U.S. Constitution.
1.

This Court foreclosed any and all meaningful review
of Petitioners’ claims.

This Court foreclosed any and all meaningful review of the
Petitioners’ claims both before and after the Election. Under controlling
Pennsylvania law, Petitioners were foreclosed from challenging Act 77 prior
to the Election occurring due to a lack of standing. See Kauffman v. Osser,
441 Pa. 150, 271 A.2d 236 (Pa. 1970) (appellants interest in not having
their in person votes diluted by absentee ballots claimed to be
unconstitutional had no standing prior to election because their interests
were “too remote and too speculative”); see also In re Gen. Election 2014,
111 A.3d 785 (Pa. Commw. Ct. 2015) (appellants assumption that allegedly
invalid absentee ballots would vote in a way that would cause dilution of
appellants’ votes was unwarranted and could not afford a basis for
standing).
Kauffman involved a challenge substantially similar to that brought by
Petitioners in the instant case. Plaintiffs in Kauffman, inter alia, challenged
provisions of legislation expanding absentee voting as being violative of
Article 7, § 14 of the Pennsylvania Constitution; the challenge was brought
prior to an election taking place. In upholding the lower court’s dismissal for
20

0090a
lack of standing, this Court held that “the interest of appellants is not
peculiar to them, is not direct, and is too remote and too speculative to
afford them, either in their individual capacities or in their claimed class
representative capacity, a standing to attack these statutory provisions.”
Kauffman, 441 Pa. at 157. The only conceivable way to make this harm
adequately non-speculative and factually supported, under Kauffman,
would be to wait for an election to take place. Unfortunately, as the instant
case has shown, when the standing would otherwise be met – when harm
crosses the realm of speculative – laches is always a reliable crutch to lean
on. Thus, under controlling Pennsylvania law Petitioners were required to
wait until after the election to gain standing. And while Petitioners promptly
brought this action after the Election – as soon as they reasonably could
hire counsel and identify the constitutional infirmities of Act 77 – the court
below disingenuously “retreat[ed] behind the facade” of the amorphous
doctrine of laches in order to deny Petitioners their day in court. Id. at 159.
The decision of the court below denied Applicants access to judicial
relief indefinitely, without adequate process and without deciding the issue
of declaratory relief on the merits. Kelly v. Commonwealth, Civ. Action No.
68 MAP 2020 (Pa. Nov. 28, 2020) (per curiam). Applicants plead for
declaratory relief in asking for Act 77 to be declared unconstitutional, as
21

0091a
well as injunctive relief in asking to prohibit the Executive Respondents
from including no-excuse absentee ballots in the final, certified results of
the Election. The Commonwealth Court granted a preliminary injunction
pending an evidentiary hearing, finding that Partitioners demonstrated a
likelihood of success on the merits. Before such hearing could be held, the
Supreme Court exercised its powers of extraordinary jurisdiction giving the
court original and final jurisdiction over the controversy.
Petitioners were foreclosed from bringing their claims in any judicial
forum after the Election when this Court refused to consider Petitioners’
claims as to both the prior and continuing harms resulting from an
unconstitutional Act 77 that remains standing law in Pennsylvania. Instead,
the court dismissed Petitioners’ claims, with prejudice, on the purported
basis of laches. App. p3. This Court went so far as to dismiss with prejudice
Petitioners’ claim for prospective declaratory relief as to future elections. Id.
Thus, res judicata attaches to the claims, and Petitioners may not
raise them in any other court. In the meantime, Act 77 remains in effect and
unconstitutional, and Petitioners continue to suffer their harms without any
ability to obtain relief. Should Petitioners want to raise the issue of
constitutionality of Act 77 in 2021, in anticipation of the November 2022
election, res judicata would bar Petitioners from raising same facial
22

0092a
constitutional challenges to Act 77. Notably, there are no countervailing
government interests that necessitate barring any further challenge on
these issues by Applicants. Obviously, Judicial economy is a compelling
interest for res judicata, generally, but that cannot justify barring Applicants
from reaching the merits of their challenge to a law that will continue to
harm them. Petitioners were denied any opportunity to have their claims
heard, in violation of their federal due process rights and petition rights.
C.

This Court erred in finding laches and the U.S. Supreme
Court may review the error because significant federal
interests are at stake and the decision does not amount to
adequate and independent state grounds.

This Court’s application of laches was erroneous and is subject to
review by the U.S. Supreme Court because significant federal interests are
at issue. “The present case concerns not only a federally-created right but a
federal right for which the sole remedy is in equity.” Holmberg v. Ambrecht,
327 U.S. 392, 395 (1946) (citations omitted). Unlike the situation where a
court is situated in diversity jurisdiction and deciding an entirely state-law
matter, as presented in Guaranty Trust Co. v. York, 326 U.S. 99 (1945), in
this action the U.S. Supreme Court has “no duty … to approximate as closely
as may be State law in order to vindicate without discrimination a right
derived solely from a State.” Holmberg, 327 U.S. at 395. Rather, the duty
here is that “of federal courts, sitting as national courts throughout the
23

0093a
country, to apply their own principles in enforcing an equitable right” created
under the U.S. Constitution. Id.
“‘[I]n the context of a Presidential election, state-imposed restrictions
implicate a uniquely important national interest. For the President and the
Vice President of the United States are the only elected officials who
represent all the voters in the Nation.’” Bush v. Gore, 531 U.S. 98, 112
(2000) (Rehnquist, C.J., Scalia J., Thomas, J., concurring) (citation
omitted). Article I, § 4, and Article II, § 1 of the U.S. Constitution impose
duties and powers on the legislature of each state, as does a state’s own
constitution by the contours through which it provides the lawmaking
power. “A significant departure from [this] legislative scheme …presents a
federal constitutional question.” Id. at 113. “[T]he text of the election law
itself, and not just its interpretation by the courts of the States, takes on
independent significance” in the U.S. Supreme Court’s review of such
constitutional questions. Id. “Whether the state court has denied to rights
asserted under local law the protection which the Constitution guarantees
is a question upon which the petitioners are entitled to invoke the judgment
of this Court.” Broad River Power Co. v. South Carolina ex rel. Daniel, 281
U.S. 537, 540 (1930) (citations omitted).

24

0094a
In determining its jurisdiction, the U.S. Supreme Court must ask
"whether the question of laches is so intermingled with that of Federal right
that the former cannot be considered an independent matter." Moran v.
Horsky, 178 US 205, 208 (1900). This is so for state election laws governing
the conduct of federal elections. “‘[T]he adequacy of state procedural bars to
the assertion of federal questions,’ we have recognized, is not within the
State's prerogative finally to decide; rather, adequacy ‘is itself a federal
question.’” Lee v. Kemna, 534 U.S. 362, 375 (2002) (quoting Douglas v.
Alabama, 380 U.S. 415, 422 (1965)); see also Davis v. Wechsler, 263 U.S.
22, 24 (1923) (Holmes, J.) (“Whatever springes the State may set for those
who are endeavoring to assert rights that the State confers, the assertion of
federal rights, when plainly and reasonably made, is not to be defeated under
the name of local practice.”).
As a threshold matter, it is the duty of the U.S. Supreme Court “to
ascertain, ‘… in order that constitutional guaranties may appropriately be
enforced, whether the asserted non-federal ground independently and
adequately supports the judgment.’” N.A.A.C.P. v. Ala. ex. rel. Patterson,
357 U.S. 449, 455 (1958) (citation omitted). Here, it does not. “[F]ederal
jurisdiction is not defeated if the nonfederal ground relied on by the state

25

0095a
court is ‘without any fair or substantial support ….’” Id. at 454 (quoting Ward
v. Board of County Commissioners, 253 U.S. 17, 22 (1920)).
“State procedural rules have been held insufficient to bar federal
review if they are ‘not strictly or regularly followed,’ if they are ‘novel and
unforeseeable,’ … or if they impose undue burdens on the assertion of
federal rights.” Roosevelt, Kermit III, Light from Dead Stars: The Procedural
Adequate and Independent State Ground Reconsidered, 103 Columbia L.
Rev. 1888, 1890 (citing Barr v. City of Columbia, 378 U.S. 146, 149 (1964);
Daniel J. Meltzer, State Court Forfeitures of Federal Rights, 99 Harv. L. Rev.
1128, 1137-45 (1986); Douglas v. Alabama, 380 U.S. 415, 422-23 (1965)).
The reliance on laches by this Court is likewise insufficient to bar federal
review.
The U.S. Supreme Court “ha[s] often pointed out that state procedural
requirements which are not strictly or regularly followed cannot deprive [it] of
the right to review.” Barr, 378 U.S. at 149 (citations omitted). Laches, as
applied to the case below by this Court, is entirely inconsistent with that
court’s consistent historical precedent and is contradicted by the court’s
recent practices in hearing analogous, substantive constitutional challenges.
“Laches may bar a challenge to a statute based upon procedural
deficiencies in its enactment.” Stilp v. Hafer, 553 Pa. 128, 718 A.2d 290,
26

0096a
294 (Pa. 1998). However, in Stilp, the court found that “Appellees
concede[d] that laches may not bar a constitutional challenge to the
substance of a statute ….” Id. The holding in Stilp contradicts this Court’s
holding in the instant action. Stilp teaches that while the principle of laches
may apply to a constitutional challenge on procedural grounds, it does not
apply with respect to the substance of a statute. Id. (citing Sprague v.
Casey, 520 Pa. 38, 550 A.2d 184 (1988) (stating that “laches and prejudice
can never be permitted to amend the Constitution”)); see also Wilson v.
School Distr. of Philadelphia, 328 Pa. 225, 195 A. 90 (Pa. 1937).
Petitioners’ constitutional claims are substantive, and therefore
cannot be defeated by laches. Unlike Stilp where the plaintiffs argued that a
bill was not referred to the appropriate committee, and that the bill was not
considered for the requisite number of days, here Petitioners argue that the
substance of Act 77 directly contravenes the Pennsylvania Constitution.
See App. pp.50-55, ¶¶ 65-87. Petitioners make no challenge to the
procedural mechanisms through which Act 77 was passed – e.g.,
bicameralism and presentment – but rather, what is substantively contained
within the legislative vehicle that became Act 77. The Pennsylvania
General Assembly attempted to unconstitutionally expanded absentee
voting through Act 77, despite constitutional limitations to such expansion.
27

0097a
Act 77 itself is not a constitutional amendment, which would be the type of
procedural laches challenge raised by the Executive-Respondents (and
would fail in any case). Such a patent and substantive violation of the state
Constitution cannot be barred by the mere passage of time – “To so hold
would establish a dangerous precedent, the evil effect of which might reach
far beyond present expectations.” Wilson, 195 A. at 99. Amending the
constitution to expand a protected and fundamental right is not a mere
procedural step, but rather one of substance.
Even assuming arguendo that laches could apply to retrospective
relief in a substantive constitutional challenge, laches can only bar relief
where “(1) a delay arising from Appellants' failure to exercise due diligence
and (2) prejudice to the Appellees resulting from the delay “Stilp, 718 A.2d
at 293 (citing Sprague, 550 A.2d at 187-88). In Sprague, the petitioner (an
attorney), brought suit challenging the placing on an election ballot of two
judges. Sprague, 550 A.2d 184. Respondents raised an objection based on
laches because the petitioner waited 6.5 months from constructive notice
that the judges would be on the ballot to bring suit. In evaluating the facts
that the petitioner and respondents could have known through exercise of
“due diligence,” the court found that while the petitioner was an attorney,
and was therefore charged with the knowledge of the constitution and laws,
28

0098a
the respondents (the Governor, Secretary, and other Commonwealth
officials) were also lawyers and similarly failed to seek timely relief. Id. at
188. In denying the laches defense, the court reasoned that “[t]o find that
petitioner was not duly diligent in pursuing his claim would require this
Court to ignore the fact that respondents failed to ascertain the same facts
and legal consequences and failed to diligently pursue any possible action.”
Id.
To be clear, a citizen with an actionable claim cannot just wait to file a
grievance it is aware of. However, courts will generally “hold that there is a
heavy burden on the [respondent] to show that there was a deliberate
bypass of pre-election judicial relief.” Toney v. White, 488 F.2d 310, 315
(5th Cir. 1973). The Executive-Respondents were never required to meet
that burden here. There is no evidence or reason to believe that Petitioners
deliberately bypassed pre-election relief in the instant action. Unlike in
Sprague, Petitioners here are not lawyers, they did not know, nor could
they have been reasonably expected to know, that they had viable legal
claims well-before the election occurred. With respect to the candidatePetitioners, none are members of the state legislature, and none have
responsibilities with respect Pennsylvania Election Code or its
constitutionality.
29

0099a
Conversely, as in Sprague, Respondent Boockvar is an attorney, and
should be charged with knowledge of the Constitution, and particular
knowledge of the Election Code. In Sprague, the taxpayer’s more than sixmonth delay in bringing an action challenging the election did not constitute
laches thereby preventing the Commonwealth Court from hearing the
constitutional claims. 550 A.2d at 188. Additionally, Respondent
Pennsylvania General Assembly appears to have had knowledge of the
constitutional issues involved and began the process of amending the
constitution to allow no-excuse mail-in ballots. That process appears to be
ongoing to this day. App. p.42, ¶¶ 28-30. 2
In short, this Court charged Petitioners, who had no specialized
knowledge, with failure to institute an action more promptly, while
Respondents possessed extremely specialized knowledge, and failed to
take any corrective actions. Petitioners did not hedge their bets, they simply
brought an action within mere days of gaining enough information to know

2

If Act 77 is not declared unconstitutional, and if/when the amendment
purporting to allow for no-excuse mail in voting is voted upon by the
electorate, that ratification process will utilize the very no-excuse absentee
voting the amendment seeks to authorize. In the meantime, the entire
Pennsylvania electorate has been disenfranchised of their right to vote on
amending their constitution to grant authorization for no-excuse voting by
mail.
30

0100a
that they had been harmed by an unconstitutional election, as soon as they
reasonably could have hired counsel to research and identify the
constitutional issues and after they gained standing to bring their claims.
They did not even wait for certified election results to confirm that they had
been harmed. It could not have in any way served the Petitioners’ interests
in this matter to delay action for even one day. To suggest they did so
deliberately is unsupported.
Respondents’ collective failures in enacting Act 77 or to remedy its
constitutional problems at any point puts the weight of any necessary
curative disenfranchisement squarely on their shoulders. Laches is a shield
to protect Respondents from gamesmanship, it is not a sword to use against
harmed individuals to insulate Respondents’ unconstitutional actions. It also
bears noting that both Chase and Lancaster City, involved substantive
constitutional challenges to legislation expanding absentee voting; the
legislation challenged in Chase was enacted 23 years prior to its decision,
41 Pa. at 407 (“Act of 2d July 1839, § 155”) and in Lancaster City the
legislation was enacted one year and two months prior to its decision, 281
Pa. at 133 (“Act May 22, 1923 (P. L. 309; Pa. St. Supp. 1924, § 9775a1, et
seq.)”). In both cases, the constitutionality of the legislation at issue was
challenged after the election had occurred. In both cases, mail-in ballots that
31

0101a
violated the state constitution’s prohibition were not counted. Meanwhile, this
action challenges legislation passed in October 2019, see Act 77, amended
by legislation in March 2020, see Act 12, and further amended through
judicial edict, one and a half months prior to this action being commenced,
by the same court refusing to hear this challenge, see Pa. Democratic Party
v. Boockvar, 238 A.3d 345 (Pa. Sept. 17, 2020)). This Court arbitrarily
applied a new, unique, and surprising version of the laches doctrine to the
constitutional challenge in this case.
Further evidence of the irregular application of laches by this Court can
be found by examining recent substantive constitutional challenges to
legislative enactments in the state. This Court, as recently as 2018, decided
a challenge to the state’s congressional district plan brought 6 years, and
multiple elections, after the 2011 congressional redistricting map legislation
had been enacted. See League of Women Voters v. Commonwealth, No.
159 MM 2017 (Pa. Feb. 7, 2018). On November 23, 2020, well after the
election had already taken place, this Court heard another case regarding
whether Act 77 required county boards of elections to disqualify absentee
ballots (including no-excuse absentee ballots) based on the lack of a
signature on the outer secrecy envelope. See In re Canvass of Absentee
and Mail-In Ballots, Civ. Action No. 34 EAP 2020 (Pa. Nov. 23, 2020).
32

0102a
As in N.A.A.C.P., here there is no “reconcil[ing] the procedural
holding of the [Pennsylvania] Supreme Court in the present case with its
past unambiguous holdings.” 357 U.S. 449, 455. Thus, not only is laches
here an inadequate state ground for the U.S. Supreme Court to abstain
review, but this Court’s application of the doctrine was used as an offensive
sword against Petitioners, to avoid addressing the merits of a federal
question of fundamental importance.
II.

The equitable factors support a stay.
An injunction in this case is essential to protect the integrity of the

Election and prevent further irreparable harm to Petitioners’ federally
protected rights. If a stay is not granted, the Executive-Respondents and
electors will take further actions to certify the results of the Election,
potentially limiting this Court’s and the Supreme Court of the United States’
ability to grant relief in the event of a decision on the merits in Petitioners’
favor. Granting emergency relief is also necessary to avoid irreparable
injury to the voters of Pennsylvania and to the Petitioners from the resulting
wrongs of an election conducted pursuant to an unconstitutional and invalid
no-excuse absentee voting scheme.

33

0103a
CONCLUSION
For the foregoing reasons, this Court should stay its Order of
November 28, 2020 pending the filing and disposition of a Petition for Writ
of Certiorari in the Supreme Court of the United States.
Respectfully submitted,
OGC Law, LLC
/s/Gregory H. Teufel
Gregory H. Teufel, Esq.
Attorney for Petitioners

34

0104a
CERTIFICATE OF COMPLIANCE
I certify that this filing complies with the provisions of the Public
Access Policy of the Unified Judicial System of Pennsylvania: Case
Records of the Appellate and Trial Courts that require filing confidential
information and documents differently than non-confidential information and
documents.
Date: December 2, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

0105a
CERTIFICATION OF COMPLIANCE WITH WORD COUNT LIMIT
I certify that the EMERGENCY APPLICATION FOR STAY OF
COURT’S ORDER OF NOVEMBER 28, 2020 is 7510 words as measured
in accordance with Pennsylvania Rule of Appellate Procedure 2135.
Dated: December 2, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

0106a
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing was
served upon all counsel of record on December 2, 2020 by this Court’s
electronic filing system.
/s/Gregory H. Teufel
Gregory H. Teufel

0107a

IN THE SUPREME COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
et al.,
Petitioners,
Docket No. 68 MAP 2020
v.
COMMONWEALTH OF
PENNSYLVANIA, et al.,
Respondents.
[PROPOSED] ORDER GRANTING APPLICATION FOR STAY OF
THIS COURT’S ORDER OF NOVEMBER 28, 2020
AND NOW, this

day of December 2020, upon

consideration of Petitioners’ Emergency Application for Stay of
Court’s Order of November 28, 2020, it is hereby ORDERED that
the Application is GRANTED. This Court’s Order of November 28,
2020 is stayed pending the Petitioners’ filing and disposition of a
Petition for Writ of Certiorari in the Supreme Court of the United
States.
BY THE COURT:

__________________________________
J.

0108a

APPENDIX G
Received 11/22/2020 5:15:01 PM Commonwealth Court of Pennsylvania
0109a
Filed 11/22/2020 5:15:00 PM Commonwealth Court of Pennsylvania
620 MD 2020

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK, DEREK
MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,

Petitioners,
v.

COMMONWEALTH OF
PENNSYLVANIA,
Respondents.

Docket No. 620 M.D. 2020

MOTION FOR
EMERGENCY/SPECIAL
PROHIBITORY INJUNCTION
Filed on behalf of Petitioners,
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin Sauter,
Michael Kincaid, and Wanda Logan
Counsel of Record for Petitioners:

Gregory H. Teufel
Pa. Id. No. 73062
OGC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15228
412-253-4622
412-253-4623 (facsimile)
gteufel@ogclaw.net

0110a
IN THE COMMONWEALTH COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
Docket No. 620 M.D. 2020
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK, DEREK
MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,
Petitioners,
v.

COMMONWEALTH OF
PENNSYLVANIA,
Respondents.

MOTION FOR EMERGENCY/SPECIAL PROHIBITORY INJUNCTION
Petitioners Mike Kelly, et al., by and through their undersigned attorney

respectfully move for the entry of an emergency/special prohibitory injunction and
in support thereof states as follows:
1.

Petitioners initiated this action by filing a verified Complaint for

Declaratory and Injunctive Relief ("the Complaint") on November 21, 2020, which
is incorporated by

2.

reference as if fully set forth herein.

For the reasons set forth in the Complaint, and as further supported by

Petitioners' memorandum of law in support of this motion, Petitioners asks this

0111a
Honorable Court to enter the attached proposed order or grant such other or further

relief as this Honorable Court deems proper.

RELIEF REQUESTED
3.

Petitioners seek emergency/special prohibitory injunctive relief as a

result of Respondents' improper and unlawful conduct.
4.

To obtain emergency/special prohibitory injunctive relief, a party

must establish that: (1) relief is necessary to prevent immediate and irreparable
harm that cannot be adequately compensated by money damages; (2) greater injury

will occur from refusing to grant the injunction than from granting it; (3) the

injunction will restore the parties to their status quo as it existed before the alleged
wrongful conduct; (4) the petitioner is likely to prevail on the merits; (5) the

injunction is reasonably suited to abate the offending activity; and (6) the public
interest will not be harmed if the injunction is granted. Warehime

v.

Warehime,

580 Pa. 201, 209-210, 860 A.2d 41, 46-47 (2004).
5.

As more fully described in Petitioners' memorandum of law in

support of this Motion, each prerequisite described in paragraph 4 has been
satisfied.
6.

If the requested relief is not granted, Petitioners will continue to suffer

immediate and irreparable harm that cannot be adequately compensated by money
damages.

0112a
7.

Greater injury will occur from refusing to grant the injunction than

from granting it; granting the injunction will restore the status quo as it existed

prior to Respondents' unlawful and improper conduct and will not cause
substantial harm to Respondents.
8.

Granting the Emergency/Special Injunction will restore the parties to

the status quo as it existed prior to Respondents' unlawful and wrongful conduct.
9.

Petitioners' right to relief and likelihood of prevailing on the merits is

10.

The requested relief is narrowly tailored to abate the offending

clear.

activity.
11.

To the extent that the public interest is impacted, it will be served

rather than harmed by granting the injunction.
12.

Emergency/special prohibitory injunctive relief is necessary to ensure

Petitioners' are not permanently and irreparably harmed.

0113a
WHEREFORE, Petitioners respectfully request that this Honorable Court
enter an Order, substantially in the form of the proposed Order attached hereto,
granting this Motion for Emergency/Special Prohibitory Injunction.
Respectfully submitted,
OGC Law, LLC

At

4

ry H. Teufel, Es
ey for Petitioners

0114a
IN THE COMMONWEALTH COURT OF PENNSYLVANIA

THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK, DEREK
MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,

Docket No.

M.D. 2020

Petitioners,
v.

COMMONWEALTH OF
PENNSYLVANIA,
Respondents.

ORDER
AND NOW, this

day of

,

2020, upon due

consideration of the foregoing Motion for Emergency/Special Prohibitory
Injunction and any responses thereto, it is hereby ORDERED, ADJUDGED, AND

DECREED as follows:
1.

The Court makes the following findings:
a. Petitioners possess a clear right to injunctive relief;
b.

Injunctive relief will prevent immediate and irreparable harm to
Petitioners;

c. Refusing injunctive
it;

relief will result in greater harm than granting

0115a
d. Injunctive

relief will not adversely affect the public interest; and

e. The injunctive relief is narrowly tailored and restores the status

quo as it existed before the Respondents' wrongful conduct.
2.

Petitioners' Motion for Emergency/Special Prohibitory Injunction is
GRANTED, and an Injunction is hereby entered as follows:
a. Until further Order

of this Court, Respondents shall be prohibited

from taking official action to tabulate, compute, canvass, certify, or

otherwise finalize the results of the November 3, 2020, General
Election. Specifically, Respondents are prohibited from

undertaking the following actions:
i.

Secretary Boockvar is enjoined from taking official action

pursuant to 25 P.S.

§

3159, 3160, 3163, 3164, 3165, 3166.

Secretary Boockvar shall not receive, tabulate, compute,
canvass, or lay before the Governor any certificate of

election or the votes cast for any candidate or any question
voted for by electors in the November 3, 2020, General
Election. Further, Secretary Boockvar is enjoined from

taking official action pursuant to 25 P.S.

§

2621(f) "No

receive from county boards of elections the returns of

primaries and elections, to canvass and compute the votes

0116a
cast for candidates and upon questions as required by the

provisions of [the election code]; to proclaim the results of
such primaries and elections, and to issue certificates of

election to the successful candidates at such elections ...."
ii.

Governor Wolf is enjoined from taking official action

pursuant to 25 P.S.

§

3160, 3163, 3165, 3166. Governor

Wolf shall not issue any commission resulting from the
November 3, 2020, General Election. Governor Wolf shall
not transmit the returns of the November 3, 2020 General

Election to the President of the United States Senate or the
Speaker of the House of Representatives.
3. This ORDER shall become effective as soon as Petitioners file legal

tender of the United States or a bond with the Court in the amount of
$

naming the Commonwealth of Pennsylvania as obligee in

accordance with Pa.R.Civ.P. 1531(b), which Petitioners shall do
forthwith.
BY THE COURT:

J.

0117a
CERTIFICATE OF COMPLIANCE
I

certify that this filing complies with the provisions of the Public Access

Policy of the Unified Judicial System of Pennsylvania: Case Records of the

Appellate and Trial Courts that require filing confidential information and
documents differently than non -confidential information and documents.

Date: November 22, 2020

0118a

CERTIFICATE OF SERVICE
I

hereby certify that I have this day caused to be served a true and correct

copy of the foregoing Motion for Emergency/Special Prohibitory Injunction via

first class U.S. mail upon the following:

Commonwealth of Pennsylvania
Office of the Attorney General
1600 Strawberry Square
Harrisburg, PA 17120
Kathy Boockvar
Secretary of State
302 N. Office Building
Harrisburg, PA 17120

Pennsylvania General Assembly
501 N. 3rd Street
Harrisburg, PA 17120
Honorable Thomas W. Wolf
Office of the Governor
508 Main Capitol Building
Harrisburg, PA 17120

Date: November 22, 2020

APPENDIX H
Received 11/22/2020 5:15:01 PM Commonwealth Court of Pennsylvania
0119a
Filed 11/22/2020 5:15:01 PM Commonwealth Court of Pennsylvania
620 MD 2020

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK, DEREK
MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,

Petitioners,
v.

Docket No. 620 M.D. 2020

MEMORANDUM OF LAW IN
SUPPORT OF MOTION FOR
EMERGENCY/SPECIAL
PROHIBITORY INJUNCTION
Filed on behalf of Petitioners,
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
Kierzek, Derek Magee, Robin Sauter,
Michael Kincaid, and Wanda Logan

COMMONWEALTH OF
PENNSYLVANIA, PENNSYLVANIA
GENERAL ASSEMBLY,
Counsel of Record for Petitioners:
HONORABLE THOMAS W. WOLF,
KATHY BOOCKVAR,
Gregory H. Teufel
Pa. Id. No. 73062
Respondents.
OGC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15228
412-253-4622
412-253-4623 (facsimile)
gteufel@ogclaw.net

0120a
INTRODUCTION
Act 77 is, the most expansive and fundamental change to the Pennsylvania

election code to date, is flagrantly unconstitutional, and an afront to the protections
set out in the Pennsylvania Constitution. Under the Act, and the mail-in ballot

scheme

it

implements, any and all qualified electors are eligible to vote by mail,

ith no justification required. That scheme is a clear violation

of Article VII of the

Pennsylvania Constitution. As with prior attempts to illegally expand mail -in

voting by statute, which have been struck down going as far back as the Military
Absentee Ballot Act of 1839, Act 77 is another illegal attempt to override the
protective limitations on absentee voting prescribed in the Pennsylvania

Constitution, without first following the necessary procedure to amend the
Pennsylvania Constitution to allow for that expansion.

Article VII of the Pennsylvania Constitution provides two exclusive
mechanisms by which an elector may cast a ballot : 1) offering your ballot in

propria persona at the polling place on election day; and 2) exceptions to the first
method limited to those persons qualifying under the limited absentee voting

provision proscribed in the Pennsylvania Constitution. "Mail -in" voting, in the
form implemented pursuant to Act 77 is an attempt by the legislature to

fundamentally overhaul the Pennsylvania voting system and permit universal
absentee voting (rebranded as "mail -in" voting) absent any constitutional authority.

0121a
Respondents, starting as soon as Monday, November 23, and in the coming
days and weeks thereafter, will seek to certify the results of the November 3, 2020,
General Election, which was undertaken pursuant to an unconstitutional, universal,
no -excuse mail -in voting scheme. "However laudable the purpose of the act ... it

cannot be sustained. If it is deemed necessary that such legislation be placed upon
our statute books, then an amendment to the Constitution must be adopted

permitting this to be done." In re Contested Election in Fifth Ward of Lancaster
City, 281 Pa. 131, 137-38 (1924). This Court must intervene immediately in order

to prevent further, irreparable injury from the resulting wrongs of an election

conducted pursuant to an unconstitutional and invalid mail -in voting scheme.

PROCEDURAL HISTORY
Petitioners initiated this action by filing a verified Complaint Seeking
Injunctive and Declaratory Relief ("the Complaint") on November 21, 2020. The
facts of this action as set forth in the Complaint are incorporated by reference as

if

fully set forth herein.

FACTUAL BACKGROUND
I.

History of Absentee Voting in Pennsylvania
Pennsylvania has a lengthy history of allowing electors to vote at an election

other than in propria persona; this is known colloquially, as well as defined by
law, as "absentee voting." Many aspects of absentee voting in Pennsylvania have

2

0122a
been subject to lawsuits over the past several months, yet, surprisingly, no litigant
has raised, nor has any court addressed (from our research), the question of

whether the expanded absentee voting system introduced by Act 77 of 2019 passes
constitutional muster. We do so here.
A.

Chase v. Miller struck down unconstitutional military absentee
voting during the Civil War.

Pennsylvania was one of the first states to allow for absentee voting,
originating with the Military Absentee Act of 1813, which allowed "members of
the state militia and those in the service of the United States to vote as long as the

company the soldier was serving was more than two miles from his polling place
on election day." John C. Fortier & Norman J. Ornstein, The Absentee Ballot and
the Secret Ballot: Challenges for Election Reform, 36 U. Mich. J.L. Reform 483,

497 (2003). At the time the Military Absentee Act was passed, the Pennsylvania

Constitution imposed no restrictions with regard to absentee voting. However, in
1838, Pennsylvania amended its constitution to require voters to "reside in the

election district where he offers to vote, ten days immediately preceding such

election." Id. (citing Pa. Const. of 1838, Art. III,

§

1

(1838)). This created a

conflict with the Military Absentee Act as re-enacted in 1839, which allowed for
absentee voting, and the newly amended Pennsylvania Constitution, which no
longer did. Id.

3

0123a
In the 1861 election, Pennsylvania soldiers voted under the 1839 act, and

legal challenges came soon after. In 1862, the Pennsylvania Supreme Court
decided the case Chase

v.

Miller, 41 Pa. 403, which dealt with the constitutionality

of 1839 military absentee voting act under the 1838 version of the Pennsylvania
Constitution. The Court held that the act was unconstitutional because the purpose

of the 1838 amendment to the Pennsylvania Constitution was to require in -person
voting in the election district where a voter resided at least 10 days before the
election. Id. at 418-19.

The second section of [the 1838 amendment] requires all
popular elections to be by ballot. To 'offer to vote' by
ballot, is to present oneself with proper qualifications, at
the time and place appointed, and to make manual
delivery of the ballot to the officers appointed by law to
receive it. The ballot cannot be sent by mail or
express, nor can it be cast outside of all Pennsylvania
election districts and certified into the county where
the voter has his domicil. We cannot be persuaded that
the constitution ever contemplated any such mode of
voting, and we have abundant reason for thinking
that to permit it would break down all the safeguards
of honest suffrage. The constitution meant, rather, that
the voter, in propria persona, should offer his vote in an
appropriate election district, in order that his neighbours
might be at hand to establish his right to vote if it were
challenged, or to challenge if it were doubtful.
* * *

[Regarding the 1839 act,] [i]t is scarcely possible to
conceive of any provision and practice that could, at so
many points, offend the cherished policy of Pennsylvania
in respect to suffrage. Our Constitution and laws treat the
4

0124a
elective franchise as a sacred trust.... All of which the
[1839 act] reverses and disregards, and opens a wide
door for most odious frauds, some of which have come
under our judicial cognizance.
Id. at 419-25 (emphasis added in bold). The Court also noted that the Pennsylvania

legislature carelessly avoided discussing the constitutionality of the 1839 act
before its passage; although, it noted that "instances of even more careless

legislation are not uncommon." Id. at 417.
Following the Pennsylvania Supreme Court's invalidation of the 1839
military absentee voting act, Pennsylvania introduced an amendment to its

constitution in 1864 to include for this first time a provision allowing for absentee
voting by active military personnel. See Josiah Henry Benton, Voting in the Field:
A Forgotten Chapter of the Civil War, at 199 (1915). The legislature passed the

amendment in two successive sessions, in 1863, and again on April 23, 1864, and
the amendment was approved by the citizens of Pennsylvania in August 1864.

Prior to the August approval of the amendment, on April

1,

1864, the Legislature

was attempting to pass a soldier's voting bill that would have implemented

absentee voting laws in accordance with what the constitutional provision would
have allowed if passed. The legislature sought the Attorney General's opinion on
the constitutionality of passing this legislation before the constitutional amendment
was approved by the voters. The Attorney General opined that it "would not be

5

0125a
constitutional to pass a law before the Constitution was amended so as to allow it."
Id. at 200.
B.

In re Contested Election in Fifth Ward of Lancaster City struck
down unconstitutional civilian absentee voting legislation.

From 1864 to 1949, only qualified electors engaged in actual military
service were permitted to vote by absentee ballot under the Pennsylvania

Constitution. Pa. Const. Art. VIII,

§ 6

(1864). However, this limitation did not

prevent the Pennsylvania Legislature from, again, attempting to pass
unconstitutional legislation to expand absentee voting. In 1924, the Pennsylvania
Supreme Court decided In re Contested Election in Fifth Ward of Lancaster City,
281 Pa. 131, striking down as unconstitutional Act May 22, 1923 (P.L. 309; Pa. St.

Supp. 1924, §9775a1, et seq.), an act providing civilians the right to vote by

absentee ballot. Quoting Chase

v.

Miller, 41 Pa. at 419, the Court reaffirmed the

law that "`[t]o offer to vote' by ballot, is to present one's self with proper

qualifications, at the time and place appointed, and to make manual delivery of the

ballot to the officers appointed to receive it. The ballot cannot be sent by mail or
express, nor can it be cast outside of all Pennsylvania election districts and
certified into the county where the voter has his domicil." In re Contested Election
in Fifth Ward of Lancaster City, 281 Pa. at 134. This principle was affirmed

between 1864 and 1924 in many other states with similar constitutional provisions,

both with regard to absentee voting by regular citizens as well as by soldiers away
6

0126a
from home. Id. at 135 (citing Twitchell v. Blodgett,

Hildreth, 26 Cal. 161; Day v. Jones,
591; Opinion

of the Judges, 37

31 Cal.

Mich. 127; Bourland v.

261; Opinion of the Judges, 30 Conn.

Vt. 665; Opinion

of the Justices, 44 N. H. 633; In

re Opinion of Justices [N.H.] 113 Atl. 293; Clark
1, 19 A. L. R.

13

v.

Nash, 192 Ky. 594, 234 S. W.

304). Very succinctly, the Court concluded that the civilian absentee

ballot act was unconstitutional because the Pennsylvania Constitution still required
electors to "offer to vote" in the district where they reside, and that those eligible to

"vote other than by personal presentation of the ballot" were specifically named in
the Constitution (i.e., active military). Id. at 136-37. The Court relied on two

primary legal principles in its ruling:
[1] 'In construing particular clauses of the Constitution it
is but reasonable to assume that in inserting such

provisions the convention representing the people had
before it similar provisions in earlier Constitutions, not
only in our own state but in other states which it used as a
guide, and in adding to, or subtracting from, the language
of such other Constitutions the change was made
deliberately and was not merely accidental.' Corn v.
Snyder, 261 Pa. 57, 63, 104 Atl. 494, 495.
* * *

[2] The old principle that the expression

of an intent to

include one class excludes another has full application
here.... 'The residence required by the Constitution must
be within the election district where the elector attempts
to vote; hence a law giving to voters the right to cast their
ballot at some place other than the election district in
which they reside [is] unconstitutional.'

7

0127a
Id. The Court went further to note the conflict that new mail -in ballot voting

system would have with the new secrecy requirement now part of the Pennsylvania

Constitution through an amendment in 1901:
It may well be argued that the scheme of procedure fixed
by the act of 1923, for the receipt, recording, and
counting of the votes of those absent, who mail their
respective ballots, would end in the disclosure of the
voters' intention prohibited by the amendment of 1901 to
section 4 of article 8 of the Constitution, undoubtedly the
result if but one vote so returned for a single district.
Though this provision as to secrecy was likely added in
view of the suggestion of the use of voting machines, yet
the direction that privacy be maintained is now part of
our fundamental law.

However laudable the purpose of the act of 1923, it
cannot be sustained. If it is deemed necessary that such
legislation be placed upon our statute books, then an
amendment to the Constitution must be adopted
permitting this to be done.
Id. at 137-38 (emphasis added).
C.

Article VII, Sections 1 and 4 of the Pennsylvania Constitution
have not materially changed since the Court struck down similar
legislation unconstitutionally expanding mail -in voting in In re
Contested Election in Fifth Ward of Lancaster City.

Article VII, Sections

1

and 4 of the Pennsylvania Constitution (previously

numbered as Article VIII, Sections

1

and 4) remain materially the same as they did

when the Court in In re Contested Election in Fifth Ward of Lancaster City struck
down "Act May 22, 1923" (P. L. 309; Pa. St. Supp. 1924,

§

9775a1, et seq.) and

invalidated the illegal mail -in ballots cast thereunder. Article VII, Section 4
8

0128a
remains exactly the same as it did when the 1924 case was decided. Article VII,
Section

1

has only distinctly changed in three ways since the 1924 case: (1) the

voting age requirement was changed to 18, from 21; (2) the state residency

requirement was lowered from

1

year, to 90 days; and (3) Clause

3

of Article VII,

Section VII was amended to allow a Pennsylvania resident who moves to another

County within 60 days of an election to vote in their previous county of residence.
None of these changes to Article VII, Section

1

have any material importance to

the case at hand and were not relevant to the Pennsylvania Supreme Court's

decision in In re Contested Election in Fifth Ward of Lancaster County. Therefore,

because the Pennsylvania Constitution remains, for all relevant purposes,
unchanged since 1924 with regard to the qualifications and requirements for voting
in an election, the Court's holding in that case is not only instructive to this case,

but determinative.
D.

Post-World -War -II and the modern absentee voting provision in
the Pennsylvania Constitution.

In 1949, the

Pennsylvania Constitution was amended to also allow bedridden

or hospitalized war veterans the ability to vote absentee. Pa. Const. Art. 8,

§ 18

(1949). In 1957, the legislature began the process of amending the constitution to

allow civilian absentee voting in instances where unavoidable absence or physical

disability prevented them from voting in person. See Absentee Ballots Case, 423
Pa. 504, 508, 224 A.2d 197, 199-200 (1966). Because
9

of the restrictions and

0129a
safeguards under Article XI, the 1957 amendment to the constitution did not go
into effect until 1960. Id. The constitutional amendment effectively expanded

eligibility for absentee voting to include only two categories of qualified electors:
(1) those who on election day would be absent from their municipality of residence

because of their duties, occupation, or business; and (2) those who are unable to
attend their proper polling place because of illness or physical disability. Pa. Const.
Art. 7,

§

19 (1957).

Issues arose immediately with the canvassing and computation of ballots

under the newly expanded absentee voting system, and any challenges to absentee
ballots that were rejected by the board of elections resulted in the challenged
ballots being placed with ballots that were not challenged to be counted, making it

impossible to correct if it was later determined that the decision to reject the
challenge was incorrect.

See Absentee Ballots Case, 423 Pa. 504,

509, 224 A.2d

197, 200. In response, "the legislature added further amendments by the Act of

August 13,

1963, P.L.

707,

25

Pa. Stat.

§ 3146.1

et seq. (Supp.

1965)"

to require

the board of elections to mark any ballot that was disputed as "challenged," hold a

hearing on the objections, and the decision was opened up to review by the court of
common pleas in the county involved. Id. Until all challenges were resolved, the
board of elections was required to desist from canvassing and computing all

challenged ballots to avoid the possible mixing of valid and invalid ballots. Id In
10

0130a
1967 following the Constitutional Convention, the Pennsylvania Constitution was

reorganized and Article VII, Section 19 was renumbered to Article VII, Section 14.
On November 5, 1985, the citizens of Pennsylvania approved another

amendment to Article VII, Section 14 of the Pennsylvania Constitution, which
added religious observances to the list of permissible reasons for requesting an
absentee ballot (the "1985 Amendment"). The 1985 Amendment began as HB 846,
PN 1963, which would have amended the Pennsylvania Election Code to provide

absentee ballots for religious holidays and for the delivery and mailing of ballots.
See Pa. H. Leg. J. No. 88, 167th General Assembly, Session of 1983, at 1711 (Oct.

26, 1983) (considering HB 846, PN 1963, entitled "An Act amending the

`Pennsylvania Election Code,' ...further providing for absentee ballots for

religious holidays and for the delivery and mailing of ballots."). However, the
legislative history recognized that because the Pennsylvania Constitution
specifically delineates who may receive an absentee ballot,

a

constitutional

amendment was necessary to implement these changes. HB 846, PN 1963 was thus
changed from a statute to a proposed amendment to the Pennsylvania Constitution.
Id. (statement

of Mr. Itkin) ("[T]his amendment is offered to alleviate a possible

problem with respect to the legislation. The bill would originally amend the
Election Code to [expand absentee balloting] .... Because it appears that the

Constitution talks about who may receive an absentee ballot, we felt it might be
11

0131a
better in changing the bill from a statute to a proposed amendment to the
Pennsylvania Constitution.").
On November 4, 1997, the citizens of Pennsylvania approved another

amendment to Article VII, Section

14

of the Pennsylvania Constitution, which

expanded the ability to vote by absentee ballot to qualified voters that were outside

of their municipality of residence on election day; where previously absentee
voting had been limited to those outside of their county of residence (the "1997

Amendment"). See Pa. H. Leg. J. No. 31, 180th General Assembly, Session of
1996 (May 13, 1996) The legislative history of the 1997 Amendments recognized

the long -known concept that there existed only two forms of voting: (1) in -person,
and (2) absentee voting and that the 1997 Amendment would not change the status
quo; namely that "people who do not work outside the municipality [or county] or

people who are ill and who it is a great difficulty for them to vote but it is not

impossible for them to vote, so they do not fit in the current loophole for people

who are too ill to vote but for them it is a great difficulty to vote, they cannot vote

under [the 1997 Amendment]." Id. at 841 (statement of Mr. Cohen).
II.

The 2019 no excuse absentee voting constitutional amendment is still a
work in progress.
In 2019, the Pennsylvania General Assembly again began the process for

amending Article 7, Section 14 of the Pennsylvania Constitution; this time in order
to permit absentee voting for all voters. Senate Bill 411, 2019 (Senate Bill 411 was
12

0132a
later incorporated into Senate Bill 413). The legislative history of the proposed

amendment recognizes that "Pennsylvania's current Constitution restricts voters
wanting to vote by absentee ballot to [specific] situations....". Senator Mike
Folmer, et al., Senate Co -Sponsorship Memoranda (Jan. 29, 2019, 10:46 AM),

https://www.legis.state.pa.us/cfdocs/Legis/CSM/showMemoPublic.cfin?chamber=
S&SPick=20190&cosponId=28056. The amendment proposes to "eliminate these
limitations, empowering voters to request and submit absentee ballots for any
reason

- allowing them to vote early and

by mail." Id. (emphasis added).

Introduced on March 19, 2019, S.B. 413 as originally filed was a joint

resolution proposing an amendment to the Pennsylvania Constitution related to

judicial retention elections and contained nothing related to the constitution's
absentee voting provision. See Bill Information - History, Senate Bill 413; Regular
Session 2019-2020, Pa. General Assembly,

https://www.legis.state.pa.us/cfdocs/bill

history.cfm?syear=2019&sind=0

&body=S&type=B&bn=413. The bill passed out of the Senate on October 22,
2019 and was sent to the House where it was referred to the House Committee on
State Government a few days later. On April 6, 2020, S.B. 413 was reported as

amended from committee. Id Its caption was changed from the introduced version
which read: "A Joint Resolution proposing separate and distinct amendments to the

Constitution of the Commonwealth of Pennsylvania, further providing for tenure of
13

0133a
justices, judges and justices of the peace," to "A Joint Resolution proposing
separate and distinct amendments to the Constitution of the Commonwealth of
Pennsylvania, further providing for tenure of justices, judges and justices of the
peace; and further providing for absentee voting." See S.B. No. 413, Printer's No.
1624, 203rd General Assembly, Session of 2019 (Apr. 6, 2020) (underlining

added).
In its amended form with the added provisions seeking to amend the

Pennsylvania Constitution's absentee voting restrictions, S.B. 413 was passed by a
majority of both Houses and filed with the Office of the Secretary of the
Commonwealth on April 29, 2020. See Bill Information - History, Senate Bill 413;

Regular Session 2019-2020, Pa. General Assembly,
https://www.legis.state.pa.us/cfdocs/billinfo/bill_history.cfm?syear=2019&sind=0
&body=S&type=B&bn=413. S.B. 413 will need to be passed by

a

majority vote in

both the Senate and House of Representatives in the next legislative session and

then appear on the November 2021 general election ballot to be approved by a
majority of the electors in order to be ratified and properly approved pursuant to
the established procedures set forth under the Pennsylvania Constitution. See Pa.

Const. Art. XI,

§ 1.

If properly approved and ratified by a majority of voters in

2021, S.B. 413 will amend Article VII, Section 14 as follows:
(a) The Legislature shall, by general law, provide a
manner in which, and the time and place at which,
14

0134a
qualified electors who may, on the occurrence of any
election, be absent from the municipality of their
residence, because their duties, occupation or business
require them to be elsewhere or who, on the occurrence
polling places because of illness or physical disability or
who will not attend a polling place because of the
observance of a religious holiday or who cannot vote
because of election day duties, in the case of a county
employee, may vote, and for the return and canvass of
their votes in the election district in which they
respectively reside. A law under this subsection may
not require a qualified elector to physically appear at
a designated polling place on the day of the election.

(b) For purposes of this section, "municipality" means a
city, borough, incorporated town, township or any similar
general purpose unit of government which may be
created by the General Assembly.
S.B. No. 413, Printer's No. 1624, 203rd General Assembly, Session

of 2019, at 3

(Apr. 6, 2020) (removing strikethrough text and inserting bolded text).
The General Assembly later went on to establish a "Select Committee on

Election Integrity" to "investigate, review and make recommendations concerning
the regulation and conduct of the 2020 general election." See H. Res. 1032,

Printer's No. 4432, 204th General Assembly, Session of 2019, at 3 (Sept. 28,
2020). The resolution establishing the committee noted that the "Commonwealth

has traditionally only allowed absentee voting by individuals with a statutorily

defined excuse to do so, such as a physical disability or absence from their

municipality on election day." Id. at (emphasis added). It further notes that
1

15

0135a
"[b]efore the enactment of Act 77 of 2019, for an individual to vote absentee in
this Commonwealth, the individual must have provided a permissible reason to do

so...." Id. It

is

expressly acknowledged that Act 77 of 2019, "created a new

category of mail -in voting ... [whereby] mail -in voters do not have to provide a
customary reason to vote by mail and are able to return their ballots several days
later than had traditionally been allowed." Id. at 2.
As with every other amendment to the Pennsylvania Constitution, S.B. 413

faces additional hurdles and requirements imposed by the Pennsylvania

Constitution before it becomes law and its changes have any valid, legally binding

effect.' A majority of the Pennsylvania Senate and House of Representatives will
each need to pass the constitutional amendment again in the upcoming 2020-2021
Session. If the General Assembly again passes the proposed amendment in that

session, it will then be published publicly and presented to voters as a ballot

question in 2021. Pennsylvania voters will have the final say on whether no -excuse

mail-in/absentee voting will for the first time become a legal method of voting in

Pennsylvania elections.

It is worth noting that, even in light of the ongoing COVID-19 pandemic, the
legislature chose not to use the "emergency amendment" process in the Pennsylvania
Constitution that provides for an expedited amendment process. See Pa. Const. Art.
XI, § 1 (a) -(b).
1.

16

0136a
III.

Recent Unconstitutional Attempts to Expand Absentee Voting in
Pennsylvania
A.

Act 77 of 2019

On October 31, 2019, Governor Wolf signed Act 77 of 2019 into law, which

implemented sweeping reforms to the elections process in Pennsylvania. Among
other changes, Act 77 "create[ed] a new option to vote by mail without providing
an excuse"; allowed voters to request and submit mail -in or absentee ballots up to
50 days before an election; and established a semi -permanent mail -in and absentee

ballot voter list. See, e.g., Press Release, Governor Wolf Signs Historic Election
Reform Bill Including New Mail -in Voting, Governor Tom Wolf (Oct. 31, 2019),

https://www.govemor.pa.govinewsroom/governor-wolf-signs-election-reform-billincluding-new-mail-in-voting/.
B.

Act 12 of 2020

On March 27, 2020, Governor Wolf signed Act 12 into law, see Act of Mar.
27, 2020, Section

1,

P.L. No. 41, No. 12 (hereinafter "Act 12"), which made

further significant changes to the Pennsylvania Election Code, which included
inter alia:
Amending the definition of "qualified mail -in elector" to delete the
exclusion of "qualified absentee elector" in its definition. The only type

of individuals now excluded from the definition are "person[s]

17

0137a
specifically prohibited from being a qualified absentee elector

undersection 1301." Id. Section

1.

Eliminating penalties for applying for the incorrect kind of ballot (e.g.,
applying for absentee when mail -in was appropriate, vice -versa). Id.
Section 8.

Establishing the Pennsylvania Election Law Advisory Board to study the
Election Code and other election matters and provide recommendations.
Id. Section 15.

Allowing for a 60% reduction in the number of polling places in each
county and allowed for multiple polling places to be located in the same
building. Id. Section 16.

Postponing the date of the 2020 Primary Election to June 2, 2020. Id.

ARGUMENT
I.

Standard for Granting a Preliminary Injunction.
A preliminary injunction's purpose is to preserve the status quo and to

prevent imminent and irreparable harm that might occur before the merits of a case
can be heard and determined. Ambrogi v. Reber, 932 A.2d 969, 976 (Pa. Super.

2007), Walter v. Stacy, 837 A.2d 1205, 1209 (Pa. Super. 2003).

Pennsylvania Law is well settled regarding the prerequisites that must be
established by the movant in order to obtain a Preliminary Injunction. "There are
18

0138a
six 'essential prerequisites' that a party must establish prior to obtaining

preliminary injunctive relief. The party must show: 1) 'that the injunction is
necessary to prevent immediate and irreparable harm that cannot be adequately

compensated by damages'; 2) that greater injury would result from refusing an
injunction than from granting it, and, concomitantly, that issuance of an injunction

will not substantially harm other interested parties in the proceedings'; 3) 'that a

preliminary injunction will properly restore the parties to their status as it existed
immediately prior to the alleged wrongful conduct'; 4) 'that the activity it seeks to

restrain is actionable, that its right to relief is clear, and that the wrong is manifest,
or, in other words, must show that it is likely to prevail on the merits'; 5) 'that the

injunction it seeks is reasonably suited to abate the offending activity'; and, 6) 'that
a preliminary injunction will not adversely affect the public interest.' Warehime v.

Warehime, 580 Pa. 201, 209-210, 860 A.2d 41, 46-47 (2004) (citing, Summit
Towne Centre. Inc,

v.

Shoe Show of Rocky Mount Inc., 573 Pa. 637, 828 A.2d 995,

1002 (2003)). Additionally, the Court may enter an ex parte injunction

if the

moving party can demonstrate that "immediate and irreparable injury will be
sustained before notice can be given or a hearing held." Pa. R. Civ. P. 1531(a);
Commonwealth ex rel. Costa

v.

Boley, 441 Pa. 495, 272 A.2d 905, 909 (1971).

19

0139a
II.

The Injunction Is Necessary to Prevent Immediate and Irreparable
Harm to the Petitioners That Cannot Be Otherwise Adequately
Compensated by Damages.
The injunction in this case is necessary to prevent Petitioners from suffering

the permanent, irreparable harm of an illegal election conducted pursuant to

unconstitutional laws. As an initial matter, the Supreme Court has consistently held
that, "[w]hen the Legislature declares certain conduct to be unlawful it is

tantamount in law to calling it injurious to the public. For one to continue such
unlawful conduct constitutes irreparable injury." Pennsylvania Public Utility
Commission

v.

Israel, 356 Pa. 400, 406, 52 A.2d 317, 321 (1947); see also Council

13, AFSCME v. Casey, 141 Pa. Cmwlth. 199, 595 A.2d 670 (1991). An illegal

action, should it be allowed to continue, is an irreparable harm. Milk Marketing

Board v. United Dairy Farmers Co-op Association, 450 Pa. 497, 299 A.2d

191

(1973) (plurality) (affirming issuance of a preliminary injunction and finding

irreparable harm because Petitioners violated state statute by selling milk below the
minimum prices mandated by state law); Pennsylvania Public Utility Commission
v.

Israel, 356 Pa. 400, 52 A.2d 317 (1947) (affirming issuance of a preliminary

injunction on the basis that Petitioners violated a state statute requiring taxicabs to
have a certificate of public convenience); Commonwealth ex rel. Corbett v. Snyder,
977 A.2d 28 (Pa. Cmwlth. 2009) (affirming issuance of a preliminary injunction

20

0140a
and finding that irreparable harm was presumed where there was a credible

violation of the consumer protection law).
The same kind of irreparable harm, as a matter of law, has been found in

instances where legislative acts that are preempted or not in accordance with a

higher authority. Firearm Owners Against Crime v. Lower Merion Twp., 151 A.3d
1172, 1180 (Pa. Cmwlth. Ct. 2016). In Firearm, the Court found that a town

ordinance that violated state statutory law constituted irreparable injury.

"[R]egardless of the persuasiveness of the Township's argument,

[]

binding case

law mandates that the Ordinance is preempted by section 6120(a) of the UFA and,

therefore, the Township's enactment of the same violates the UFA. Thus, issuance

of a preliminary injunction is necessary to prevent immediate and irreparable harm,
i.e., the continued statutory violation." Id.

"When an alleged deprivation of a constitutional right is involved ... most
courts hold that no further showing of irreparable injury is necessary." Bullock v.

Carney, 806 F. App'x 157, 160 (3d Cir. 2020) (quoting 11A Charles Alan Wright
& Arthur P. Miller, Fed. Prac. & Proc.,

§

2948.1 (3d ed. Apr. 2012 update)).

Accordingly, the per se irreparable harm as a matter of law standard need be
applied in situations where legislation is in violation of the Pennsylvania

Constitution. Here the General Assembly enacted a law -Act 77 - that is clearly in
violation of the Pennsylvania Constitution. Should the court find, based on the
21

0141a
facts laid out in the Complaint and the arguments set out below, that it is at least

likely that

a

violation of the Pennsylvania Constitution occurred, then the inquiry

should end there

- immediate and irreparable harm

is found as a matter

of law.

In the alternative, should the Court not find irreparable harm as a matter of

law, the irreparable harm prong is nonetheless satisfied because the November 3,

2020, General Election was conducted pursuant to unconstitutional legislation; a

failure by the court to enjoin early certification of those derivatively

unconstitutional results (which to this point include mail -in ballots), would strip
the court of the ability to redress the harm suffered by Petitioners and all

Pennsylvanians. Once elections are certified and electors are appointed, the court's
ability to undo such certification and provide redressability for the November 3,
2020, General Election becomes impossible.
For presidential and vice-presidential elections, states must choose their

electors "at least six days before the time fixed for the meeting of electors" in order
to meet the federal "safe harbor" deadline.

3

U.S.C.

§

5.

For the 2020 General

Election, electors must be chosen by December 8, 2020, in order to ensure that
they are able to meet and vote at the time prescribed by law
at 12:00 PM

- December 14, 2020,

- and have that vote counted in Congress. Once such votes are cast by

the presidential and vice-presidential electors, this court would lose any authority
to provide relief to Petitioners, and Petitioners would have no other forum in which
22

0142a
to have their claims redressed. At a minimum, the Secretary and Governor should
be enjoined from certifying and appointing presidential and vice-presidential

electors until this Court is able to issue a decision on the merits of this action.
Although no similar deadline exists with regard to United States House of

Representatives election

,

it is

unlikely that the Court would be able to provide

relief once the returns of these races have been certified and the Governor has
transmitted those returns to the Speaker of the House of Representatives pursuant
to 25 Pa. Stat.

§

3163. Similarly, with respect to General Assembly elections, there

is no certification deadline, however, pursuant to the Pennsylvania Constitution the

new General Assembly is seated on December

1st

after which, relief would be

impracticable. Pa. Const. Art. II, Sec, 2.
The failure of an election to choose electors, must be resolved subsequently
by the legislature prior to the appointment of electors "in such a manner as the

legislature of such State may direct." 3 U.S.C.

§

2. Thus, the determination of a

failure in the election must be resolved prior to the Secretary exercising her

authority to certify the elections, prior to the Governor issuing commissions for the
Electors, and prior to the Electors submitting their votes for the Electoral College.
Without an immediate temporary injunction, therefore, relief becomes impossible,
and the harm is rendered irreparable. Finally, should this litigation, and the

subsequent appellate process, continue past December 14th
23

- the date that the

0143a
Electors cast their votes- the court would have no power in law or in equity to

undue the resulting wrongs.

III.

Greater injury would result from allowing certification of election
results conducted pursuant to an unconstitutional mail -in voting scheme
than from prohibiting it.
The second prerequisite to the issuance of a preliminary injunction is that the

party requesting the injunction must show that greater injury would result from
refusing an injunction than from granting it and concomitantly, that issuance of an

injunction will not substantially harm other interested parties in the proceedings.
The York Grp., Inc.

v.

Yorktowne Caskets, Inc., 924 A.2d 1234, 1244 (Pa. Super.

2007). This requirement is satisfied here as well.
The injunction requested is temporary and will only prevent the Secretary

and Governor from performing certain ministerial actions far in advance of the

statutory deadlines set in Federal Law (December

8th

for certification of electors,

December 14' for casting of electoral votes) or the Pennsylvania Constitution

(December 1' for General Assembly to take office). Should the Court ultimately
find for the Respondents, the only harm suffered by the Respondents is a slight

delay of certification of results, a largely procedural step that benefits Respondents
in no way if done early. Conversely, if the limited injunction is not granted,

Respondents harm becomes irreparable, and Petitioners, along with all

Pennsylvanians, must permanently suffer the fruits of an unconstitutional election.
24

0144a
Juxtaposing the harms, it becomes clear that the lack of injury from a short delay to
a procedural mechanism for the sake

of preserving any form of redressability for

Petitioners is a favorable outcome for all parties involved.
IV.

Granting the Preliminary Injunction Will Maintain the Status Quo and
Prevent Respondents from Inflicting Permanent Damage Through
Their Illegal Conduct.
The sole object of a preliminary injunction is to preserve the subject of the

controversy in the condition in which it is when the order is made, it is not to
subvert, but to maintain the existing status until the merits of the controversy can
be fully heard and determined. Chipman ex rel. Chipman v. Avon Grove School

Dist., 841 A.2d 1098, 1101 (Pa. Cmwlth. 2004.) (citing Little Britain Township
Appeal, 651 A.2d 606 (Pa. Cmwlth. 1994)). "The status quo to be maintained by a

preliminary injunction is the last actual, peaceable and lawful noncontested status
which preceded the pending controversy." Valley Forge Historical Soc y v.
Washington Memorial Chapel, 493 Pa. 491, 501, 426 A.2d 1123, 1129 (Pa. 1981).
To be clear, the harm suffered by Petitioners is not simply that of being

subject to unconstitutional legislation, though that is a cognizable harm under the
law. The realized harm is the resulting wrongs of conducting the November 3,

2020, General Election pursuant to unconstitutional legislation. Prior to the
November 3, 2020, General Election taking place, there were no results to be
certified

- indeed certification would be logically impossible, as no results yet
25

0145a
existed. As it stands at the time of the submission of this motion, the returns and

results of the November 3, 2020, elections have also not been certified, and,
consequently, electors have not yet been appointed. Thus, a narrow window exists
in which a properly tailored injunction issued by this court will preserve the status

quo as

it

existed prior to the wrongful conduct at issue. Such an injunction would

preserve Petitioners' rights and allow the court adequate time to decide the
presented questions of law, while retaining the ability to meaningfully redress the
harm. Moreover, as mentioned above, such an injunction would in no way

prejudice Respondents. If injunctive relief is not granted, and a final hearing on the
merits is not immediately scheduled, Petitioners will be robbed of their ability to
see their harms redressed.

The requested injunctive relief in this matter is appropriate because it will
properly restore the parties to their status as it existed immediately prior to the

alleged wrongful conduct. Consequently, the third prerequisite necessary to the

grant of preliminary injunctive relief has been satisfied.
V.

Act 77 is a Clear Violation of the Constitution and the Pennsylvania
Supreme Court has Previously Struck Down Similar Laws and Set
Aside Illegal Mail -in Ballots, Thus Petitioners are Likely to Prevail on
the Merits.
The fourth prerequisite to the issuance of a preliminary injunction is that the

Petitioners must show that the activity they seek to restrain is actionable, that their

26

0146a
right to relief is clear, and that the wrong is manifest, or, in other words, must show
that they are likely to prevail on the merits.
To establish a, "clear right to relief," the party seeking an injunction need
not prove the merits of the underlying claim, but need only show that substantial
legal questions must be resolved to determine the rights of the respective parties.

Walter

v.

Stacy, 837 A.2d 1205, 1209 (Pa. Super. 2003) (quoting, Chmura

v.

Deegan, 581 A.2d 592, 593 (Pa. Super. 1990)); see also, Ambrogi v. Reber, 932
A.2d 969, 976 (Pa. Super. 2007) (citing Walter, 837 A.2d at 1209 ("[T]he party
seeking an injunction is not required to prove that he will prevail on his theory of

liability, but only that there are substantial legal questions that the trial court must

resolve to determine the rights of the parties.")).
A.

The Pennsylvania Constitution require voting to take place in
person, subject only to specified absentee voting exceptions.

Article I, Section 4 and Article II, Section

1

of the U.S. Constitution grant

plenary authority to state legislatures to enact laws that govern the conduct of
elections. Yet, while the "legislature may enact laws governing the conduct of

elections[,]... 'no legislative enactment may contravene the requirements of the

Pennsylvania or United States Constitutions.' Kauffmaun
157-58 ( (1970) (Cohen, J. dissenting) (citing Winston
A. 520 (1914),

v.

v.

Osser, 441 Pa. 150,

Moore, 244 Pa. 447, 91

and quoting Shankey v. Staisey, 436 Pa. 65, 68-69, cert denied 396

U.S. 1038 (1970)); see also, e.g., Smiley

v.

27

Holm, 285 U.S. 355, 369 (noting that

0147a
state Legislatures are constrained by restrictions imposed by state constitutions on

their exercise of the lawmaking power, even when enacting election laws pursuant
to U.S. Constitutional authority).

Article VII, Section

1

of the Pennsylvania Constitution outlines the

authorities under which the Pennsylvania legislature enacts election laws. As the
Pennsylvania Supreme Court has noted, in evaluating absentee voting legislation,
one must first look at what requirements the constitution places on qualifying to be

an elector in Pennsylvania. "For the orderly exercise of the right resulting from

these qualifications ... the Legislature must prescribe necessary regulations .... But
this duty and right inherently imply that such regulations are to be subordinate to
the right .... As a corollary of this, no constitutional qualification of an elector can
in the least be abridged, added to,

or altered by legislation or the pretence of

legislation." In re Contested Election in Fifth Ward of Lancaster City, 281 Pa. 131,
135-36 (Pa. 1924) (emphases added).

The current Pennsylvania Constitution sets out the following qualifications

for voting: (1) 18 years of age or older; (2) citizen of the United States for at least
one month; (3) has residence in Pennsylvania for the 90 days immediately

preceding the election; and (4) has residence in the "election district where he or
she shall offer to vote at least 60 days immediately preceding the election ...." Pa.
Const. Art. VII,

§

1

(emphasis added). As held by the Pennsylvania Supreme Court
28

0148a
in Chase v. Miller, 41 Pa. at 418-19, and In

re Contested Election in Fifth Ward of

Lancaster City, 281 Pa. at 134-35, "To 'offer to vote' by ballot is to present one's
self, with proper qualifications, at the time and place appointed, and to make

manual delivery of the ballot to the officers appointed by law to receive it. The

ballot cannot be sent by mail or express, nor can it be cast outside of all

Pennsylvania election districts and certified into the county where the voter has his
domicil." The Pennsylvania Constitution has not been amended to change or
eliminate this qualification since Chase. Therefore, in-person voting remains a

requirement under law, unless otherwise exempt by the constitution.
In addition to Article VII, Section

1,

the language of Article VII, Section

5

also provides for certain voting requirements that as a general matter can only be

accomplished in person. Section

5

prescribes that "[a]11 elections by the citizens

shall be by ballot or by such other method as may be prescribed by law: Provided,

Mat secrecy in voting be preserved.- Pa. Const. Art VII, § 5 (emphasis added).
The secrecy requirement is determinative. Between 1888 and the early 20th

Century, most states adopted secret ballot laws (also known as the "Australian

ballot") in response to growing concern about widespread fraud and coercion in
elections. See John C. Fortier & Norman J. Ornstein, The Absentee Ballot and the

Secret Ballot: Challenges for Election Reform, 36 U. Mich. J.L. Reform 483, 486
(2003). Secret ballots have four significant characteristics:
29

0149a
the ballots were printed and distributed at public
expense; 2) they contained the names of all the
candidates duly nominated by law, either by party
convention or the petition of voters (a "blanket ballot");
3) they were distributed only by election officers at
the polling place ("exclusive" or "official ballot") and 4)
1)

there were detailed provisions for compartments and
other physical arrangements to ensure secrecy in
casting the vote."
Id. at 488 (emphasis added).

In Pennsylvania, the secrecy provision remains "part of our fundamental

law." In re Contested Election in Fifth Ward of Lancaster City, 281 Pa. at 138.
mail -in voting, in the extreme form implemented by Act 77, inherently does not

meet the historical standards of the constitution's secrecy requirements and

provides little other protections to ensure that "secrecy in voting" is preserved.
Therefore, absent specific constitutional exceptions, the Legislature is bound by
the in person voting requirement.

Article VII, Section 14 provides the only such exceptions to the in propria

persona voting requirement of the Pennsylvania Constitution, in four specific
circumstances. It states:
(a) The Legislature shall, by general law, provide a
manner in which, and the time and place at which,
qualified electors who may, on the occurrence of any
election, be absent from the municipality of their
residence, because their duties, occupation or business
require them to be elsewhere or who, on the occurrence
of any election, are unable to attend at their proper
polling places because of illness or physical disability or
30

0150a
who will not attend a polling place because of the
observance of a religious holiday or who cannot vote
because of election day duties, in the case of a county
employee, may vote, and for the return and canvass of
their votes in the election district in which they
respectively reside.
(b) For purposes of this section, "municipality" means a
city, borough, incorporated town, township or any similar
general purpose unit of government which may be
created by the General Assembly.
Pa. Const. Art. VII,

14. Importantly, outside the aforementioned prescribed

§

situations, the constitution does not provide

a

mechanism for the Legislature to

allow for expansion of absentee voting.
B.

Act 77 is illegal and void ab initio because it attempts to expand
the exceptions to in propria persona voting requirements beyond
what the Pennsylvania Constitution currently allows.

"The Legislature can confer the right to vote only upon those designated by
the fundamental law, and subject to the limitations therein fixed." In re Contested

Election in Fifth Ward of Lancaster City, 281 Pa. at 137 (citing McCafferty

v.

Guyer, 59 Pa. 109). Act 77 unconstitutionally expands the scope of absentee voting

permitted by the Pennsylvania Constitution to all voters.
Act 77, as amended, defines a "qualified mail -in elector" as "a qualified

elector." 25 Pa. Stat.

§

2602(z.6). A "qualified elector" is "any person who shall

possess all of the qualifications for voting now or hereafter prescribed by the
Constitution of this Commonwealth, or who, being otherwise qualified by

31

0151a
continued residence in his election district, shall obtain such qualifications before
the next ensuing election." Id.

§

2602(t). In short, Act 77 qualifies all electors as

mail in electors.

Moreover, newly -created 25 Pa. Stat., Chapter 14, Article XIII-D,
(25 Pa. Stat.

§

3150.11) states:

§

3150.11. Qualified mail -in electors.

§

3510

(a) General rule.-- A qualified mail -in elector shall be
entitled to vote by an official mail -in ballot in any
primary or election held in this Commonwealth in the
manner provided under this article.

(b) Construction.-- The term "qualified mail -in elector"
shall not be construed to include a person not otherwise
qualified as a qualified elector in accordance with the
definition in section 102(t).

Separately, absentee voting is defined in 25 Pa. Stat., Chapter 14, Article 13.
3146.1 (25 Pa. Stat.

§

3146.1), which outlines a variety of categories of eligibility

that are each consistent with Article VII, Section 14 of the Pennsylvania

Constitution. See also 25 Pa. Stat.

§

2602(w) (defining 14 types of qualified

absentee electors).
Act 77 created a false distinction between the existent "absentee voting" and

"mail -in voting". Taking an inartful twist such as simply renaming the mechanism

yields a distinction without a difference. The Legislature subverted the limitations
in Section 14 by creating a fictitious distinction between the pre-existing "absentee

voting" and the newly created "mail -in voting." In reality, there is no distinction
32

0152a
except that mail -in voting is simply absentee voting without any of the
inconvenient conditions precedent that the constitution requires in order for
someone to be permitted to cast a ballot without being physically present at the
polls on election day.

Absentee voting is only Constitutionally authorized under the four limited

circumstances specifically delineated under Section 14, whereas Act 77 opens
absentee voting to all other qualified voters in the Commonwealth who do not meet
the constitutional requirements for absentee voting, without excuse or limitation,
and simply relabels the voting mechanism as "mail -in voting" as opposed to

"absentee voting." Taking an inartful twist such as simply renaming the
mechanism yields a distinction without a difference.
The Legislature further attempted to disguise the obvious redundancy

between mail -in voting and absentee voting by refusing to add "mail -in voting" to
25 Pa. Stat., Art. XIII (which governs "Voting By Qualified Absentee Elector")

and instead created a new Article (25 Pa. Stat. Art. XIII-D, "Voting By Qualified

Mail -In Electors"). By doing this, it appears the Legislature intended to obscure

that the two are one in the same, except that absentee voters are required to satisfy
additional conditions mandated by the Pennsylvania Constitution whereas mail -in

voters are not. The goal is clear: vastly expand absentee voting and remove all

conditions precedent and requirements to make it a universal voting mechanism,
33

0153a
while obscuring the fact that such voting method would violate the Pennsylvania

Constitution and could only be properly enacted through a Constitutional
Amendment. However, renaming a vast, unconstitutional expansion of absentee
voting as "mail -in voting" does not, and cannot make the conduct valid or effective
as a matter of law.'

Controlling Pennsylvania Supreme Court precedent makes clear that where
a particular Constitutional provision provides for a specific mechanism

of action,

any attempt by the Legislature to alter or include a different procedure is

unconstitutional. South Newton Township Electors

v.

South Newton Township

Supervisor, Bouch, 575 Pa. 670, 675 (2003). Conversely, the Pennsylvania

Constitution may also specifically reserve to the Legislature the authority to
determine the procedural mechanisms by which the Constitutional mandates are
carried out, thereby allowing the Legislature to impose conditions or requirements
not established under the Pennsylvania Constitution. Id.

The Supreme Court has previously focused on whether the Pennsylvania

Constitution establishes exclusive grounds for achieving a particular act or result,
and has held that "impracticality" or unfairness of the more rigid procedure in the

2. In a haphazard attempt to create the distinction between absentee and mail -in, the

legislature defined "qualified mail -in elector" is a "qualified elector who is not a
qualified absentee elector." Again, the definitional distinction is non -yielding
because there is no longer any functional purpose to applying for an absentee ballot.
34

0154a
Constitution is no reason to preserve a conflicting legislation. Id. at 677. Here, the

Pennsylvania Constitution provides for two exclusive methods of voting: (1)

in -

person, and (2) by absentee, which is exclusively permitted under the four above -

described circumstances. "No principle is more firmly imbedded in our law than

that when the Constitution expressly provides a single method for accomplishing a
particular purpose that method is exclusive." Citizens Committee to Recall Rizzo v.

Board of Elections of City and County of Philadelphia, 470 Pa.
Com. Ex rel Smillie

v.

1, 34

(1976) (citing

McElwee, 327 Pa. 148, 158-159 (1937)). The mail -in

scheme functions to make the exclusive absentee ballot structure into an allinclusive one.

Challenges to unconstitutionally enacted mail -in voting legislation date as
far back as Chase v. Miller in 1864, where the Pennsylvania Supreme Court struck

down the Military Absentee Voting act of 1839 for violating the 1838

Pennsylvania Constitution that contained no absentee voting provision. See

generally Chase v. Miller, 41 Pa. 403 (1862) After the Pennsylvania Constitution
was amended to allow for military absentee voting, the Pennsylvania Supreme
Court again struck down

a

civil absentee voting act in the 1924 case In re

Contested Election in Fifth Ward of Lancaster City for attempting to grant civilians
the right to absentee voting in violation of the strict limitations set out by the
constitution. See generally 281 Pa. 131 (1924). In Kaffurnan
35

v.

Osser, the Court

0155a
dealt with a request for declaratory relief regarding legislation that expanded the
eligibility for absentee voting to "qualified electors and their spouses while on

`vacations'...." 441 Pa. at 153. While the majority declined to reach the merits
based on standing issues in that case, the dissent was clear in its interpretation of

the Pennsylvania Constitution's limitations on voting other than in -person on

election day:
The statute is a clear and unconscionable violation of
the Pennsylvania Constitution, which the majority
condones and I must condemn. Absent a constitutional
amendment, such enactment cannot constitutionally
stand.
This is such a clear constitutional violation and such an
open invitation to fraud that the justice and the sanctity of
the ballot demand a remedy.... We should reach the
issues here and not retreat behind the facade of standing.
If there is to be judicial protection of the sanctity of the
ballot from unconstitutional exercise of legislative
authority in establishing voting procedures, standing
should be permitted and the issues determined.

Kauffman, 441 Pa. at 157-59 (citations omitted).

The General Assembly was fully aware that a constitutional
amendment was necessary to implement the election code changes
included in Act 77.

C.

Unlike Act 77 (S.B. 421), which was introduced in March 2019 and passed
in October

of 2019, the corresponding proposed Constitutional Amendment (also

introduced in March of 2019) was debated and edited until April of 2020. Article
XI, Section

1

of the Constitution of Pennsylvania requires amendments to be
36

0156a
passed by majority vote in both the House and Senate in two separate legislative

sessions, then published and advertised for three consecutive months in two

different newspapers in each county ahead of the next general election, and finally
submitted as a ballot question during the general election to be voted on by the
qualified voters. Pa. Const. Art. XI,

§ 1.

Only if a majority of the qualified voters

vote to approve the proposed constitutional amendment, after strict compliance

with the procedural prerequisites established under Article XI, Section 1, is the

proposed constitutional amendment ratified and legally effective. See Pa. Const.,
Art. XI, §1.
There can be no good faith dispute that the proposed amendment necessary
to authorize the Legislature's desired mail -in voting scheme has not been fully

ratified, as the proposed amendment still needs to be approved a second time by
the legislature, as well as voted on by Pennsylvania voters. See Pa. Const. Art. XI,
§

1

(stating the procedure necessary for a constitutional amendment to become

effective). Likewise, there can be no genuine dispute or disagreement over the fact
that Act 77 was enacted in blatant violation and disregard of Article VII, Section
14

of the Pennsylvania Constitution and the universal mail -in voting scheme

enacted by the Legislature under color of law and fervently promoted by the
Secretary is unconstitutional and void ab initio. In order to pass any law

authorizing no -excuse mail -in voting or otherwise modifying or expanding the
37

0157a
availability of absentee voting in any capacity, the Legislature was required to first
follow and strictly adhere to the non-negotiable constitutional procedures for

amending the Pennsylvania Constitution, which was not done here.
Moreover, if the Legislature felt compelled to enact universal no -excuse
mail -in voting due to unanticipated circumstances caused by the COVID-19

pandemic and could not amend the constitution quickly enough for the 2020
Primary Election, the Pennsylvania Constitution expressly provides for emergency

amendments for exactly this type of scenario. See Pa. Const., Art. XI,
Act 12, Act of Mar. 27, 2020, Section

1,

§ 1;

see also

P.L. No. 41, No. 12, at Section 16

(moving ahead the 2020 primary election date to June 2020). Despite the
Pennsylvania Constitution expressly establishing a process for shortcutting the
lengthy and purposefully burdensome amendment process under emergency

circumstances, the Legislature neglected this lawful mechanism entirely and
instead attempted to enact substantial constitutional amendments aimed at

fundamentally overhauling Pennsylvania's voting system by enacting a general
law.

The legislative statement made for the pre -cursor legislative vehicle to S.B.
413 (S.B. 411) stated that:

Pennsylvania's current Constitution restricts voters
wanting to vote by absentee ballot to situations where . .
their duties, occupation or business require them to be
elsewhere or who, on the occurrence of any election, are
38

.

0158a
unable to attend at their proper polling places because of
illness or physical disability or who will not attend a
polling place because of the observance of a religious
holiday or who cannot vote because of election day
duties, in the case of a county employee, may vote, and
for the return and canvass of their votes in the election
district in which they respectively reside.' We propose to
amend the Constitution to eliminate these limitations,
empowering voters to request and submit absentee ballots
for any reason - allowing them to vote early and by
mail."

Senator Mike Folmer, et al., Senate Co -Sponsorship Memoranda (Jan. 29, 2019,
10:46 AM),

https://www.legis.state.pa.us/cfdocs/Legis/CSM/showMemoPublic.cfm?chamber=
S&SPick=201908ccosponId=28056. Notably, the Legislature itself uses the terms

"absentee voting" and "voting by mail" interchangeably, demonstrating the lack of
functional distinction between the two. The very purpose of the proposed

amendment is the same as Act 77: permitting universal mail -in voting, without the

need for any excuse or condition. Article VII, Section 14 of the Constitution does
not authorize universal mail-in voting, thus it is indisputable that a constitutional
amendment must first be passed and ratified by the qualified voters in strict

compliance with Article XI before any voter could cast a valid and lawful ballot
without being physically present at the polls on election day or meeting the
conditions precedent to qualify as an absentee voter under Article VII, Section

14.

See, e.g. Cortes, 636 Pa. at 571 (all proposed constitutional amendments must be

39

0159a
submitted to and approved by the qualified electors). The Legislature admits this
by acting to change the Constitution concurrently with passing Act 77 and creating,

among other laws, 25 Pa. Stat.

§

3150.11.

Absentee voting and mail -in ballots are distinct only in name, and in that the
latter is the former without the limitations the Constitution imposes. Both textual
interpretation and policy dictate the Act 77 is duplicative of 25 Pa. Stat. Article

13

(governing absentee electors). Otherwise, absentee voting is strictly more onerous
than the new "mail -in voting." Act 77 circumvents the Pennsylvania Constitution.

The practical realities and extremely onerous amendment process make the course

of events almost understandable, in light of the powerful, albeit misguided,
approach to increase voter participation. But what must be remembered, and
repeated, is that the constitutional amendment process is onerous for precisely the

situation where legislation attempts a broad, sweeping change to the processes

surrounding fundamental rights. To reject the onerous, inefficient nature of an
amendment process is to reject the very ability of a constitution to protect any
right.

Because the Legislature failed to strictly comply with the requirements of

Article XI, the efforts to amend the Constitution to improperly authorize universal
mail -in voting are fatally defective and inherently unconstitutional, having no
lawful basis or effect. See, e.g., Kremer v. Grant, 529 Pa. 602, 613, 606 A.2d 433,
40

0160a
439 (1992) ("[T]he failure to accomplish what is prescribed by Article XI infects

the amendment process with an incurable defect"); Sprague v. Cortes, 636 Pa. 542,
568, 145 A.3d 1136, 1153 (2016) (holding that matters concerning revisions of the

Pennsylvania Constitution require "the most rigid care" and demand "[n]othing
short of literal compliance with the specific measures set forth in Article XI.")

(quoting Commonwealth ex rel. Schnader v. Bearnish, 309 Pa. 510, 164 A. 615,
616-17 (Pa. 1932)). "However laudable the purpose of the act..., it cannot be

sustained. If it is deemed necessary that such legislation be placed upon our statute
books, then an amendment to the Constitution must be adopted permitting this to
be done." In re Contested Election in Fifth Ward of Lancaster City, 281 Pa. at 13738. The fifth requirement for Preliminary Injunction is thus met, as Petitioners

show a clear likelihood of success on the merits.
VI.

An Injunction Against Respondents is Reasonably Necessary to Prevent

Irreparable Harm.

The fifth prerequisite necessary for granting preliminary injunctive relief is

that the moving party must show that the injunction it seeks is reasonably
necessary to prevent irreparable harm. Pennsylvania courts sitting in equity have

jurisdiction to prevent the continuance of acts prejudicial to the interest of
individual rights, including the authority to enjoin the wrongful acts where
monetary damages are inadequate. The York Grp., Inc., 924 A.2d, at 1244 (Pa.
Super. 2007).
41

0161a
The injunction Petitioners seek is reasonably suited to abate the offending

activity. A preliminary injunction at this point would merely prevent the fruits of
an unconstitutional election from becoming "final," thereby preserving Petitioners'

ability to continue to seek permanent relief from this court. The remedy requested
in the instant motion is narrowly tailored to prevent immediate and irreparable

harm to Petitioners that has been caused by an election perpetrated pursuant to an

unconstitutional election code.
Petitioners, and the entire Pennsylvania electorate, were subject to an

unconstitutional election code leading up to and through the November 3, 2020,
General Election. Indeed, Petitioners continue to remain subject to such

unconstitutional laws. Act 77 was enacted without regard for the Pennsylvania

Constitution, nor for the protections granted therein. It is without question: a
simple delay in the certification of the election results that in no way harms

Respondents is more than reasonably necessary to provide the court with time to
review and make a decision on the merits.

If injunctive relief is granted, the Petitioners' remedy will be preserved. The
preliminary injunction requested would not last longer than necessary under the

circumstance, but only until the rights of the parties could be determined by

a full

and final hearing on the merits. In the case at bar, there is no doubt that grant of the

requested preliminary injunctive relief is reasonably suited to abate the offending
42

0162a
activity until the matter can be fully adjudicated. For the reasons as set forth

herein, the fifth prerequisite necessary for granting preliminary injunctive relief has
been satisfied by Petitioners.

VII.

The Public Interest Will be Served by Preventing the Premature
Certification of Election Results that Includes Illegal Mail -in Ballots.
The sixth and final prerequisite that must be satisfied before a preliminary

injunction may be ordered is that the party seeking an injunction must show that

the injunction will not adversely affect the public interest. The Respondents'
actions constitute a flagrant attempt to deny the electorate the protections afforded
to it by the Pennsylvania Constitution. Respondents' actions represent

a

concerted

effort to subvert the Pennsylvania Constitution, especially in light of their tacit

acknowledgement that the Constitution required amendment, their attempt to make
such amendment, and their abandonment of such efforts.

"Among the factors that a court must weigh in deciding whether or not to
grant a preliminary injunction is the effect such a preliminary injunction would
have on the public interest." Philadelphia

v.

District Council 33. AFSCME, 528

Pa. 355, 364, 598 A.2d 256, 260 (Pa. 1991). See also, Allegheny Anesthesiology

Associates

v.

Allegheny General Hosp., 826 A.2d 886, 893 (Pa. Super. 2003) (harm

to the public is an additional consideration in the issuance or denial

preliminary injunction).

43

of a

0163a
In the instant matter, there exists no evidence to support a claim that the

issuance of a preliminary injunction will in any way harm the public interest.

Rather, the public interest will be served well by granting injunctive relief because
there is no greater public interest than that of an electorate exercising its right to

a

free, fair, and lawful election. That public interest will not be harmed by a

temporary delay in certification while the Court decides the questions of law raised
by the instant action. The public interest strongly favors issuance of injunctive

relief.

CONCLUSION:
As all six of the prerequisites for injunctive relief are satisfied and the

issuance of a preliminary injunction is reasonable and necessary. As a result,

Petitioners' motion should be granted.
Respectfully submitted,
OGC Law, LLC

ory H. Teufel, Esq.
Attorney for Petitioners

44

0164a
CERTIFICATE OF COMPLIANCE
I

certify that this filing complies with the provisions of the Public Access

Policy of the Unified Judicial System of Pennsylvania: Case Records of the

Appellate and Trial Courts that require filing confidential information and

documents differently than non -confidential information and documents.

Date: November 22, 2020

Gregory

H. Te ffel

0165a

CERTIFICATE OF SERVICE
I

hereby certify that I have this day caused to be served a true and correct

copy of the foregoing Memorandum of Law in Support of Petitioners' Motion for

Emergency/Special Prohibitory Injunction via first class U.S. mail upon the
following:
Commonwealth of Pennsylvania
Office of the Attorney General
1600 Strawberry Square
Harrisburg, PA 17120
Kathy Boockvar
Secretary of State
302 N. Office Building
Harrisburg, PA 17120

Pennsylvania General Assembly
501 N. 3rd Street
Harrisburg, PA 17120
Honorable Thomas W. Wolf
Office of the Governor
508 Main Capitol Building
Harrisburg, PA 17120

Date: November 22, 2020

regory H. Teu el

APPENDIX I

Received 11/27/2020 7:31:59 AM Supreme Court Middle District
0166a
Filed 11/27/2020 7:31:00 AM Supreme Court Middle District
68 MAP 2020

IN THE SUPREME COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK,
DEREK MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,

Docket No. 68 MAP 2020
RESPONSE TO APPLICATION
FOR THE COURT TO EXERCISE
EXTRAORDINARY
JURISDICTION

Filed on behalf of Petitioners,
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
v.
Kierzek, Derek Magee, Robin
Sauter, Michael Kincaid, and
COMMONWEALTH OF
PENNSYLVANIA, PENNSYLVANIA Wanda Logan
GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, Counsel of Record for Petitioners:
and KATHY BOOCKVAR,
Gregory H. Teufel
Pa. Id. No. 73062
Respondents.
OGC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15228
412-253-4622
412-253-4623 (facsimile)
gteufel@ogclaw.net
Petitioners,

0167a
INTRODUCTION
Act 77 (Act of October 31, 2019, P.L. 552, No. 77 (“Act 77”)), the
most expansive and fundamental change to the Pennsylvania election code
to date, is unconstitutional. Under Act 77’s no excuse mail-in ballot
scheme, any and all qualified electors are eligible to vote by mail, with no
justification required. Beginning with the Military Absentee Ballot Act of
1839, this Court has consistently rejected attempts to expand mail-in voting
by statute – uniformly holding that a constitutional amendment is required
to expand mail-in voting. Act 77 is the Commonwealth’s latest attempt to
override the protective limitations on absentee voting proscribed by
Pennsylvania’s Constitution, as interpreted by this Court over the last one
hundred and eighty-one years. This Court should not deviate from the clear
and predictable standard that it has established.
This Court’s decisions regarding Article VII of the Pennsylvania
Constitution make clear that there are two, and only two, constitutionally
permissible mechanisms by which an elector may cast a ballot : 1) offering
your ballot in propria persona at the polling place on election day; and 2)
exceptions to the first method limited to those persons qualifying under the
absentee voting provision in Article VII, § 14 of the Pennsylvania
Constitution.

0168a
As with prior attempts to illegally expand mail-in voting by statute,
which have been struck down by this Court going as far back as the Military
Absentee Ballot Act of 1839, Act 77 is another illegal attempt to override
the limitations on absentee voting without first following the necessary
procedure to amend the Pennsylvania Constitution. Respondents have at
least begun the steps necessary to certify the results of the November 3,
2020, General Elections (“the General Elections”), which was undertaken
pursuant to an unconstitutional, universal, no-excuse mail-in voting
scheme. Absent intervention by this Court, Respondents will complete the
process of certifying the results of an election conducted in a manner which
this Court has repeatedly rejected.
The Commonwealth Court wisely began to intervene with preliminary
injunctive relief in order to prevent irreparable injury from the resulting
wrongs of an election conducted pursuant to an unconstitutional and invalid
mail-in voting scheme. This Court or the Commonwealth Court should
make that relief permanent and strike down Act 77 as unconstitutional.
Petitioners do not oppose the application of the Commonwealth of
Pennsylvania, Governor Thomas W. Wolf, and Secretary of the
Commonwealth Kathy Boockvar (“the Executive-Respondents”) for this
Court to exercise extraordinary jurisdiction, should the Court find it
2

0169a
appropriate. Regardless of the procedural posture, for the reasons stated
herein, Petitioners urge this Court to either grant the relief Petitioners
requested, or such other or further relief as this Court may deem proper, or
allow the Commonwealth Court to do so.
PROCEDURAL HISTORY
The procedural history set forth in Petitioners’ Response to
Jurisdictional Statement in incorporated by reference as if fully set forth
herein.
MATERIAL FACTS
I.

Background
In 2019, the Pennsylvania legislature desired to implement no-excuse

mail-in voting and initiated the process of proposing an amendment to the
Pennsylvania Constitution to allow for no excuse mail-in voting. Petition ¶
28. Pursuant to the Pennsylvania Constitution, Article XI, §1, an
amendment to the Constitution must be approved by a majority of the
members of both the Senate and House of Representatives in two separate
legislative sessions, then submitted as a ballot question to be voted on by
the electors. If, after approval by two legislative sessions, a majority of the
electors then vote to approve the proposed constitutional amendment, only
then will the amendment take effect.
3

0170a
The proposed constitutional amendment initiated by the legislature
have been approved by a majority vote of both the House and Senate in
two consecutive legislative sessions, nor has either been submitted to the
qualified electors as a ballot question and approved by a majority vote of
the citizens. Petition ¶ 32. The legislature proceeded to implement Act 77
anyway, in direct contravention of the Pennsylvania Constitution. Petition ¶
33.
II.

The In-Progress Efforts to Amend the Pennsylvania Constitution
to Allow No Excuse Absentee Voting
In 2019, the Pennsylvania General Assembly began the process for

amending Article VII, § 14 of the Pennsylvania Constitution in order to
drastically expand absentee voting – permitting all voters to do so without
an excuse. Senate Bill 411, 2019 (later incorporated into Senate Bill 413).
Petition ¶ 36. The legislative history of the proposed amendment
recognizes that “Pennsylvania’s current Constitution restricts voters
wanting to vote by absentee ballot to [specific] situations…” Senator Mike
Folmer, et al., Senate Co-Sponsorship Memoranda (Jan. 29, 2019, 10:46
AM),
https://www.legis.state.pa.us/cfdocs/Legis/CSM/showMemoPublic.cfm?cha
mber=S&SPick=20190&cosponId=28056. Petition ¶ 37. The amendment
proposes to “eliminate these limitations, empowering voters to request and
4

0171a
submit absentee ballots for any reason – allowing them to vote early and by
mail.” Id.
Introduced on March 19, 2019, S.B. 413 as originally filed was a joint
resolution proposing an amendment to the Pennsylvania Constitution
related to judicial retention elections and contained nothing related to the
constitution’s absentee voting provision. Petition ¶ 38. The Senate passed
the bill on October 22, 2019 and it was sent to the House where it was
referred to the House Committee on State Government a few days later.
Petition ¶ 39. On April 6, 2020, S.B. 413 was reported as amended from
committee. Petition ¶ 40. S.B. 413’s caption was changed from the
introduced version which read: “A Joint Resolution proposing separate and
distinct amendments to the Constitution of the Commonwealth of
Pennsylvania, further providing for tenure of justices, judges and justices of
the peace,” to “A Joint Resolution proposing separate and distinct
amendments to the Constitution of the Commonwealth of Pennsylvania,
further providing for tenure of justices, judges and justices of the peace;
and further providing for absentee voting.” (emphasis added). Petition ¶
41.
In its amended form with the added provisions seeking to amend the
Pennsylvania Constitution’s absentee voting restrictions, S.B. 413 was
5

0172a
passed by a majority of both Houses and filed with the Office of the
Secretary of the Commonwealth on April 29, 2020. Petition ¶ 42. S.B. 413
will need to be passed by a majority vote in both the Senate and House of
Representatives in the next legislative session and then appear on the
November 2021 general election ballot to be approved by a majority of the
electors in order to be ratified and properly approved pursuant to the
established procedures set forth in the Pennsylvania Constitution. If
properly approved and ratified by a majority of voters in 2021, S.B. 413 will
amend Article VII, § 14 in part as follows:
(a) The Legislature shall, by general law, provide a manner
in which, and the time and place at which, qualified electors
who may, on the occurrence of any election, be absent
from the municipality of their residence, because their
duties, occupation or business require them to be
elsewhere or who, on the occurrence of any election, are
unable to attend at their proper polling places because of
illness or physical disability or who will not attend a polling
place because of the observance of a religious holiday or
who cannot vote because of election day duties, in the case
of a county employee, may vote, and for the return and
canvass of their votes in the election district in which they
respectively reside. A law under this subsection may not
require a qualified elector to physically appear at a
designated polling place on the day of the election.
Petition ¶ 44.
The General Assembly later went on to establish a “Select Committee
on Election Integrity” to “investigate, review and make recommendations
6

0173a
concerning the regulation and conduct of the 2020 general election.” Pa. H.
Res. No. 1032, Printer’s No. 4432, Session of 2020 (Sep. 28, 2020),
https://www.legis.state.pa.us/CFDOCS/Legis/PN/Public/btCheck.cfm?txtTy
pe=PDF&sessYr=2019&sessInd=0&billBody=H&billTyp=R&billNbr=1032&p
n=4432. Petition ¶ 45. The resolution establishing the committee noted that
the “Commonwealth has traditionally only allowed absentee voting by
individuals with a statutorily defined excuse to do so, such as a physical
disability or absence from their municipality on election day.” Id. It further
notes that “[b]efore the enactment of Act 77 of 2019, for an individual to
vote absentee in this Commonwealth, the individual must have provided a
permissible reason to do so….” Id. It is expressly acknowledged that Act 77
of 2019, “created a new category of mail-in voting … [whereby] mail-in
voters do not have to provide a customary reason to vote by mail and are
able to return their ballots several days later than had traditionally been
allowed.” Id.
Article XI, § 1 of the Constitution of Pennsylvania requires
amendments to be passed by majority vote in both the House and Senate
in two separate legislative sessions and submitted as a ballot question
during the general election to be voted on by the qualified voters. Pa.
Const. Art. XI, § 1. Only if a majority of the qualified voters vote to approve
7

0174a
the proposed constitutional amendment is the proposed constitutional
amendment ratified and legally effective. See Pa. Const., Art. XI, §1.
The Pennsylvania Constitution also expressly provides for emergency
amendments. See Pa. Const., Art. XI, § 1; see also Act 12, Act of Mar. 27,
2020, § 1, P.L. No. 41, No. 12, at § 16. The Legislature neglected this
lawful mechanism entirely and instead attempted to bypass amending the
Pennsylvania Constitution by fundamentally overhauling Commonwealth’s
voting system through the enactment of a general law.
III.

Act 77 of 2019
On October 31, 2019, Governor Wolf signed Act 77 of 2019 into law,

which implemented sweeping reforms to the elections process in
Pennsylvania. Petition ¶ 54. Among other changes, Act 77 “create[ed] a
new option to vote by mail without providing an excuse”; allowed voters to
request and submit mail-in or absentee ballots up to 50 days before an
election; and established a semi-permanent mail-in and absentee ballot
voter list. See, e.g., Press Release, Governor Wolf Signs Historic Election
Reform Bill Including New Mail-in Voting, Governor Tom Wolf (Oct. 31,
2019). Petition ¶ 55. In passing Act 77 without first amending the
Pennsylvania Constitution, Respondents disenfranchised the entire
Pennsylvania electorate, who were entitled to a constitutionally mandated
8

0175a
vote on whether to make this sweeping change to widespread no excuse
mail-in voting before it was implemented.
IV.

The November 3, 2020 General Elections
Voting at the Pennsylvania General Elections was held on November

3, 2020. Petition ¶ 61. The General Elections were administered by
Pennsylvania election officials pursuant to Act 77, which included allowing
for universal, no-excuse mail-in ballots to be filled out, collected and
counted, in violation of the Pennsylvania Constitution. Petition ¶ 62. The
process of certifying the returns and results of the General Elections is
currently underway. Petition ¶ 63.
SCOPE AND STANDARD OF REVIEW
The Executive-Respondents Application for the Court to Exercise
Extraordinary Jurisdiction (“the Application”) seeks to have this Court
reverse the November 25 Order of the Commonwealth Court and sustain
the Preliminary Objections of the Respondents. The standard of review of
the grant or denial of a preliminary injunction is whether the trial court
abused its discretion or committed an error of law. See Buffalo Twp. V.
Jones, 813 A.2d 659 n. 4 (Pa. 2002). In considering preliminary objections,
this Court must consider as true all well-pleaded material facts set forth in
the petitioner's petition and all reasonable inferences that may be drawn
9

0176a
from those facts. Mulholland v. Pittsburgh National Bank, 174 A.2d 861,
863 (Pa. 1961). Preliminary objections should be sustained only in cases
clear and free from doubt that the facts pleaded are legally insufficient to
establish a right to relief. Werner v. Zazyczny, 681 A.2d 1331 (Pa. 1996).
COUNTERSTATEMENT OF QUESTIONS INVOLVED
1. Should the Court assume immediate jurisdiction over this action
pursuant to its Extraordinary Jurisdiction?
Suggested answer: Petitioners do not oppose this.
2. Are Petitioners entitled to injunctive relief?
Suggested answer: Yes.
3. Should the relief requested in the Petition be granted?
Suggested answer: Yes.
ARGUMENT
I.

The Executive-Respondents’ Preliminary Objection 1 should be
overruled because Petitioners have standing.
Preliminary Objection 1 should be overruled because Petitioners

have standing. In general, to have standing, a party must have an interest
in the controversy that is distinguishable from the interest shared by other
citizens that is substantial, direct and immediate. Sprague v. Casey, 550
A.2d 184, 187 (Pa. 1988). In this case, each Petitioner has such an interest
in the controversy.
10

0177a
Petitioner Sean Parnell is an adult individual who is a registered
qualified elector residing in Allegheny County, and a candidate for U.S.
Representative for the 17th Congressional District of Pennsylvania, which
includes all of Beaver County, and parts of Butler and Allegheny counties.
Mr. Parnell constitutes both a “candidate” and a “qualified elector” as those
terms are defined in Election Code § 102(a) and (t), 25 Pa.Stat. § 2602(a)
& (t). Mr. Parnell brings this suit in his capacity as a candidate for federal
office and a private citizen. Petition ¶ 3. It was not alleged in the Petition,
but could easily be alleged in an amended Petition 1 or be found through
judicial notice based on public election results that, if Respondents are
permitted to certify the results of the November 3, 2020 General Elections
including mail-in ballots that do not meet the Pennsylvania Constitutional
requirements, then Mr. Parnell’s opponent will be certified as the winner of
his congressional race, but if only the constitutionally permitted ballots are
included in the certification, the Mr. Parnell would have the most votes of
any candidate in his congressional race.

1

It is not clear how to go about amending a Petition for Review in this
unusual procedural context. Petitioners hereby request leave to amend
their Petition for Review to add the additional allegations described in this
Section I of the Argument, and also request leave to join the presidential
electors as parties to this action, to the extent they have been selected and
they are now necessary parties in order to enjoin Respondents’
unconstitutional actions from completion.
11

0178a
Petitioner Wanda Logan is a registered qualified elector residing
Philadelphia County, Pennsylvania and a candidate for the Pennsylvania
House of Representatives for the 190th district. Ms. Logan constitutes both
a “candidate” and a “qualified elector” as those terms are defined in
Election Code § 102(a) and (t), 25 Pa.Stat. § 2602(a) & (t). Ms. Logan
brings this suit in her capacity as a candidate for state office and a private
citizen. Petition ¶ 4. It was not alleged in the Petition, but could easily be
alleged in an amended Petition or be found through judicial notice based on
public election results that, if Respondents are permitted to certify the
results of the November 3, 2020 General Elections including mail-in ballots
that do not meet the Pennsylvania Constitutional requirements, then Ms.
Logan’s opponent will be certified as the winner of her Pennsylvania House
race, but if only the constitutionally permitted ballots are included in the
certification, the Ms. Logan would have the most votes of any candidate in
her race.
Petitioner the Honorable Mike Kelly (hereinafter “Representative
Kelly”) is a qualified registered elector residing in Butler County and the
United States Representative for the 16th Congressional District of
Pennsylvania. Representative Kelly was recently re-elected to represent
the 16th Congressional District, which includes all of Erie, Crawford,
12

0179a
Mercer, and Lawrence counties, as well as part of Butler County.
Representative Kelly constitutes both a “candidate” and a “qualified elector”
as those terms are defined in Election Code § 102(a) and (t), 25 Pa.Stat. §
2602(a) & (t). Representative Kelly brings this suit in his capacity as a
candidate for federal office and a private citizen. Petition ¶ 2. It was not
alleged in the Petition, but could easily be alleged in an amended Petition
that, if Respondents are permitted to certify the results of the November 3,
2020 General Elections including mail-in ballots that do not meet the
Pennsylvania Constitutional requirements, then one or more candidates for
whom Representative Kelly voted would lose their races, but if only the
constitutionally permitted ballots are included in the certification, then more
of the candidates for whom Representative Kelly voted would have the
most votes of any candidate in their races.
Petitioners Thomas A. Frank, Nancy Kierzek, Derek Magee, Robin
Sauter and Michael Kincaid are all registered qualified electors residing in
Erie, Mercer, and Allegheny Counties, Pennsylvania. All of them are
“qualified electors” as that term is defined in Election Code § 102(t), 25
Pa.Stat. § 2602(t). All of them bring this suit in their capacities as a private
citizens. Petition ¶ 5-9. It was not alleged in the Petition, but could easily be
alleged in an amended Petition that, if Respondents are permitted to certify
13

0180a
the results of the November 3, 2020 General Elections including mail-in
ballots that do not meet the Pennsylvania Constitutional requirements, then
candidates for whom they voted would lose their races, but if only the
constitutionally permitted ballots are included in the certification, then more
of the candidates for whom they voted would have the most votes of any
candidate in their races.
Accordingly, all of the Petitioners have substantial, direct and
immediate interests in whether Respondents are permitted to certify the
results of the November 3, 2020 General Elections including mail-in ballots
that do not meet the Pennsylvania Constitutional requirements and those
interests are distinguishable from the interests shared by other citizens.
Therefore, Petitioners meet the normal standing criteria.
Moreover, although to have standing a party must ordinarily have an
interest in the controversy that is distinguishable from the interest shared
by other citizens that is substantial, direct and immediate, there are certain
cases that warrant the grant of standing even where the interest at issue
“arguably is not substantial, direct and immediate.” Sprague v. Casey, 550
A.2d 184, 187 (Pa. 1988) (citing, inter alia, Application of Biester, 409 A.2d
848, 852 (Pa. 1979)). “[A]lthough many reasons have been advanced for
granting standing to taxpayers, the fundamental reason for granting
14

0181a
standing is simply that otherwise a large body of governmental activity
would be unchallenged in the courts.” Biester, 409 A.2d at 852 (citation
omitted).
The Biester Court elaborated on the benefit of granting standing
under such circumstances, holding that:
The ultimate basis for granting standing to taxpayers must be
sought outside the normal language of the courts. Taxpayers'
litigation seems designed to enable a large body of the citizenry
to challenge governmental action which would otherwise go
unchallenged in the courts because of the standing
requirement.... Such litigation allows the courts, within the
framework of traditional notions of ‘standing,’ to add to the
controls over public officials inherent in the elective process the
judicial scrutiny of the statutory and constitutional validity of
their acts.
Biester, 487 Pa. at 443 n.5 (citation omitted); see also Consumer Party of
Pennsylvania v. Commonwealth, 507 A.2d 323, 328 (Pa. 1986) (same).
Other factors to be considered include that issues are likely to escape
judicial review when those directly and immediately affected are actually
beneficially as opposed to adversely affected; the appropriateness of
judicial relief; the availability of redress through other channels; and the
existence of other persons better situated to assert claims, for example.
Sprague, 550 A.2d at 187 (citations omitted).
In Sprague, the petitioner challenged placing one seat on the
Supreme Court and one on the Superior Court on the general election
15

0182a
ballot. Id. at 186. An election to fill Supreme Court and Superior Court
offices may not be placed on the ballot during a general election because
the Pennsylvania Constitution mandated that all judicial officers were to be
elected at the municipal election next proceeding the commencement of
their respective terms. Id. at 186. Under those circumstances, the Court
specifically held that if standing were not granted, “the election would
otherwise go unchallenged,” that “[j]udicial relief is appropriate because the
determination of the constitutionality of the election is a function of the
courts,” and that “redress through other channels is unavailable.” Id. (citing
Zemprelli v. Daniels, 496 Pa. 247, 436 A.2d 1165 (1981); and Hertz
Drivurself Stations, Inc. v. Siggins, 359 Pa. 25, 58 A.2d 464 (1948)).
Here, as in Sprague, if standing were not granted, the November 3,
2020, General Election would otherwise go unchallenged; redress through
other channels is unavailable because those directly and immediately
affected are actually beneficially as opposed to adversely affected; and the
only persons better situated to assert the claims at issue are possibly the
Respondents, who did not choose to institute legal action. Determination of
the constitutionality of the election remains a function of the courts and
granting standing would add judicial scrutiny of the statutory and

16

0183a
constitutional validity of the acts of public officials to the controls over public
officials inherent in the elective process.
The case of In re Gen. Election 2014 Kauffman, 111 A.3d 785 (Pa.
Commw. Ct. 2015) is distinct from the case at bar. In that case, the
Commonwealth Court quashed an appeal of objectors who challenged an
order granting an emergency application for absentee ballots because the
objectors were not parties in the proceedings before the trial court and,
thus, did not have standing. Id. The objectors claimed they had standing
because they were registered voters in the relevant area and they had an
interest in seeing that the Election Code was obeyed and that absentee
ballots were prevented from affecting the outcome of the election. Id. at
792. The election at issue had not yet occurred and it was speculative for
the objectors to suggest that five absentee ballots might affect the outcome
of the election. Id. at 793. Quoting Kauffman v. Osser, 271 A.2d 236 (Pa.
1970), the Commonwealth Court highlighted “assumption” in the following:
Basic in appellants’ position is the assumption that those who
obtain absentee ballots, by virtue of statutory provisions which
they deem invalid, will vote for candidates at the November
election other than those for whom the appellants will vote and
thus will cause a dilution of appellants’ votes. This assumption,
unsupported factually, is unwarranted and cannot afford a
sound basis upon which to afford appellants a standing to
maintain this action.
In re Gen. Election 2014 Kauffman, 111 A.3d. at 793.
17

0184a
Unlike in that case, here Petitioners have already been affected by
the allowance of mail-in ballots that do not meet the Pennsylvania
Constitutional requirements or will be if those ballots are included in the
certified results. The harms they allege are not based on speculation or
assumption. Accordingly, this Court should determine that the Petitioners
have standing to maintain this action and overrule Preliminary Objection 1.
II.

The Executive-Respondents’ Preliminary Objection 2 should be
overruled because statutes cannot limit the time within which
their constitutionality can be challenged.
The Executive-Respondents’ Preliminary Objection 2 should be

overruled because statutes cannot limit the time within which their
constitutionality can be challenged. The suggestion that Petitioners would
ever be precluded from challenging the constitutionality of a statute
because of a provision included in that statute would be an interpretation
that is both “absurd,” 1 Pa.Cons.Stat. § 1922(1), and violative of “the
Constitution of the United States [and] this Commonwealth”. Id. § 1922(3).
As noted in William Penn School District v. Pa. Dep’t of Ed., 170 A.2d 412,
418 (Pa. 2017):
It is settled beyond peradventure that constitutional promises
must be kept. Since Marbury v. Madison, 5 U.S. 137, 1 Cranch
137, 2 L.Ed. 60 (1803), it has been well-established that the
separation of powers in our tripartite system of government
typically depends upon judicial review to check acts or
omissions by the other branches in derogation of constitutional
18

0185a
requirements. That same separation sometimes demands that
courts leave matters exclusively to the political branches.
Nonetheless, “[t]he idea that any legislature ... can
conclusively determine for the people and for the courts
that what it enacts in the form of law, or what it authorizes
its agents to do, is consistent with the fundamental law, is
in opposition to the theory of our institutions.” Smyth v.
Ames, 169 U.S. 466, 527, 18 S.Ct. 418, 42 L.Ed. 819 (1898).
(emphasis added); see also Robinson Twp., Wash. Cty. v. Commonwealth,
83 A.3d 901, 927 (Pa. 2013) (“[I]t is the province of the Judiciary to
determine whether the Constitution or laws of the Commonwealth require
or prohibit the performance of certain acts.”). While consistent with and
pursuant to the Pennsylvania Constitution the Legislature can set the
jurisdiction of the court, it has no authority to limit the window of time in
which the constitutionality of a law can be challenged.
Section 13 of Act 77 would also be invalidated by future amendments
to the Pennsylvania Election Code, such as occurred with Act 12 of 2020.
See Act of Mar. 27, 2020, § 1, P.L. No. 41, No. 12 (hereinafter “Act 12”).
Act 12, inter alia, amended § 1302, which is noted in Act 77 as being
subject to the 180-day exclusive jurisdiction period. Respondent’s reading
of § 13 of Act 77 would limit any judicial review of the constitutionality of
changes made to Act 77 by Act 12 to a period of 1 month (i.e., from March
27, 2020 to April 28, 2020). Taking Respondents’ argument to the extreme,
if the provisions noted in § 13 of Act 77 were to be amended again at some
19

0186a
time in the future, Respondents’ interpretation of the 180-day window would
effectively preclude judicial review of any amendment to those provisions
because such review would not be within the 180-day initial window ending
on April 28, 2020. To deny voters and candidates a forum for addressing
violations to their constitutional rights would be an “absurd” and
“unreasonable” reading of the statute, as well as an unconstitutional
reading. 1 Pa.Cons.Stat. § 1922(1), (3). Accordingly, the Executive
Petitioners’ Preliminary Objection 2 should be overruled.
III.

The Executive Petitioners’ Preliminary Objection 3 should be
overruled because this Court has jurisdiction.
The Executive Petitioners’ Preliminary Objection 3 should be

overruled because the Commonwealth Court had jurisdiction. This is not an
action to resolve an election dispute. This is an action to challenge the
constitutionality of Act 77 and to enjoin unconstitutional actions taken
pursuant thereto. The Executive-Respondents attempt to characterize this
as an action to resolve an election dispute recognized under the Election
Code, to then assert that any such actions must be grounded in statutory
provisions for the resolution of election disputes.
There are no provisions in the election dispute statutes for addressing
unconstitutional election codes or laws. The Election Code provides no
relevant procedure applicable to this type of action and does not preclude
20

0187a
this Court’s jurisdiction to hear constitutional challenges to laws and to
provide equitable relief. See William Penn School District v. Pa. Dep’t of
Ed., 170 A.2d 412, 418 (Pa. 2017) (“The idea that any legislature ... can
conclusively determine for the people and for the courts that what it enacts
in the form of law, or what it authorizes its agents to do, is consistent with
the fundamental law, is in opposition to the theory of our institutions.”
Smyth v. Ames, 169 U.S. 466, 527, 18 S.Ct. 418, 42 L.Ed. 819 (1898)).
Accordingly, this Court should overrule the Executive-Respondents’
Preliminary Objection 3.
IV.

Preliminary Objection 4 should be overruled because the
Executive-Respondents cannot meet their burden of
establishing a laches defense.
Preliminary Objection 4 should be overruled because the Executive-

Respondents cannot meet their burden of establishing a laches defense.
Inconsistently, the Executive-Respondents simultaneously claim that
Petitioners were not particularly harmed, such that they lacked standing,
but also that they should have brought this action sooner, before the
general election occurred and, consequently, before the harms to
Petitioners from the unconstitutional mail-in voting became a reality. Had
Petitioners brought an action sooner, the Executive-Respondents would
have no doubt instead contended that the harms the Petitioners claim are
21

0188a
merely speculative. For the same reason that the objectors did not have
standing in In re Gen. Election 2014 Kauffman, 111 A.3d 785 (Pa. Commw.
Ct. 2015), Petitioners also lacked standing to assert their claims until after
they were harmed by the general election and the vote totals were
announced. Petitioners brought an action within mere days of being
harmed by an unconstitutional election as soon as they reasonably could
have hired counsel and identify the constitutional issues after they gained
standing to bring their claims. The Executive-Respondents’ standing
argument negates their argument that Petitioners sat on their rights for a
year.
Although “laches may bar a challenge to a statute based upon
procedural deficiencies in its enactment.” Stilp v. Hafer, 718 A.2d 290, 294
(Pa. 1998), in Stilp, this Court found that “Appellees concede[d] that laches
may not bar a constitutional challenge to the substance of a statute. . .” Id.
Indeed, the holding in Stilp stands in the face of the Executive
Respondent’s argument, holding that while the principle of laches may
apply when a constitutional challenge is on procedural grounds, it does not
apply with respect to the substance of a statute. Id. (citing Sprague v.
Casey, 520 Pa. 38, 550 A.2d 184 (1988) (Stating that “laches and prejudice

22

0189a
can never be permitted to amend the Constitution.”)); see also Wilson v.
School Distr. of Philadelphia, 195 A. 90 (Pa. 1937).
Petitioners constitutional claim is purely substantive, and therefore
cannot be defeated by laches. Unlike Stilp where the plaintiffs argued that a
bill was not referred to the appropriate committee, and that the bill was not
considered for the requisite number of days, Stilp, 718 A.2d at fn. 1, here
Petitioners argue that the substance of Act 77 directly contravenes the
Pennsylvania Constitution. See Petition ¶¶ 65-87. Petitioners make no
challenge to the procedural mechanisms through which Act 77 was passed
– e.g., bicameralism and presentment – but rather, what is substantively
contained within the legislative vehicle that became Act 77. The
Pennsylvania General Assembly attempted to unconstitutionally expanded
absentee voting through Act 77, despite limitations to such expansion. Act
77 itself is not a constitutional amendment, which would be the type of
procedural laches challenge raised by the Executive-Respondents (and
would fail in any case). Such a patent and substantive violation of the
Constitution cannot be barred by the mere passage of time – “To so hold
would establish a dangerous precedent, the evil effect of which might reach
far beyond present expectations.” Wilson, 195 A. at 99. Amending the

23

0190a
constitution to expand a protected and fundamental right is not a mere
procedural step, but rather one of substance.
The Executive-Respondents admitted that laches would not apply to
prospective relief pursued by petitioner. See Application, Exhibit A, p. 19, fn
4. Even assuming arguendo that laches can apply to retrospective relief of
a substantive constitutional challenge, the Executive-Respondents’
Preliminary Objection 4 should still be overruled. Laches can only bar relief
where “the complaining party is guilty of want of due diligence in failing to
promptly institute the action to the prejudice of another.” Sprague v. Casey,
550 A.2d 184, 187 (Pa. 1988). The two elements of laches are “(1) a delay
arising from Appellants’ failure to exercise due diligence and (2) prejudice
to the Appellees resulting from the delay.” Stilp v. Hafer, 718 A.2d 290, 293
(Pa. 1998) (citing Sprague, 550 A.2d at 187-88)
Sprague is on point. In Sprague, the petitioner, an attorney, brought
suit challenging the placing on a ballot of two judges. Id. Respondents
raised an objection based on laches because petitioner waited 6.5 months
from constructive notice that the judges would be on the ballot to bring suit.
In evaluating the facts that petitioner and respondents could have known
through exercise of “due diligence,” the court found that while petitioner
was an attorney, and was therefore charged with the knowledge of the
24

0191a
constitution, the respondents (the Governor, Secretary, and other
Commonwealth officials) were also lawyers and similarly failed to apply for
timely relief. Id. at 188. This Court, in denying the laches defense,
reasoned that “[t]o find that petitioner was not duly diligent in pursuing his
claim would require this Court to ignore the fact that respondents failed to
ascertain the same facts and legal consequences and failed to diligently
pursue any possible action.” Id. To be clear, a citizen with an actionable
claim cannot just wait to file a grievance it is aware of. However, courts will
generally “hold that there is a heavy burden on the [respondent] to show
that there was a deliberate bypass of pre-election judicial relief.” Toney v.
White, 488 F.2d 310, 315 (5th Cir. 1973). The Executive-Respondents
have not met that burden here, and instead pretend that the burden is on
Petitioners to disprove laches.
There is not the slightest evidence or reason to believe that
Petitioners deliberately bypassed pre-election relief in the instant action,
and the Executive-Respondents have not pointed to any. Unlike in
Sprague, Petitioners here are not lawyers, they did not actually, nor could
they have known with reasonable diligence the arguments presented
before this Court in the instant action. With respect to the candidatePetitioners, none have participated in state legislature, and none have
25

0192a
responsibilities with respect Pennsylvania Election Code or its
constitutionality.
Conversely, as in Sprague, Respondent Boockvar is an attorney, and
should be charged with knowledge of the Constitution, and particular
knowledge of the Election Code. In Sprague, the taxpayer’s more than six
month delay in bringing an action challenging the election did not constitute
laches thereby preventing the Commonwealth Court from hearing the
constitutional claims. 550 A.2d at 188. Additionally, Respondent
Pennsylvania General Assembly appears to have had knowledge of the
constitutional issues involved and began the process of amending the
constitution to allow no excuse mail-in ballots, which process appears to be
still ongoing. Petition ¶¶ 28-30.2
In short, the Executive-Respondents want this Court to charge
Petitioners, who had no specialized knowledge, with failure to institute an
action more promptly, while Respondents possessed extremely specialized
knowledge, and failed to take any corrective actions. Petitioners did not

2

If that process proceeds and the amendment is placed on the ballot, and
Act 77 is not declared unconstitutional, then Pennsylvania voters could
someday cast no excuse ballots by mail to decide whether to allow no
excuse voting by mail. In the meantime, all Pennsylvania voters were
disenfranchised of their right to vote on such an amendment prior to
institution of widespread no excuse voting by mail.
26

0193a
hedge their bets, they simply brought an action within mere days of being
harmed by an unconstitutional election, as soon as they reasonably could
have hired counsel and identify the constitutional issues after they gained
standing to bring their claims. It could not have in any way served the
Petitioner’s interests in this matter to delay action for even one day. To
suggest they did so deliberately is ridiculous and unsupported.
In light of Respondents’ collective failures in enacting and enforcing
Act 77, they should have acted; that they did not do so puts the weight of
any necessary curative disenfranchisement squarely on their shoulders.
Laches is a shield to protect respondents from gamesmanship, it is not a
sword to use against harmed individuals to insulate Respondents’
unconstitutional actions.
Finally, Respondents reliance on In re Contest of Election for Off. of
City Treas. from Seventh Legis. Dist. (Wilkes-Barre City) of Luzerne
County, 162 A.2d 363, 365-66 (Pa. 1960) for the premise that voters should
not be disenfranchised because of “errors or wrongful acts of election
officers” is misplaced in this context. In re Contest, stands for the
proposition that disenfranchisement of voters is not necessary because
“[s]ociety's weapon against election frauds is the power to arrest those that
violate the Code.” Id. That however is not the case, where the code itself is
27

0194a
illegally and unconstitutionally promulgated. Where, as is the case here, the
illegality is of an unconstitutional nature, intervention is necessary. Marks v.
Stinson, 19 F.3d 873, 889 (3d Cir. 1994) (If the district court finds a
constitutional violation, it will have authority to order a special election,
whether or not it is able to determine what the results would have been in
the absence of that violation.). Accordingly, this Court should determine
that the Respondents have not met their burden in establishing a laches
defense and overrule Preliminary Objection 4.
V.

The Executive-Respondents’ Preliminary Objection 5 should be
overruled because the Petition states a valid claim.
The Executive-Respondents’ Preliminary Objection 5 should be

overruled because the Petition states a valid claim.
A.

The Pennsylvania Constitution requires voting to take
place in person, subject only to specified absentee voting
exceptions.

Article I, § 4 and Article II, § 1 of the U.S. Constitution grant plenary
authority to state legislatures to enact laws that govern the conduct of
elections. Yet, while the “legislature may enact laws governing the conduct
of elections[,]... ‘no legislative enactment may contravene the requirements
of the Pennsylvania or United States Constitutions.’” Kauffman v. Osser,
271 A.2d 236, 240 (Pa. 1970) (Cohen, J. dissenting) (citing Winston v.
Moore, 91 A. 520 (1914), and quoting Shankey v. Staisey, 257 A.2d 897,
28

0195a
898, cert denied 396 U.S. 1038 (1970)); see also, e.g., Smiley v. Holm, 285
U.S. 355, 369 (1932) (noting that state Legislatures are constrained by
restrictions imposed by state constitutions on their exercise of the
lawmaking power, even when enacting election laws pursuant to U.S.
Constitutional authority).
Article VII, § 1 of the Pennsylvania Constitution outlines the
authorities under which the Pennsylvania legislature enacts election laws.
This Court, in evaluating absentee voting legislation, first looks at the
Pennsylvania Constitution’s requirements on qualifying to be an elector in
Pennsylvania. “For the orderly exercise of the right resulting from these
qualifications … the Legislature must prescribe necessary regulations ….
But this duty and right inherently imply that such regulations are to be
subordinate to the right …. As a corollary of this, no constitutional
qualification of an elector can in the least be abridged, added to, or
altered by legislation or the pretence of legislation.” In re Lancaster City,
126 A. at 201 (emphases added).
The current Pennsylvania Constitution sets out the following
qualifications for voting: (1) 18 years of age or older; (2) citizen of the
United States for at least one month; (3) has residence in Pennsylvania for
the 90 days immediately preceding the election; and (4) has residence in
29

0196a
the “election district where he or she shall offer to vote at least 60 days
immediately preceding the election ….” Pa. Const. Art. VII, § 1 (emphasis
added). As held by this Court in Chase, 41 Pa. at 418-19, and Lancaster
City, 126 A. at 200:
To “offer to vote” by ballot is to present one’s self, with proper
qualifications, at the time and place appointed, and to make
manual delivery of the ballot to the officers appointed by law to
receive it. The ballot cannot be sent by mail or express, nor can
it be cast outside of all Pennsylvania election districts and
certified into the county where the voter has his domicil.
The Pennsylvania Constitution has not been amended to change or
eliminate this qualification since Chase. Therefore, in-person voting
remains a requirement under law, unless otherwise exempt by the
Pennsylvania Constitution.
Article VII, § 14(a) provides the only such exceptions to the in propria
persona voting requirement of the Pennsylvania Constitution, in four
specific circumstances. It states:
(a) The Legislature shall, by general law, provide a
manner in which, and the time and place at which,
qualified electors who may, on the occurrence of
any election, be absent from the municipality of their
residence, because their duties, occupation or
business require them to be elsewhere or who, on
the occurrence of any election, are unable to attend
at their proper polling places because of illness or
physical disability or who will not attend a polling
place because of the observance of a religious
holiday or who cannot vote because of election day
30

0197a
duties, in the case of a county employee, may vote,
and for the return and canvass of their votes in the
election district in which they respectively reside.
Pa. Const. Art. VII, § 14(a). Outside of those four situations, this Court’s
precedents do not provide a mechanism for the Legislature to allow for
expansion of absentee voting.
B.

Act 77 is illegal and void ab initio because it attempts to
expand the exceptions to in propria persona voting
requirements beyond what the Pennsylvania Constitution
currently allows.

“The Legislature can confer the right to vote only upon those
designated by the fundamental law, and subject to the limitations therein
fixed.” Lancaster City, 281 Pa. at 137 (citing McCafferty v. Guyer, 59 Pa.
109). Act 77 unconstitutionally expands the scope of absentee voting
permitted by the Pennsylvania Constitution to all voters.
Act 77, as amended, defines a “qualified mail-in elector” as “a
qualified elector.” 25 Pa.Stat. § 2602(z.6). A “qualified elector” is “any
person who shall possess all of the qualifications for voting now or
hereafter prescribed by the Constitution of this Commonwealth, or who,
being otherwise qualified by continued residence in his election district,
shall obtain such qualifications before the next ensuing election.” Id. §
2602(t). In short, Act 77 qualifies all electors as mail in electors.
Moreover, newly-created 25 Pa.Stat. § 3150.11 states:
31

0198a
Qualified mail-in electors.
(a) General rule.-- A qualified mail-in elector shall be
entitled to vote by an official mail-in ballot in any
primary or election held in this Commonwealth in
the manner provided under this article.
(b) Construction.-- The term “qualified mail-in
elector” shall not be construed to include a person
not otherwise qualified as a qualified elector in
accordance with the definition in section 102(t).
Separately, absentee voting is defined in 25 Pa.Stat. § 3146.1, which
outlines a variety of categories of eligibility that are each consistent with
Article VII, § 14 of the Pennsylvania Constitution. See also 25 Pa.Stat. §
2602(w) (defining 14 types of qualified absentee electors).
Act 77 purported to create a distinction between the existent
“absentee voting” and “mail-in voting”. Taking an inartful twist such as
simply renaming the mechanism yields a distinction without a difference.
The General Assembly subverted the limitations in Article VII, § 14 by
creating a fictitious distinction between the pre-existing “absentee voting”
and the newly created “mail-in voting.” There is no distinction except that
mail-in voting is simply absentee voting without any of the inconvenient
conditions precedent that the Pennsylvania Constitution requires in order

32

0199a
for someone to be permitted to cast a ballot without being physically
present at the polls on election day. 3
This Court in Chase v. Miller struck down unconstitutional military
absentee voting during the Civil War. Pennsylvania was one of the first
states to allow for absentee voting, originating with the Military Absentee
Act of 1813, which allowed “members of the state militia and those in the
service of the United States to vote as long as the company the soldier was
serving was more than two miles from his polling place on election day.”
John C. Fortier & Norman J. Ornstein, The Absentee Ballot and the Secret
Ballot: Challenges for Election Reform, 36 U. Mich. J.L. Reform 483, 497
(2003). At the time the Military Absentee Act was passed, the Pennsylvania
Constitution imposed no restrictions with regard to absentee voting.
However, in 1838, Pennsylvania amended its constitution to require voters
to “reside in the election district where he offers to vote, ten days
immediately preceding such election.” Id. (citing Pa. Const. of 1838, Art. III,
§ 1 (1838)). This created a conflict with the Military Absentee Act as re-

3. In an attempt to create the distinction between absentee and mail-in, the
legislature defined "qualified mail-in elector" is a “qualified elector who is not
a qualified absentee elector.” Again, the definitional distinction is nonyielding because there is no longer any functional purpose to applying for an
absentee ballot.
33

0200a
enacted in 1839, which allowed for absentee voting, and the newly
amended Pennsylvania Constitution, which no longer did. Id.
In the 1861 election, Pennsylvania soldiers voted under the Military
Absentee Act 1839, and legal challenges came soon after. In 1862, this
Court decided Chase v. Miller, 41 Pa. 403. The Court analyzed the Military
Absentee Act of 1839 and its conflict with new (as of 1838) Pennsylvania
Constitution. This Court held that the act was unconstitutional because the
purpose of the 1838 amendment to the Pennsylvania Constitution was to
require in-person voting in the election district where a voter resided at
least 10 days before the election. Id. at 418-19.
The second section of [the 1838 amendment]
requires all popular elections to be by ballot. To
‘offer to vote’ by ballot, is to present oneself with
proper qualifications, at the time and place
appointed, and to make manual delivery of the
ballot to the officers appointed by law to receive it.
The ballot cannot be sent by mail or express,
nor can it be cast outside of all Pennsylvania
election districts and certified into the county
where the voter has his domicil. We cannot be
persuaded that the constitution ever contemplated
any such mode of voting, and we have abundant
reason for thinking that to permit it would break
down all the safeguards of honest suffrage. The
constitution meant, rather, that the voter, in propria
persona, should offer his vote in an appropriate
election district, in order that his neighbours might
be at hand to establish his right to vote if it were
challenged, or to challenge if it were doubtful.
***
34

0201a
[Regarding the 1839 act,] [i]t is scarcely possible to
conceive of any provision and practice that could, at
so many points, offend the cherished policy of
Pennsylvania in respect to suffrage. Our
Constitution and laws treat the elective franchise as
a sacred trust…. All of which the [1839 act] reverses
and disregards, and opens a wide door for most
odious frauds, some of which have come under our
judicial cognizance.
Id. at 419-25 (emphasis added in bold). This Court also noted that the
Pennsylvania legislature carelessly avoided discussing the constitutionality
of the 1839 act before its passage; although, it noted that “instances of
even more careless legislation are not uncommon.” Id. at 417.
Following this Court’s invalidation of the 1839 Military Absentee
Voting Act, the legislature proposed amendment to the Pennsylvania
Constitution in 1864 to include for this first time a provision allowing for
absentee voting by active military personnel. See Josiah Henry Benton,
Voting in the Field: A Forgotten Chapter of the Civil War, at 199 (1915).
The legislature passed the amendment in two successive sessions, in
1863, and again on April 23, 1864, and the amendment was approved by
the citizens of Pennsylvania in August 1864. Prior to the August approval of
the amendment, on April 1, 1864, the Legislature was attempting to pass a
soldier’s voting bill that would have implemented absentee voting laws in
accordance with what the constitutional provision would have allowed if
35

0202a
passed. The legislature sought the Attorney General’s opinion on the
constitutionality of passing this legislation before the constitutional
amendment was approved by the voters. The Attorney General opined that
it “would not be constitutional to pass a law before the Constitution was
amended so as to allow it.” Id. at 200.
From 1864 to 1949, only qualified electors engaged in actual military
service were permitted to vote by absentee ballot under the Pennsylvania
Constitution. Pa. Const. Art. VIII, § 6 (1864). However, this limitation did not
prevent the legislature from, again, attempting to pass unconstitutional
legislation to expand absentee voting. In 1924, this Court decided In re
Contested Election in Fifth Ward of Lancaster City, 126 A. 199, striking
down as unconstitutional Act May 22, 1923 (P.L. 309; Pa. St. Supp. 1924,
§9775a1, et seq.), an act providing civilians the right to vote by absentee
ballot. Quoting Chase v. Miller, 41 Pa. at 419, this Court reaffirmed the law
that “‘[t]o offer to vote’ by ballot, is to present one’s self with proper
qualifications, at the time and place appointed, and to make manual
delivery of the ballot to the officers appointed to receive it. The ballot
cannot be sent by mail or express, nor can it be cast outside of all
Pennsylvania election districts and certified into the county where the voter
has his domicil.” Lancaster City, 126 A. 200. This principle was affirmed
36

0203a
between 1864 and 1924 in many other states with similar constitutional
provisions, both with regard to absentee voting by regular citizens as well
as by soldiers away from home. Id. (citing Twitchell v. Blodgett, 13 Mich.
127; Bourland v. Hildreth, 26 Cal. 161; Day v. Jones, 31 Cal. 261; Opinion
of the Judges, 30 Conn. 591; Opinion of the Judges, 37 Vt. 665; Opinion of
the Justices, 44 N.H. 633; In re Opinion of Justices [N.H.] 113 Atl. 293;
Clark v. Nash, 192 Ky. 594, 234 S.W. 1, 19 A.L.R. 304). The Court held the
civilian absentee ballot act unconstitutional because the Pennsylvania
Constitution still required electors to “offer to vote” in the district where they
reside, and that those eligible to “vote other than by personal presentation
of the ballot” were specifically named in the Constitution (i.e., active
military). Id. at 136-37. The Court relied on two primary legal principles in
its ruling:
[1] ‘In construing particular clauses of the
Constitution it is but reasonable to assume that in
inserting such provisions the convention
representing the people had before it similar
provisions in earlier Constitutions, not only in our
own state but in other states which it used as a
guide, and in adding to, or subtracting from, the
language of such other Constitutions the change
was made deliberately and was not merely
accidental.’ Com v. Snyder, 261 Pa. 57, 63, 104 Atl.
494, 495.
***
[2] The old principle that the expression of an intent
to include one class excludes another has full
37

0204a
application here…. ‘The residence required by the
Constitution must be within the election district
where the elector attempts to vote; hence a law
giving to voters the right to cast their ballot at some
place other than the election district in which they
reside [is] unconstitutional.’
Id. The Court went further to note:
However laudable the purpose of the act of 1923, it
cannot be sustained. If it is deemed necessary that
such legislation be placed upon our statute books,
then an amendment to the Constitution must be
adopted permitting this to be done.
Id. at 138.
Because the Legislature failed to strictly comply with the
requirements of Article XI, the efforts to amend the Constitution to
improperly authorize universal mail-in voting are fatally defective and
inherently unconstitutional, having no lawful basis or effect. See, e.g.,
Kremer v. Grant, 529 Pa. 602, 613, 606 A.2d 433, 439 (1992) (“[T]he failure
to accomplish what is prescribed by Article XI infects the amendment
process with an incurable defect”); Sprague v. Cortes, 636 Pa. 542, 568,
145 A.3d 1136, 1153 (2016) (holding that matters concerning revisions of
the Pennsylvania Constitution require “the most rigid care” and demand
“[n]othing short of literal compliance with the specific measures set forth in
Article XI.”) (quoting Commonwealth ex rel. Schnader v. Beamish, 64 A.
615, 616-17 (Pa. 1932)). “However laudable the purpose of the act…, it
38

0205a
cannot be sustained. If it is deemed necessary that such legislation be
placed upon our statute books, then an amendment to the Constitution
must be adopted permitting this to be done.” Lancaster City, 281 Pa. at
137-38.
C.

Article VII, §§ 1 and 4 of the Pennsylvania Constitution
have not materially changed since this Court struck down
legislation unconstitutionally expanding mail-in voting in
Lancaster City.

Article VII, §§ 1 and 4 of the Pennsylvania Constitution (previously
numbered as Article VIII, §§ 1 and 4) remain materially the same as they
were when this Court in Lancaster City struck down “Act May 22, 1923” (P.
L. 309; Pa. St. Supp. 1924, § 9775a1, et seq.) and invalidated the illegal
mail-in ballots cast thereunder. The current language of Article VII, § 4
remains identical to the language this Court interpreted in Lancaster City.
Article VII, §1 has been altered in three ways since the 1924 case: (1) the
voting age requirement was changed to 18, from 21; (2) the state residency
requirement was lowered from 1 year, to 90 days; and (3) Clause 3 of
Article VII, § VII was amended to allow a Pennsylvania resident who moves
to another County within 60 days of an election to vote in their previous
county of residence. These changes to Article VII, § 1 are not relevant to
the Court’s reasoning in Lancaster City. Pennsylvania Constitution’s
remains, for all relevant purposes, unchanged since 1924 with regard to the
39

0206a
qualifications and requirements for voting in an election. Respondents’
actions in passing Act 77 without first amending the Constitution directly
contravene biding precedent and it is respectfully submitted that this Court
should invalidate the Act.
D.

Post-World-War-II and the modern absentee voting
provision in the Pennsylvania Constitution.

In 1949, the Pennsylvania Constitution was amended to also allow
bedridden or hospitalized war veterans the ability to vote absentee. Pa.
Const. Art. 8, § 18 (1949). In 1957, the legislature began the process of
amending the constitution to allow civilian absentee voting in instances
where unavoidable absence or physical disability prevented them from
voting in person. See Absentee Ballots Case, 423 Pa. 504, 508, 224 A.2d
197, 199-200 (1966). Because of the restrictions and safeguards under
Article XI, the 1957 amendment to the constitution did not go into effect
until 1960. Id. The constitutional amendment effectively expanded eligibility
for absentee voting to include only two categories of qualified electors: (1)
those who on election day would be absent from their municipality of
residence because of their duties, occupation, or business; and (2) those
who are unable to attend their proper polling place because of illness or
physical disability. Pa. Const. Art. 7, § 19 (1957).

40

0207a
Issues arose immediately with the canvassing and computation of
ballots under the newly expanded absentee voting system, and any
challenges to absentee ballots that were rejected by the board of elections
resulted in the challenged ballots being placed with ballots that were not
challenged to be counted, making it impossible to correct if it was later
determined that the decision to reject the challenge was incorrect. See
Absentee Ballots Case, 423 Pa. 504, 509, 224 A.2d 197, 200. In response,
“the legislature added further amendments by the Act of August 13, 1963,
P.L. 707, 25 Pa.Stat. § 3146.1 et seq. (Supp. 1965)” to require the board of
elections to mark any ballot that was disputed as “challenged,” hold a
hearing on the objections, and the decision was opened up to review by the
court of common pleas in the county involved. Id. Until all challenges were
resolved, the board of elections was required to desist from canvassing and
computing all challenged ballots to avoid the possible mixing of valid and
invalid ballots. Id. In 1967 following the Constitutional Convention, the
Pennsylvania Constitution was reorganized and Article VII, § 19 was
renumbered to Article VII, § 14.
On November 5, 1985, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
added religious observances to the list of permissible reasons for
41

0208a
requesting an absentee ballot (the “1985 Amendment”). The 1985
Amendment began as HB 846, PN 1963, which would have amended the
Pennsylvania Election Code to provide absentee ballots for religious
holidays and for the delivery and mailing of ballots. See Pa. H. Leg. J. No.
88, 167th General Assembly, Session of 1983, at 1711 (Oct. 26, 1983)
(considering HB 846, PN 1963, entitled “An Act amending the
‘Pennsylvania Election Code,’ …further providing for absentee ballots for
religious holidays and for the delivery and mailing of ballots.”). However,
the legislative history recognized that because the Pennsylvania
Constitution specifically delineates who may receive an absentee ballot, a
constitutional amendment was necessary to implement these changes. HB
846, PN 1963 was thus changed from a statute to a proposed amendment
to the Pennsylvania Constitution. Id. (statement of Mr. Itkin) (“[T]his
amendment is offered to alleviate a possible problem with respect to the
legislation. The bill would originally amend the Election Code to [expand
absentee balloting] …. Because it appears that the Constitution talks about
who may receive an absentee ballot, we felt it might be better in changing
the bill from a statute to a proposed amendment to the Pennsylvania
Constitution.”).

42

0209a
On November 4, 1997, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
expanded the ability to vote by absentee ballot to qualified voters that were
outside of their municipality of residence on election day; where previously
absentee voting had been limited to those outside of their county of
residence (the “1997 Amendment”). See Pa. H. Leg. J. No. 31, 180th
General Assembly, Session of 1996 (May 13, 1996) The legislative history
of the 1997 Amendments recognized the long-known concept that there
existed only two forms of voting: (1) in-person, and (2) absentee voting and
that the 1997 Amendment would not change the status quo; namely that
“people who do not work outside the municipality [or county] or people who
are ill and who it is a great difficulty for them to vote but it is not impossible
for them to vote, so they do not fit in the current loophole for people who
are too ill to vote but for them it is a great difficulty to vote, they cannot vote
under [the 1997 Amendment].” Id. at 841 (statement of Mr. Cohen).
E.

The Executive-Respondents’ attempts to distinguish or
undermine this Court’s precedents are unavailing.

The Executive-Respondents’ attempts to distinguish or undermine
this Court’s precedents are unavailing. The Executive-Respondents refer to
this Court’s precedents interpreting provisions of the Pennsylvania
Constitution, which remain unchanged since those cases were decided, as
43

0210a
“outdated” and “not reflected in other current, constitutional voting practices
provided by the Election Code.” See Application, Exhibit A, pp. 22-23.
Respondents argue that absentee balloting is more acceptable and less
prone to fraud in modern times than it was in the past. They claim that this
Court’s precedents “based their holdings on a fear of absentee voting that
no longer exists, and is not reflected in other current, constitutional voting
practices provided for by the Election Code.” See Id.
On the contrary, concerns regarding absentee voting persist to this
day. For example, in a New York Times article entitled “Error and Fraud at
Issue as Absentee Voting Rises,” Oct. 6, 2012, the author noted that, in the
absentee system, “fraud and coercion have been documented to be real
and legitimate concerns” because fraud is easier via mail. See Exhibit A
attached hereto (also noting issues with “granny farming,” issues with
buying and selling mail-in votes, and other serious issues with mail-in
votes).
The Executive-Respondents’ argument that Chase and Lancaster
City are “outdated” and “inapplicable” is unintelligible and stand in the face
of the foundational principles of stare decisis. See Application, Exhibit A, p
22. As a preliminary matter, the Executive-Respondents correctly state that
the holdings in Chase and Lancaster City interpret the language “offer to
44

0211a
vote” to require in person voting. Because the language “offer to vote”
conspicuously remains in the Pennsylvania Constitution, the ExecutiveRespondents resign to arguing that the very meaning of that language, as
interpreted by this Court, has somehow changed. In support of such an
argument, they cite to vague historical context, and a shift in modern
realities. See Application, Exhibit A, pp. 23-24.
The Executive-Respondents completely ignore the doctrine of stare
decisis, well settled in this Court’s precedents, especially in the context of
election law. This Court has held that "for purposes of stability and
predictability that are essential to the rule of law ... the forceful inclination of
courts should favor adherence to the general rule of abiding by that which
has been settled." Shambach v. Bickhart, 845 A. 2d 793, 807 (Pa. 2004) (J.
Saylor concurring). Certainty and stability in the law is crucial, and unless
blindly following stare decisis perpetuates error, precedent must be
followed. See Stilp v. Com., 905 A. 2d 918, 967 (Pa. 2006). Holdings,
"once made and followed, should never be altered upon the changed views
of new personnel of the court." In re Burtt's Estate, 44 A.2d 670, 677 (Pa.
1945) (cited by In re Paulmier, 937 A. 2d 364 (Pa. 2007)). “Stare decisis
simply declares that, for the sake of certainty, a conclusion reached in one
case should be applied to those which follow, if the facts are substantially
45

0212a
the same, even though the parties may be different.” Heisler v. Thomas
Colliery Co., 118 A. 394, 395 (Pa. 1922).
The material facts of this case are not only substantially similar, but
they are also identical - the terms “offer to vote” remains identical in today’s
Pennsylvania Constitution to the Pennsylvania Constitution back in the
times of Chase and Lancaster City. For the sake of consistency of law, the
meaning must remain the same. This Court should consistently find that the
term requires voting to be in person, absent some contravening language.
Article 7, § 14 provides that contravening language, and does so
specifically because of the limitation set by § 1. The ExecutiveRespondents cite no special justification that would justify injecting
instability into settled law. Departure from the stringent principles of stare
decisis requires special justification, and the Executive-Respondents have
not identified a single one. See Arizona v. Rumsey, 467 U. S. 203, 212
(1984) ("Any departure from the doctrine of stare decisis demands special
justification …").
Indeed, Chase and Lancaster City have been consistently upheld
without any indication of perpetuating legal error. The idea that a change in
times is reason to reinterpret language is risible, precisely because stare
decisis, as a principle, was established to provide predictability and stability
46

0213a
through time. The Executive-Respondents fail to cite a single case for their
historically relative definitional approach. The Executive-Respondents
provide "little basis here for invoking the rare exception to stare decisis to
disturb a long-settled matter." See Shambach, 845 A. 2d at 807.
Moreover, consistent amendments to Article VII demonstrate a
necessity to provide specific constitutional authority for each expansion of
methods of voting beyond in propria persona voting, because of the strict
requirement for in person voting. The Executive-Respondents’
interpretation of the relevant constitutional provisions, if correct, would have
obviated the need for many such prior Pennsylvania Constitutional
amendments. Indeed, absent such restriction, amendments allowing for
Military voting and absentee voting under Article VII, § 14 would be
redundant.
Yet, Executive-Respondents point to the Court’s propensity to allow
some latitude in the prescriptive language in some of these amendments
as evidence that the language is entirely permissive. Specifically, the
Executive-Respondents cite to the fact that spouses of military members
were allowed to vote when the amendment only allowed for military
members, and the legislature interpreting “duties, occupation or business”
in Article VII, § 14 as inclusive of “teaching or education, vacations,
47

0214a
sabbatical leaves, and all other absences associated with the elector’s
duties, occupation or business, and also include an elector’s spouse who
accompanies the elector.” Application, Exhibit A, pp. 24-25 (quoting 25
Pa.Stat. § 2602). Citing these minor variances – well within the interpretive
confines of both amendments – the Executive-Respondents assert that
“five decades of allowing absentee voting beyond the ‘specifically named’
categories of Article VII, § 14, suggests it would no longer be appropriate to
follow Lancaster City by applying the maxim expressio unius est exclusio
alterius.” Id. at p. 26.
Put simply, the Executive-Respondents argue that because some
legislation does not adhere to the strictest interpretation of Article VII, § 14,
the Pennsylvania General Assembly has free reign to interpret § 14 out of
existence, as Act 77 does. The issue here, is an Act that classifies virtually
everyone as an absentee voter, not a mere justifiable interpretation of
some enumerated exception. The Court should resist the invitation to
interpret § 14 out of existence.
Moreover, Respondents, reliance on Kauffman v. Osser, 271 A.2d
236 (Pa. 1970) is misguided at best. In Kauffman, the Plaintiffs brought a
challenge to a law that allowed for absentee voting in situations where
electors were on vacation on election day. Respondents state that “the
48

0215a
legislature believed these expansions to be constitutional, even
contemporaneously with the finalization of the new constitution. And the
Supreme Court rejected a challenge to some of these expansions when
they were still young, albeit on standing grounds. Kauffman v. Osser, 441
Pa. 150 (1970).” First, not only did this Court base its holding in Kauffman
on lack of standing, but also this Court did not analyze any part of the
statute’s constitutionality, not even in a single sentence. No honest reading
of the case would render a holding of constitutionality.
The Executive-Respondents’ desperate reliance on Martin v.
Haggerty, 548 A.2d 371, 374-75 (Pa. Commw. Ct. 1988) and Ray v.
Commonwealth, 276 A.2d 509 (Pa. 1971) fare no better. The ExecutiveRespondents draw the following conclusion from these cases: “More recent
decisions suggest the legislature has broad powers to decide who may
vote by absentee ballot.” First, Martin was decided by the Commonwealth
Court, applying Ray. Therefore, only Ray is authoritative here. Second, and
regardless, both decisions revolve around the definition of “qualified
elector” specifically excluding incarcerated individuals. This Court found
that the “Legislature has the power to define ‘qualified electors' in terms of
age and residency requirements, so it also has power to except persons
‘confined in a penal institution’ from the class of ‘qualified electors.’” Ray,
49

0216a
276 A.2d at 510. The power of the legislature to limit who can register to
vote – i.e., a qualified elector – is not the subject of the present litigation.
But the Executive-Respondents argue that “if the 1968 Constitution sets a
floor for qualified electors in Article VII, § 1, then by the same logic it sets a
floor for absentee voters in Article VII, § 14.” Application, Exhibit A, p. 27.
The incongruity of the comparison is outstanding. Article VII, § 1 clearly
states that the limitations are “subject, however, to such laws requiring and
regulating the registration of electors as the General Assembly may enact,”
providing discretion to the General Assembly to enact laws as they see fit.
No similar discretionary language is present in Article VII, § 14. The
comparison of different Sections, containing wholly different language is not
instructive.
The Executive-Respondents cite no authority or interpretive principle
for their argument that the change of the word from “may” in totally distinct
earlier absentee provisions to “shall” in Article VII, § 14 “reflects the modern
Pennsylvania Constitution’s grant of general discretion to set qualifications
for absentee voting…” Application, Exhibit A, p. 28. How the ExecutiveRespondents can glean that an affirmative “shall” creates more discretion
on the legislature is beyond comprehension.

50

0217a
Finally, in the three single lines dedicated to the Constitutional
amendment that would have prevented this entire litigation if
constitutionally passed, the Executive-Respondents argue that “[i]f
anything, the General Assembly recognized that, as no challenges had
been made to Act 77 within the prescribed time frame, it was likely
constitutional and no amendment was necessary.” Application, Exhibit A, p.
28. Such conclusion is flawed both in fact and in logic. As to the former,
because the legislature did not “abandon the quest” of amending the
Constitution, the amendment passed and is slated to be voted on by
electors, pursuant to Constitutional mandate, in November of 2021. As to
the latter, there is no implication of a lack of constitutionality in the mere
lack of a challenge. The way to change the Pennsylvania Constitution is
through amendment, not reinterpretation contradictory to the original intent
and meaning of its terms. Accordingly, the Executive-Respondents’
Preliminary Objection 5 should be overruled.
VI.

The standards for granting a preliminary and permanent
injunctive relief are met in this case.
The standard for granting a preliminary and permanent injunction are

met in this case.

51

0218a
A.

Standard for Granting a Preliminary Injunction.

A preliminary injunction’s purpose is to preserve the status quo and to
prevent imminent and irreparable harm that might occur before the merits
of a case can be heard and determined. Ambrogi v. Reber, 932 A.2d 969,
976 (Pa. Super. 2007), Walter v. Stacy, 837 A.2d 1205, 1209 (Pa. Super.
2003). Pennsylvania Law is well settled regarding the prerequisites that
must be established by the movant in order to obtain a Preliminary
Injunction. “There are six ‘essential prerequisites’ that a party must
establish prior to obtaining preliminary injunctive relief. The party must
show: 1) ‘that the injunction is necessary to prevent immediate and
irreparable harm that cannot be adequately compensated by damages’; 2)
‘that greater injury would result from refusing an injunction than from
granting it, and, concomitantly, that issuance of an injunction will not
substantially harm other interested parties in the proceedings’; 3) ‘that a
preliminary injunction will properly restore the parties to their status as it
existed immediately prior to the alleged wrongful conduct’; 4) ‘that the
activity it seeks to restrain is actionable, that its right to relief is clear, and
that the wrong is manifest, or, in other words, must show that it is likely to
prevail on the merits’; 5) ‘that the injunction it seeks is reasonably suited to
abate the offending activity’; and, 6) ‘that a preliminary injunction will not
52

0219a
adversely affect the public interest.’ Warehime v. Warehime, 860 A.2d 41,
46-47 (Pa. 2004) (citing, Summit Towne Centre. Inc, v. Shoe Show of
Rocky Mount Inc., 828 A.2d 995, 1002 (Pa. 2003)).
B.

An Injunction Is Necessary to Prevent Immediate and
Irreparable Harm to the Petitioners That Cannot Be
Otherwise Adequately Compensated by Damages.

The injunction in this case is necessary to prevent Petitioners from
suffering the permanent, irreparable harm of an illegal election conducted
pursuant to unconstitutional laws. As an initial matter, this Court has
consistently held that, “[w]hen the Legislature declares certain conduct to
be unlawful it is tantamount in law to calling it injurious to the public. For
one to continue such unlawful conduct constitutes irreparable injury.”
Pennsylvania Public Utility Commission v. Israel, 52 A.2d 317, 321 (Pa.
1947). An illegal action, should it be allowed to continue, is an irreparable
harm. Milk Marketing Board v. United Dairy Farmers Co–op Association,
299 A.2d 191 (Pa. 1973) (plurality) (affirming issuance of a preliminary
injunction and finding irreparable harm because Petitioners violated state
statute by selling milk below the minimum prices mandated by state law);
Pennsylvania Public Utility Commission v. Israel, 52 A.2d 317 (Pa. 1947)
(affirming issuance of a preliminary injunction on the basis that Petitioners

53

0220a
violated a state statute requiring taxicabs to have a certificate of public
convenience).
The same kind of irreparable harm, as a matter of law, has been
found in instances where legislative acts were preempted or not in
accordance with a higher authority. Firearm Owners Against Crime v.
Lower Merion Twp., 151 A.3d 1172, 1180 (Pa. Commw. Ct. 2016). In
Firearm, the court found that a town ordinance that violated state statutory
law constituted irreparable injury. “[R]egardless of the persuasiveness of
the Township's argument, [] binding case law mandates that the Ordinance
is preempted by § 6120(a) of the UFA and, therefore, the Township's
enactment of the same violates the UFA. Thus, issuance of a preliminary
injunction is necessary to prevent immediate and irreparable harm, i.e., the
continued statutory violation.” Id. Accordingly, the per se irreparable harm
as a matter of law standard should be applied in situations where
legislation is in violation of the Pennsylvania Constitution.
Here the General Assembly enacted Act 77 in violation of the
Pennsylvania Constitution. Should this Court find that it is at least likely that
a violation of the Pennsylvania Constitution occurred, then the inquiry
should end there – immediate and irreparable harm should be found as a
matter of law. In the alternative, should the Court not find irreparable harm
54

0221a
as a matter of law, irreparable harm should be found because the
November 3, 2020, General Election was conducted pursuant to
unconstitutional legislation; a failure by the Court to enjoin early certification
of those derivatively unconstitutional results (which to this point include
mail-in ballots), would strip the Court of the ability to redress the harm
suffered by Petitioners and all Pennsylvanians with respect to the
presidential election. Once elections are certified and electors are
appointed and cast their votes, the Court's ability to undo such certification
and provide redressability for the November 3, 2020, presidential General
Election becomes impossible.
For presidential and vice-presidential elections, states must choose
their electors “at least six days before the time fixed for the meeting of
electors” in order to meet the federal “safe harbor” deadline. 3 U.S.C. § 5.
For the 2020 General Election, electors must be chosen by December 8,
2020, in order to ensure that they are able to meet and vote at the time
prescribed by law – December 14, 2020, at 12:00 PM – and have that vote
counted in Congress. Once such votes are cast by the presidential and
vice-presidential electors, this Court would lose the ability to provide relief
to Petitioners, and Petitioners would have no other forum in which to have
their claims redressed.
55

0222a
Although no similar deadline exists with regard to United States
House of Representatives election , it is unlikely that the Court would be
able to provide relief once the returns of these races have been certified
and the Governor has transmitted those returns to the Speaker of the
House of Representatives pursuant to 25 Pa.Stat. § 3163. Similarly, with
respect to General Assembly elections, there is no certification deadline,
however, pursuant to the Pennsylvania Constitution the new General
Assembly is seated on December 1st after which, relief would be
impracticable. Pa. Const. Art. II, Sec, 2.
The failure of an election to choose electors, must be resolved
subsequently by the legislature prior to the appointment of electors “in such
a manner as the legislature of such State may direct.” 3 U.S.C. § 2. Thus,
the determination of a failure in the election must be resolved prior to the
Secretary exercising her authority to certify the elections, prior to the
Governor issuing commissions for the Electors, and prior to the Electors
submitting their votes for the Electoral College. Without continuing the
temporary injunction, therefore, relief will likely become impossible, and the
harm would be rendered irreparable. Finally, should this litigation, and the
subsequent appellate process, continue past December 14th – the date

56

0223a
that the Electors cast their votes– the Court would have no power in law or
in equity to undue the resulting wrongs.
C.

Greater injury would result from allowing certification of
election results conducted pursuant to an unconstitutional
mail-in voting scheme than from prohibiting it.

The second prerequisite to the issuance of a preliminary injunction is
that the party requesting the injunction must show that greater injury would
result from refusing an injunction than from granting it and concomitantly,
that issuance of an injunction will not substantially harm other interested
parties in the proceedings. The York Grp., Inc. v. Yorktowne Caskets, Inc.,
924 A.2d 1234, 1244 (Pa. Super. 2007). This requirement is satisfied here
as well.
The injunction requested is temporary and will only prevent the
Secretary and Governor from performing certain ministerial actions far in
advance of the statutory deadlines set in Federal Law (December 8th for
certification of electors, December 14th for casting of electoral votes) or the
Pennsylvania Constitution (December 1st for General Assembly to take
office). Should the Court ultimately find for the Respondents, the only harm
suffered by the Respondents is a slight delay of certification of results, a
largely procedural step that benefits Respondents in no way if done early.
This Court may take judicial notice that in the 2016 Presidential Election,
57

0224a
the results were certified, and the Certificates of Ascertainment were
signed on December 12, 2016. See Department of State Certifies
Presidential Election Results, available at
https://www.media.pa.gov/pages/State-details.aspx?newsid=207
(December 12, 2016). Conversely, if the limited injunction is not
maintained, Respondents harm becomes irreparable, and Petitioners,
along with all Pennsylvanians, must permanently suffer the fruits of an
unconstitutional election and having been disenfranchised of their right to
vote on adoption of a constitutional amendment before widespread no
excuse mail-in voting was instituted. Juxtaposing the harms, it becomes
clear that the lack of injury from a short delay to a procedural mechanism
for the sake of preserving any form of redressability for Petitioners is a
favorable outcome for all parties involved.
D.

Granting the Preliminary Injunction Will Maintain the Status
Quo and Prevent Respondents from Inflicting Permanent
Damage Through Their Illegal Conduct.

The sole object of a preliminary injunction is to preserve the subject
of the controversy in the condition in which it is when the order is made, it is
not to subvert, but to maintain the existing status until the merits of the
controversy can be fully heard and determined. Chipman ex rel. Chipman
v. Avon Grove School Dist., 841 A.2d 1098, 1101 (Pa. Commw. Ct. 2004.)
58

0225a
(citing Little Britain Township Appeal, 651 A.2d 606 (Pa. Commw. Ct.
1994)). “The status quo to be maintained by a preliminary injunction is the
last actual, peaceable and lawful noncontested status which preceded the
pending controversy.” Valley Forge Historical Soc’y v. Washington
Memorial Chapel, 426 A.2d 1123, 1129 (Pa. 1981).
To be clear, the harm suffered by Petitioners is not simply that of
being subject to unconstitutional legislation, though that is a cognizable
harm under the law. The realized harm is the resulting wrongs of
conducting the November 3, 2020, General Election pursuant to
unconstitutional legislation. Prior to the November 3, 2020, General
Election taking place, there were no results to be certified. As it stands
now, it is not clear which steps in the process of certification of an election
have and have not been completed, but clearly the electors have not yet
voted. Thus, a narrow window exists in which a properly tailored injunction
issued by this Court will preserve the status quo as it existed prior to the
wrongful conduct at issue. Such an injunction would preserve Petitioners'
rights and allow the court adequate time to decide the presented questions
of law, while retaining the ability to meaningfully redress the harm.
Moreover, as mentioned above, such an injunction would in no way
prejudice Respondents. If injunctive relief is not granted, and a final hearing
59

0226a
on the merits is not immediately scheduled, Petitioners will be robbed of
their ability to see their harms redressed.
The requested injunctive relief in this matter is appropriate because it
will properly restore the parties to their status as it existed immediately prior
to the alleged wrongful conduct. Consequently, the third prerequisite
necessary to the grant of preliminary injunctive relief has been satisfied.
E.

Act 77 is a Clear Violation of the Constitution and the
Pennsylvania Supreme Court has Previously Struck Down
Similar Laws and Set Aside Illegal Mail-in Ballots, Thus
Petitioners are Likely to Prevail on the Merits.

The fourth prerequisite to the issuance of a preliminary injunction is
that the Petitioners must show that the activity they seek to restrain is
actionable, that their right to relief is clear, and that the wrong is manifest,
or, in other words, must show that they are likely to prevail on the merits.
To establish a, “clear right to relief,” the party seeking an injunction
need not prove the merits of the underlying claim, but need only show that
substantial legal questions must be resolved to determine the rights of the
respective parties. Walter v. Stacy, 837 A.2d 1205, 1209 (Pa. Super. 2003)
(quoting, Chmura v. Deegan, 581 A.2d 592, 593 (Pa. Super. 1990)); see
also, Ambrogi v. Reber, 932 A.2d 969, 976 (Pa. Super. 2007) (citing
Walter, 837 A.2d at 1209 (“[T]he party seeking an injunction is not required
to prove that he will prevail on his theory of liability, but only that there are
60

0227a
substantial legal questions that the trial court must resolve to determine the
rights of the parties.”)). For the reasons explained in Section V of the
Argument above, Petitioners here have a clear right to relief.
F.

An Injunction Against Respondents is Reasonably
Necessary to Prevent Irreparable Harm.

The fifth prerequisite necessary for granting preliminary injunctive
relief is that the moving party must show that the injunction it seeks is
reasonably necessary to prevent irreparable harm. Pennsylvania courts
sitting in equity have jurisdiction to prevent the continuance of acts
prejudicial to the interest of individual rights, including the authority to
enjoin the wrongful acts where monetary damages are inadequate. The
York Grp., Inc., 924 A.2d, at 1244 (Pa. Super. 2007).
The injunction Petitioners seek is reasonably suited to abate the
offending activity. A preliminary injunction at this point would merely
prevent the fruits of an unconstitutional election from becoming “final,”
thereby preserving Petitioners’ ability to continue to seek permanent relief
from this Court. The remedy requested in the instant motion is narrowly
tailored to prevent immediate and irreparable harm to Petitioners that has
been caused by an election perpetrated pursuant to an unconstitutional
election code.

61

0228a
Petitioners, and the entire Pennsylvania electorate, were subject to
an unconstitutional election code leading up to and through the November
3, 2020, General Election. Indeed, Petitioners continue to remain subject to
such unconstitutional laws. Act 77 was enacted without regard for the
Pennsylvania Constitution, nor for the protections granted therein. A brief
delay in the certification of the election results that in no way harms
Respondents is reasonably necessary to provide this Court with time to
review and make a decision on the merits.
If preliminary injunctive relief is maintained, the Petitioners’ remedy
will be preserved. The preliminary injunction requested would not last
longer than necessary under the circumstance, but only until the rights of
the parties could be determined by a full and final hearing on the merits.
The grant of the requested preliminary injunctive relief is reasonably suited
to abate the offending activity until the matter can be fully adjudicated. For
the reasons as set forth herein, the fifth prerequisite necessary for granting
preliminary injunctive relief has been satisfied by Petitioners.
VII.

The Public Interest Will be Served by Preventing the Premature
Certification of Election Results that Includes Illegal Mail-in
Ballots.
The sixth and final prerequisite that must be satisfied before a

preliminary injunction may be ordered is that the party seeking an injunction
62

0229a
must show that the injunction will not adversely affect the public interest.
The Respondents’ actions constitute an attempt to deny the electorate the
protections afforded to it by the Pennsylvania Constitution. Respondents’
actions represent a concerted effort to subvert the Pennsylvania
Constitution, especially in light of their tacit acknowledgement that the
Constitution required amendment, their attempt to make such amendment,
and their abandonment of such efforts.
“Among the factors that a court must weigh in deciding whether or not
to grant a preliminary injunction is the effect such a preliminary injunction
would have on the public interest.” Philadelphia v. District Council 33.
AFSCME, 528 Pa. 355, 364, 598 A.2d 256, 260 (Pa. 1991). See also,
Allegheny Anesthesiology Associates v. Allegheny General Hosp., 826
A.2d 886, 893 (Pa. Super. 2003) (harm to the public is an additional
consideration in the issuance or denial of a preliminary injunction).
In the instant matter, any concerns of harm from brief delay are
outweighed by the harm of proceeding with all of the certification steps and
forever precluding meaningful review by this Court. This Court could reach
a final decision on the merits in this case very quickly. The public interest
will be served well by granting injunctive relief because there is no greater
public interest than that of an electorate exercising its right to a free, fair,
63

0230a
and lawful election. That public interest will not be harmed by a temporary
delay in certification while the Court decides the questions of law raised by
the instant action. The public interest strongly favors issuance of injunctive
relief.
CONCLUSION
For the foregoing reasons, this Court should maintain the preliminary
injunctive relief provided by the Commonwealth Court until this Court can
make a final decision on the merits, and upon such final decision, make
that relief permanent and strike down Act 77 as unconstitutional.
Respectfully submitted,
OGC Law, LLC
/s/Gregory H. Teufel
Gregory H. Teufel, Esq.
Attorney for Petitioners

64

0231a
CERTIFICATE OF COMPLIANCE
I certify that this filing complies with the provisions of the Public
Access Policy of the Unified Judicial System of Pennsylvania: Case
Records of the Appellate and Trial Courts that require filing confidential
information and documents differently than non-confidential information and
documents.
Date: November 27, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

0232a
CERTIFICATION OF COMPLIANCE WITH WORD COUNT LIMIT
I certify that the RESPONSE TO APPLICATION FOR THE COURT
TO EXERCISE EXTRAORDINARY JURISDICTION is 13,981 words as
measured in accordance with Pennsylvania Rule of Appellate Procedure
2135.
Dated: November 27, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

0233a
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing was
served upon all counsel of record on November 27, 2020 by this Court’s
electronic filing system.
/s/Gregory H. Teufel
Gregory H. Teufel

Received 11/27/2020 7:31:59 AM Supreme Court Middle District
0234a
11/26/2020

Filed
11/27/2020
7:31:00
AMTimes
Supreme
As More Vote by Mail, Faulty Ballots Could
Impact
Elections - The
New York

Court Middle District
68 MAP 2020

https://nyti.ms/R2EbfO

Error and Fraud at Issue as Absentee Voting Rises
By Adam Liptak
Oct. 6, 2012

TALLAHASSEE, Fla. — On the morning of the primary here in August, the local elections board met to decide which absentee ballots to
count. It was not an easy job.
The board tossed out some ballots because they arrived without the signature required on the outside of the return envelope. It rejected
one that said “see inside” where the signature should have been. And it debated what to do with ballots in which the signature on the
envelope did not quite match the one in the county’s ﬁles.
“This ʻr’ is not like that ʻr,’ ” Judge Augustus D. Aikens Jr. said, suggesting that a ballot should be rejected.
Ion Sancho, the elections supervisor here, disagreed. “This ʻk’ is like that ʻk,’ ” he replied, and he persuaded his colleagues to count the
vote.
Scenes like this will play out in many elections next month, because Florida and other states are swiftly moving from voting at a polling
place toward voting by mail. In the last general election in Florida, in 2010, 23 percent of voters cast absentee ballots, up from 15 percent in
the midterm election four years before. Nationwide, the use of absentee ballots and other forms of voting by mail has more than tripled
since 1980 and now accounts for almost 20 percent of all votes.
Yet votes cast by mail are less likely to be counted, more likely to be compromised and more likely to be contested than those cast in a
voting booth, statistics show. Election ofﬁcials reject almost 2 percent of ballots cast by mail, double the rate for in-person voting.
“The more people you force to vote by mail,” Mr. Sancho said, “the more invalid ballots you will generate.”
Election experts say the challenges created by mailed ballots could well affect outcomes this fall and beyond. If the contests next month
are close enough to be within what election lawyers call the margin of litigation, the grounds on which they will be fought will not be
hanging chads but ballots cast away from the voting booth.
In 2008, 18 percent of the votes in the nine states likely to decide this year’s presidential election were cast by mail. That number will
almost certainly rise this year, and voters in two-thirds of the states have already begun casting absentee ballots. In four Western states,
voting by mail is the exclusive or dominant way to cast a ballot.
The trend will probably result in more uncounted votes, and it increases the potential for fraud. While fraud in voting by mail is far less
common than innocent errors, it is vastly more prevalent than the in-person voting fraud that has attracted far more attention, election
administrators say.
In Florida, absentee-ballot scandals seem to arrive like clockwork around election time. Before this year’s primary, for example, a woman
in Hialeah was charged with forging an elderly voter’s signature, a felony, and possessing 31 completed absentee ballots, 29 more than
allowed under a local law.
The ﬂaws of absentee voting raise questions about the most elementary promises of democracy. “The right to have one’s vote counted is
as important as the act of voting itself,” Justice Paul H. Anderson of the Minnesota Supreme Court wrote while considering disputed
absentee ballots in the close 2008 Senate election between Al Franken and Norm Coleman.
Voting by mail is now common enough and problematic enough that election experts say there have been multiple elections in which no
one can say with conﬁdence which candidate was the deserved winner. The list includes the 2000 presidential election, in which problems
with absentee ballots in Florida were a little-noticed footnote to other issues.
In the last presidential election, 35.5 million voters requested absentee ballots, but only 27.9 million absentee votes were counted,
according to a study by Charles Stewart III, a political scientist at the Massachusetts Institute of Technology. He calculated that 3.9 million
ballots requested by voters never reached them; that another 2.9 million ballots received by voters did not make it back to election
ofﬁcials; and that election ofﬁcials rejected 800,000 ballots. That suggests an overall failure rate of as much as 21 percent.
Some voters presumably decided not to vote after receiving ballots, but Mr. Stewart said many others most likely tried to vote and were
thwarted. “If 20 percent, or even 10 percent, of voters who stood in line on Election Day were turned away,” he wrote in the study,
published in The Journal of Legislation and Public Policy, “there would be national outrage.”

Make sense of the day’s news and ideas. David
Leonhardt and Times journalists guide you through what’s
THE MORNING:

https://www.nytimes.com/2012/10/07/us/politics/as-more-vote-by-mail-faulty-ballots-could-impact-elections.html

EXHIBIT A

Sign Up

1/3

0235a
11/26/2020

As More Vote by Mail, Faulty Ballots Could Impact Elections - The New York Times

happening — and why it matters.

The list of very close elections includes the 2008 Senate race in Minnesota, in which Mr. Franken’s victory over Mr. Coleman, the
Republican incumbent, helped give Democrats the 60 votes in the Senate needed to pass President Obama’s health care bill. Mr. Franken
won by 312 votes, while state ofﬁcials rejected 12,000 absentee ballots. Recent primary elections in New York involving Republican state
senators who had voted to allow same-sex marriage also hinged on absentee ballots.
There are, of course, signiﬁcant advantages to voting by mail. It makes life easier for the harried, the disabled and the elderly. It is cheaper
to administer, makes for shorter lines on election days and allows voters more time to think about ballots that list many races. By mailing
ballots, those away from home can vote. Its availability may also increase turnout in local elections, though it does not seem to have had
much impact on turnout in federal ones.
Still, voting in person is more reliable, particularly since election administrators made improvements to voting equipment after the 2000
presidential election.
There have been other and more controversial changes since then, also in the name of reliability and efﬁciency. Lawmakers have cut back
on early voting in person, cracked down on voter registration drives, imposed identiﬁcation requirements, made it harder for students to
cast ballots and proposed purging voter rolls in a way that critics have said would eliminate people who are eligible to vote.
But almost nothing has been done about the distinctive challenges posed by absentee ballots. To the contrary, Ohio’s Republican secretary
of state recently sent absentee ballot applications to every registered voter in the state. And Republican lawmakers in Florida recently
revised state law to allow ballots to be mailed wherever voters want, rather than typically to only their registered addresses.
“This is the only area in Florida where we’ve made it easier to cast a ballot,” Daniel A. Smith, a political scientist at the University of
Florida, said of absentee voting.
He posited a reason that Republican ofﬁcials in particular have pushed to expand absentee voting. “The conventional wisdom is that
Republicans use absentee ballots and Democrats vote early,” he said.
Republicans are in fact more likely than Democrats to vote absentee. In the 2008 general election in Florida, 47 percent of absentee voters
were Republicans and 36 percent were Democrats.
There is a bipartisan consensus that voting by mail, whatever its impact, is more easily abused than other forms. In a 2005 report signed
by President Jimmy Carter and James A. Baker III, who served as secretary of state under the ﬁrst President George Bush, the
Commission on Federal Election Reform concluded, “Absentee ballots remain the largest source of potential voter fraud.”
On the most basic level, absentee voting replaces the oversight that exists at polling places with something akin to an honor system.
“Absentee voting is to voting in person,” Judge Richard A. Posner of the United States Court of Appeals for the Seventh Circuit has written,
“as a take-home exam is to a proctored one.”
Fraud Easier Via Mail
Election administrators have a shorthand name for a central weakness of voting by mail. They call it granny farming.
“The problem,” said Murray A. Greenberg, a former county attorney in Miami, “is really with the collection of absentee ballots at the
senior citizen centers.” In Florida, people afﬁliated with political campaigns “help people vote absentee,” he said. “And help is in quotation
marks.”
Voters in nursing homes can be subjected to subtle pressure, outright intimidation or fraud. The secrecy of their voting is easily
compromised. And their ballots can be intercepted both coming and going.
The problem is not limited to the elderly, of course. Absentee ballots also make it much easier to buy and sell votes. In recent years, courts
have invalidated mayoral elections in Illinois and Indiana because of fraudulent absentee ballots.
Voting by mail also played a crucial role in the 2000 presidential election in Florida, when the margin between George W. Bush and Al
Gore was razor thin and hundreds of absentee ballots were counted in apparent violation of state law. The ﬂawed ballots, from Americans
living abroad, included some without postmarks, some postmarked after the election, some without witness signatures, some mailed from
within the United States and some sent by people who voted twice. All would have been disqualiﬁed had the state’s election laws been
strictly enforced.
In the recent primary here, almost 40 percent of ballots were not cast in the voting booth on the day of the election. They were split
between early votes cast at polling places, which Mr. Sancho, the Leon County elections supervisor, favors, and absentee ballots, which
make him nervous.
“There has been not one case of fraud in early voting,” Mr. Sancho said. “The only cases of election fraud have been in absentee ballots.”
https://www.nytimes.com/2012/10/07/us/politics/as-more-vote-by-mail-faulty-ballots-could-impact-elections.html

EXHIBIT A

2/3

0236a
11/26/2020

As More Vote by Mail, Faulty Ballots Could Impact Elections - The New York Times

Efforts to prevent fraud at polling places have an ironic consequence, Justin Levitt, a professor at Loyola Law School, told the Senate
Judiciary Committee September last year. They will, he said, “drive more voters into the absentee system, where fraud and coercion have
been documented to be real and legitimate concerns.”
“That is,” he said, “a law ostensibly designed to reduce the incidence of fraud is likely to increase the rate at which voters utilize a system
known to succumb to fraud more frequently.”
Clarity Brings Better Results
In 2008, Minnesota ofﬁcials rejected 12,000 absentee ballots, about 4 percent of all such votes, for the myriad reasons that make voting by
mail far less reliable than voting in person.
The absentee ballot itself could be blamed for some of the problems. It had to be enclosed in envelopes containing various information and
signatures, including one from a witness who had to attest to handling the logistics of seeing that “the voter marked the ballots in that
individual’s presence without showing how they were marked.” Such witnesses must themselves be registered voters, with a few
exceptions.
Absentee ballots have been rejected in Minnesota and elsewhere for countless reasons. Signatures from older people, sloppy writers or
stroke victims may not match those on ﬁle. The envelopes and forms may not have been conﬁgured in the right sequence. People may
have moved, and addresses may not match. Witnesses may not be registered to vote. The mail may be late.
But it is certainly possible to improve the process and reduce the error rate.
Here in Leon County, the rejection rate for absentee ballots is less than 1 percent. The instructions it provides to voters are clear, and the
outer envelope is a model of graphic design, with a large signature box at its center.
The envelope requires only standard postage, and Mr. Sancho has made arrangements with the post ofﬁce to pay for ballots that arrive
without stamps.
Still, he would prefer that voters visit a polling place on Election Day or beforehand so that errors and misunderstandings can be corrected
and the potential for fraud minimized.
“If you vote by mail, where is that coming from?” he asked. “Is there intimidation going on?”
Last November, Gov. Rick Scott, a Republican, suspended a school board member in Madison County, not far from here, after she was
arrested on charges including absentee ballot fraud.
The board member, Abra Hill Johnson, won the school board race “by what appeared to be a disproportionate amount of absentee votes,”
the arrest afﬁdavit said. The vote was 675 to 647, but Ms. Johnson had 217 absentee votes to her opponent’s 86. Ofﬁcials said that 80
absentee ballots had been requested at just nine addresses. Law enforcement agents interviewed 64 of the voters whose ballots were sent;
only two recognized the address.
Ms. Johnson has pleaded not guilty.
Election law experts say that pulling off in-person voter fraud on a scale large enough to swing an election, with scores if not hundreds of
people committing a felony in public by pretending to be someone else, is hard to imagine, to say nothing of exceptionally risky.
There are much simpler and more effective alternatives to commit fraud on such a scale, said Heather Gerken, a law professor at Yale.
“You could steal some absentee ballots or stuff a ballot box or bribe an election administrator or ﬁddle with an electronic voting machine,”
she said. That explains, she said, “why all the evidence of stolen elections involves absentee ballots and the like.”

https://www.nytimes.com/2012/10/07/us/politics/as-more-vote-by-mail-faulty-ballots-could-impact-elections.html

EXHIBIT A

3/3

APPENDIX J
0237a
United States Constitution
U.S. Constitution Article I, § 4, clause 1
The Times, Places and Manner of holding Elections for Senators and
Representatives, shall be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law make or alter such
Regulations, except as to the Places of chusing Senators.
U.S. Constitution Article II, § 1, clause 2
Each State shall appoint, in such Manner as the Legislature thereof
may direct, a Number of Electors, equal to the whole Number of
Senators and Representatives to which the State may be entitled in
the Congress: but no Senator or Representative, or Person holding an
Office of Trust or Profit under the United States, shall be appointed an
Elector.
U.S. Constitution Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.
U.S. Constitution Amendment XIV
Section 1
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2
Representatives shall be apportioned among the several States
according to their respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed. But when the right
to vote at any election for the choice of electors for President and VicePresident of the United States, Representatives in Congress, the

0238a
Executive and Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male inhabitants of such
State, being twenty-one years of age, and citizens of the United States,
or in any way abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be reduced in the
proportion which the number of such male citizens shall bear to the
whole number of male citizens twenty-one years of age in such State.
Section 3
No person shall be a Senator or Representative in Congress, or elector
of President and Vice-President, or hold any office, civil or military,
under the United States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an officer of the United
States, or as a member of any State legislature, or as an executive or
judicial officer of any State, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion against the
same, or given aid or comfort to the enemies thereof. But Congress
may by a vote of two-thirds of each House, remove such disability.
Section 4
Debts of the Confederacy and claims not to be paid.] The validity of the
public debt of the United States, authorized by law, including debts
incurred for payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be questioned. But
neither the United States nor any State shall assume or pay any debt
or obligation incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or emancipation of any slave;
but all such debts, obligations and claims shall be held illegal and void.
Section 5
The Congress shall have the power to enforce, by appropriate
legislation, the provisions of this article.
Pennsylvania Constitution
Pa. Constitution Article III, § 1 (1838)
In elections by the citizens, every white freeman of the age of twentyone years, having resided in the State one year, and in the election
district where he offers to vote, ten days immediately proceeding such
election, and within two years paid a State or county tax, which shall

0239a
have been assessed at least ten days before the election, shall enjoy the
rights of an elector. But a citizen of the United States who had
previously been a qualified voter of this State, and removed therefrom
and returned, and who shall have resided in the election district, and
paid taxes, as aforesaid, shall be entitled to vote after residing in the
State six months: Provided, That white freemen, citizens of the United
States, between the ages of twenty-one and twenty-two years, and
having resided in the State one year and in the election district ten
days, as aforesaid, shall be entitled to vote, although they shall not
have paid taxes.
Pa. Constitution Article VII, § 1
Every citizen 21 years of age, possessing the following
qualifications, shall be entitled to vote at all elections subject, however,
to such laws requiring and regulating the registration of electors as the
General Assembly may enact.
1. He or she shall have been a citizen of the United States at least one
month.
2. He or she shall have resided in the State 90 days immediately
preceding the election.
3. He or she shall have resided in the election district where he or she
shall offer to vote at least 60 days immediately preceding the election,
except that if qualified to vote in an election district prior to removal of
residence, he or she may, if a resident of Pennsylvania, vote in the
election district from which he or she removed his or her residence
within 60 days preceding the election.
Pa. Constitution Article VII, § 4
All elections by the citizens shall be by ballot or by such other method
as may be prescribed by law: Provided, That secrecy in voting be
preserved.
Pa. Constitution Article VII, § 14
(a) The Legislature shall, by general law, provide a manner in which,
and the time and place at which, qualified electors who may, on the
occurrence of any election, be absent from the municipality of their
residence, because their duties, occupation or business require them to

0240a

be elsewhere or who, on the occurrence of any election, are unable to
attend at their proper polling places because of illness or physical
disability or who will not attend a polling place because of the
observance of a religious holiday or who cannot vote because of election
day duties, in the case of a county employee, may vote, and for the
return and canvass of their votes in the election district in which they
respectively reside.
(b) For purposes of this section, “municipality” means a city, borough,
incorporated town, township or any similar general purpose unit of
government which may be created by the General Assembly.
Pa. Constitution Article VII, § 19 (1957)
The Legislature may, by general law, provide a manner in which, and
the time and place at which, qualified voters who may, on the
occurrence of any election, be unavoidably absent from the State or
county of their residence because of their duties, occupation or
business require them to be elsewhere or who, on the occurrence of any
election, are unable to attend at their proper polling places because of
illness or physical disability, may vote, and for the return and canvass
of their votes in the election district in which they respectively reside.
Pa. Constitution Article VIII, § 6 (1864)
Whenever any of the qualified electors of this Commonwealth shall be
in actual military service, under a requisition from the President of the
United States or by the authority of this Commonwealth, such electors
may exercise the right of suffrage in all elections by the citizens, under
such regulations as are or shall be prescribed by law, as fully as if they
were present at their usual place of election.
Pa. Constitution Article VIII, § 18 (1949)
The General Assembly may, by general law, provide a manner in
which, and the time and place at which, qualified war veteran voters,
who may, on the occurrence of any election, be unavoidably absent
from the State or county of their residence because of their being
bedridden or hospitalized due to illness or physical disability
contracted or suffered in connection with, or as a direct result of, their
military service, may vote and for the return and canvass of their votes
in the election district in which they respectively reside.

0241a

Pa. Constitution Article XI, § 1
Amendments to this Constitution may be proposed in the Senate or
House of Representatives; and if the same shall be agreed to by a
majority of the members elected to each House, such proposed
amendment or amendments shall be entered on their journals with the
yeas and nays taken thereon, and the Secretary of the Commonwealth
shall cause the same to be published three months before the next
general election, in at least two newspapers in every county in which
such newspapers shall be published; and if, in the General Assembly
next afterwards chosen, such proposed amendment or amendments
shall be agreed to by a majority of the members elected to each House,
the Secretary of the Commonwealth shall cause the same again to be
published in the manner aforesaid; and such proposed amendment or
amendments shall be submitted to the qualified electors of the State in
such manner, and at such time at least three months after being so
agreed to by the two Houses, as the General Assembly shall prescribe;
and, if such amendment or amendments shall be approved by a
majority of those voting thereon, such amendment or amendments
shall become a part of the Constitution; but no amendment or
amendments shall be submitted oftener than once in five years. When
two or more amendments shall be submitted they shall be voted upon
separately.
(a) In the event a major emergency threatens or is about to threaten the
Commonwealth and if the safety or welfare of the Commonwealth requires
prompt amendment of this Constitution, such amendments to this
Constitution may be proposed in the Senate or House of Representatives at
any regular or special session of the General Assembly, and if agreed to by at
least two-thirds of the members elected to each House, a proposed
amendment shall be entered on the journal of each House with the yeas and
nays taken thereon and the official in charge of statewide elections shall
promptly publish such proposed amendment in at least two newspapers in
every county in which such newspapers are published. Such amendment
shall then be submitted to the qualified electors of the Commonwealth in
such manner, and at such time, at least one month after being agreed to by
both Houses as the General Assembly prescribes.
(b) If an emergency amendment is approved by a majority of the qualified
electors voting thereon, it shall become part of this Constitution. When two or
more emergency amendments are submitted they shall be voted on
separately.

0242a
Pa. Acts
Act of October 31, 2019, P.L. 552, No. 77
AN ACT
Amending the act of June 3, 1937 (P.L.1333, No.320), entitled "An act
concerning elections, including general, municipal, special and primary
elections, the nomination of candidates, primary and election expenses
and election contests; creating and defining membership of county
boards of elections; imposing duties upon the Secretary of the
Commonwealth, courts, county boards of elections, county
commissioners; imposing penalties for violation of the act, and
codifying, revising and consolidating the laws relating thereto; and
repealing certain acts and parts of acts relating to elections," in
preliminary provisions, further providing for definitions; in the
Secretary of the Commonwealth, providing for requirements for
disapproval or decertification of voting apparatuses and for census
outreach; in district election officers, further providing for
compensation of district election officers; in election districts and
polling places, further providing for restrictions on alteration; in
nomination of candidates, further providing for petition may consist of
several sheets and affidavit of circulator, for manner of signing
nomination petitions and time of circulating and for nominations by
political bodies; in ballots, further providing for form of official primary
ballot, for form of official election ballot, for number of ballots to be
printed and specimen ballots and for forms of ballots on file and open
to public inspection and ballots and diagrams to be furnished to
candidates and parties; in voting machines, further providing for
requirements of voting machines and for form of ballot labels on voting
machines; in electronic voting systems, further providing for
requirements of electronic voting systems, for forms, for election day
procedures and the process of voting and for post election procedures;
providing for voting apparatus bonds; in preparation for and conduct of
primaries and elections, further providing for manner of applying to
vote and persons entitled to vote and voter's certificates and entries to
be made in district register and numbered lists of voters and
challenges, for method of marking ballots and depositing same in
districts in which ballots are used, for instructions of voters and
manner of voting in districts in which voting machines are used, for
count and return of votes in districts in which ballots are used, for
what ballots shall be counted, manner of counting and defective ballots
and for canvass and return of votes in districts in which voting
machines are used and providing for deadline for receipt of valid voter

0243a

registration application, for appeals and for appeals to court of common
pleas; in voting by qualified absentee electors, further providing for
applications for official absentee ballots, for date of application for
absentee ballot, for approval of application for absentee ballot, for
absentee electors files and lists, for official absentee voters ballots, for
delivering or mailing ballots, for voting by absentee electors, for
canvassing of official absentee ballots and for public records; providing
for voting by qualified mail-in electors; in returns of primaries and
elections, further providing for manner of computing irregular ballots;
providing for dissemination of information and for jurisdiction;
removing references to the Traffic Court of Philadelphia; and making
related repeals.
The General Assembly of the Commonwealth of Pennsylvania
hereby enacts as follows:
Section 1. Section 102(z.5)(3) of the act of June 3, 1937 (P.L.1333,
No.320), known as the Pennsylvania Election Code, is amended and
the section is amended by adding a subsection to read:
Section 102. Definitions.--The following words, when used in this
act, shall have the following meanings, unless otherwise clearly
apparent from the context:
***
(z.5) The words "proof of identification" shall mean:
***
(3) For a qualified absentee elector under section 1301 or a
qualified mail-in elector under section 1301-D:
(i) in the case of an elector who has been issued a current and
valid driver's license, the elector's driver's license number;
(ii) in the case of an elector who has not been issued a current and
valid driver's license, the last four digits of the elector's Social Security
number;
(iii) in the case of an elector who has a religious objection to being
photographed, a copy of a document that satisfies paragraph (1); or
(iv) in the case of an elector who has not been issued a current and
valid driver's license or Social Security number, a copy of a document
that satisfies paragraph (2).
(z.6) The words "qualified mail-in elector" shall mean a
qualified elector who is not a qualified absentee elector.
Section 2. The act is amended by adding sections to read:
Section 207. Requirements for Disapproval or
Decertification of Voting Apparatuses.--(a) The
Commonwealth may not disapprove or decertify a voting

0244a
apparatus in 50% or more counties until the requirements of
this section have been met.
(b) If the Commonwealth intends to make a disapproval or
decertification under subsection (a), the Department of State
must submit a written plan to the President pro tempore of the
Senate, the Speaker of the House of Representatives, the
Appropriations Committee of the Senate, the Appropriations
Committee of the House of Representatives, the State
Government Committee of the Senate and the State
Government Committee of the House of Representatives at
least 180 days prior to the effective date of the replacement
voting apparatuses, containing all of the following information:
(1) The reason for the disapproval or decertification.
(2) The estimated cost to replace the disapproved or
decertified voting apparatus and the plan for how funding will
be obtained to cover the estimated cost.
(3) A plan for replacing the disapproved or decertified
voting apparatus.
(4) The effective date of the replacement voting apparatus.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Electronic voting system" shall have the meaning given to
the term in section 1101-A.
"Voting apparatus" shall mean a kind or type of electronic
voting system that received the approval of the Secretary of
the Commonwealth under section 1105-A.
Section 208. Census Outreach.--The Department of State
may utilize up to $4,000,000 of funds not expended,
encumbered or committed from appropriations from the
General Fund for a fiscal year ending before July 1, 2020, for
an executive branch agency, which is subject to the policy,
supervision and control of the Governor, for communication,
administration and assistance within each county of the
Commonwealth for the purpose of ensuring a complete and
accurate census count of the Commonwealth in the 2020
Federal decennial census. The funds shall be transferred by
the Secretary of the Budget to a restricted account as
necessary to make payments under this section and, when
transferred, are hereby appropriated to carry out the
provisions of this section. The Secretary of the Budget may
make a transfer of funds if the transfer will not result in a
deficit in an appropriation from which funds are transferred.
The Secretary of the Budget shall provide at least 10 days prior

0245a
notification of a transfer to the chair and minority chair of the
Appropriations Committee of the Senate and the chair and
minority chair of the Appropriations Committee of the House
of Representatives.
Section 3. Sections 412.2, 536(a) and (b), 630.1, 908, 909, 910,
951(d), 976, 981.1, 993(a), 998(a) and (b), 1002(a) and (b), 1003(a) and
(e), 1004, 1007, 1008, 1107(b), 1110(h), 1107-A(3), 1109-A(a)(2) and (d),
1112-A(a)(2) and (4) and (b)(4) and 1113-A(d) of the act are amended to
read:
Section 412.2. Compensation of District Election Officers.--(a) In
all counties regardless of class, [the compensation of] judges of election,
inspectors of election, clerks and machine operators shall be paid
compensation as fixed by the county board of elections for each
election [in accordance with the following:
Election
Minimum
Maximum
Officers
Compensati
Compensati
on
on
Judges
$75
$200
of election
Inspecto
$75
$195
rs of
election
Clerks
$70
$195]
and
machine
operators
, which amount shall be at least $75 and not more than $200.
(a.1) An election officer shall receive additional
compensation, as fixed by the county board of elections, for
participating in election training.
(a.2) A judge of election shall receive additional
compensation, as fixed by the county board of elections, for
picking up and returning election materials.
(b) If a county board of elections authorizes that the duties of a
clerk of elections or machine operator may be performed by two
individuals who each perform [such] the duties for one-half of an
election day, [such individuals shall each] each individual shall be
compensated at one-half of the rate authorized for a single individual
who performs the duties for the entire election day.
(c) The county board of elections may[, in its discretion,] establish
different per diem rates within [the minima and maxima provided for
in] minimum and maximum rates provided for under subsection
(a) based on the number of votes cast for the following groups:

0246a
(1) 150 votes or fewer.
(2) 151 to 300 votes.
(3) 301 to 500 votes.
(4) 501 to 750 votes.
(5) 751 votes and over.
(d) For transmitting returns of elections and the ballot box or
boxes, all judges of election shall be entitled to receive the additional
sum of [twenty dollars ($20)] $20.
(e) The county board of elections may[, in its discretion,] require
the minority inspector of election to accompany the judge of election in
transmitting the returns of elections, in which case the minority
inspector of election shall be entitled to receive the additional sum of
[twenty dollars ($20)] $20.
(f) The [person] individual furnishing transportation to the judge
of election and the minority inspector in transmitting returns and
ballot boxes shall be entitled to a minimum of [thirty-five cents (35¢)]
35¢ per circular mile from the polling place to the county court house.
The name of [such person] the individual shall appear on the voucher
of the judge of election[, and only one person shall] and only one
individual may receive mileage compensation.
(h) When a primary and special election or a special election and a
general or municipal election take place on the same date, [they] the
elections shall be construed as one election for the purpose of
receiving compensation.
(i) Compensation and other payments received by election officials
[pursuant to] under this section shall not be deemed income classified
and categorized under section 303 of the act of March 4, 1971 (P.L.6,
No.2), known as the "Tax Reform Code of 1971."
Section 536. Restrictions on Alteration.--(a) Except as provided in
subsection (b), there shall be no power to establish, abolish, divide,
consolidate or alter in any manner an election district during the
period [July 15, 2009] from December 31, 2019, through November
30, [2012] 2022, or through resolution of all judicial appeals to the
[2012] 2022 Congressional Redistricting Plan, whichever occurs later.
(b) During the period from [July 15, 2009] December 31, 2019,
through December 31, [2010] 2020, an election district may be divided
or election districts may be combined if the following are met:
(1) In the case of the division of an election district, the boundary
of each resulting district is composed entirely of clearly visible physical
features conforming with the census block lines or portions of the
original boundary of the election district which was divided.
(2) In the case of the combination of election districts, the
boundary of each resulting district is composed entirely of portions of
the original boundaries of the election districts which were combined.

0247a
***
Section 630.1. Affidavits of Candidates.--Each candidate for any
State, county, city, borough, incorporated town, township, school
district or poor district office, or for the office of United States Senator
or Representative in Congress, selected as provided in section 630 of
this act, shall file with the nomination certificate an affidavit stating-(a) his residence, with street and number, if any, and his post-office
address; (b) his election district, giving city, borough, town or
township; (c) the name of the office for which he consents to be a
candidate; (d) that he is eligible for such office; (e) that he will not
knowingly violate any provision of this act, or of any law regulating
and limiting election expenses and prohibiting corrupt practices in
connection therewith; (f) unless he is a candidate for judge of a court of
common pleas, the Philadelphia Municipal Court [or the Traffic Court
of Philadelphia,] or for the office of school board in a district where that
office is elective or for the office of justice of the peace, that he is not a
candidate for the same office of any party or political body other than
the one designated in such certificate; (g) that he is aware of the
provisions of section 1626 of this act requiring election and postelection reporting of campaign contributions and expenditures; and (h)
that he is not a candidate for an office which he already holds, the term
of which is not set to expire in the same year as the office subject to the
affidavit.
Section 908. Manner of Signing Nomination Petitions; Time of
Circulating.--Each signer of a nomination petition shall sign but one
such petition for each office to be filled, and shall declare therein that
he is a registered and enrolled member of the party designated in such
petition: Provided, however, That where there are to be elected two or
more persons to the same office, each signer may sign petitions for as
many candidates for such office as, and no more than, he could vote for
at the succeeding election. He shall also declare therein that he is a
qualified elector of the county therein named, and in case the
nomination is not to be made or candidates are not to be elected by the
electors of the State at large, of the political district therein named, in
which the nomination is to be made or the election is to be held. He
shall add his [residence] address where he is duly registered and
enrolled, giving city, borough or township, with street and number, if
any, and shall legibly print his name and add the date of signing,
expressed in words or numbers: Provided, however, That if the said
political district named in the petition lies wholly within any city,
borough or township, or is coextensive with same, it shall not be
necessary for any signer of a nomination petition to state therein the
city, borough or township of his residence. No nomination petition shall
be circulated prior to the thirteenth Tuesday before the primary, and

0248a
no signature shall be counted unless it bears a date affixed not earlier
than the thirteenth Tuesday nor later than the tenth Tuesday prior to
the primary.
Section 909. Petition May Consist of Several Sheets; [Affidavit]
Statement of Circulator.--Said nomination petition may be on one or
more sheets, and different sheets must be used for signers resident in
different counties. If more than one sheet is used, they shall be bound
together when offered for filing if they are intended to constitute one
petition, and each sheet shall be numbered consecutively beginning
with number one, at the foot of each page. In cases of petitions for
delegate or alternate delegate to National conventions, each sheet shall
contain a notation indicating the presidential candidate to whom he is
committed or the term "uncommitted." Each sheet shall have appended
thereto the [affidavit] statement of the circulator of each sheet,
setting forth, subject to the penalties of 18 Pa.C.S. § 4904
(relating to unsworn falsification to authorities)--(a) that he or
she is a qualified elector of the Commonwealth, who is duly
registered and enrolled as a member of the [designated party of the
State, or of the political district, as the case may be, referred to] party
designated in said petition, unless said petition relates to the
nomination of a candidate for a court of common pleas, for the
Philadelphia Municipal Court [or for the Traffic Court of Philadelphia]
or for justice of the peace, in which event the circulator need not be a
duly registered and enrolled member of the designated party; (b) his
residence, giving city, borough or township, with street and number, if
any; (c) that the signers thereto signed with full knowledge of the
contents of the petition; (d) that their respective residences are
correctly stated therein; (e) that they all reside in the county named in
the [affidavit] statement; (f) that each signed on the date set opposite
his name; and (g) that, to the best of [affiant's] the circulator's
knowledge and belief, the signers are qualified electors and duly
registered and enrolled members of the designated party of the State,
or of the political district, as the case may be.
Section 910. Affidavits of Candidates.--Each candidate for any
State, county, city, borough, incorporated town, township, ward, school
district, poor district, election district, party office, party delegate or
alternate, or for the office of United States Senator or Representative
in Congress, shall file with his nomination petition his affidavit
stating--(a) his residence, with street and number, if any, and his postoffice address; (b) his election district, giving city, borough, town or
township; (c) the name of the office for which he consents to be a
candidate; (d) that he is eligible for such office; (e) that he will not
knowingly violate any provision of this act, or of any law regulating
and limiting nomination and election expenses and prohibiting corrupt

0249a

practices in connection therewith; (f) unless he is a candidate for judge
of a court of common pleas, the Philadelphia Municipal Court [or the
Traffic Court of Philadelphia,] or for the office of school director in a
district where that office is elective or for the office of justice of the
peace that he is not a candidate for nomination for the same office of
any party other than the one designated in such petition; (g) if he is a
candidate for a delegate, or alternate delegate, member of State
committee, National committee or party officer, that he is a registered
and enrolled member of the designated party; (h) if he is a candidate
for delegate or alternate delegate the presidential candidate to whom
he is committed or the term "uncommitted"; (i) that he is aware of the
provisions of section 1626 of this act requiring pre-election and postelection reporting of campaign contributions and expenditures; and (j)
that he is not a candidate for an office which he already holds, the term
of which is not set to expire in the same year as the office subject to the
affidavit. In cases of petitions for delegate and alternate delegate to
National conventions, the candidate's affidavit shall state that his
signature to the delegate's statement, as hereinafter set forth, if such
statement is signed by said candidate, was affixed to the sheet or
sheets of said petition prior to the circulation of same. In the case of a
candidate for nomination as President of the United States, it shall not
be necessary for such candidate to file the affidavit required in this
section to be filed by candidates, but the post-office address of such
candidate shall be stated in such nomination petition.
Section 951. Nominations by Political Bodies.--* * *
(d) Nomination papers may be on one or more sheets and different
sheets must be used for signers resident in different counties. If more
than one sheet is used, they shall be bound together when offered for
filing if they are intended to constitute one nomination paper, and each
sheet shall be numbered consecutively, beginning with number one (1)
at the foot of each page. Each sheet shall have appended thereto the
[affidavit] statement of some person, not necessarily a signer, and not
necessarily the same person on each sheet, setting forth, subject to
the penalties of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities)--[(1) that the affiant is a qualified
elector of the State, or of the electoral district, as the case may be,
referred to in the nomination paper;] (2) [his] the person's residence,
giving city, borough or township with street and number, if any; (3)
that the signers signed with full knowledge of the contents of the
nomination paper; (4) that their respective residences are correctly
stated therein; (5) that they all reside in the county named in the
[affidavit] statement; (6) that each signed on the date set opposite his
name; and (7) that, to the best of [affiant's] the person's knowledge

0250a
and belief, the signers are qualified electors of the State, or of the
electoral district, as the case may be.
***
Section 976. Examination of Nomination Petitions, Certificates
and Papers; Return of Rejected Nomination Petitions, Certificates and
Papers.--When any nomination petition, nomination certificate or
nomination paper is presented in the office of the Secretary of the
Commonwealth or of any county board of elections for filing within the
period limited by this act, it shall be the duty of the said officer or
board to examine the same. No nomination petition, nomination paper
or nomination certificate shall be permitted to be filed if--(a) it contains
material errors or defects apparent on the face thereof, or on the face of
the appended or accompanying affidavits; or (b) it contains material
alterations made after signing without the consent of the signers; or (c)
it does not contain a sufficient number of signatures as required by
law; Provided, however, That the Secretary of the Commonwealth or
the county board of elections, although not hereby required so to do,
may question the genuineness of any signature or signatures
appearing thereon, and if he or it shall thereupon find that any such
signature or signatures are not genuine, such signature or signatures
shall be disregarded in determining whether the nomination petition,
nomination paper or nomination certificate contains a sufficient
number of signatures as required by law; or (d) in the case of
nomination petitions, if nomination petitions have been filed for
printing the name of the same person for the same office, except the
office of judge of a court of common pleas, the Philadelphia Municipal
Court [or the Traffic Court of Philadelphia,] or the office of school
director in districts where that office is elective or the office of justice of
the peace upon the official ballot of more than one political party; or (e)
in the case of nomination papers, if the candidate named therein has
filed a nomination petition for any public office for the ensuing
primary, or has been nominated for any such office by nomination
papers previously filed; or (f) if the nomination petitions or papers are
not accompanied by the filing fee or certified check required for said
office; or (g) in the case of nomination papers, the appellation set forth
therein is identical with or deceptively similar to the words used by
any existing party or by any political body which has already filed
nomination papers for the same office, or if the appellation set forth
therein contains part of the name, or an abbreviation of the name or
part of the name of an existing political party, or of a political body
which has already filed nomination papers for the same office. The
invalidity of any sheet of a nomination petition or nomination paper
shall not affect the validity of such petition or paper if a sufficient
petition or paper remains after eliminating such invalid sheet. The

0251a
action of said officer or board in refusing to receive and file any such
nomination petition, certificate or paper, may be reviewed by the court
upon an application to compel its reception as of the date when it was
presented to the office of such officer or board: Provided, however, That
said officer or board shall be entitled to a reasonable time in which to
examine any petitions, certificates or papers, and to summon and
interrogate the candidates named therein, or the persons presenting
said petitions, certificates or papers, and his or their retention of same
for the purpose of making such examination or interrogation shall not
be construed as an acceptance or filing.
Upon completion of any examination, if any nomination petition,
certificate or paper is found to be defective, it shall forthwith be
rejected and returned to the candidate or one of the candidates named
therein, together with a statement of the reasons for such rejection:
Provided further, That no nomination petition, nomination paper
or nomination certificate shall be permitted to be filed, if the political
party or political body referred to therein shall be composed of a group
of electors whose purposes or aims, or one of whose purposes or aims,
is the establishment, control, conduct, seizure or overthrow of the
Government of the Commonwealth of Pennsylvania or the United
States of America by the use of force, violence, military measure or
threats of one or more of the foregoing. The authority to reject such
nomination petition, paper or certificate for this reason shall, when
filed with the Secretary of the Commonwealth, be vested in a
committee composed of the Governor, the Attorney General and the
Secretary of the Commonwealth, and when filed with any county board
of elections shall be vested in such board. If in such case the committee
or board, as the case may be, shall conclude that the acceptance of such
nomination petition, paper or certificate should be refused, it shall
within two days of the filing of such nomination petition, paper or
certificate fix a place and a time five days in advance for hearing the
matter, and notice thereof shall be given to all parties affected thereby.
At the time and place so fixed the committee or board, as the case may
be, shall hear testimony, but shall not be bound by technical rules of
evidence. The testimony presented shall be stenographically recorded
and made a part of the record of the committee or board. Within two
days after such hearing the committee or board, if satisfied upon
competent evidence that the said nomination petition, paper or
certificate is not entitled to be accepted and filed, it shall announce its
decision and immediately notify the parties affected thereby. Failure to
announce decision within two days after such hearing shall be
conclusive that such nomination petition, paper or certificate has been
accepted and filed. The decision of said committee or board in refusing
to accept and file such nomination petition, paper or certificate may be

0252a
reviewed by the court upon an application to compel its reception as of
the date when presented to the Secretary of the Commonwealth or
such board. The application shall be made within two days of the time
when such decision is announced. If the application is properly made,
any judge of said court may fix a time and place for hearing the matter
in dispute, of which notice shall be served with a copy of said
application upon the Secretary of the Commonwealth or the county
board of elections, as the case may be. At the time so fixed, the court,
or any judge thereof assigned for the purpose, shall hear the case de
novo. If after such hearing the said court shall find that the decision of
the committee or the board was erroneous, it shall issue its mandate to
the committee or board to correct its decision and to accept and file the
nomination paper, petition or certificate. From any decision of the
court an appeal may be taken within two days after the entry thereof.
It shall be the duty of the said court to fix the hearing and to announce
its decision within such period of time as will permit the Secretary of
the Commonwealth or the county board of elections to permit the
names of the candidates affected by the court's decision to be printed
on the ballot, if the court should so determine.
Section 981.1. Affidavits of Candidates.--Each candidate for any
State, county, city, borough, incorporated town, township, ward, school
district, poor district or election district office, or for the office of
United States Senator or Representative in Congress, selected as
provided in sections 979 and 980 of this act, shall file with the
substituted nomination certificate an affidavit stating--(a) his
residence, with street and number, if any, and his post-office address;
(b) his election district, giving city, borough, town or township; (c) the
name of the office for which he consents to be a candidate; (d) that he is
eligible for such office; (e) that he will not knowingly violate any
provision of this act, or of any law regulating and limiting election
expenses and prohibiting corrupt practices in connection therewith; (f)
unless he is a candidate for judge of a court of common pleas, the
Philadelphia Municipal Court [or the Traffic Court of Philadelphia,] or
for the office of school board in a district where that office is elective or
for the office of justice of the peace, that he is not a candidate for the
same office of any party or political body other than the one designated
in such certificate; (g) that he is aware of the provisions of section 1626
of this act requiring election and post-election reporting of campaign
contributions and expenditures; and (h) that he is not a candidate for
an office which he already holds, the term of which is not set to expire
in the same year as the office subject to the affidavit.
Section 993. Filling of Certain Vacancies in Public Office by Means
of Nomination Certificates and Nomination Papers.--(a) In all cases
where a vacancy shall occur for any cause in an elective public office,

0253a
including that of judge of a court of record, at a time when such
vacancy is required by the provisions of the Constitution or the laws of
this Commonwealth to be filled at the ensuing election but at a time
when nominations for such office cannot be made under any other
provision of this act, nominations to fill such vacancies shall be made
by political parties in accordance with party rules relating to the filling
of vacancies by means of nomination certificates in the form prescribed
in section nine hundred ninety-four of this act, and by political bodies
by means of nomination papers in accordance with the provisions of
sections nine hundred fifty-one, nine hundred fifty-two and nine
hundred fifty-four of this act. No such nomination certificate shall
nominate any person who has already been nominated by any other
political party or by any political body for the same office unless such
person is a candidate for the office of judge of a court of common pleas,
the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school director in districts where that
office is elective or for the office of justice of the peace. No such
nomination papers shall nominate any person who has already been
nominated by any political party or by any other political body for any
office to be filled at the ensuing November election, unless such person
is a candidate for the office of judge of a court of common pleas, the
Philadelphia Municipal Court [or the Traffic Court of Philadelphia,] or
for the office of school director in districts where that office is elective
or for the office of justice of the peace.
***
Section 998. Substituted Nominations to Fill Certain Vacancies for
a November Election.--(a) Any vacancy happening or existing in any
party nomination made in accordance with the provisions of section
nine hundred ninety-three of this act for a November election by
reason of the death or withdrawal of any candidate may be filled by a
substituted nomination made by such committee as is authorized by
the rules of the party to make nominations in the event of vacancies on
the party ticket, in the form prescribed by section nine hundred ninetyfour of this act. But no substituted nomination certificate shall
nominate any person who has already been nominated by any other
political party or by any political body for the same office, unless such
person is a candidate for the office of judge of a court of common pleas,
the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school director in districts where that
office is elective or for the office of justice of the peace.
(b) In case of the death or withdrawal of any candidate nominated
by a political body for an election, the committee named in the original
nomination papers may nominate a substitute in his place by filing a
substituted nomination certificate in the form and manner prescribed

0254a
by section nine hundred eighty of this act. In the case of a vacancy
caused by the death of any candidate, said nomination certificate shall
be accompanied by a death certificate properly certified. No substituted
nomination certificate shall nominate any person who has already
been nominated by any political party or by any other political body for
any office to be filled at the ensuing November election, unless such
person is a candidate for the office of judge of a court of common pleas,
the Philadelphia Municipal Court [or the Traffic Court of
Philadelphia,] or for the office of school director in districts where that
office is elective or for the office of justice of the peace.
***
Section 1002. Form of Official Primary Ballot.--(a) At primaries
separate official ballots shall be prepared for each party which shall be
in substantially the following form:
Official............................... Primary Ballot.
(Name of Party)
........District,........Ward, City of........................,
County of..............................., State of Pennsylvania
........Primary election held on the.....day of........., 19...
Make a cross (X) or check (ˆš) in the square to the right of each
candidate for whom you wish to vote. If you desire to vote for a person
whose name is not on the ballot, write[, print or paste] or stamp his
name in the blank space provided for that purpose. Mark ballot only in
black lead pencil, indelible pencil or blue, black or blue-black ink in
fountain pen or ball point pen. Use the same pencil or pen for all
markings you place on the ballot.
President of the United States.
(Vote for one)
John Doe
Richard Roe
John Stiles
United States Senator.
(Vote for one)
John Doe
Richard Roe
John Stiles
Governor.
(Vote for one)
John Doe
Richard Roe
John Stiles
Representative in Congress.....District.
(Vote for one)
John Doe

0255a
Richard Roe
John Stiles

Delegates at Large to National Convention.
(Vote for.....)

John Doe
(Committed to Jeremiah Smith)
John Stiles
(Uncommitted)
Delegate to National Convention.....District.
(Vote for.....)
John Doe
(Committed to Jeremiah Smith)
John Stiles
(Uncommitted)
Senator in the General Assembly.....District.
(Vote for one)
John Doe
Richard Roe
John Stiles
Member of State Committee.
(Vote for one)
John Doe
Richard Roe
John Stiles
Party Committeemen.
(Vote for.....)
John Doe
Richard Roe
John Stiles
(b) On the back of each ballot shall be printed in prominent type
the words "OFFICIAL PRIMARY BALLOT OF ........PARTY FOR"
followed by the designation of the election district for which it is
prepared, the date of the primary and the facsimile signatures of the
members of the county board of elections. The names of candidates
shall in all cases be arranged under the title of the office for which they
are candidates, and be printed thereunder in the order determined by
the casting of lots as provided by this act. Under the title of such offices
where more than one candidate is to be voted for, shall be printed
"Vote for not more than ........" (the blank space to indicate the number
of candidates to be voted for the particular office.) At the right of the
name of each candidate there shall be a square of sufficient size for the
convenient insertion of a cross (x) or check (ˆš) mark. There shall be
left at the end of the list of candidates for each office (or under the title
of the office itself in case there be no candidates who have filed

0256a
nomination petitions therefor) as many blank spaces as there are
persons to be voted for, for such office, in which space the elector may
insert, by writing or stamping, the name of any person whose name
is not printed on the ballot as a candidate for such office. Opposite or
under the name of each candidate, except candidates for the office of
President of the United States and candidates for delegate or alternate
delegate to a National Party Convention, who is to be voted for by the
electors of more than one county, shall be printed the name of the
county in which such candidate resides; and opposite or under the
name of each candidate except candidates for delegate or alternate
delegate to a National Party Convention who is to be voted for by the
electors of an entire county or any congressional, senatorial or
representative district within the county, shall be printed the name of
the city, borough, township or ward, as the case may be, in which such
candidate resides.
***
Section 1003. Form of Official Election Ballot.-(a) The official ballots for general, municipal and special elections
shall be in substantially the following form:
OFFICIAL BALLOT
....................... District, ........................ Ward,
City of ........................, County of ...................,
State of Pennsylvania ..........................................
Election held on the .......... day of ................, [19] 20.....
A cross (X) or check (ˆš) mark in the square opposite the name of any
candidate indicates a vote for that candidate.
[To vote a straight party ticket, mark a cross (X) or check (ˆš) in
the square, in the Party Column, opposite the name of the party of
your choice. To vote for an individual candidate of another party after
making a mark in the party square, mark a cross (X) or check (ˆš)
opposite his name. For an office where more than one candidate is to
be voted for, the voter, after marking in the party square, may divide
his vote by marking a cross (X) or check (ˆš) to the right of each
candidate for whom he or she desires to vote. For such office votes shall
not be counted for candidates not individually marked.]
To vote for a person whose name is not on the ballot, write[, print
or paste] or stamp his name in the blank space provided for that
purpose. A cross (X) or check (ˆš) mark in the square opposite the
names of the candidates of any party for President and Vice-President
of the United States indicates a vote for all the candidates of that party
for presidential elector. To vote for individual candidates for
presidential elector, write[, print or paste] or stamp their names in
the blank spaces provided for that purpose under the title
"Presidential Electors." Mark ballot only in black lead pencil, indelible

0257a
pencil or blue, black or blue-black ink, in fountain pen or ball point
pen; use the same pencil or pen for all markings you place on the
ballot.
Before leaving the voting compartment, fold this ballot, without
displaying the markings thereon, in the same way it was folded when
received, then leave the compartment and exhibit the ballot to one of
the election officers who shall ascertain by an inspection of the number
appearing upon the right hand corner of the back of the ballot whether
the ballot so exhibited to him is the same ballot which the elector
received before entering the voting compartment. If it is the same, the
election officer shall direct the elector, without unfolding the ballot, to
remove the perforated corner containing the number, and the elector
shall immediately deposit the ballot in the ballot box. Any ballot
deposited in a ballot box at any primary or election without having the
said number torn off shall be void and shall not be counted.
[Party Column
Presidential Electors
To Vote a Straight
(Vote for the
Party Ticket Mark a
candidates of one
Cross (X) or Check (ˆš)
party for President
in this Column.
and Vice-President,
or insert the names
of candidates.)
For
John Stiles
Democratic
and
Richard Doe,
Democratic
...................
For
John Doe
Republican
and
Richard Roe,
Republican
...................
For
John Smith
Socialist
and
William Jones,
Socialist ....................
Citizens]
Presidential Electors.
(Vote for the candidates of one party for President and Vice
President, or insert the names of candidates)
For

0258a
John Stiles and Richard Doe......................... Democratic
For
John Doe and Richard Roe............................ Republican
For
John Smith and William Jones......................... Socialist
For
........................ Citizens
United States Senator.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Governor.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Representatives in Congress,
....... District.
(Vote for one)
Richard Roe ......................................... Democratic
John Doe ............................................ Republican
Richard Stiles ....................................... Socialist
Senator in the General Assembly,
....... District.
(Vote for one)
John Doe ............................................ Democratic
Richard Roe ......................................... Republican
***
(e) There shall be left at the end of the group of candidates for
President and Vice-President of the United States under the title
"Presidential Electors," as many blank spaces as there are presidential
electors to be elected, in which spaces the elector may insert, by
writing or stamping, the names of any individual candidates for
presidential electors for whom he desires to vote. There shall also be
left at the end of each group of candidates for each other office (or
under the title of the office itself in case no candidates have been
nominated therefor), as many blank spaces as there are persons to be
voted for for such office, in which space the elector may insert the
name of any person or persons whose name is not printed on the ballot
as a candidate for such office.
***
Section 1004. Form of Ballots; Printing Ballots; Stubs; Numbers.-From the lists furnished by the Secretary of the Commonwealth under

0259a
the provisions of sections 915 and 984, and from petitions and papers
filed in their office, the county election board shall print the official
primary and election ballots in accordance with the provisions of this
act: Provided, however, That in no event, shall the name of any person
consenting to be a candidate for nomination for any one office, except
the office of judge of a court of common pleas, the Philadelphia
Municipal Court [or the Traffic Court of Philadelphia,] or the office of
school director in districts where that office is elective or the office of
justice of the peace be printed as a candidate for such office upon the
official primary ballot of more than one party. All ballots for use in the
same election district at any primary or election shall be alike. They
shall be at least six inches long and four inches wide, and shall have a
margin extending beyond any printing thereon. They shall be printed
with the same kind of type (which shall not be smaller than the size
known as "brevier" or "eight point body") upon white paper of uniform
quality, without any impression or mark to distinguish one from
another, and with sufficient thickness to prevent the printed matter
from showing through. Each ballot shall be attached to a stub, and all
the ballots for the same election district shall be bound together in
books of fifty, in such manner that each ballot may be detached from
its stub and removed separately. The ballots for each party to be used
at a primary shall be bound separately. The stubs of the ballots shall
be consecutively numbered, and in the case of primary ballots, the
number shall be preceded by an initial or abbreviation designating the
party name. The number and initial or abbreviation which appears
upon the stub shall also be printed in the upper right hand corner of
the back of the ballot, separated from the remainder of the ballot by a
diagonal perforated line so prepared that the upper right hand corner
of the back of the ballot containing the number may be detached from
the ballot before it is deposited in the ballot box and beside that corner
shall also be printed, "Remove numbered stub immediately before
depositing your ballot in ballot box."
Section 1007. Number of Ballots to Be Printed; Specimen Ballots.-(a) The county board of each county shall provide for each election
district [in which a primary is to be held, one book of fifty official
ballots of each party for every forty-five registered and enrolled
electors of such party and fraction thereof, appearing upon the district
register, and shall provide for each election district in which an
election is to be held one book of fifty official ballots for every forty-five
registered electors and fraction thereof appearing upon the district
register. They] a supply of official election ballots for:
(1) the general primary election held in even-numbered
years in which candidates for the office of President of the
United States are not nominated in an amount of at least 10%

0260a
greater than the highest number of ballots cast in the election
district in any of the previous three general primary elections
at which candidates for the office of President of the United
States were not nominated;
(2) the general primary election held in even-numbered
years in which candidates for the office of President of the
United States are nominated in an amount of at least 15%
greater than the highest number of ballots cast in the election
district in any of the previous three general primary elections
at which candidates for the office of President of the United
States were nominated;
(3) the municipal primary election held in odd-numbered
years in an amount of at least 10% greater than the highest
number of ballots cast in any of the previous three municipal
primary elections in the election district;
(4) the general election held in even-numbered years in
which candidates for the office of President of the United
States are not elected in an amount of at least 10% greater than
the highest number of ballots cast in the election district in
any of the previous three general elections at which candidates
for the office of President of the United States were not
elected;
(5) the general election held in even-numbered years in
which candidates for the office of President of the United
States are elected in an amount of at least 15% greater than the
highest number of ballots cast in the election districts in any of
the previous three general elections at which candidates for
the office of President of the United States were elected; and
(6) the municipal election held in odd-numbered years in
an amount of at least 10% greater than the highest number of
ballots cast in any of the previous three municipal elections in
the election district.
(b) The county board of each county shall also, in addition to
the number of ballots required to be printed for general distribution,
maintain a sufficient supply of such ballots at the office of the county
board for the use of absentee electors or mail-in electors and for the
use of any district, the ballots for which may be lost, destroyed or
stolen. They shall also cause to be printed on tinted paper, and without
the facsimile endorsements, permanent binding or stubs, copies of the
form of ballots provided for each polling place at each primary or
election therein, which shall be called specimen ballots, and which
shall be of the same size and form as the official ballots, and at each
election they shall deliver to the election officers, in addition to the
official ballots to be used at such election, a suitable supply of

0261a
specimen ballots for the use of the electors. At each primary, a suitable
supply of specimen ballots of each party shall be furnished.
Section 1008. Forms of Ballots on File and Open to Public
Inspection; Ballots and Diagrams to Be Furnished to Candidates and
Parties.-(a) The county board of elections shall have on file in its office[, on
and] after the Thursday [preceding] before each primary and election,
open to public inspection, forms of the ballots and ballot labels[, with
the names and such statements and notations as may be required by
the provisions of this act, printed thereon, which shall be used in each
election district within the county]. The forms of the ballots and
ballot labels shall be published on the county board's publicly
accessible Internet website.
(b) On the Thursday [preceding] before each primary, the county
board shall, upon request made at their office, [there] deliver to each
candidate whose name is printed on the ballot of any party, or to his
authorized representative, without charge, three [specimen] sample
ballots of such party for the entire district [in which such candidate is
to be voted for, and the candidate may, at his own expense, have
printed on different colored paper as many copies as he requires for
conducting his campaign].
(c) On the Thursday [preceding] before each November election,
the county board shall, upon request made at their office, [there]
deliver to the county chairman or other authorized representative of
each political party and political body in the county, without charge,
two [specimen] sample ballots [or diagrams] for each election district
within the county in which candidates of such party or political body
are [to be voted for, and such political party or political body may, at
its own expense, have printed on different colored paper as many
copies as it requires for conducting its campaign.] running for office.
Section 1107. Requirements of Voting Machines.--No voting
machine shall, upon any examination or reexamination, be approved
by the Secretary of the Commonwealth, or by any examiner appointed
by him, unless it shall, at the time, satisfy the following requirements:
***
[(b) It shall permit each voter, at other than primary elections, to
vote a straight political party ticket in one operation, and, in one
operation, to vote for all the candidates of one political party for
presidential electors, and, in one operation, to vote for all the
candidates of one political party for every office to be voted for, except
those offices as to which he votes for individual candidates.]
***
Section 1110. Form of Ballot Labels on Voting Machines.-***

0262a
(h) The names of all candidates of a political party shall appear in
the same row or column, and except in cases of names of presidential
commitments of nominees for delegate or alternate delegate to political
party National conventions no other names shall appear in the same
row or column[, to the left or top of which shall be a straight party
lever, by means of which an elector may, in one operation, vote for all
the candidates of that political party for every office to be voted for].
Where the names of the delegate or alternate delegate and the
presidential candidate he is supporting shall both appear, the print
size of the name of the delegate or alternate delegate shall be equal to
the size of the name of the particular presidential candidate to whom
he is committed, or in the case where he is uncommitted, the word
"uncommitted" shall appear in the same size print. The names of such
candidates shall be arranged under or opposite the title of the office for
which they are candidates, and shall appear in the order of the votes
obtained by the candidate for Governor of the party nominated at the
last gubernatorial election, beginning with the party obtaining the
highest number of votes: Provided, however, That in the case of parties
or bodies not represented on the ballot at the last gubernatorial
election, the names of the candidates of such parties shall be arranged
alphabetically, according to the party or body name. The names of all
candidates of a political body shall appear in the same row or column,
and, if the number of parties and bodies permits, each political body
shall be entitled exclusively to a separate row or column[, with a
straight party lever]. If, however, the number of political parties and
political bodies renders it impossible or impracticable to so arrange the
political bodies, in such case said bodies shall not be entitled to a
separate row or column [and a straight party lever], but shall be listed
by political appellations on the first left hand or top row, with the
designating letter and number of the ballot label where their
candidates may be found, together with the political appellations of
other political bodies, whose candidates may be interspersed on the
same row or column. Subject to the aforesaid limitations, the form and
arrangement of ballot labels, as to the placing thereon of political
bodies, shall be within the discretion of the county board.
***
Section 1107-A. Requirements of Electronic Voting Systems.--No
electronic voting system shall, upon any examination or
reexamination, be approved by the Secretary of the Commonwealth, or
by any examiner appointed by him, unless it shall be established that
such system, at the time of such examination or reexamination:
***
[(3) Permits each voter, at other than primary elections, to vote a
straight political party ticket by one mark or act and, by one mark or

0263a
act, to vote for all the candidates of one political party for presidential
electors and, by one mark or act, to vote for all the candidates of one
political party for every office to be voted for, and every such mark or
act shall be equivalent to and shall be counted as a vote for every
candidate of the political party so marked including its candidates for
presidential electors, except with respect to those offices as to which
the voter has registered a vote for individual candidates of the same or
another political party or political body, in which case the automatic
tabulating equipment shall credit the vote for that office only for the
candidate individually so selected, notwithstanding the fact that the
voter may not have individually voted for the full number of candidates
for that office for which he was entitled to vote.]
***
Section 1109-A. Forms.--(a) * * *
(2) The pages placed on the voting device shall be of sufficient
number to include, following the listing of particular candidates, the
names of candidates for any nonpartisan offices and any measures for
which a voter may be qualified to vote on a given election day, provided
further that for municipal, general or special elections, the first ballot
page shall list in the order that such political parties are entitled to
priority on the ballot, the names of such political parties [with
designating arrows so as to indicate the voting square or position on
the ballot card where the voter may insert by one mark or punch the
straight party ticket of his choice].
***
[(d) In partisan elections the ballot cards shall include a voting
square or position whereby the voter may by one punch or mark record
a straight party ticket vote for all the candidates of one party or may
vote a split ticket for the candidates of his choice.]
***
Section 1112-A. Election Day Procedures and the Process of
Voting.--(a) In an election district which uses an electronic voting
system in which votes are registered electronically, the following
procedures will be applicable for the conduct of the election at the
election district:
***
(2) At [primary] all elections, the voter shall be able to vote for
each candidate individually by the means provided. [At all other
elections, he may vote for each candidate individually, or he may vote a
straight political party ticket in one operation by operating the straight
political party mechanism of the political party or political body of his
choice. He may also, after having operated the straight party
mechanism and before recording his vote, cancel the vote for any
candidate of such political party or political body and may thereupon

0264a
vote for a candidate of another party, or political body for the same
office.] The voter may also vote individually for or against a question
submitted to the vote of the electors.
***
(4) At any general election at which presidential electors are to be
chosen, each elector shall be permitted to vote by one operation for all
the presidential electors of a political party or political body. For each
party or body nominating presidential electors, a ballot label shall be
provided containing only the words "Presidential Electors," preceded
by the names of the party or body and followed by the names of the
candidates thereof for the Office of President and Vice-President, and
the corresponding counter or registering device shall register votes cast
for said electors when thus voted for collectively. If any elector desires
to vote a ticket for presidential electors made up of the names of
persons nominated by different parties or bodies, or partially of names
of persons so in nomination and partially of names of persons not in
nomination by any party or body, he may write or deposit a paper
ballot prepared by himself in the receptacle provided in or on the
voting device for that purpose, or he may list their names on the writein ballot or envelope provided for that purpose. The voting device shall
be so constructed that it will not be possible for any one voter to vote a
straight party ticket for presidential electors and at the same time to
deposit a ballot for presidential electors in a receptacle as
[hereinabove] provided in this section. When the votes for
presidential electors are counted, the votes appearing upon the counter
or registering device corresponding to the ballot label containing the
names of the candidates for President and Vice-President of any party
or body shall be counted as votes for each of the candidates for
presidential elector of such party or body, and thereupon all candidates
for presidential elector shall be credited, in addition, with the votes
cast for them upon the ballots deposited in the machine, as
[hereinabove] provided in this section.
***
(b) In an election district which uses an electronic voting system
which utilizes paper ballots or ballot cards to register the votes, the
following procedures will be applicable for the conduct of the election at
the election district:
***
(4) [If the voter desires to vote for every candidate of a political
party or political body, except its candidates for offices as to which he
votes for individual candidates in the manner hereinafter provided, he
may make a cross (X) or check (ˆš) or punch or mark sense mark in the
square opposite the name of the party or political body so marked,
including its candidates for presidential electors, except for those

0265a

offices as to which he has indicated a choice for individual candidates
of the same or another party or political body, by making a cross (X) or
check (ˆš) or punch or mark sense mark opposite their names in the
manner hereinabove provided, as to which offices his ballot shall be
counted only for the candidates which he has thus individually
marked, notwithstanding the fact that he made a mark in the party
column, and even though in the case of an office for which more than
one candidate is to be voted for, he has not individually marked for
such office the full number of candidates for which he is entitled to
vote.] If he desires to vote for the entire group of presidential electors
nominated by any party or political body, he may make a cross (X) or
check (ˆš) or punch or mark sense mark in the appropriate space
opposite the names of the candidates for President and Vice-President
of such party or body. If he desires to vote a ticket for presidential
electors made up of the names of persons nominated by different
parties or political bodies, or partially of names of persons so in
nomination and partially of names of persons not in nomination by any
party or political body, or wholly of names of persons not in nomination
by any party or political body, he shall insert, by writing or
stamping, the names of the candidates for presidential electors for
whom he desires to vote in the blank spaces provided therefor on the
write-in ballot under the title of the office "Presidential Electors". In
case of a question submitted to the vote of the electors, he may make a
cross (X) or check (ˆš) or punch or mark sense mark in the appropriate
square opposite the answer which he desires to give.
***
Section 1113-A. Post Election Procedures.--* * *
(d) In returning any votes cast for any person whose name is not
printed on the official ballot, the election officers shall record any such
names exactly as they were written[, stamped or applied to the ballot
by sticker] or stamped.
***
Section 3.1. The act is amended by adding an article to read:
ARTICLE XI-B
VOTING APPARATUS BONDS
Section 1101-B. Definitions.
The following words and phrases when used in this article
shall have the meanings given to them in this section unless
the context clearly indicates otherwise:
"Account." The County Voting Apparatus Reimbursement
Account established under section 1106-B.
"Authority." The Pennsylvania Economic Development
Financing Authority.

0266a
"Bond." Any type of revenue obligation, including a bond or
series of bonds, note, certificate or other instrument, issued by
the authority for the benefit of the department under this
article.
"Bond administrative expenses." Expenses incurred to
administer bonds as provided under the Financing Law, or as
otherwise necessary to ensure compliance with applicable
Federal or State law.
"Bond obligations." The principal of a bond and any
premium and interest payable on a bond, together with any
amount owed under a related credit agreement or a related
resolution of the authority authorizing a bond.
"Credit agreement." A loan agreement, a revolving credit
agreement, an agreement establishing a line of credit, a letter
of credit or another agreement that enhances the
marketability, security or creditworthiness of a bond.
"Department." The Department of State of the
Commonwealth.
"Election security equipment." Information technology
such as intrusion detection sensors and other infrastructure
deployed to enhance the security of voting apparatus and
election systems by detecting and reporting hacking attempts
and other election security breaches.
"Electronic voting system." As defined in section 1101-A.
"Financing Law." The act of August 23, 1967 (P.L.251,
No.102), known as the Economic Development Financing Law.
"Voting apparatus." A kind or type of electronic voting
system that received the approval of the Secretary of the
Commonwealth under section 1105-A.
Section 1102-B. Bond issuance.
(a) Declaration of policy.--The General Assembly finds and
declares that funding the replacement of voting
apparatuses, including interest, through the authority, is in
the best interest of this Commonwealth.
(b) Authority.--Notwithstanding any other law, the
following shall apply:
(1) The department may be a project applicant under the
Financing Law and may apply to the authority for the funding
of the replacement of voting apparatuses.
(2) The authority may issue bonds under the Financing
Law, consistent with this article, to finance projects to fund
the replacement of county voting apparatuses or to reimburse
counties for their cost to purchase or enter into capital leases
for voting apparatuses.

0267a

(3) Participation of an industrial and commercial
development authority shall not be required to finance the
replacement of voting apparatuses.
(c) Debt or liability.-(1) Bonds issued under this article shall not be a debt or
liability of the Commonwealth and shall not create or
constitute any indebtedness, liability or obligation of the
Commonwealth.
(2) Bond obligations and bond administrative expenses
shall be payable solely from revenues or money pledged or
available for repayment as authorized under this article. This
paragraph shall include the proceeds of any issuance of bonds.
(3) Each bond shall contain on its face a statement that:
(i) the authority is obligated to pay the principal or
interest on the bonds only from the revenues or money pledged
or available for repayment as authorized under this article;
(ii) neither the Commonwealth nor a county is obligated
to pay the principal or interest; and
(iii) the full faith and credit of the Commonwealth or any
county is not pledged to the payment of the principal of or the
interest on the bonds.
Section 1103-B. Criteria for bond issuance.
(a) Determination.--If the department decertifies one or
more voting apparatuses that are in use in any county of this
Commonwealth, the department shall apply to the authority to
issue bonds for reimbursements to each county for the cost of
procuring new voting apparatuses.
(a.1) Issuance.--Bonds may be issued in one or more series,
and each series may finance reimbursement grants to one or
more counties.
(b) Terms.-(1) The department, with the approval of the Office of the
Budget, shall specify in its application to the authority:
(i) the maximum principal amount of the bonds for each
bond issue; and
(ii) the maximum term of the bonds consistent with
applicable law.
(2) The total principal amount for all bonds issued under
this article may not exceed $90,000,000.
(3) The term of the bonds issued under this article may
not exceed 10 years from the respective date of original
issuance.

0268a
(c) Expiration.--For the purpose of this article,
authorization to issue bonds, not including refunding bonds,
shall expire December 31, 2020.
Section 1104-B. Issuance of bonds, security and sources of
payments.
(a) Issuance.--The authority shall consider issuance of
bonds upon application by the department. Bonds issued under
this article shall be subject to the provisions of the Financing
Law, unless otherwise specified under this article.
(b) Service agreement authorized.--The authority and the
department may enter into an agreement or service agreement
to effectuate this article, including an agreement to secure
bonds issued for the purposes under section 1102-B(b),
pursuant to which the department shall agree to pay the bond
obligations and bond administrative expenses to the authority
in each fiscal year that the bonds or refunding bonds are
outstanding in amounts sufficient to timely pay in full the bond
obligations, bond administrative expenses and any other
financing costs due on the bonds issued for the purposes under
section 1102-B(b). The department's payment of the bond
obligations, bond administrative expenses and other financing
costs due on the bonds as service charges under an agreement
or service agreement shall be subject to and dependent upon
the appropriation of funds by the General Assembly to the
department for payment of the service charges. The service
agreement may be amended or supplemented by the authority
and the department in connection with the issuance of any
series of bonds or refunding bonds authorized under this
section.
(c) Security.--Bond obligations and bond administrative
expenses may be secured, for the benefit of the holders of the
bonds and the obligees under credit agreements or the
agreements under subsection (b), by pledge of a security
interest in and first lien on the following:
(1) Money relating to the bonds held on deposit in any
other fund or account under an instrument or agreement
pertaining to the bonds, including bond reserves and interest
income on the money.
(2) The security provided under this subsection shall not
apply to money in any fund relating to arbitrage rebate
obligations.
Section 1105-B. Sale of bonds.
The authority shall offer the bonds for sale by means of a
public, competitive sale or by means of a negotiated sale based

0269a
on the authority's determination of which method will produce
the most benefit to counties and the Commonwealth.
Section 1106-B. Deposit of bond proceeds.
The net proceeds of bonds, other than refunding bonds,
exclusive of costs of issuance, reserves and any other financing
charges, shall be transferred by the authority to the State
Treasurer for deposit into a restricted account established in
the State Treasury and held solely for the purposes under
section 1102-B(b) to be known as the County Voting Apparatus
Reimbursement Account. The department shall pay out the
bond proceeds to the counties from the account in accordance
with this article.
Section 1107-B. Payment of bond-related obligations.
For each fiscal year in which bond obligations and bond
administrative expenses will be due, the authority shall notify
the department of the amount of bond obligations and the
estimated amount of bond administrative expenses in
sufficient time, as determined by the department, to permit the
department to request an appropriation sufficient to pay bond
obligations and bond administrative expenses that will be due
and payable in the following fiscal year. The authority's
calculation of the amount of bond obligations and bond
administrative expenses that will be due shall be subject to
verification by the department.
Section 1108-B. Commonwealth not to impair bond-related
obligations.
The Commonwealth pledges that it shall not do any of the
following:
(1) Limit or alter the rights and responsibilities of the
authority or the department under this article, including the
responsibility to:
(i) pay bond obligations and bond administrative
expenses; and
(ii) comply with any other instrument or agreement
pertaining to bonds.
(2) Alter or limit the service agreement under section
1104-B(b).
(3) Impair the rights and remedies of the holders of bonds,
until each bond issued at any time and the interest on the bond
are fully met and discharged.
Section 1109-B. (Reserved).
Section 1110-B. Personal liability.
The members, directors, officers and employees of the
department and the authority shall not be personally liable as

0270a
a result of good faith exercise of the rights and responsibilities
granted under this article.
Section 1111-B. Annual report.
No later than March 1 of the year following the first full
year in which bonds have been issued under this article and
for each year thereafter in which bond obligations existed in
the prior year, the department shall submit an annual report
to the chair and minority chair of the Appropriations
Committee of the Senate, the chair and minority chair of the
Appropriations Committee of the House of Representatives, the
chair and minority chair of the State Government Committee
of the Senate and the chair and minority chair of the State
Government Committee of the House of Representatives
providing all data available on bonds issued or existing in the
prior year. The report shall include existing and anticipated
bond principal, interest and administrative costs, revenue,
repayments, refinancing, overall benefits to counties and any
other relevant data, facts and statistics that the department
believes necessary in the content of the report.
Section 1112-B. Reimbursement of county voting apparatus
expenses.
(a) Application.--A county may apply to the department to
receive funding to replace the county's voting apparatuses or
to reimburse the county's cost to purchase or lease by capital
lease voting apparatuses. Each county shall submit an
application for funding on a form containing information and
documentation prescribed by the department no later than
July 1, 2020.
(b) Documentation for prior purchase or lease.--If a county
seeks reimbursement of the county's cost to purchase or lease
by capital lease a voting apparatus that the county purchased
or leased before the date that the county submits its
application to the department, the county's application shall
include documentation prescribed by the department to
substantiate the county's cost to purchase or lease the voting
apparatus, including copies of fully executed voting apparatus
contracts, invoices and proof of payment to the vendor of the
voting apparatus.
(c) Documentation for subsequent purchase or lease.--If a
county seeks funding to purchase or lease by capital lease a
voting apparatus that the county will purchase or lease after
the date that the county submits its application to the
department, the county's application shall include
documentation prescribed by the department to substantiate

0271a
the county's estimate to purchase or lease the voting
apparatus, including copies of fully executed voting apparatus
contracts, bids or price quotes submitted to the county by
voting apparatus vendors and other price estimates or cost
proposals.
(d) Review.--The department shall review each county
application on a rolling basis and shall either approve or deny
each county's application within 90 days of the date the
application is received by the department. A county may
supplement or amend submitted applications during the 90day review period in consultation with the department.
(e) Approval for prior purchase or lease.--If the department
approves a county's application submitted under subsection
(b), the department and the county shall enter into a written
grant agreement through which the department shall
reimburse the county at the amount determined under
subsection (g).
(f) Approval for subsequent purchase or lease.--If the
department approves a county's application under subsection
(c), the department and the county shall enter into a written
grant agreement through which the department will provide
funding to reimburse the county's cost to purchase or lease a
voting apparatus at the amount determined under subsection
(g). The county shall hold the grant money in an account of the
county that is separate from each other county account. The
county shall deliver quarterly reports to the department of the
voting apparatus costs paid from the grant money in a form
prescribed by the department. The county shall return any
unspent grant money to the department within 30 days of the
expiration of the grant agreement.
(g) Payments.-(1) A county shall only receive amounts under this section
to the extent that the department has bond proceeds available
in the account from which to make payments.
(2) Except as provided under paragraph (3), a county
which submitted an application approved under subsection (e)
or (f) shall receive 60% of the total amount submitted under
subsection (b) or (c) which may be reimbursed or paid.
(3) If the total amount submitted by all counties under
paragraph (2) exceeds the total amount available for
reimbursement or payment, a county shall receive a portion of
the amount available equal to the total amount submitted by
the county under subsection (b) or (c) which may be
reimbursed or paid, divided by the total amount submitted by

0272a
all counties under subsection (b) or (c) which may be
reimbursed or paid.
(4) If any bond proceeds remain after the department has
issued all reimbursements in accordance with paragraphs (1),
(2) and (3), the department may utilize the remaining balance
for grants for counties for the purchase and distribution to the
counties of election security equipment. The department shall
provide notice to each county no later than 30 days prior to
receiving applications for grants under this paragraph.
(h) Certification.--A county shall only receive the
reimbursement or funding under this article after making a
certification to the department, the President pro tempore of
the Senate, the Speaker of the House of Representatives, the
Minority Leader of the Senate, the Minority Leader of the
House of Representatives, the chair and minority chair of the
Appropriations Committee of the Senate, the chair and
minority chair of the Appropriations Committee of the House
of Representatives, the chair and minority chair of the State
Government Committee of the Senate and the chair and
minority chair of the State Government Committee of the
House of Representatives that the county has completed a
program under 25 Pa.C.S. § 1901(b)(1) (relating to removal of
electors) and mailed notices required under 25 Pa.C.S. §
1901(b)(3) within the prior 12 months. The certification shall
include information on whether the county has undertaken a
canvass under 25 Pa.C.S. § 1901(b)(2).
(i) Department application.--The department shall apply to
the authority for funding under section 1102-B only if the
department has approved county applications under this
article which total at least $50,000,000.
Section 3.2. Sections 1210(a.4)(1) and (5)(ii), 1215(b) and (c),
1216(d) and (f), 1222, 1223(a) and 1227(d) of the act are amended to
read:
Section 1210. Manner of Applying to Vote; Persons Entitled to
Vote; Voter's Certificates; Entries to Be Made in District Register;
Numbered Lists of Voters; Challenges.--* * *
(a.4) (1) At all elections an individual who claims to be properly
registered and eligible to vote at the election district but whose name
does not appear on the district register and whose registration cannot
be determined by the inspectors of election or the county election board
shall be permitted to cast a provisional ballot. Individuals who appear
to vote shall be required to produce proof of identification pursuant to
subsection (a) and if unable to do so shall be permitted to cast a
provisional ballot. An individual presenting a judicial order to vote

0273a
shall be permitted to cast a provisional ballot. An elector who
appears to vote on election day having requested an absentee
ballot or mail-in ballot and who is not shown on the district
register as having voted an absentee ballot or mail-in ballot
shall be permitted to cast a provisional ballot.
***
(5) * * *
(ii) A provisional ballot shall not be counted if:
(A) either the provisional ballot envelope under clause (3) or the
affidavit under clause (2) is not signed by the individual;
(B) the signature required under clause (3) and the signature
required under clause (2) are either not genuine or are not executed by
the same individual;
(C) a provisional ballot envelope does not contain a secrecy
envelope;
(D) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(i), within six calendar days following the election
the elector fails to appear before the county board of elections to
execute an affirmation or the county board of elections does not receive
an electronic, facsimile or paper copy of an affirmation affirming,
under penalty of perjury, that the elector is the same individual who
personally appeared before the district election board on the day of the
election and cast a provisional ballot and that the elector is indigent
and unable to obtain proof of identification without the payment of a
fee; [or]
(E) in the case of a provisional ballot that was cast under
subsection (a.2)(1)(ii), within six calendar days following the election,
the elector fails to appear before the county board of elections to
present proof of identification and execute an affirmation or the county
board of elections does not receive an electronic, facsimile or paper
copy of the proof of identification and an affirmation affirming, under
penalty of perjury, that the elector is the same individual who
personally appeared before the district election board on the day of the
election and cast a provisional ballot[.]; or
(F) the elector's absentee ballot or mail-in ballot is timely
received by a county board of elections.
***
Section 1215. Method of Marking Ballots and Depositing Same in
Districts in Which Ballots are Used.--* * *
(b) At primaries, the elector shall prepare his ballot in the
following manner: He shall vote for the candidates of his choice for
nomination or election, according to the number of persons to be voted
for by him, for each office, by making a cross (X) or check (ˆš) mark in
the square opposite the name of the candidate, or he may insert by

0274a
writing[,] or stamping [or sticker,] in the blank space provided
therefor, any name not already printed on the ballot, and such
insertion shall count as a vote without the making of a cross (X) or
check (ˆš) mark. In districts in which paper ballots or ballot
cards are electronically tabulated, stickers or labels may not be
used to mark ballots.
(c) At elections, the elector shall prepare his ballot in the following
manner: He may vote for the candidates of his choice for each office to
be filled according to the number of persons to be voted for by him for
each office, by making a cross (X) or check (ˆš) mark in the square
opposite the name of the candidate, or he may insert by writing[,] or
stamping [or sticker,] in the blank spaces provided therefor, any name
not already printed on the ballot, and such insertion shall count as a
vote without the making of a cross (X) or check (ˆš) mark. In districts
in which paper ballots or ballot cards are electronically
tabulated, stickers or labels may not be used to mark ballots. If
he desires to vote for every candidate of a political party or political
body, except its candidates for offices as to which he votes for
individual candidates in the manner hereinafter provided, he may
make a cross (X) or check (ˆš) mark in the square opposite the name of
the party or political body of his choice in the party column on the left
of the ballot, and every such cross (X) or check (ˆš) mark shall be
equivalent to and be counted as a vote for every candidate of a party or
political body so marked, including its candidates for presidential
electors, except for those offices as to which he has indicated a choice
for individual candidates of the same or another party or political body,
by making a cross (X) or check (ˆš) mark opposite their names in the
manner hereinabove provided, as to which offices his ballot shall be
counted only for the candidates which he has thus individually
marked, notwithstanding the fact that he made a mark in the party
column, and even though in the case of an office for which more than
one candidate is to be voted for, he has not individually marked for
such office the full number of candidates for which he is entitled to
vote. If he desires to vote for the entire group of presidential electors
nominated by any party or political body, he may make a cross (X) or
check (ˆš) mark in the appropriate square at the right of the names of
the candidates for President and Vice-President of such party or body.
If he desires to vote a ticket for presidential electors made up of the
names of persons nominated by different parties or political bodies, or
partially of names of persons so in nomination and partially of names
of persons not in nomination by any party or political body, or wholly of
names of persons not in nomination by any party or political body, he
shall insert, by writing or stamping, the names of the candidates for
presidential electors for whom he desires to vote in the blank spaces

0275a
provided therefor under the title of the office "Presidential Electors." In
case of a question submitted to the vote of the electors, he may make a
cross (X) or check (ˆš) mark in the appropriate square opposite the
answer which he desires to give.
***
Section 1216. Instructions of Voters and Manner of Voting in
Districts in Which Voting Machines are Used.-***
(d) At [primaries, he] all elections, the elector shall vote for
each candidate individually by operating the key, handle, pointer or
knob, upon or adjacent to which the name of such candidate is placed.
[At elections, he may vote for each candidate individually by operating
the key, handle, pointer or knob, upon or adjacent to which the names
of candidates of his choice are placed, or he may vote a straight
political party ticket in one operation by operating the straight
political party lever of the political party or political body of his choice,
if such machine has thereon a separate lever for all the candidates of
the political body. He may also, after having operated the straight
party lever, and before recording his vote, cancel the vote for any
candidate of such political party or political body by replacing the
individual key, handle, pointer or knob of such candidate, and may
thereupon vote for a candidate of another party, or political body for
the same office by operating the key, handle, pointer or knob, upon or
adjacent to which the name of such candidate appears.] In the case of a
question submitted to the vote of the electors, the elector shall operate
the key, handle, pointer or knob corresponding to the answer which he
desires to give.
***
(f) At any general election at which presidential electors are to be
chosen, each elector shall be permitted to vote by one operation for all
the presidential electors of a political party or political body. For each
party or body nominating presidential electors, a ballot label shall be
provided containing only the words "Presidential Electors," preceded
by the names of the party or body and followed by the names of the
candidates thereof for the office of President and Vice-President, and
the corresponding counter or registering device shall register votes cast
for said electors when thus voted for collectively. If an elector desires to
vote a ticket for presidential electors made up of the names of persons
nominated by different parties or bodies, or partially of names of
persons so in nomination and partially of names of persons not in
nomination by any party or body, or wholly of names of persons not in
nomination by any party or body, he may write or deposit a paper
ballot prepared by himself in the receptacle provided in or on the
machine for the purpose. The machine shall be so constructed that it

0276a
will not be possible for any one voter to vote a straight party ticket for
presidential electors and at the same time to deposit a ballot for
presidential electors in a receptacle as [hereinabove] provided in this
section. When the votes for presidential electors are counted, the
votes appearing upon the counter or registering device corresponding
to the ballot label containing the names of the candidates for President
and Vice-President of any party or body shall be counted as votes for
each of the candidates for presidential elector of such party or body,
and thereupon all candidates for presidential elector shall be credited,
in addition, with the votes cast for them upon the ballots deposited in
the machine, as [hereinabove] provided in this section.
***
Section 1222. Count and Return of Votes in Districts in Which
Ballots are Used.-(a) As soon as all the ballots have been properly accounted for, and
those outside the ballot box, as well as the "Voting Check List,"
numbered lists of voters and district register sealed, the election
officers shall forthwith open the ballot box, and take therefrom all
ballots therein, and at primaries, separate the same according to the
party to which they belong. The ballots shall then be counted one by
one, and a record made of the total number, and at primaries of the
total number cast for each party. Then the judge, under the scrutiny of
the minority inspector, or the minority inspector, under the scrutiny of
the judge, in the presence of the other officers, clerks, and of the
overseers, if any, and within the hearing and sight of the watchers
outside the enclosed space, shall read aloud the names of the
candidates marked or inserted upon each ballot (at primaries the
ballots of each party being read in sequence), together with the office
for which the person named is a candidate, and the answers contained
on the ballots to the questions submitted, if any, and the majority
inspector and clerks shall carefully enter each vote as read, and keep
account of the same in ink in triplicate tally papers (triplicate tally
papers for each party at primaries) to be provided by the county board
of elections for that purpose, all three of which shall be made at the
same time.[: Provided, That at all general, municipal and special
elections, in entering each vote received by candidates at such election,
it shall not be necessary to enter separate tally marks for each vote
received by such candidates upon the ballots containing the same votes
for the same names, commonly known, and in this act designated as
"Straight Party Tickets" for such purpose straight party ticket votes
shall be entered carefully as each straight party ticket vote is read on
the triplicate tally sheets under the heading "Number of votes received
upon the .............................. straight party tickets." Upon completing
the number of votes received by each straight party ticket, the number

0277a
so tallied for each party shall be entered numerically on the extreme
right hand margin of each such tally paper.] All ballots, after being
removed from the box, shall be kept within the unobstructed view of all
persons in the voting room until replaced in the box. No person while
handling the ballots shall have in his hand any pencil, pen, stamp or
other means of marking or spoiling any ballot. The election officers
shall forthwith proceed to canvass and compute the votes cast, and
shall not adjourn or postpone the canvass or computation until it shall
have been fully completed.
(b) When the vote cast for the different persons named upon the
ballots and upon the questions, if any, appearing thereon, shall have
been fully recorded in the tally papers and counted, the election
officers shall duly certify to the number of votes cast for each person
(upon the respective party tickets at primaries), and shall prepare in
ink two (2) general returns, showing, in addition to the entries made
thereon as aforesaid, the total number of ballots received from the
county board (the total of each party at primaries), the number of
ballots cast (the number of each party at primaries), the number of
ballots (of each party at primaries) declared void, and the number of
ballots spoiled and cancelled, and any blank ballots cast, as well as the
votes cast for each candidate. At elections, the number of votes cast for
each candidate by each political party or political body of which such
candidate is a nominee shall be separately stated.[: Provided, That the
number of votes received by each set of candidates upon "straight party
tickets" shall be entered opposite the names of the respective
candidates in a column immediately adjoining upon the left which
column shall be of convenient width and shall be headed "number of
votes received upon straight party tickets."] In an immediate column to
the left thereto, the number of votes received by each candidate upon
all ballots [other than "straight party tickets" including all ballots
known as "split tickets"] shall be entered, such column to be of
convenient width and shall be headed "number of votes [received other
than upon straight party tickets." The number of votes received by
each candidate as shown in the column headed "number of votes
received upon straight party tickets" shall then be added, together
with the number of votes received by each candidate as shown in the
column headed "number of votes received other than upon straight
party tickets" and thereupon, the] received." The total number of
votes received by each candidate shall be entered in a column on the
extreme right-hand side of the return sheets, which column shall be of
convenient width and shall be headed "total number of votes."
Nothing in this section contained shall be construed to authorize or
permit the canvassing, counting or tallying ballots with any less degree
of strictness than otherwise required by law.[, the intention of this

0278a
section being to dispense with the individual tally marks only so far as
the so-called "straight party tickets" are concerned, and all other
operations of tallying, counting, canvassing and announcing the votes
shall proceed as near as may be in accordance with the other
provisions of this act.]
(c) In returning any votes cast for any person whose name is not
printed on the ballot, the election officers shall record any such names
exactly as they were written[,] or stamped [or applied to] upon the
ballot [by sticker]. In districts in which paper ballots or ballot
cards are electronically tabulated, stickers or labels may not be
used to mark ballots. A vote cast by means of a sticker or label
affixed to a ballot or ballot card shall be void and may not be
counted.
Section 1223. What Ballots Shall Be Counted; Manner of
Counting; Defective Ballots.--(a) No ballot which is so marked as to be
capable of identification shall be counted. Any ballot that is marked in
blue, black or blue-black ink, in fountain pen or ball point pen, or black
lead pencil or indelible pencil, shall be valid and counted: Provided,
That all markings on the ballot are made by the same pen or pencil.
Any ballot marked by any other mark than an (X) or check (ˆš) in the
spaces provided for that purpose shall be void and not counted:
Provided, however, That no vote recorded thereon shall be declared
void because a cross (X) or check (ˆš) mark thereon is irregular in form.
[Any erasure, mutilation or defective marking of the straight party
column at November elections shall render the entire ballot void,
unless the voter has properly indicated his choice for candidates in any
office block, in which case the vote or votes for such candidates only
shall be counted.] Any erasure or mutilation in the vote in any office
block shall render void the vote for any candidates in said block, but
shall not invalidate the votes cast on the remainder of the ballot, if
otherwise properly marked. Any ballot indicating a vote for any person
whose name is not printed on the ballot, by writing[, stamping or
sticker] or stamping, shall be counted as a vote for such person, if
placed in the proper space or spaces provided for that purpose, whether
or not an (X) or check (ˆš) is placed after the name of such person:
Provided, however, That if such writing[, stamping or sticker] or
stamping is placed over the name of a candidate printed on the ballot,
it shall render the entire vote in said office block void. In districts in
which paper ballots or ballot cards are electronically
tabulated, stickers or labels may not be used to mark ballots. A
vote cast by means of a sticker or label affixed to a ballot or
ballot card shall be void and may not be counted. If an elector
shall mark his ballot for more persons for any office than there are
candidates to be voted for for such office, or if, for any reason, it may be

0279a

impossible to determine his choice for any office, his ballot shall not be
counted for such office, but the ballot shall be counted for all offices for
which it is properly marked. Ballots not marked, or improperly or
defectively marked, so that the whole ballot is void, shall be set aside
and shall be preserved with the other ballots.
***
Section 1227. Canvass and Return of Votes in Districts in Which
Voting Machines are Used.--* * *
(d) The election officers, on the foregoing returns, shall record any
votes which have been cast for a person whose name is not printed on
the ballot labels, by means of an irregular ballot, as defined herein. In
returning any such votes which have been written[,] or deposited [or
affixed] upon receptacles or devices provided for the purpose, the
election officers shall record any such names exactly as they were
written[,] or deposited [or affixed].
Section 4. The act is amended by adding sections to read:
Section 1231. Deadline for Receipt of Valid Voter
Registration Application.--(a) Except as provided under
subsection (b), each commission, commissioner and registrar
or clerk appointed by the commission shall receive, during
ordinary business hours and during additional hours as the
commission prescribes, at the office of the commission and at
additional places as the commission designates, applications
from individuals who apply to be registered to vote as provided
under 25 Pa.C.S. Pt. IV (relating to voter registration) who
appear and claim that they are entitled to be registered as
electors of a municipality.
(b) In the administration of voter registration, each
commission shall ensure that an applicant who is a qualified
elector is registered to vote in an election when the applicant
has met any of the following conditions:
(1) In the case of voter registration with a motor vehicle
driver's license application under 25 Pa.C.S. § 1323 (relating to
application with driver's license application), if the valid voter
registration application is received by the appropriate
commission not later than fifteen days before the election.
(2) (Reserved).
(3) In the case of voter registration at a voter registration
agency under 25 Pa.C.S. § 1325 (relating to government
agencies), if the valid voter registration application is received
by the appropriate commission not later than fifteen days
before the election.

0280a

(4) In any other case, if the valid voter registration
application of the applicant is received by the appropriate
commission not later than fifteen days before the election.
(c) (1) In the case of a special election within a
congressional, senatorial or representative district held on a
day other than the day of a primary, general or municipal
election, the registration application forms shall not be
processed in the wards and election districts comprising the
district for the fifteen days prior to the special election for
such election.
(2) No applications shall be received as follows:
(i) On Sundays.
(ii) On holidays.
(iii) On the day of the election.
(iv) During the fifteen days next preceding each general,
municipal and primary election except as provided under
subsection (b).
(d) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission
established under 25 Pa.C.S. § 1203 (relating to commissions).
"Commissioner" shall mean a member of a commission.
Section 1232. Appeals.--(a) An individual whose
application to be registered has been denied under section
1231 or 25 Pa.C.S. Pt. IV (relating to voter registration) may file
with the commission a petition to be registered, setting forth
the grounds of the petition under oath or affirmation. The
petition must be filed by the eighth day prior to an election.
(b) (1) The commission shall fix a time for a public hearing
at its office not later than the fifth day prior to the election.
(2) The commission shall give the person responsible for
the rejection forty-eight hours' notice of the hearing.
(3) At the hearing, a clerk, inspector of registration or
qualified elector of the county may offer evidence as to why the
petitioner should not be registered.
(4) The commission, if satisfied that the petitioner is
entitled to be registered, shall direct registration.
(c) As used in this section, the following words and phrases
shall have the meanings given to them in this subsection unless
the context clearly indicates otherwise:
"Commission" shall mean a registration commission
established under 25 Pa.C.S. § 1203 (relating to commissions).

0281a
Section 1233. Appeals to Court of Common Pleas.--(a) An
applicant whose claim for registration under section 1231 and
25 Pa.C.S. Pt. IV (relating to voter registration) has been
denied shall have standing to appeal an action of a commission
to the appropriate court of common pleas.
(b) An appeal under subsection (a) must be made by the
third day preceding an election.
(c) The appeal must request relief and specify the grounds
for relief.
(d) Upon timely receipt of an appeal under this section, the
court shall conduct a hearing.
(e) If the court finds that an injustice has been done, the
court shall reverse or modify the ruling of the commission and
issue appropriate injunctive relief.
(f) The following shall apply:
(1) Except as provided in paragraph (2), the court may
award costs for the appeal to the prevailing party.
(2) Costs may not be assessed against a commission or a
county.
(g) As used in this section, "commission" shall mean a
registration commission established under 25 Pa.C.S. § 1203
(relating to commissions).
Section 5. Section 1302(b), (c), (d), (e.1) and (i) of the act are
amended and the section is amended by adding subsections to read:
Section 1302. Applications for Official Absentee Ballots.--* * *
(b) [The application] An application for a qualified elector
under subsection (a) shall contain the following information: Home
residence at the time of entrance into actual military service or Federal
employment, length of time a citizen, length of residence in
Pennsylvania, date of birth, length of time a resident of voting district,
voting district if known, party choice in case of primary, name and, for
a military elector, his stateside military address, FPO or APO number
and serial number. Any elector other than a military elector shall in
addition specify the nature of his employment, the address to which
ballot is to be sent, relationship where necessary, and such other
information as may be determined and prescribed by the Secretary of
the Commonwealth. When such application is received by the
Secretary of the Commonwealth it shall be forwarded to the proper
county board of election.
(b.1) An application for a qualified elector other than
under subsection (a) shall contain the following information:
Date of birth, length of time a resident of voting district, voting
district if known, party choice in case of primary and name.
The elector shall in addition specify the nature of his or her

0282a
employment, the address to which ballot is to be sent,
relationship where necessary, and other information as may be
determined and prescribed by the Secretary of the
Commonwealth. When the application is received by the
Secretary of the Commonwealth it shall be forwarded to the
proper county board of election.
(c) [The application of any qualified elector, as defined in section
1301(a), (b), (c), (d), (e), (f), (g) and (h), for an official absentee ballot in
any primary or election may not be made over the signature of any
person, other than the qualified elector or an adult member of his
immediate family, as required in the preceding subsection.] A qualified
absentee military or overseas elector, as defined by the Uniformed and
Overseas Citizens Absentee Voting Act (Public Law 99-410, 100 Stat.
924), may submit his application for an official absentee ballot by
[facsimile method if the original application is received prior to the
election by the county election office. The absentee ballot of the
qualified military or overseas elector shall not be counted unless the
elector's original application is received prior to the election by the
county election office. The facsimile] electronic transmission
method. The electronic transmission method shall not be
acceptable for the official absentee ballot. As used in this
subsection, "electronic transmission method" means any
technology that can transmit a document or an image of a
document via electronic or electromechanical means,
including, but not limited to, facsimile method. An elector
entitled to submit an application for an official absentee ballot
under a method authorized under 25 Pa.C.S. Ch. 35 (relating to
uniform military and overseas voters) may submit an
application using a method authorized under 25 Pa.C.S. Ch. 35,
in addition to the methods authorized in this article.
(d) The application of any qualified elector, as defined in preceding
section 1301, subsections [(b)] (a) to (h), inclusive, for an official
absentee ballot in any primary or election shall be signed by the
applicant[.], except that for electors under section 1301(a), an
adult member of the applicant's immediate family may sign the
application on the elector's behalf.
***
(e.1) Any qualified registered elector[, including any qualified
bedridden or hospitalized veteran,] who is unable because of illness or
physical disability to attend his polling place on the day of any primary
or election or operate a voting machine and state distinctly and audibly
that he is unable to do so as required by section 1218 of this act may,
with the certification by his attending physician that he is
permanently disabled, and physically unable to attend the polls or

0283a
operate a voting machine and make the distinct and audible statement
required by section 1218 appended to the application hereinbefore
required, be placed on a permanently disabled absentee ballot list file.
An absentee ballot application shall be mailed to every such person [for
each primary or election] otherwise eligible to receive one, by the
first Monday in February each year, so long as he does not lose his
voting rights by failure to vote as otherwise required by this act. Such
person shall not be required to file a physician's certificate of disability
with each application as required in subsection (e) of this section [but
such person must submit a written statement asserting continuing
disability every four years in order to maintain his eligibility to vote
under the provisions of this subsection]. Should any such person lose
his disability he shall inform the county board of elections of the
county of his residence. An absentee ballot application mailed to a
voter under this section, which is completed and timely
returned by the voter, shall serve as an application for any and
all primary, general or special elections to be held in the
remainder of that calendar year and for all special elections to
be held before the third Monday in February of the succeeding
year.
***
(i) (1) Application for official absentee ballots shall be on
physical and electronic forms prescribed by the Secretary of the
Commonwealth. The application shall state that [a voter] an elector
who receives and votes an absentee ballot pursuant to section 1301
[and who, on election day, is capable of voting at the appropriate
polling place must void the absentee ballot and vote in the normal
manner at the appropriate voting place] shall not be eligible to vote
at a polling place on election day. Such physical application
forms shall be made freely available to the public at county board of
elections, municipal buildings and at such other locations designated
by the secretary. Such electronic application forms shall be made
freely available to the public through publicly accessible
means. No written application or personal request shall be necessary
to receive or access the application forms. Copies and records of all
completed physical and electronic applications for official absentee
ballots shall be retained by the county board of elections.
(2) Nothing in this act shall prohibit a private organization
or individual from printing blank voter applications for
absentee ballots or shall prohibit the use of such applications
by another individual, provided the form, content and paper
quality have been approved by the Secretary of the
Commonwealth.
***

0284a
(k) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may
apply for an absentee ballot and request permanent absentee
voter status under subsection (e.1), provided the system is able
to capture a digitized or electronic signature of the applicant.
A county board of elections shall treat any application or
request received through the electronic system as if the
application or request had been submitted on a paper form or
any other format used by the county.
Section 5.1. Sections 1302.1, 1302.2, 1302.3 heading, (a) and (c),
1303(d) and (e) and 1305(b) of the act are amended to read:
Section 1302.1. Date of Application for Absentee Ballot.-(a) Except as provided in [subsections (a.1) and (a.2)] subsection
(a.3), applications for absentee ballots shall be received in the office of
the county board of elections not earlier than fifty (50) days before the
primary or election [and], except that if a county board of
elections determines that it would be appropriate to its
operational needs, any applications for absentee ballots
received more than fifty (50) days before the primary or
election may be processed before that time. Applications for
absentee ballots shall be processed if received not later than five
o'clock P.M. of the first Tuesday prior to the day of any primary or
election.
[(a.1) Except as provided in subsection (a.2), in the event any
elector otherwise qualified who is so physically disabled or ill on or
before the first Tuesday prior to any primary or election that he is
unable to file his application or who becomes physically disabled or ill
after the first Tuesday prior to any primary or election and is unable to
appear at his polling place or any elector otherwise qualified who
because of the conduct of his business, duties or occupation will
necessarily be absent from the municipality of his residence on the day
of the primary or election, which fact was not and could not reasonably
be known to said elector on or before the first Tuesday prior to any
primary or election, the elector shall be entitled to an absentee ballot
at any time prior to five o'clock P.M. on the first Friday preceding any
primary or election upon execution of an Emergency Application in
such form prescribed by the Secretary of the Commonwealth.
(a.2) In the event any elector otherwise qualified who becomes so
physically disabled or ill between five o'clock P.M. on the first Friday
preceding any primary or election and eight o'clock P.M. on the day of
any primary or election that he is unable to appear at his polling place
or any elector otherwise qualified who because of the conduct of his
business, duties or occupation will necessarily be absent from the
municipality of his residence on the day of the primary or election,

0285a

which fact was not and could not reasonably be known to said elector
prior to five o'clock P.M. on the first Friday preceding any primary or
election, the elector shall be entitled to an absentee ballot if the elector
completes and files with the court of common pleas in the county in
which the elector is qualified to vote an Emergency Application or a
letter or other signed document, which includes the same information
as is provided on the Emergency Application. Upon a determination
that the elector is a qualified absentee elector under section 1301, the
judge shall issue an absentee ballot to the elector.]
(a.3) (1) The following categories of electors may apply for
an absentee ballot under this subsection, if otherwise qualified:
(i) An elector whose physical disability or illness prevented
the elector from applying for an absentee ballot before five
o'clock P.M. on the first Tuesday prior to the day of the
primary or election.
(ii) An elector who, because of the elector's business, duties
or occupation, was unable to apply for an absentee ballot
before five o'clock P.M. on the first Tuesday prior to the day of
the primary or election.
(iii) An elector who becomes so physically disabled or ill
after five o'clock P.M. on the first Tuesday prior to the day of
the primary or election that the elector is unable to appear at
the polling place on the day of the primary or election.
(iv) An elector who, because of the conduct of the elector's
business, duties or occupation, will necessarily be absent from
the elector's municipality of residence on the day of the
primary or election, which fact was not and could not
reasonably be known to the elector on or before five o'clock
P.M. on the first Tuesday prior to the day of the primary or
election.
(2) An elector described in paragraph (1) may submit an
application for an absentee ballot at any time up until the time
of the closing of the polls on the day of the primary or election.
The application shall include a declaration describing the
circumstances that prevented the elector from applying for an
absentee ballot before five o'clock P.M. on the first Tuesday
prior to the day of the primary or election or that prevent the
elector from appearing at the polling place on the day of the
primary or election, and the elector's qualifications under
paragraph (1). The declaration shall be made subject to the
provisions of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities).

0286a
(3) If the county board of elections determines that the
elector meets the requirements of this section, the board shall
issue an absentee ballot to the elector.
(4) If the elector is unable to appear [in court] at the office of
the county board of elections to receive the ballot, the [judge]
board shall give the elector's absentee ballot to an authorized
representative of the elector who is designated in writing by the
elector. The authorized representative shall deliver the absentee ballot
to the elector and return the completed absentee ballot, sealed in the
official absentee ballot envelopes, to the office of the county board of
elections, [who] which shall [distribute] retain the ballot, unopened,
[to the absentee voter's election district] until the canvassing of all
absentee ballots.
(5) Multiple people qualified under this subsection may
designate the same person, and a single person may serve as
the authorized representative for multiple qualified electors.
(6) If the elector is unable to appear [in court] at the office of
the county board of elections or unable to obtain assistance from
an authorized representative, the county board may provide an
authorized representative or ask the judge [shall] of the court of
common pleas in the county in which the elector is qualified to
vote to direct a deputy sheriff of the county to deliver the absentee
ballot to the elector if the elector is at a physical location within the
county and return the completed absentee ballot, sealed in the official
absentee ballot envelopes, to the county board of elections[, who shall
distribute the ballots, unopened, to the absentee voter's respective
election district]. If there is no authorized representative and a deputy
sheriff is unavailable to deliver an absentee ballot under this section,
the judge may direct a constable to make such delivery in accordance
with the provisions of this section.
(7) In the case of an elector who requires assistance in marking
the elector's ballot, the elector shall designate in writing the person
who will assist in marking the ballot. Such person shall be otherwise
eligible to provide assistance to electors eligible for assistance, and
such person shall declare in writing that assistance was rendered. Any
person other than the designee who shall render assistance in marking
a ballot or any person rendering assistance who shall fail to execute a
declaration shall be guilty of a violation of this act.
(8) No absentee ballot under this subsection shall be counted
which is received in the office of the county board of elections later
than [eight o'clock P.M. on the day of the primary or election] the
deadline for its receipt as provided in section 1308(g).
(b) In the case of an elector whose application for an absentee
ballot is received by the office of the county board of elections earlier

0287a

than fifty (50) days before the primary or election, the application shall
be held and processed upon commencement of the fifty-day period or
at such earlier time as the county board of elections
determines may be appropriate.
[(c) In the case of an elector who is physically disabled or ill on or
before the first Tuesday prior to a primary or election or becomes
physically disabled or ill after the first Tuesday prior to a primary or
election, such Emergency Application, letter or other signed document
shall contain a supporting affidavit from his attending physician
stating that due to physical disability or illness said elector was unable
to apply for an absentee ballot on or before the first Tuesday prior to
the primary or election or became physically disabled or ill after that
period.
(d) In the case of an elector who is necessarily absent because of
the conduct of his business, duties or occupation under the unforeseen
circumstances specified in subsections (a.1) and (a.2), such Emergency
Application, letter or other signed document shall contain a supporting
affidavit from such elector stating that because of the conduct of his
business, duties or occupation said elector will necessarily be absent
from the municipality of his residence on the day of the primary or
election which fact was not and could not reasonably be known to said
elector on or before the first Tuesday prior to the primary or election.]
Section 1302.2. Approval of Application for Absentee Ballot.-(a) The county board of elections, upon receipt of any application
filed by a qualified elector not required to be registered under
preceding section 1301, shall ascertain from the information on such
application, district register or from any other source that such
applicant possesses all the qualifications of a qualified elector other
than being registered or enrolled. If the board is satisfied that the
applicant is qualified to receive an official absentee ballot, the
application shall be marked approved such approval decision shall be
final and binding except that challenges may be made only on the
ground that the applicant did not possess qualifications of an absentee
elector. Such challenges must be made to the county board of elections
prior to [5:00 o'clock P.M. on the first Friday prior to the election.] the
applicable deadline for the absentee ballots to be received, as
provided in section 1308(g). When so approved, the county board of
elections shall cause the applicant's name and residence (and at a
primary, the party enrollment) to be inserted in the Military, Veterans
and Emergency Civilians Absentee Voters File as provided in section
1302.3, subsection (b): Providing, however, That no application of any
qualified elector in military service shall be rejected for failure to
include on [his] the elector's application any information if such

0288a

information may be ascertained within a reasonable time by the county
board of elections.
(b) The county board of elections, upon receipt of any application
filed by a qualified elector who is entitled, under the provisions of the
Permanent Registration Law as now or hereinafter enacted by the
General Assembly, to absentee registration prior to or concurrently
with the time of voting as provided under preceding section 1301, shall
ascertain from the information on such application or from any other
source that such applicant possesses all the qualifications of a qualified
elector. If the board is satisfied that the applicant is entitled, under the
provisions of the Permanent Registration Law as now or hereinafter
enacted by the General Assembly, to absentee registration prior to or
concurrently with the time of voting and that the applicant is qualified
to receive an official absentee ballot, the application shall be marked
"approved." Such approval decision shall be final and binding except
that challenges may be made only on the ground that the applicant did
not possess the qualifications of an absentee elector prior to or
concurrently with the time of voting. Such challenges must be made to
the county board of elections prior to [5:00 o'clock P.M. on the first
Friday prior to the election.] the applicable deadline for the
absentee ballots to be received, as provided in section 1308(g).
When so approved, the county board of elections shall cause the
applicant's name and residence (and at a primary, the party
enrollment) to be inserted in the Military, Veterans and Emergency
Civilian Absentee Voters File as provided in section 1302.3 subsection
(b).
(c) The county board of elections, upon receipt of any application of
a qualified elector required to be registered under the provisions of
preceding section 1301, shall determine the qualifications of such
applicant by verifying the proof of identification and comparing the
information set forth on such application with the information
contained on the applicant's permanent registration card. If the board
is satisfied that the applicant is qualified to receive an official absentee
ballot, the application shall be marked "approved." Such approval
decision shall be final and binding, except that challenges may be
made only on the ground that the applicant did not possess the
qualifications of an absentee elector. Such challenges must be made to
the county board of elections prior to [5:00 o'clock P.M. on the first
Friday prior to the election.] the applicable deadline for the
absentee ballots to be received, as provided in section 1308(g).
When so approved, the registration commission shall cause an
absentee voter's temporary registration card to be inserted in the
district register on top of and along with the permanent registration

0289a
card. The absentee voter's temporary registration card shall be in the
color and form prescribed in subsection (e) of this section:
Provided, however, That the duties of the county boards of
elections and the registration commissions with respect to the
insertion of the absentee voter's temporary registration card of any
elector from the district register as set forth in section 1302.2 shall
include only such applications and emergency applications as are
received on or before the first Tuesday prior to the primary or election.
In all cases where applications are received after the first Tuesday
prior to the primary or election and before [five o'clock P. M. on the
first Friday prior to] eight o'clock P.M. on the day of the primary or
election, the county board of elections shall determine the
qualifications of such applicant by verifying the proof of identification
and comparing the information set forth on such application with the
information contained on the applicant's duplicate registration card on
file in the General Register (also referred to as the Master File) in the
office of the Registration Commission and shall cause the name and
residence (and at primaries, the party enrollment) to be inserted in the
Military, Veterans and Emergency Civilian Absentee Voters File as
provided in section 1302.3, subsection (b). [In addition, the local
district boards of elections shall, upon canvassing the official absentee
ballots under section 1308, examine the voting check list of the election
district of said elector's residence and satisfy itself that such elector did
not cast any ballot other than the one properly issued to him under his
absentee ballot application. In all cases where the examination of the
local district board of elections discloses that an elector did vote a
ballot other than the one properly issued to him under the absentee
ballot application, the local district board of elections shall thereupon
cancel said absentee ballot and said elector shall be subject to the
penalties as hereinafter set forth.]
(d) In the event that any application for an official absentee ballot
is not approved by the county board of elections, the elector shall be
notified immediately to that effect with a statement by the county
board of the reasons for the disapproval. For those applicants whose
proof of identification was not provided with the application or could
not be verified by the board, the board shall send notice to the elector
with the absentee ballot requiring the elector to provide proof of
identification with the absentee ballot or the ballot will not be counted.
(e) The absentee voter's temporary registration card shall be in
duplicate and the same size as the permanent registration card, in a
different and contrasting color to the permanent registration card and
shall contain the absentee voter's name and address and shall
conspicuously contain the words "Absentee Voter." [Such card shall
also contain the affidavit required by subsection (b) of section 1306.]

0290a

(f) Notwithstanding the provisions of this section, a qualified
absentee elector shall not be required to provide proof of identification
if the elector is entitled to vote by absentee ballot under the Uniformed
and Overseas Citizens Absentee Voting Act (Public Law 99-410, 100
Stat. 924) or by an alternative ballot under the Voting Accessibility for
the Elderly and Handicapped Act (Public Law 98-435, 98 Stat. 1678).
Section 1302.3. Absentee and Mail-in Electors Files and Lists.-(a) The county board of elections shall maintain at its office a file
containing the duplicate absentee voter's temporary registration cards
of every registered elector to whom an absentee ballot has been sent.
Such duplicate absentee voter's temporary registration cards shall be
filed by election districts and within each election district in exact
alphabetical order and indexed. The registration cards and the
registration cards under section 1302.3-D so filed shall constitute
the Registered Absentee and Mail-in Voters File for the Primary or
Election of (date of primary or election) and shall be kept on file for a
period commencing the Tuesday prior to the day of the primary or
election until the day following the primary or election or the day the
county board of elections certifies the returns of the primary or
election, whichever date is later. Such file shall be open to public
inspection at all times subject to reasonable safeguards, rules and
regulations.
***
(c) Not less than five days preceding the election, the chief clerk
shall prepare a list for each election district showing the names and
post office addresses of all voting residents thereof to whom official
absentee or mail-in ballots shall have been issued. Each such list
shall be prepared in duplicate, shall be headed "Persons in (give
identity of election district) to whom absentee or mail-in ballots have
been issued for the election of (date of election)," and shall be signed by
him not less than four days preceding the election. He shall post the
original of each such list in a conspicuous place in the office of the
county election board and see that it is kept so posted until the close of
the polls on election day. He shall cause the duplicate of each such list
to be delivered to the judge of election in the election district in the
same manner and at the same time as are provided in this act for the
delivery of other election supplies, and it shall be the duty of such
judge of election to post such duplicate list in a conspicuous place
within the polling place of his district and see that it is kept so posted
throughout the time that the polls are open. Upon written request, he
shall furnish a copy of such list to any candidate or party county
chairman.
Section 1303. Official Absentee Voters Ballots.--* * *

0291a
(d) In cases where there is not time to print on said ballots the
names of the various candidates, the county board of elections shall
print special write-in absentee ballots which shall be in substantially
the form of other official absentee ballots except that such special
write-in absentee ballots shall contain blank spaces only under the
titles of such offices in which electors may insert, by writing or
stamping, the names of the candidates for whom they desire to vote,
and in such cases the county board of elections shall furnish to electors
lists containing the names of all the candidates named in nomination
petitions or who have been regularly nominated under the provisions
of this act, for the use of such electors in preparing their ballots.
Special write-in absentee ballots also shall include all constitutional
amendments and other questions to be voted on by the electors.
(e) The official absentee voter ballot shall state that a voter who
receives an absentee ballot pursuant to section 1301 and whose
ballot is not timely received and who, on election day, is capable of
voting at the appropriate polling place [must void the absentee ballot
and vote in the normal manner at the appropriate voting place] may
only vote on election day by provisional ballot.
Section 1305. Delivering or Mailing Ballots.-***
(b) (1) The county board of elections upon receipt and approval of
an application filed by any elector qualified in accordance with the
provisions of section 1301, subsections (i) to (l), inclusive, shall
commence to deliver or mail official absentee ballots [on] as soon as a
ballot is certified and the ballots are available. While any
proceeding is pending in a Federal or State court which would
affect the contents of any ballot, the county board of elections
may await a resolution of that proceeding but in any event,
shall commence to deliver or mail official absentee ballots not
later than the second Tuesday prior to the primary or election. For
those applicants whose proof of identification was not provided with
the application or could not be verified by the board, the board shall
send the notice required under section 1302.2(d) with the absentee
ballot. As additional applications are received and approved after the
time that the county board of elections begins delivering or
mailing official absentee and mail-in ballots, the board shall
deliver or mail official absentee ballots to such additional electors
within forty-eight hours.
(2) Notwithstanding any other provisions of this act and
notwithstanding the inclusion of a mailing address on an
absentee or mail-in ballot application, a voter who presents the
voter's own application for an absentee or mail-in ballot within
the office of the county board of elections during regular

0292a
business hours may request to receive the voter's absentee or
mail-in ballot while the voter is at the office. This request may
be made orally or in writing. Upon presentation of the
application and the making of the request and upon approval
under sections 1302.2 and 1302.2-D, the county board of
elections shall promptly present the voter with the voter's
absentee or mail-in ballot. If a voter presents the voter's
application within the county board of elections' office in
accordance with this section, a county board of elections may
not deny the voter's request to have the ballot presented to the
voter while the voter is at the office unless there is a bona fide
objection to the absentee or mail-in ballot application.
***
Section 6. Section 1306(a) introductory paragraph and (1) and (b)
of the act are amended and the section is amended by adding a
subsection to read:
Section 1306. Voting by Absentee Electors.--(a) Except as
provided in paragraphs [(1),] (2) and (3), at any time after receiving an
official absentee ballot, but on or before [five o'clock P.M. on the Friday
prior to] eight o'clock P.M. the day of the primary or election, the
elector shall, in secret, proceed to mark the ballot only in black lead
pencil, indelible pencil or blue, black or blue-black ink, in fountain pen
or ball point pen, and then fold the ballot, enclose and securely seal the
same in the envelope on which is printed, stamped or endorsed
"Official Absentee Ballot." This envelope shall then be placed in
the second one, on which is printed the form of declaration of
the elector, and the address of the elector's county board of
election and the local election district of the elector. The
elector shall then fill out, date and sign the declaration printed
on such envelope. Such envelope shall then be securely sealed
and the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county
board of election.
[(1) Any elector who submits an Emergency Application and
receives an absentee ballot in accordance with section 1302.1(a.2) or (c)
shall mark the ballot on or before eight o'clock P.M. on the day of the
primary or election. This envelope shall then be placed in the second
one, on which is printed the form of declaration of the elector, and the
address of the elector's county board of election and the local election
district of the elector. The elector shall then fill out, date and sign the
declaration printed on such envelope. Such envelope shall then be
securely sealed and the elector shall send same by mail, postage
prepaid, except where franked, or deliver it in person to said county
board of election.]

0293a

***
(b) [In the event that any such elector, excepting an elector in
military service or any elector unable to go to his polling place because
of illness or physical disability, entitled to vote an official absentee
ballot shall be in the municipality of his residence on the day for
holding the primary or election for which the ballot was issued, or in
the event any such elector shall have recovered from his illness or
physical disability sufficiently to permit him to present himself at the
proper polling place for the purpose of casting his ballot, such absentee
ballot cast by such elector shall, be declared void.
Any such elector referred to in this subsection, who is within the
municipality of his residence, must present himself at his polling place
and shall be permitted to vote upon presenting himself at his regular
polling place in the same manner as he could have voted had he not
received an absentee ballot: Provided, That such elector has first
presented himself to the judge of elections in his local election district
and shall have signed the affidavit on the absentee voter's temporary
registration card, which affidavit shall be in substantially the following
form:
I hereby swear that I am a qualified registered elector who has
obtained an absentee ballot, however, I am present in the municipality
of my residence and physically able to present myself at my polling
place and therefore request that my absentee ballot be voided.
..............................
(Date)
..............................
(Local Judge of Elections)

.............................
(Signature of
Elector)
An elector who has received an absentee ballot under the
emergency application provisions of section 1302.1, and for whom,
therefore, no temporary absentee voter's registration card is in the
district register, shall sign the aforementioned affidavit in any case,
which the local judge of elections shall then cause to be inserted in the
district register with the elector's permanent registration card.]
(1) Any elector who receives and votes an absentee ballot
pursuant to section 1301 shall not be eligible to vote at a
polling place on election day. The district register at each
polling place shall clearly identify electors who have received
and voted absentee ballots as ineligible to vote at the polling
place, and district election officers shall not permit electors
who voted an absentee ballot to vote at the polling place.

0294a
(2) An elector who requests an absentee ballot and who is
not shown on the district register as having voted the ballot
may vote by provisional ballot under section 1210(a.4)(1).
(c) Except as provided under 25 Pa.C.S. § 3511 (relating to
receipt of voted ballot), a completed absentee ballot must be
received in the office of the county board of elections no later
than eight o'clock P.M. on the day of the primary or election.
Section 7. Sections 1308 heading, (a), (b), (b.1), (d), (e), (f), (g)(1),
(2), (3), (4) and (5) and (h) and 1309 of the act are amended to read:
Section 1308. Canvassing of Official Absentee Ballots and Mail-in
Ballots.--(a) The county boards of election, upon receipt of official
absentee ballots in [such] sealed official absentee ballot envelopes
as provided under this article and mail-in ballots as in sealed
official mail-in ballot envelopes as provided under Article XIIID, shall safely keep the [same] ballots in sealed or locked containers
until they [distribute same to the appropriate local election districts in
a manner prescribed by the Secretary of the Commonwealth.
Except as provided in section 1302.1(a.2), the county board of
elections shall then distribute the absentee ballots, unopened, to the
absentee voter's respective election district concurrently with the
distribution of the other election supplies. Absentee ballots shall be
canvassed immediately and continuously without interruption until
completed after the close of the polls on the day of the election in each
election district. The results of the canvass of the absentee ballots shall
then be included in and returned to the county board with the returns
of that district. Except as provided in section 1302.1(a.2) and
subsection (g), no absentee ballot shall be counted which is received in
the office of the county board of election later than five o'clock P.M. on
the Friday immediately preceding the primary or November election.]
are to be canvassed by the county board of elections. An
absentee ballot, whether issued to a civilian, military or other
voter during the regular or emergency application period,
shall be canvassed in accordance with subsection (g). A mail-in
ballot shall be canvassed in accordance with subsection (g).
(b) Watchers shall be permitted to be present when the envelopes
containing official absentee ballots and mail-in ballots are opened
and when such ballots are counted and recorded.
[(b.1) In all election districts in which electronic voting systems are
used, absentee ballots shall be opened at the election district, checked
for write-in votes in accordance with section 1113-A and then either
hand-counted or counted by means of the automatic tabulation
equipment, whatever the case may be.]
(d) Whenever it shall appear by due proof that any absentee
elector or mail-in elector who has returned his ballot in accordance

0295a
with the provisions of this act has died prior to the opening of the polls
on the day of the primary or election, the ballot of such deceased
elector shall be rejected by the canvassers but the counting of the
ballot of an absentee elector or a mail-in elector thus deceased shall
not of itself invalidate any nomination or election.
[(e) At such time the local election board shall then further
examine the declaration on each envelope not so set aside and shall
compare the information thereon with that contained in the
"Registered Absentee Voters File," the absentee voters' list and the
"Military Veterans and Emergency Civilians Absentee Voters File." If
the local election board is satisfied that the declaration is sufficient
and the information contained in the "Registered Absentee Voters
File," the absentee voters' list and the "Military Veterans and
Emergency Civilians Absentee Voters File" verifies his right to vote,
the local election board shall announce the name of the elector and
shall give any watcher present an opportunity to challenge any
absentee elector upon the ground or grounds (1) that the absentee
elector is not a qualified elector; or (2) that the absentee elector was
within the municipality of his residence on the day of the primary or
election during the period the polls were open, except where he was in
military service or except in the case where his ballot was obtained for
the reason that he was unable to appear personally at the polling place
because of illness or physical disability; or (3) that the absentee elector
was able to appear personally at the polling place on the day of the
primary or election during the period the polls were open in the case
his ballot was obtained for the reason that he was unable to appear
personally at the polling place because of illness or physical disability.
Upon challenge of any absentee elector, as set forth herein the local
election board shall mark "challenged" on the envelope together with
the reason or reasons therefor, and the same shall be set aside for
return to the county board unopened pending decision by the county
board and shall not be counted. All absentee ballots not challenged for
any of the reasons provided herein shall be counted and included with
the general return of paper ballots or voting machines, as the case may
be as follows. Thereupon, the local election board shall open the
envelope of every unchallenged absentee elector in such manner as not
to destroy the declaration executed thereon. All of such envelopes on
which are printed, stamped or endorsed the words "Official Absentee
Ballot" shall be placed in one or more depositories at one time and said
depository or depositories well shaken and the envelopes mixed before
any envelope is taken therefrom. If any of these envelopes shall
contain any extraneous marks or identifying symbols other than the
words "Official Absentee Ballot," the envelopes and the ballots
contained therein shall be set aside and declared void. The local

0296a
election board shall then break the seals of such envelopes, remove the
ballots and record the votes in the same manner as district election
officers are required to record votes. With respect to the challenged
ballots, they shall be returned to the county board with the returns of
the local election district where they shall be placed unopened in a
secure, safe and sealed container in the custody of the county board
until it shall fix a time and place for a formal hearing of all such
challenges and notice shall be given where possible to all absentee
electors thus challenged and to every attorney, watcher or candidate
who made such challenge. The time for the hearing shall not be later
than seven (7) days after the date of said challenge. On the day fixed
for said hearing, the county board shall proceed without delay to hear
said challenges and, in hearing the testimony, the county board shall
not be bound by technical rules of evidence. The testimony presented
shall be stenographically recorded and made part of the record of the
hearing. The decision of the county board in upholding or dismissing
any challenge may be reviewed by the court of common pleas of the
county upon a petition filed by any person aggrieved by the decision of
the county board. Such appeal shall be taken, within two (2) days after
such decision shall have been made, whether reduced to writing or not,
to the court of common pleas setting forth the objections to the county
board's decision and praying for an order reversing same. Pending the
final determination of all appeals, the county board shall suspend any
action in canvassing and computing all challenged ballots irrespective
of whether or not appeal was taken from the county board's decision.
Upon completion of the computation of the returns of the county, the
votes cast upon the challenged official absentee ballots shall be added
to the other votes cast within the county.]
(f) Any person challenging an application for an absentee ballot
[or], an absentee ballot, an application for a mail-in ballot or a
mail-in ballot for any of the reasons provided in this act shall deposit
the sum of ten dollars ($10.00) in cash with the [local election] county
board, [in cases of challenges made to the local election board and with
the county board in cases of challenges made to the county board for
which he shall be issued a receipt for each challenge made,] which sum
shall only be refunded if the challenge is sustained or if the challenge
is withdrawn within five (5) days after the primary or election. If the
challenge is dismissed by any lawful order then the deposit shall be
forfeited. [All deposit money received by the local election board shall
be turned over to the county board simultaneously with the return of
the challenged ballots.] The county board shall deposit all deposit
money in the general fund of the county.
Notice of the requirements of subsection (b) of section 1306 shall be
printed on the envelope for the absentee ballot or mail-in ballot.

0297a
(g) (1) (i) An absentee ballot cast by any absentee elector as
defined in section 1301(a), (b), (c), (d), (e), (f), (g) and (h) [which is
received in the office of the county board of elections after five o'clock
P.M. on the Friday immediately preceding the election and no later
than five o'clock P.M. on the seventh day following an election] shall be
canvassed in accordance with this subsection if [the absentee ballot is
postmarked no later than the day immediately preceding the election.]
the ballot is cast, submitted and received in accordance with
the provisions of 25 Pa.C.S. Ch. 35 (relating to uniform military
and overseas voters).
(ii) An absentee ballot cast by any absentee elector as
defined in section 1301(i), (j), (k), (l), (m) and (n), an absentee
ballot under section 1302(a.3) or a mail-in ballot cast by a mailin elector shall be canvassed in accordance with this
subsection if the absentee ballot or mail-in ballot is received in
the office of the county board of elections no later than eight
o'clock P.M. on the day of the primary or election.
(2) The county board of elections shall meet [on the eighth day
following the election to canvass] no earlier than the close of polls
on the day of the election and no later than the third day
following the election to begin canvassing the absentee ballots
and mail-in ballots received under this subsection and subsection
(h)(2). The canvass shall continue through the eighth day
following the election. One authorized representative of each
candidate in an election and one representative from each political
party shall be permitted to remain in the room in which the absentee
ballots and mail-in ballots are canvassed. Representatives shall be
permitted to challenge any absentee elector or mail-in elector in
accordance with the provisions of paragraph (3).
(3) When the county board meets to canvass absentee ballots and
mail-in ballots under paragraph (2), the board shall examine the
declaration on the envelope of each ballot not set aside under
subsection (d) and shall compare the information thereon with that
contained in the "Registered Absentee and Mail-in Voters File," the
absentee voters' list and/or the "Military Veterans and Emergency
Civilians Absentee Voters File," whichever is applicable. If the county
board has verified the proof of identification as required under this act
and is satisfied that the declaration is sufficient and the information
contained in the "Registered Absentee and Mail-in Voters File," the
absentee voters' list and/or the "Military Veterans and Emergency
Civilians Absentee Voters File" verifies his right to vote, the county
board shall announce the name of the elector and shall give any
candidate representative or party representative present an
opportunity to challenge any absentee elector or mail-in elector upon

0298a

the ground or grounds: (i) that the absentee elector or mail-in elector
is not a qualified elector; or [(ii) that the absentee elector was within
the municipality of his residence on the day of the primary or election
during the period the polls were open, except where he was in the
military service or except in the case where his ballot was obtained for
the reason that he was unable to appear personally at the polling place
because of illness or physical disability; or] (iii) that the absentee
elector was able to appear personally at the polling place on the day of
the primary or election during the period the polls were open in the
case his ballot was obtained for the reason that he was unable to
appear personally at the polling place because of illness or physical
disability. Upon challenge of any absentee elector, as set forth herein,
the board shall mark "challenged" on the envelope together with the
reasons therefor, and the same shall be set aside unopened pending
final determination of the challenge according to the procedure
described in paragraph (5).
(4) All absentee ballots and mail-in ballots not challenged for
any of the reasons provided in paragraph (3) shall be counted and
included with the returns of the applicable election district as
follows[.]:
(i) The county board shall open the envelope of every
unchallenged absentee elector and mail-in elector in such manner as
not to destroy the declaration executed thereon.
(ii) If any of the envelopes on which are printed, stamped or
endorsed the words "Official Absentee Ballot" or "Official Mail-in
Ballot" contain any extraneous marks or identifying symbols, the
envelopes and the ballots contained therein shall be set aside and
declared void.
(iii) The county board shall then break the seals of such
envelopes, remove the ballots and record the votes.
(5) With respect to the challenged ballots, they shall be placed
unopened in a secure, safe and sealed container in the custody of the
county board until it shall fix a time and place for a formal hearing of
all such challenges, and notice shall be given where possible to all
absentee electors and mail-in electors thus challenged and to every
individual who made a challenge. The time for the hearing shall not be
later than five (5) days after the date of the challenge. On the day fixed
for said hearing, the county board shall proceed without delay to hear
said challenges, and, in hearing the testimony, the county board shall
not be bound by the Pennsylvania Rules of Evidence. The testimony
presented shall be stenographically recorded and made part of the
record of the hearing.
***

0299a
(h) For those absentee ballots or mail-in ballots for which proof
of identification has not been received or could not be verified:
[(1) If the proof of identification is received and verified by the
county board of elections prior to the distribution of the absentee
ballots to the local election districts, then the county shall distribute
the absentee ballots for which proof of identification is received and
verified, along with the other absentee ballots, to the absentee voter's
respective election district. If the county board of elections does not
receive or is not able to verify the proof of identification for an elector
prior to the absentee ballots' being sent to the appropriate local
election districts, the county board shall keep the absentee ballot and
follow the procedures set forth in paragraph (2) or (3), whichever is
applicable.]
(2) If the proof of identification is received and verified [after the
absentee ballots have been distributed to the appropriate local election
districts, but] prior to the sixth calendar day following the election,
then the county board of elections shall canvass the absentee ballots
and mail-in ballots under this subsection in accordance with
subsection (g)(2)[, unless the elector appeared to vote at the proper
polling place for the purpose of casting a ballot, then the absentee
ballot cast by that elector shall be declared void].
(3) If an elector fails to provide proof of identification that can be
verified by the county board of elections by the sixth calendar day
following the election, then the absentee ballot or mail-in ballot shall
not be counted.
***
Section 1309. Public Records.--(a) All official absentee ballots,
files, applications for such ballots and envelopes on which the executed
declarations appear, and all information and lists are hereby
designated and declared to be public records and shall be safely kept
for a period of two years, except that no proof of identification shall be
made public, nor shall information concerning a military elector be
made public which is expressly forbidden by the Department of
Defense because of military security.
(b) For each election, the county board shall maintain a
record of the following information, if applicable, for each
elector who makes application for an absentee ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is received
by the county board.
(3) The date on which the elector's application is approved
or rejected by the county board.
(4) The date on which the county board mails or delivers
the absentee ballot to the elector.

0300a
(5) The date on which the elector's completed absentee
ballot is received by the county board.
(c) The county board shall compile the records listed under
subsection (b) and make the records publicly available upon
request within forty-eight hours.
Section 8. The act is amended by adding an article to read:
ARTICLE XIII-D
VOTING BY QUALIFIED MAIL-IN ELECTORS
Section 1301-D. Qualified mail-in electors.
(a) General rule.--The following individuals shall be
entitled to vote by an official mail-in ballot in any primary or
election held in this Commonwealth in the manner provided
under this article:
(1) Any qualified elector who is not eligible to be a
qualified absentee elector under Article XIII.
(2) (Reserved).
(b) Construction.--The term "qualified mail-in elector" shall
not be construed to include a person not otherwise qualified as
a qualified elector in accordance with the definition in section
102(t).
Section 1302-D. Applications for official mail-in ballots.
(a) General rule.--A qualified elector under section 1301-D
may apply at any time before any primary or election for an
official mail-in ballot in person or on any official county board
of election form addressed to the Secretary of the
Commonwealth or the county board of election of the county in
which the qualified elector's voting residence is located.
(b) Content.--The following shall apply:
(1) The qualified elector's application shall contain the
following information:
(i) Date of birth.
(ii) Length of time a resident of voting district.
(iii) Voting district, if known.
(iv) Party choice in case of primary.
(v) Name.
(2) A qualified elector shall, in addition, specify the
address to which the ballot is to be sent, the relationship where
necessary and other information as may be determined by the
Secretary of the Commonwealth.
(3) When an application is received by the Secretary of
the Commonwealth it shall be forwarded to the proper county
board of election.
(c) Signature required.--Except as provided in subsection
(d), the application of a qualified elector under section 1301-D

0301a

for an official mail-in ballot in any primary or election shall be
signed by the applicant.
(d) Signature not required.--If any elector entitled to a
mail-in ballot under this section is unable to sign the
application because of illness or physical disability, the elector
shall be excused from signing upon making a statement which
shall be witnessed by one adult person in substantially the
following form:
I hereby state that I am unable to sign my application for a
mail-in ballot without assistance because I am unable to write
by reason of my illness or physical disability. I have made or
have received assistance in making my mark in lieu of my
signature.
(Mark)
(Date)
(Complete Address of Witness)
(Signature of Witness)
(e) Numbering.--The county board of elections shall
number, in chronological order, the applications for an official
mail-in ballot, which number shall likewise appear on the
official mail-in ballot for the qualified elector. The numbers
shall appear legibly and in a conspicuous place but, before the
ballots are distributed, the number on the ballot shall be torn
off by the county board of election. The number information
shall be appropriately inserted and become a part of the
Registered Absentee and Mail-in Voters File provided under
section 1302.3.
(f) Form.--Application for an official mail-in ballot shall be
on physical and electronic forms prescribed by the Secretary of
the Commonwealth. The application shall state that a voter
who receives and votes a mail-in ballot under section 1301-D
shall not be eligible to vote at a polling place on election day.
The physical application forms shall be made freely available
to the public at county board of elections, municipal buildings
and at other locations designated by the Secretary of the
Commonwealth. The electronic application forms shall be
made freely available to the public through publicly accessible
means. No written application or personal request shall be
necessary to receive or access the application forms. Copies
and records of all completed physical and electronic
applications for official mail-in ballots shall be retained by the
county board of elections.
(g) Permanent mail-in voting list.--

0302a
(1) Any qualified registered elector may request to be
placed on a permanent mail-in ballot list file. A mail-in ballot
application shall be mailed to every person otherwise eligible
to receive a mail-in ballot application by the first Monday in
February each year, so long as the person does not lose the
person's voting rights by failure to vote as otherwise required
by this act. A mail-in ballot application mailed to a voter under
this section, which is completed and timely returned by the
voter, shall serve as an application for any and all primary,
general or special elections to be held in the remainder of that
calendar year and for all special elections to be held before the
third Monday in February of the succeeding year.
(2) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may
apply for a mail-in ballot and request permanent mail-in voter
status under this section, provided the system is able to
capture a digitized or electronic signature of the applicant. A
county board of elections shall treat an application or request
received through the electronic system as if the application or
request had been submitted on a paper form or any other
format used by the county.
Section 1302.1-D. Date of application for mail-in ballot.
(a) General rule.--Applications for mail-in ballots shall be
received in the office of the county board of elections not
earlier than 50 days before the primary or election, except that
if a county board of elections determines that it would be
appropriate to the county board of elections' operational
needs, any applications for mail-in ballots received more than
50 days before the primary or election may be processed before
that time. Applications for mail-in ballots shall be processed if
received not later than five o'clock P.M. of the first Tuesday
prior to the day of any primary or election.
(b) Early applications.--In the case of an elector whose
application for a mail-in ballot is received by the office of the
county board of elections earlier than 50 days before the
primary or election, the application shall be held and
processed upon commencement of the 50-day period or at such
earlier time as the county board of elections determines may
be appropriate.
Section 1302.2-D. Approval of application for mail-in ballot.
(a) Approval process.--The county board of elections, upon
receipt of any application of a qualified elector under section
1301-D, shall determine the qualifications of the applicant by
verifying the proof of identification and comparing the

0303a
information provided on the application with the information
contained on the applicant's permanent registration card. The
following shall apply:
(1) If the board is satisfied that the applicant is qualified
to receive an official mail-in ballot, the application shall be
marked "approved."
(2) The approval decision shall be final and binding,
except that challenges may be made only on the grounds that
the applicant did not possess the qualifications of a mail-in
elector.
(3) Challenges must be made to the county board of
elections prior to the applicable deadline for the mail-in ballots
to be received, as provided in section 1308(g).
(4) When approved, the registration commission shall
cause a mail-in voter's temporary registration card to be
inserted in the district register on top of and along with the
permanent registration card.
(5) The mail-in voter's temporary registration card shall
be in the color and form prescribed under subsection (d).
(b) Duties of county boards of elections and registration
commissions.--The duties of the county boards of elections and
the registration commissions with respect to the insertion of
the mail-in voter's temporary registration card of any elector
from the district register as provided under this section shall
include only the applications as are received on or before the
first Tuesday prior to the primary or election.
(c) Notice.--In the event that an application for an official
mail-in ballot is not approved by the county board of elections,
the elector shall be notified immediately with a statement by
the county board of the reasons for the disapproval. For
applicants whose proof of identification was not provided with
the application or could not be verified by the board, the board
shall send notice to the elector with the mail-in ballot
requiring the elector to provide proof of identification with the
mail-in ballot or the ballot will not be counted.
(d) Temporary registration card.--The mail-in voter's
temporary registration card shall be in duplicate and the same
size as the permanent registration card, in a different and
contrasting color to the permanent registration card and shall
contain the mail-in voter's name and address and shall
conspicuously contain the words "Mail-in Voter."
Section 1302.3-D. Mail-in electors files and lists.
The county board of elections shall maintain at its office a
file containing the duplicate mail-in voter's temporary

0304a
registration cards of every registered elector to whom a mail-in
ballot has been sent. The duplicate mail-in voter's temporary
registration cards shall be filed by election districts and within
each election district in exact alphabetical order and indexed.
The registration cards filed shall be included in the Registered
Absentee and Mail-in Voters File for the Primary or Election of
(date of primary or election) under section 1302.3(a).
Section 1303-D. Official mail-in elector ballots.
(a) General rule.--In election districts in which ballots are
used, the ballots for use by mail-in voters under this act shall
be the official ballots printed in accordance with sections 1002
and 1003.
(a.1) Duties of county boards of elections.--The county
board of elections, when detaching the official ballots for mailin voters, shall be required to indicate on the stub of each
detached ballot the name of the applicant to which that precise
ballot is being sent. The county board of elections shall also
remove the numbered stub from each ballot and shall print,
stamp or endorse in red color on the official ballots the words,
"Official Mail-in Ballot." The ballots shall be distributed by a
board as provided under this section.
(b) Preparation of ballots.--In election districts in which
voting machines are used and in election districts in which
paper ballots are used, the county board of elections in that
election district will not print official mail-in ballots in
accordance with sections 1002 and 1003. The ballots for use by
mail-in voters under this section shall be prepared sufficiently
in advance by the county board of elections and shall be
distributed by the boards as provided under this act. The
ballots shall be marked "Official Mail-in Ballot" but shall not be
numbered and shall otherwise be in substantially the form for
ballots required by Article X, which form shall be prescribed by
the Secretary of the Commonwealth.
(c) Use of ballot cards.--In election districts in which
electronic voting systems are utilized, the mail-in ballot may be
in the form of a ballot card which shall be clearly stamped on
the ballot card's face "Mail-in Ballot."
(d) Special write-in mail-in ballots.--In cases where there is
not time to print on the ballots the names of the various
candidates, the county board of elections shall print special
write-in mail-in ballots which shall be in substantially the form
of other official mail-in ballots, except that the special write-in
mail-in ballots shall contain blank spaces only under the titles
of the offices in which electors may insert by writing or

0305a
stamping the names of the candidates for whom they desire to
vote, and in those cases, the county board of elections shall
furnish to electors lists containing the names of all the
candidates named in nomination petitions or who have been
regularly nominated under the provisions of this act, for the
use of the electors in preparing their ballots. Special write-in
mail-in ballots shall include all constitutional amendments and
other questions to be voted on by the electors.
(e) Notice.--The official mail-in voter ballot shall state that
a voter who receives a mail-in ballot under section 1301-D and
whose mail-in ballot is not timely received may only vote on
election day by provisional ballot.
Section 1304-D. Envelopes for official mail-in ballots.
(a) Additional envelopes.--The county boards of election
shall provide two additional envelopes for each official mail-in
ballot of a size and shape as shall be prescribed by the
Secretary of the Commonwealth, in order to permit the placing
of one within the other and both within the mailing envelope.
On the smaller of the two envelopes to be enclosed in the
mailing envelope shall be printed, stamped or endorsed the
words "Official Mail-in Ballot," and nothing else. On the larger
of the two envelopes, to be enclosed within the mailing
envelope, shall be printed the form of the declaration of the
elector and the name and address of the county board of
election of the proper county. The larger envelope shall also
contain information indicating the local election district of the
mail-in voter.
(b) Form of declaration and envelope.--The form of
declaration and envelope shall be as prescribed by the
Secretary of the Commonwealth and shall contain, among
other things, a statement of the elector's qualifications,
together with a statement that the elector has not already
voted in the primary or election.
(c) Mailing envelope.--The mailing envelope addressed to
the elector shall contain the two envelopes, the official mail-in
ballot, lists of candidates, when authorized by section 1303D(b), the uniform instructions in form and substance as
prescribed by the Secretary of the Commonwealth and nothing
else.
(d) Notice.--Notice of the requirements under section 1306D shall be printed on the envelope for the mail-in ballot.
Section 1305-D. Delivering or mailing ballots.
The county board of elections, upon receipt and approval of
an application filed by a qualified elector under section 1301-D,

0306a
shall commence to deliver or mail official mail-in ballots as
soon as a ballot is certified and the ballots are available. While
any proceeding is pending in a Federal or State court which
would affect the contents of any ballot, the county board of
elections may await a resolution of that proceeding but in any
event, shall commence to deliver or mail official absentee
ballots not later than the second Tuesday prior to the primary
or election. For applicants whose proof of identification was
not provided with the application or could not be verified by
the board, the board shall send the notice required under
section 1302.2-D(c) with the mail-in ballot. As additional
applications are received and approved, the board shall deliver
or mail official mail-in ballots to the additional electors within
48 hours.
Section 1306-D. Voting by mail-in electors.
(a) General rule.--At any time after receiving an official
mail-in ballot, but on or before eight o'clock P.M. the day of the
primary or election, the mail-in elector shall, in secret, proceed
to mark the ballot only in black lead pencil, indelible pencil or
blue, black or blue-black ink, in fountain pen or ball point pen,
and then fold the ballot, enclose and securely seal the same in
the envelope on which is printed, stamped or endorsed "Official
Mail-in Ballot." This envelope shall then be placed in the
second one, on which is printed the form of declaration of the
elector, and the address of the elector's county board of
election and the local election district of the elector. The
elector shall then fill out, date and sign the declaration printed
on such envelope. Such envelope shall then be securely sealed
and the elector shall send same by mail, postage prepaid,
except where franked, or deliver it in person to said county
board of election.
(a.1) Signature.--Any elector who is unable to sign the
declaration because of illness or physical disability, shall be
excused from signing upon making a declaration which shall
be witnessed by one adult person in substantially the following
form:
I hereby declare that I am unable to sign my declaration for
voting my mail-in ballot without assistance because I am
unable to write by reason of my illness or physical disability. I
have made or received assistance in making my mark in lieu of
my signature.
(Mark)
(Date)
(Complete Address of Witness)

0307a
(Signature of Witness)
(b) Eligibility.-(1) Any elector who receives and votes a mail-in ballot
under section 1301-D shall not be eligible to vote at a polling
place on election day. The district register at each polling
place shall clearly identify electors who have received and
voted mail-in ballots as ineligible to vote at the polling place,
and district election officers shall not permit electors who
voted a mail-in ballot to vote at the polling place.
(2) An elector who requests a mail-in ballot and who is not
shown on the district register as having voted may vote by
provisional ballot under section 1210(a.4)(1).
(c) Deadline.--Except as provided under 25 Pa.C.S. § 3511
(relating to receipt of voted ballot), a completed mail-in ballot
must be received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or
election.
Section 1307-D. Public records.
(a) General rule.--All official mail-in ballots, files,
applications for ballots and envelopes on which the executed
declarations appear and all information and lists
are designated and declared to be public records and shall be
safely kept for a period of two years, except that no proof of
identification shall be made public, nor shall information
concerning a military elector be made public which is
expressly forbidden by the Department of Defense because of
military security.
(b) Record.--For each election, the county board shall
maintain a record of the following information, if applicable,
for each elector who makes application for a mail-in ballot:
(1) The elector's name and voter registration address.
(2) The date on which the elector's application is received
by the county board.
(3) The date on which the elector's application is
approved or rejected by the county board.
(4) The date on which the county board mails or delivers
the mail-in ballot to the elector.
(5) The date on which the elector's completed mail-in
ballot is received by the county board.
(c) Compilation.--The county board shall compile the
records listed under subsection (b) and make the records
publicly available upon request within 48 hours.
Section 1308-D. Violation of provisions relating to mail-in
voting.

0308a
(a) Penalties.--Except as provided under subsection (b), a
person who violates any of the provisions of this act relating to
mail-in voting shall, unless otherwise provided, be subject to
the penalties provided under section 1850.
(b) Persons not qualified as mail-in voters.--A person who
knowingly assists another person who is not a qualified mail-in
voter in filling out a mail-in ballot application or mail-in ballot
commits a misdemeanor of the third degree.
Section 9. Section 1405 of the act is amended to read:
Section 1405. Manner of Computing Irregular Ballots.--The county
board, in computing the votes cast at any primary or election, shall
compute and certify votes cast on irregular ballots exactly as such
names were written, stamped[, affixed to the ballot by sticker,] or
deposited [or affixed] in or on receptacles for that purpose, and as they
have been so returned by the election officers. In districts in which
paper ballots or ballot cards are electronically tabulated,
stickers or labels may not be used to mark ballots. A vote cast
by means of a sticker or label affixed to a ballot or ballot card
shall be void and may not be counted. In the primary the
Secretary of the Commonwealth shall not certify the votes cast on
irregular ballots for any person for a National office including that of
the President of the United States, United States Senator and
Representative in Congress; or for any State office including that of
Governor and Lieutenant Governor, Auditor General, State Treasurer,
Senator and Representative in the General Assembly, justices and
judges of courts of record or for any party office including that of
delegate or alternate delegate to National conventions and member of
State committee unless the total number of votes cast for said person is
equal to or greater than the number of signatures required on a
nomination petition for the particular office. In the primary the county
board shall not certify the votes cast on irregular ballots for any person
for a justice of the peace, constable, National, State, county, city,
borough, town, township, ward, school district, election or local party
office unless the total number of votes cast for said person is equal to
or greater than the number of signatures required on a nomination
petition for the particular office.
Section 10. The Secretary of the Commonwealth shall prepare and
disseminate information to the public regarding the changes to the
voting procedures under this act.
Section 11. Sections 1, 2, 3, 3.2, 4, 5, 5.1, 6, 7, 8, 9 and 12 of this
act are nonseverable. If any provision of this act or its application to
any person or circumstance is held invalid, the remaining provisions or
applications of this act are void.
Section 12. Repeals are as follows:

0309a

(1) The General Assembly declares that the repeal under
paragraph (2) is necessary to effectuate the addition of section 1231 of
the act.
(2) 25 Pa.C.S. § 1326 is repealed.
(3) The General Assembly declares that the repeal under
paragraph (4) is necessary to effectuate the addition of section 1232 of
the act.
(4) 25 Pa.C.S. § 1330 is repealed.
(5) The General Assembly declares that the repeal under
paragraph (6) is necessary to effectuate the addition of section 1233 of
the act.
(6) 25 Pa.C.S. § 1602(a)(1) is repealed.
Section 13. The following apply:
(1) This section applies to the amendment or addition of the
following provisions of the act:
(i) Section 102.
(ii) section 1003(a).
(iii) Section 1007(b).
(iv) Section 1107.
(v) Section 1110.
(vi) Section 1107-A.
(vii) Section 1109-A.
(viii) Section 1112-A(a).
(ix) Section 1216(d).
(x) Section 1222(a) and (b).
(xi) Section 1223.
(xii) Section 1231.
(xiii) Section 1232.
(xiv) Section 1233.
(xv) Section 1302.
(xvi) Section 1302.1.
(xvii) Section 1302.2.
(xviii) Section 1305.
(xix) Section 1306.
(xx) Section 1308.
(xxi) Article XIII-D.
(2) The Pennsylvania Supreme Court has exclusive jurisdiction
to hear a challenge to or to render a declaratory judgment concerning
the constitutionality of a provision referred to in paragraph (1). The
Supreme Court may take action it deems appropriate, consistent with
the Supreme Court retaining jurisdiction over the matter, to find facts
or to expedite a final judgment in connection with such a challenge or
request for declaratory relief.

0310a

(3) An action under paragraph (2) must be commenced within
180 days of the effective date of this section.
Section 14. This act shall apply to elections held on or after April
28, 2020.
Section 15. This act shall take effect as follows:
(1) The addition of section 207 of the act shall take effect in 180
days.
(2) The amendment of section 908 of the act shall take effect in
60 days.
(3) The remainder of this act shall take effect immediately.
APPROVED--The 31st day of October, A.D. 2019.
TOM WOLF

0311a

Act of March 27, 2020, P.L. No. 41, No. 12
AN ACT
Amending the act of June 3, 1937 (P.L.1333, No.320), entitled "An act
concerning elections, including general, municipal, special and primary
elections, the nomination of candidates, primary and election expenses
and election contests; creating and defining membership of county
boards of elections; imposing duties upon the Secretary of the
Commonwealth, courts, county boards of elections, county
commissioners; imposing penalties for violation of the act, and
codifying, revising and consolidating the laws relating thereto; and
repealing certain acts and parts of acts relating to elections," in
preliminary provisions, further providing for definitions; in county
boards of elections, further providing for powers and duties of county
boards; in ballots, further providing for forms of ballots, printing
ballots, numbers; in electronic voting systems, further providing for
forms, for election day procedures and the process of voting and for
post election procedures; in preparation for and conduct of primaries
and elections, further providing for manner of applying to vote, persons
entitled to vote, voter's certificates, entries to be made in district
register, numbered lists of voters, challenges and for deadline for
receipt of valid voter registration application; in voting by qualified
absentee electors, further providing for applications for official
absentee ballots, for approval of application for absentee ballot, for
absentee and mail-in electors files and lists, for official absentee voters
ballots, for envelopes for official absentee ballots, for delivering or
mailing ballots, for voting by absentee electors, for canvassing of
official absentee ballots and mail-in ballots and for public records and
repealing provisions relating to violation of provisions relating to
absentee voting; in voting by qualified mail-in electors, further
providing for qualified mail-in electors, for applications for official
mail-in ballots, for approval of application for mail-in ballot, for official
mail-in elector ballots, for envelopes for official mail-in ballots, for
voting by mail-in electors and for public records and repealing
provisions relating to violation of provisions relating to mail-in voting;
providing for Pennsylvania Election Law Advisory Board; in penalties,
further providing for violations of provisions relating to absentee
electors ballots; providing for emergency provisions for 2020 general
primary election; and making a related repeal.
The General Assembly of the Commonwealth of Pennsylvania
hereby enacts as follows:

0312a
Section 1. Section 102(a.1) and (z.6) of the act of June 3, 1937
(P.L.1333, No.320), known as the Pennsylvania Election Code, added
October 31, 2019 (P.L.552, No.77), are amended and the section is
amended by adding a subsection to read:
Section 102. Definitions.--The following words, when used in this
act, shall have the following meanings, unless otherwise clearly
apparent from the context:
***
(a.1) ["Canvass" includes] The word "canvass" shall mean the
gathering [the] of ballots after the [election] final pre-canvass
meeting and the counting, computing and tallying of the votes
reflected on the ballots.
***
(q.1) The word "pre-canvass" shall mean the inspection and
opening of all envelopes containing official absentee ballots or
mail-in ballots, the removal of such ballots from the envelopes
and the counting, computing and tallying of the votes reflected
on the ballots. The term does not include the recording or
publishing of the votes reflected on the ballots.
***
(z.6) The words "qualified mail-in elector" shall mean a qualified
elector [who is not a qualified absentee elector.]. The term does not
include a person specifically prohibited from being a qualified
absentee elector under section 1301.
Section 2. Section 302(p) of the act is amended to read:
Section 302. Powers and Duties of County Boards.--The county
boards of elections, within their respective counties, shall exercise, in
the manner provided by this act, all powers granted to them by this
act, and shall perform all the duties imposed upon them by this act,
which shall include the following:
***
(p) A county board of elections shall not pay compensation to a
judge of elections who wilfully fails to deliver by two o'clock A. M. on
the day following the election envelopes; supplies, including all uncast
provisional ballots; and returns, including all provisional ballots [and
absentee ballots] cast in the election district and statements signed
under sections 1306 and 1302-D.
Section 3. Section 1004 of the act, amended October 31, 2019
(P.L.552, No.77) and November 27, 2019 (P.L.673, No.94), is amended
to read:
Section 1004. Form of Ballots; Printing Ballots[; Numbers].--From
the lists furnished by the Secretary of the Commonwealth under the
provisions of sections 915 and 984, and from petitions and papers filed
in their office, the county election board shall print the official primary

0313a
and election ballots in accordance with the provisions of this act:
Provided, however, That in no event, shall the name of any person
consenting to be a candidate for nomination for any one office, except
the office of judge of a court of common pleas, the Philadelphia
Municipal Court or the office of school director in districts where that
office is elective or the office of justice of the peace be printed as a
candidate for such office upon the official primary ballot of more than
one party. All ballots for use in the same election district at any
primary or election shall be alike. [They shall be at least six inches
long and four inches wide, and shall have a margin extending beyond
any printing thereon. They shall be printed with the same kind of type
(which shall not be smaller than the size known as "brevier" or "eight
point body") upon white paper of uniform quality, without any
impression or mark to distinguish one from another, and with
sufficient thickness to prevent the printed matter from showing
through. All the ballots for the same election district shall be bound
together in books of fifty, in such manner that each ballot may be
detached and removed separately. The ballots for each party to be used
at a primary shall be bound separately.]
Section 4. Sections 1109-A(a)(2), (b) and (e) and 1112-A(b)(2), (3)
and (4) of the act, amended October 31, 2019 (P.L.552, No.77), are
amended to read:
Section 1109-A. Forms.--(a) * * *
(2) The pages placed on the voting device shall be of sufficient
number to include, following the listing of particular candidates, the
names of candidates for any nonpartisan offices and any measures for
which a voter may be qualified to vote on a given election day.[,
provided further that for municipal, general or special elections, the
first ballot page shall list in the order that such political parties are
entitled to priority on the ballot, the names of such political parties.]
***
(b) Ballot labels shall be printed in plain clear type [in black ink],
of such size and arrangement as to fit the construction of the voting
device; and they shall be printed [on clear white material or on
material of different colors to identify different ballots or parts of the
ballot and in primary elections to identify each political party.] in a
manner prescribed by the Secretary of the Commonwealth to
identify different ballots or parts of a ballot and in primary
elections to identify each political party.
***
(e) In primary elections, the Secretary of the Commonwealth shall
[choose a color for each party eligible to have candidates on the ballot
and a separate color for independent voters. The ballot cards or paper
ballots and ballot pages shall be printed on card or paper stock of the

0314a
color of the party of the voter and the appropriate party affiliation or
independent status shall be printed on the ballot card or at the top of
the paper ballot and on the ballot pages.] prescribe a method to
ensure that the elector votes the correct ballot.
***
Section 1112-A. Election Day Procedures and the Process of
Voting.--* * *
(b) In an election district which uses an electronic voting system
which utilizes paper ballots or ballot cards to register the votes, the
following procedures will be applicable for the conduct of the election at
the election district:
***
(2) At primary elections, the voter shall vote for the candidates of
his choice for nomination, according to the number of persons to be
voted for by him, for each office by making a cross (X) or check (✓)
mark or by making a punch or mark sense mark in the square opposite
the name of the candidate or by otherwise indicating a selection
associated with the candidate, or he may so [mark the write-in
position provided on the ballot for the particular office] indicate on
the ballot that the voter is electing to write in the name of a
person for the particular office, and[, in the space provided
therefor on the ballot and/or ballot envelope, write] insert the
identification of the office in question and the name of any person not
already [printed on the ballot for that office] listed as a candidate
for that office, and such [mark] indication and [written] insertion
shall count as a vote for that person for such office.
(3) At all other elections, the voter shall vote for the candidates of
his choice for each office to be filled, according to the number of
persons to be voted for by him for each office, by making a cross (X) or
check (✓) mark or by making a punch or mark sense mark in the
square opposite the name of the candidate, or by otherwise
indicating a selection associated with the candidate, or he may
so [mark the write-in position provided on the ballot for the particular
office] indicate on the ballot that the voter is electing to write in
the name of a person for the particular office, and[, in the space
provided therefor on the ballot and/or ballot envelope, write] insert
the identification of the office in question and the name of any person
not already [printed on the ballot for that office] listed as a
candidate for that office, and such [mark] indication and [written]
insertion shall count as a vote for that person for such office.
(4) If he desires to vote for the entire group of presidential electors
nominated by any party or political body, he may make a cross (X) or
check (✓) or punch or mark sense mark [in the appropriate space
opposite] or otherwise indicate a selection associated with the

0315a
names of the candidates for President and Vice-President of such party
or body. If he desires to vote a ticket for presidential electors made up
of the names of persons nominated by different parties or political
bodies, or partially of names of persons so in nomination and partially
of names of persons not in nomination by any party or political body, or
wholly of names of persons not in nomination by any party or political
body, he shall insert[, by writing or stamping,] the names of the
candidates for presidential electors for whom he desires to vote [in the
blank spaces provided therefor] on the write-in ballot under the title of
the office "Presidential Electors". In case of a question submitted to the
vote of the electors, he may make a cross (X) or check (✓) or punch or
mark sense mark [in the appropriate square opposite] or otherwise
indicate a selection associated with the answer which he desires to
give.
***
Section 5. Section 1113-A(i) of the act is amended to read:
Section 1113-A. Post Election Procedures.--* * *
(i) In the event that district tabulation of votes is not provided for
by the voting system, it shall be the responsibility of the county board
of elections to make available to the public at the central tabulating
center, the election results for each election district. [It shall be the
further duty of the county board of elections to post such results in
each election district no later than 5:00 p.m. of the second day
following the election.]
***
Section 6. Section 1210(a.4)(1) of the act, amended October 31,
2019 (P.L.552, No.77), is amended to read:
Section 1210. Manner of Applying to Vote; Persons Entitled to
Vote; Voter's Certificates; Entries to Be Made in District Register;
Numbered Lists of Voters; Challenges.--* * *
(a.4) (1) At all elections an individual who claims to be properly
registered and eligible to vote at the election district but whose name
does not appear on the district register and whose registration cannot
be determined by the inspectors of election or the county election board
shall be permitted to cast a provisional ballot. Individuals who appear
to vote shall be required to produce proof of identification pursuant to
subsection (a) and if unable to do so shall be permitted to cast a
provisional ballot. An individual presenting a judicial order to vote
shall be permitted to cast a provisional ballot. [An elector who appears
to vote on election day having requested an absentee ballot or mail-in
ballot and who is not shown on the district register as having voted an
absentee ballot or mail-in ballot shall be permitted to cast a provisional
ballot.]
***

0316a
Section 7. Section 1231(c)(2) of the act, added October 31, 2019
(P.L.552, No.77), is amended and the section is amended by adding a
subsection to read:
Section 1231. Deadline for Receipt of Valid Voter Registration
Application.--* * *
(c) * * *
[(2) No applications shall be received as follows:
(i) On Sundays.
(ii) On holidays.
(iii) On the day of the election.
(iv) During the fifteen days next preceding each general,
municipal and primary election except as provided under subsection
(b).]
***
(e) (1) An applicant whose voter registration application is
timely received under subsection (b) or (c) shall be deemed a
registered elector of the county immediately upon acceptance
of the voter registration application by the commission under
25 Pa.C.S. § 1328(c)(1) or (2) (relating to approval of
registration applications), and the commission shall enter the
elector's registration information in the general register, with
the elector's unique identification number entered as his or
her SURE registration number.
(2) Notwithstanding 25 Pa.C.S. § 1328(b)(2), if under
subsection (b) or (c) an applicant timely presents his or her
own application for voter registration under 25 Pa.C.S. § 1322
(relating to in-person voter registration), the commission shall
immediately examine the application pursuant to 25 Pa.C.S. §
1328(a) and shall, while the applicant waits, promptly decide
on said application by either accepting it, rejecting it or
forwarding it pursuant to 25 Pa.C.S. § 1328(b) and, if accepted,
process the application in accordance with 25 Pa.C.S. § 1328(c).
Section 8. Sections 1302(e.1) and (i)(1), 1302.2(c) and (e) and
1302.3(a), amended October 31, 2019 (P.L.552, No.77), are amended to
read:
Section 1302. Applications for Official Absentee Ballots.--* * *
(e.1) Any qualified registered elector who is unable because of
illness or physical disability to attend his polling place on the day of
any primary or election or operate a voting machine and state
distinctly and audibly that he is unable to do so as required by section
1218 of this act may at any time request, with the certification by his
attending physician that he is permanently disabled[,] and physically
unable to attend the polls or operate a voting machine and make the
distinct and audible statement required by section 1218 appended to

0317a
the application hereinbefore required, to be placed on a permanently
disabled absentee ballot list file. An absentee ballot application shall
be mailed to every such person otherwise eligible to receive one, by the
first Monday in February each year, or within forty-eight hours of
receipt of the request, whichever is later, so long as he does not
lose his voting rights by failure to vote as otherwise required by this
act. Such person shall not be required to file a physician's certificate of
disability with each application as required in subsection (e) of this
section. Should any such person lose his disability he shall inform the
county board of elections of the county of his residence. An absentee
ballot application mailed to [a voter] an elector under this section,
which is completed and timely returned by the [voter] elector, shall
serve as an application for any and all primary, general or special
elections to be held in the remainder of that calendar year and for all
special elections to be held before the third Monday in February of the
succeeding year. The transfer of a qualified registered elector on
a permanently disabled absentee ballot list from one county to
another county shall only be permitted upon the request of the
qualified registered elector.
***
(i) (1) Application for official absentee ballots shall be on physical
and electronic forms prescribed by the Secretary of the
Commonwealth. The application shall state that an elector who
[receives and votes] applies for an absentee ballot pursuant to section
1301 shall not be eligible to vote at a polling place on election day[.]
unless the elector brings the elector's absentee ballot to the
elector's polling place, remits the ballot and the envelope
containing the declaration of the elector to the judge of
elections to be spoiled and signs a statement subject to the
penalties of 18 Pa.C.S. § 4904 (relating to unsworn falsification
to authorities) to the same effect. Such physical application forms
shall be made freely available to the public at county board of
elections, municipal buildings and at such other locations designated
by the secretary. Such electronic application forms shall be made freely
available to the public through publicly accessible means. No written
application or personal request shall be necessary to receive or access
the application forms. Copies and records of all completed physical and
electronic applications for official absentee ballots shall be retained by
the county board of elections.
***
Section 1302.2. Approval of Application for Absentee Ballot.-***
(c) The county board of elections, upon receipt of any application of
a qualified elector required to be registered under the provisions of

0318a
preceding section 1301, shall determine the qualifications of such
applicant by verifying the proof of identification and comparing the
information set forth on such application with the information
contained on the applicant's permanent registration card. If the board
is satisfied that the applicant is qualified to receive an official absentee
ballot, the application shall be marked "approved." Such approval
decision shall be final and binding, except that challenges may be
made only on the ground that the applicant [did not possess the
qualifications of an absentee] was not a qualified elector. Such
challenges must be made to the county board of elections prior to [the
applicable deadline for the absentee ballots to be received, as provided
in section 1308(g). When so approved, the registration commission
shall cause an absentee voter's temporary registration card to be
inserted in the district register on top of and along with the permanent
registration card. The absentee voter's temporary registration card
shall be in the color and form prescribed in subsection (e) of this
section:
Provided, however, That the duties of the county boards of
elections and the registration commissions with respect to the
insertion of the absentee voter's temporary registration card of any
elector from the district register as set forth in section 1302.2 shall
include only such applications and emergency applications as are
received on or before the first Tuesday prior to the primary or election.
In all cases where applications are received after the first Tuesday
prior to the primary or election and before eight o'clock P.M. on the day
of the primary or election, the county board of elections shall
determine the qualifications of such applicant by verifying the proof of
identification and comparing the information set forth on such
application with the information contained on the applicant's duplicate
registration card on file in the General Register (also referred to as the
Master File) in the office of the Registration Commission and shall
cause the name and residence (and at primaries, the party enrollment)
to be inserted in the Military, Veterans and Emergency Civilian
Absentee Voters File as provided in section 1302.3, subsection (b).] five
o'clock p.m. on the Friday prior to the election: Provided,
however, That a challenge to an application for an absentee
ballot shall not be permitted on the grounds that the elector
used an application for an absentee ballot instead of an
application for a mail-in ballot or on the grounds that the
elector used an application for a mail-in ballot instead of an
application for an absentee ballot.
***
[(e) The absentee voter's temporary registration card shall be in
duplicate and the same size as the permanent registration card, in a

0319a
different and contrasting color to the permanent registration card and
shall contain the absentee voter's name and address and shall
conspicuously contain the words "Absentee Voter."]
***
Section 1302.3. Absentee and Mail-in Electors Files and Lists.-[(a) The county board of elections shall maintain at its office a file
containing the duplicate absentee voter's temporary registration cards
of every registered elector to whom an absentee ballot has been sent.
Such duplicate absentee voter's temporary registration cards shall be
filed by election districts and within each election district in exact
alphabetical order and indexed. The registration cards and the
registration cards under section 1302.3-D so filed shall constitute the
Registered Absentee and Mail-in Voters File for the Primary or
Election of (date of primary or election) and shall be kept on file for a
period commencing the Tuesday prior to the day of the primary or
election until the day following the primary or election or the day the
county board of elections certifies the returns of the primary or
election, whichever date is later. Such file shall be open to public
inspection at all times subject to reasonable safeguards, rules and
regulations.]
***
Section 9. Section 1303(a) and (e), amended October 31, 2019
(P.L.552, No.77) and November 27, 2019 (P.L.673, No.94), are amended
to read:
Section 1303. Official Absentee Voters Ballots.--(a) In districts in
which ballots are used, the ballots for use by such absentee electors
under the provisions of this act shall be the official ballots printed in
accordance with sections 1002 and 1003: Provided, however, That the
county board of elections when [detaching] preparing the official
ballots for absentee electors shall be required to track the name of the
applicant to which a ballot is being sent. The county board of elections
shall also be required to print, stamp or endorse [in red color] upon
such official ballots the words, Official Absentee Ballot. Such ballots
shall be distributed by such boards as hereinafter provided.
***
(e) The official absentee voter ballot shall state that [a voter] an
elector who receives an absentee ballot pursuant to section 1301 and
whose voted ballot is not timely received by the commission and
who, on election day, is capable of voting at the appropriate polling
place may only vote on election day by provisional ballot[.] unless the
elector brings the elector's absentee ballot to the elector's
polling place, remits the ballot and the envelope containing the
declaration of the elector to the judge of elections to be spoiled
and signs a statement subject to the penalties under 18 Pa.C.S.

0320a
§ 4904 (relating to unsworn falsification to authorities) to the
same effect.
Section 10. Section 1304 of the act is amended to read:
Section 1304. Envelopes for Official Absentee Ballots.-The county boards of election shall provide two additional
envelopes for each official absentee ballot of such size and shape as
shall be prescribed by the Secretary of the Commonwealth, in order to
permit the placing of one within the other and both within the mailing
envelope. On the smaller of the two envelopes to be enclosed in the
mailing envelope shall be printed, stamped or endorsed the words
"Official [Absentee] Election Ballot," and nothing else. On the larger
of the two envelopes, to be enclosed within the mailing envelope, shall
be printed the form of the declaration of the elector, and the name and
address of the county board of election of the proper county. The larger
envelope shall also contain information indicating the local election
district of the absentee voter. Said form of declaration and envelope
shall be as prescribed by the Secretary of the Commonwealth and shall
contain among other things a statement of the electors qualifications,
together with a statement that such elector has not already voted in
such primary or election. The mailing envelope addressed to the elector
shall contain the two envelopes, the official absentee ballot, lists of
candidates, when authorized by section 1303 subsection (b) of this act,
the uniform instructions in form and substance as prescribed by the
Secretary of the Commonwealth and nothing else.[: Provided, however,
That envelopes for electors qualified under preceding section 1301,
subsections (a) to (h), inclusive, shall have printed across the face of
each transmittal or return envelope two parallel horizontal red bars,
each one-quarter inch wide, extending from one side of the envelope to
the other side, with an intervening space of one-quarter inch, the top
bar to be one and one-quarter inches from the top of the envelope and
with the words "Official Election Balloting Material via Air Mail"
between the bars; that there be printed, in the upper right corner of
each such envelope in a box, the words "Free of U. S. Postage,
Including Air Mail;" that all printing on the face of each such envelope
be in red, and that there be printed in red, in the upper left corner of
each such envelope, the name and address of the county board of
elections of the proper county or blank lines for return address of the
sender:
Provided further, That the aforesaid envelope addressed to the
elector may contain absentee registration forms where required, and
shall contain detailed instructions on the procedures to be observed in
casting an absentee ballot as prescribed by the Secretary of the
Commonwealth, together with return envelope upon which is printed
the name and address of the registration commission of the proper

0321a
county, which envelope shall have printed across the face two parallel
horizontal red bars, each one-quarter inch wide, extending from one
side of the envelope to the other side, with an intervening space of onequarter inch, the top bar to be one and one-quarter inches from the top
of the envelope and with the words "Official Election Balloting
Material via Air Mail" between the bars; that there be printed in the
upper right corner of each such envelope in a box the words "Free of U.
S. Postage, Including Air Mail," and, in the upper left corner of each
such envelope, blank lines for return address of the sender; that all
printing on the face of each such envelope be in red.]
Section 11. Sections 1306(a) introductory paragraph and (b),
1308(g) and 1309(c) of the act, amended or added October 31, 2019
(P.L.552, No.77), are amended to read:
Section 1306. Voting by Absentee Electors.--(a) Except as
provided in paragraphs (2) and (3), at any time after receiving an
official absentee ballot, but on or before eight o'clock P.M. the day of
the primary or election, the elector shall, in secret, proceed to mark the
ballot only in black lead pencil, indelible pencil or blue, black or blueblack ink, in fountain pen or ball point pen, and then fold the ballot,
enclose and securely seal the same in the envelope on which is printed,
stamped or endorsed "Official [Absentee] Election Ballot." This
envelope shall then be placed in the second one, on which is printed the
form of declaration of the elector, and the address of the elector's
county board of election and the local election district of the elector.
The elector shall then fill out, date and sign the declaration printed on
such envelope. Such envelope shall then be securely sealed and the
elector shall send same by mail, postage prepaid, except where
franked, or deliver it in person to said county board of election.
***
(b) (1) Any elector who receives and votes an absentee ballot
pursuant to section 1301 shall not be eligible to vote at a polling place
on election day. The district register at each polling place shall clearly
identify electors who have received and voted absentee ballots as
ineligible to vote at the polling place, and district election officers shall
not permit electors who voted an absentee ballot to vote at the polling
place.
(2) An elector who requests an absentee ballot and who is not
shown on the district register as having voted the ballot may vote by
provisional ballot under section 1210(a.4)(1).
(3) Notwithstanding paragraph (2), an elector who requests
an absentee ballot and who is not shown on the district
register as having voted the ballot may vote at the polling
place if the elector remits the ballot and the envelope
containing the declaration of the elector to the judge of

0322a
elections to be spoiled and the elector signs a statement subject
to the penalties under 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities) in substantially the following form:
I hereby declare that I am a qualified registered elector who
has obtained an absentee ballot or mail-in ballot. I further
declare that I have not cast my absentee ballot or mail-in
ballot, and that instead I remitted my absentee ballot or mailin ballot and the envelope containing the declaration of the
elector to the judge of elections at my polling place to be
spoiled and therefore request that my absentee ballot or mailin ballot be voided.
(Date)
(Signature of Elector)................(Address of Elector)
(Local Judge of Elections)
***
Section 1308. Canvassing of Official Absentee Ballots and Mail-in
Ballots.--* * *
(g) (1) (i) An absentee ballot cast by any absentee elector as
defined in section 1301(a), (b), (c), (d), (e), (f), (g) and (h) shall be
canvassed in accordance with this subsection if the ballot is cast,
submitted and received in accordance with the provisions of 25 Pa.C.S.
Ch. 35 (relating to uniform military and overseas voters).
(ii) An absentee ballot cast by any absentee elector as defined in
section 1301(i), (j), (k), (l), (m) and (n), an absentee ballot under section
1302(a.3) or a mail-in ballot cast by a mail-in elector shall be
canvassed in accordance with this subsection if the absentee ballot or
mail-in ballot is received in the office of the county board of elections
no later than eight o'clock P.M. on the day of the primary or election.
(1.1) The county board of elections shall meet no earlier
than seven o'clock A.M. on election day to pre-canvass all
ballots received prior to the meeting. A county board of
elections shall provide at least forty-eight hours' notice of a
pre-canvass meeting by publicly posting a notice of a precanvass meeting on its publicly accessible Internet website.
One authorized representative of each candidate in an election
and one representative from each political party shall be
permitted to remain in the room in which the absentee ballots
and mail-in ballots are pre-canvassed. No person observing,
attending or participating in a pre-canvass meeting may
disclose the results of any portion of any pre-canvass meeting
prior to the close of the polls.
(2) The county board of elections shall meet no earlier than the
close of polls on the day of the election and no later than the third day
following the election to begin canvassing [the] absentee ballots and

0323a
mail-in ballots [received under this subsection and subsection
(h)(2).]not included in the pre-canvass meeting. The meeting
under this paragraph shall continue until all absentee ballots
and mail-in ballots received prior to the close of the polls have
been canvassed. The county board of elections shall not record
or publish any votes reflected on the ballots prior to the close
of the polls. The canvass process shall continue through the eighth
day following the election[.] for valid military-overseas ballots
timely received under 25 Pa.C.S. § 3511 (relating to receipt of
voted ballot). A county board of elections shall provide at least
forty-eight hours' notice of a canvass meeting by publicly
posting a notice on its publicly accessible Internet website. One
authorized representative of each candidate in an election and one
representative from each political party shall be permitted to remain
in the room in which the absentee ballots and mail-in ballots are
canvassed. [Representatives shall be permitted to challenge any
absentee elector or mail-in elector in accordance with the provisions of
paragraph (3).]
(3) When the county board meets to pre-canvass or canvass
absentee ballots and mail-in ballots under [paragraph] paragraphs
(1), (1.1) and (2), the board shall examine the declaration on the
envelope of each ballot not set aside under subsection (d) and shall
compare the information thereon with that contained in the
"Registered Absentee and Mail-in Voters File," the absentee voters' list
and/or the "Military Veterans and Emergency Civilians Absentee
Voters File," whichever is applicable. If the county board has verified
the proof of identification as required under this act and is satisfied
that the declaration is sufficient and the information contained in the
"Registered Absentee and Mail-in Voters File," the absentee voters' list
and/or the "Military Veterans and Emergency Civilians Absentee
Voters File" verifies his right to vote, the county board shall [announce
the name of the elector and shall give any candidate representative or
party representative present an opportunity to challenge any absentee
elector or mail-in elector upon the ground or grounds: (i) that the
absentee elector or mail-in elector is not a qualified elector; or (iii) that
the absentee elector was able to appear personally at the polling place
on the day of the primary or election during the period the polls were
open in the case his ballot was obtained for the reason that he was
unable to appear personally at the polling place because of illness or
physical disability. Upon challenge of any absentee elector, as set forth
herein, the board shall mark "challenged" on the envelope together
with the reasons therefor, and the same shall be set aside unopened
pending final determination of the challenge according to the
procedure described in paragraph (5).] provide a list of the names of

0324a
electors whose absentee ballots or mail-in ballots are to be precanvassed or canvassed.
(4) All absentee ballots [and mail-in ballots not challenged for any
of the reasons provided in] which have not been challenged under
section 1302.2(c) and all mail-in ballots which have not been
challenged under section 1302.2-D(a)(2) and that have been
verified under paragraph (3) shall be counted and included with the
returns of the applicable election district as follows:
(i) The county board shall open the envelope of every unchallenged
absentee elector and mail-in elector in such manner as not to destroy
the declaration executed thereon.
(ii) If any of the envelopes on which are printed, stamped or
endorsed the words "Official [Absentee] Election Ballot" [or "Official
Mail-in Ballot"] contain any [extraneous marks or identifying symbols,]
text, mark or symbol which reveals the identity of the elector,
the elector's political affiliation or the elector's candidate
preference, the envelopes and the ballots contained therein shall be
set aside and declared void.
(iii) The county board shall then break the seals of such envelopes,
remove the ballots and [record the votes.] count, compute and tally
the votes.
(iv) Following the close of the polls, the county board shall
record and publish the votes reflected on the ballots.
(5) [With respect to the challenged ballots, they] Ballots received
whose applications have been challenged and ballots which
have been challenged shall be placed unopened in a secure, safe and
sealed container in the custody of the county board until it shall fix a
time and place for a formal hearing of all such challenges, and notice
shall be given where possible to all absentee electors and mail-in
electors thus challenged and to every individual who made a challenge.
The time for the hearing shall not be later than [five (5)] seven (7)
days after the [date of the challenge] deadline for all challenges to
be filed. On the day fixed for said hearing, the county board shall
proceed without delay to hear said challenges, and, in hearing the
testimony, the county board shall not be bound by the Pennsylvania
Rules of Evidence. The testimony presented shall be stenographically
recorded and made part of the record of the hearing.
(6) The decision of the county board in upholding or dismissing
any challenge may be reviewed by the court of common pleas of the
county upon a petition filed by any person aggrieved by the decision of
the county board. The appeal shall be taken, within two (2) days after
the decision was made, whether the decision was reduced to writing or
not, to the court of common pleas setting forth the objections to the
county board's decision and praying for an order reversing the decision.

0325a
(7) Pending the final determination of all appeals, the county
board shall suspend any action in canvassing and computing all
challenged ballots received under this subsection irrespective of
whether or not appeal was taken from the county board's decision.
Upon completion of the computation of the returns of the county, the
votes cast upon the challenged official absentee ballots that have been
finally determined to be valid shall be added to the other votes cast
within the county.
***
Section 1309. Public Records.--* * *
(c) The county board shall compile the records listed under
subsection (b) and make the records publicly available upon request
within forty-eight hours of the request.
Section 12. Section 1331 of the act is repealed:
[Section 1331. Violation of Provisions Relating to Absentee
Voting.--(a) Except as provided in subsection (b), any person who shall
violate any of the provisions of this act relating to absentee voting
shall, unless otherwise provided, be subject to the penalties provided
for in section 1850 of this act.
(b) Any person who knowingly assists another person who is not a
qualified absentee elector in filling out an absentee ballot application
or absentee ballot commits a misdemeanor of the third degree.]
Section 12.1. Sections 1301-D(a), 1302-D(f) and (g), 1302.2-D(a)(2),
(3), (4) and (5), (b) and (d) and 1302.3-D of the act, added October 31,
2019 (P.L.552, No.77), are amended to read:
Section 1301-D. Qualified mail-in electors.
(a) General rule.--[The following individuals] A qualified mail-in
elector shall be entitled to vote by an official mail-in ballot in any
primary or election held in this Commonwealth in the manner
provided under this article.[:
(1) Any qualified elector who is not eligible to be a qualified
absentee elector under Article XIII.
(2) (Reserved).]
***
Section 1302-D. Applications for official mail-in ballots.
***
(f) Form.--Application for an official mail-in ballot shall be on
physical and electronic forms prescribed by the Secretary of the
Commonwealth. The application shall state that a voter who [receives
and votes] applies for a mail-in ballot under section 1301-D shall not
be eligible to vote at a polling place on election day[.] unless the
elector brings the elector's mail-in ballot to the elector's polling
place, remits the ballot and the envelope containing the
declaration of the elector to the judge of elections to be spoiled

0326a
and signs a statement subject to the penalties under 18 Pa.C.S.
§ 4904 (relating to unsworn falsification to authorities) to the
same effect. The physical application forms shall be made freely
available to the public at county board of elections, municipal buildings
and at other locations designated by the Secretary of the
Commonwealth. The electronic application forms shall be made freely
available to the public through publicly accessible means. No written
application or personal request shall be necessary to receive or access
the application forms. Copies and records of all completed physical and
electronic applications for official mail-in ballots shall be retained by
the county board of elections.
(g) Permanent mail-in voting list.-(1) Any qualified registered elector may request to be placed on a
permanent mail-in ballot list file at any time during the calendar
year. A mail-in ballot application shall be mailed to every person
otherwise eligible to receive a mail-in ballot application by the first
Monday in February each year or within 48 hours of receipt of the
request, whichever is later, so long as the person does not lose the
person's voting rights by failure to vote as otherwise required by this
act. A mail-in ballot application mailed to [a voter] an elector under
this section, which is completed and timely returned by the [voter]
elector, shall serve as an application for any and all primary, general
or special elections to be held in the remainder of that calendar year
and for all special elections to be held before the third Monday in
February of the succeeding year.
(2) The Secretary of the Commonwealth may develop an
electronic system through which all qualified electors may apply for a
mail-in ballot and request permanent mail-in voter status under this
section, provided the system is able to capture a digitized or electronic
signature of the applicant. A county board of elections shall treat an
application or request received through the electronic system as if the
application or request had been submitted on a paper form or any
other format used by the county.
(3) The transfer of a qualified registered elector on a
permanent mail-in voting list from one county to another
county shall only be permitted upon the request of the
qualified registered elector.
Section 1302.2-D. Approval of application for mail-in ballot.
(a) Approval process.--The county board of elections, upon receipt
of any application of a qualified elector under section 1301-D, shall
determine the qualifications of the applicant by verifying the proof of
identification and comparing the information provided on the
application with the information contained on the applicant's
permanent registration card. The following shall apply:

0327a
***
(2) The approval decision shall be final and binding, except that
challenges may be made only on the grounds that the applicant [did
not possess the qualifications of a mail-in] was not a qualified
elector.
(3) Challenges must be made to the county board of elections
prior to [the applicable deadline for the mail-in ballots to be received,
as provided in section 1308(g).] five o'clock p.m. on the Friday
prior to the election: Provided, however, That a challenge to an
application for a mail-in ballot shall not be permitted on the
grounds that the elector used an application for a mail-in
ballot instead of an application for an absentee ballot or on the
grounds that the elector used an application for an absentee
ballot instead of an application for a mail-in ballot.
(4) When approved, the registration commission shall cause a
mail-in voter's [temporary registration card] record to be inserted in
the district register [on top of and along with the permanent
registration card] as prescribed by the Secretary of the
Commonwealth.
[(5) The mail-in voter's temporary registration card shall be in
the color and form prescribed under subsection (d).]
(b) Duties of county boards of elections and registration
commissions.--The duties of the county boards of elections and the
registration commissions with respect to the insertion of the mail-in
voter's [temporary registration card of any elector from the district
register as provided under this section] record shall include only the
applications as are received on or before the first Tuesday prior to the
primary or election.
***
[(d) Temporary registration card.--The mail-in voter's temporary
registration card shall be in duplicate and the same size as the
permanent registration card, in a different and contrasting color to the
permanent registration card and shall contain the mail-in voter's name
and address and shall conspicuously contain the words "Mail-in
Voter."]
[Section 1302.3-D. Mail-in electors files and lists.
The county board of elections shall maintain at its office a file
containing the duplicate mail-in voter's temporary registration cards of
every registered elector to whom a mail-in ballot has been sent. The
duplicate mail-in voter's temporary registration cards shall be filed by
election districts and within each election district in exact alphabetical
order and indexed. The registration cards filed shall be included in the
Registered Absentee and Mail-in Voters File for the Primary or
Election of (date of primary or election) under section 1302.3(a).]

0328a
Section 13. Section 1303-D(a.1) and (e), amended or added October
31, 2019 (P.L.552, No.77) and November 27, 2019 (P.L.673, No.94), are
amended to read:
Section 1303-D. Official mail-in elector ballots.
***
(a.1) Duties of county boards of elections.--The county board of
elections, when [detaching] preparing the official ballots for mail-in
voters, shall be required to indicate on [the stub of each detached ballot
the name of the applicant to which that precise ballot is being sent.]
the voter's record the identification number of specific ballot
envelope into which the voter's ballot is inserted. The county
board of elections shall also [remove the numbered stub from each
ballot and shall] print, stamp or endorse [in red color] on the official
ballots the words, "Official Mail-in Ballot." The ballots shall be
distributed by a board as provided under this section.
***
(e) Notice.--The official mail-in voter ballot shall state that a voter
who receives a mail-in ballot under section 1301-D and whose voted
mail-in ballot is not timely received may only vote on election day by
provisional ballot[.] unless the elector brings the elector's mail-in
ballot to the elector's polling place, remits the ballot and the
envelope containing the declaration of the elector to the judge
of elections to be spoiled and signs a statement subject to the
penalties of 18 Pa.C.S. § 4904 (relating to unsworn falsification
to authorities) to the same effect.
Section 14. Sections 1304-D(a), 1305-D, 1306-D(a) and (b) and
1307-D(c) of the act, added October 31, 2019 (P.L.552, No.77), are
amended to read:
Section 1304-D. Envelopes for official mail-in ballots.
(a) Additional envelopes.--The county boards of election shall
provide two additional envelopes for each official mail-in ballot of a size
and shape as shall be prescribed by the Secretary of the
Commonwealth, in order to permit the placing of one within the other
and both within the mailing envelope. On the smaller of the two
envelopes to be enclosed in the mailing envelope shall be printed,
stamped or endorsed the words "Official [Mail-in] Election Ballot,"
and nothing else. On the larger of the two envelopes, to be enclosed
within the mailing envelope, shall be printed the form of the
declaration of the elector and the name and address of the county
board of election of the proper county. The larger envelope shall also
contain information indicating the local election district of the mail-in
voter.
***
Section 1305-D. Delivering or mailing ballots.

0329a
The county board of elections, upon receipt and approval of an
application filed by a qualified elector under section 1301-D, shall
commence to deliver or mail official mail-in ballots as soon as a ballot
is certified and the ballots are available. While any proceeding is
pending in a Federal or State court which would affect the contents of
any ballot, the county board of elections may await a resolution of that
proceeding but in any event, shall commence to deliver or mail official
[absentee] mail-in ballots not later than the second Tuesday prior to
the primary or election. For applicants whose proof of identification
was not provided with the application or could not be verified by the
board, the board shall send the notice required under section 1302.2D(c) with the mail-in ballot. As additional applications are received
and approved, the board shall deliver or mail official mail-in ballots to
the additional electors within 48 hours.
Section 1306-D. Voting by mail-in electors.
(a) General rule.--At any time after receiving an official mail-in
ballot, but on or before eight o'clock P.M. the day of the primary or
election, the mail-in elector shall, in secret, proceed to mark the ballot
only in black lead pencil, indelible pencil or blue, black or blue-black
ink, in fountain pen or ball point pen, and then fold the ballot, enclose
and securely seal the same in the envelope on which is printed,
stamped or endorsed "Official [Mail-in] Election Ballot." This
envelope shall then be placed in the second one, on which is printed the
form of declaration of the elector, and the address of the elector's
county board of election and the local election district of the elector.
The elector shall then fill out, date and sign the declaration printed on
such envelope. Such envelope shall then be securely sealed and the
elector shall send same by mail, postage prepaid, except where
franked, or deliver it in person to said county board of election.
***
(b) Eligibility.-(1) Any elector who receives and votes a mail-in ballot under
section 1301-D shall not be eligible to vote at a polling place on election
day. The district register at each polling place shall clearly identify
electors who have received and voted mail-in ballots as ineligible to
vote at the polling place, and district election officers shall not permit
electors who voted a mail-in ballot to vote at the polling place.
(2) An elector who requests a mail-in ballot and who is not shown
on the district register as having voted may vote by provisional ballot
under section 1210(a.4)(1).
(3) Notwithstanding paragraph (2), an elector who
requests a mail-in ballot and who is not shown on the district
register as having voted the ballot may vote at the polling
place if the elector remits the ballot and the envelope

0330a
containing the declaration of the elector to the judge of
elections to be spoiled and the elector signs a statement subject
to the penalties of 18 Pa.C.S. § 4904 (relating to unsworn
falsification to authorities) which shall be in substantially the
following form:
I hereby declare that I am a qualified registered elector
who has obtained an absentee ballot or mail-in ballot. I further
declare that I have not cast my absentee ballot or mail-in
ballot, and that instead I remitted my absentee ballot or mailin ballot to the judge of elections at my polling place to be
spoiled and therefore request that my absentee ballot or mailin ballot be voided.
(Date)
(Signature of Elector)(Address of Elector)
(Local Judge of Elections)
***
Section 1307-D. Public records.
***
(c) Compilation.--The county board shall compile the records listed
under subsection (b) and make the records publicly available upon
request within 48 hours of the request.
Section 14.1. Section 1308-D of the act is repealed:
[Section 1308-D. Violation of provisions relating to mail-in voting.
(a) Penalties.--Except as provided under subsection (b), a person
who violates any of the provisions of this act relating to mail-in voting
shall, unless otherwise provided, be subject to the penalties provided
under section 1850.
(b) Persons not qualified as mail-in voters.--A person who
knowingly assists another person who is not a qualified mail-in voter
in filling out a mail-in ballot application or mail-in ballot commits a
misdemeanor of the third degree.]
Section 15. The act is amended by adding an article to read:
ARTICLE XIII-E
PENNSYLVANIA ELECTION LAW ADVISORY BOARD
Section 1301-E. Definitions.
The following words and phrases when used in this article
shall have the meanings given to them in this section unless
the context clearly indicates otherwise:
"Board." The Pennsylvania Election Law Advisory Board
established under section 1302-E(a).
Section 1302-E. Pennsylvania Election Law Advisory Board.
(a) Establishment.--The Pennsylvania Election Law
Advisory Board is established within the Joint State
Government Commission.

0331a

(b) Members.--The board shall be comprised of the
following members:
(1) The Secretary of the Commonwealth or a designee.
(2) The President pro tempore of the Senate or a designee.
(3) The Minority Leader of the Senate or a designee.
(4) The Speaker of the House of Representatives or a
designee.
(5) The Minority Leader of the House of Representatives
or a designee.
(6) One member from each congressional district, of
whom no more than half may be registered with the same
political party, appointed by the Governor and confirmed by
the Senate and which shall include members who:
(i) represent groups advocating for individuals with
disabilities;
(ii) represent groups advocating for voting rights; and
(iii) represent county commissioners or county election
officials.
(c) Duties.--The board shall have the following duties:
(1) Study this act and identify statutory language to
repeal, modify or update.
(2) Collaborate with other agencies and political
subdivisions of the Commonwealth to study election-related
issues.
(3) Study the development of new election technology and
voting machines.
(4) Evaluate and make recommendations on:
(i) improving the electoral process in this Commonwealth
by amending this act or through regulations promulgated by
the Department of State; and
(ii) implementing best practices identified to ensure the
integrity and efficiency of the electoral process in this
Commonwealth.
(5) By the end of each fiscal year, publish extensive and
detailed findings on the Joint State Government Commission's
publicly accessible Internet website and make them available
in electronic format to the Office of the Governor and members
of the General Assembly.
(d) Quorum.--A majority of appointed members shall
constitute a quorum for the purpose of conducting business.
(e) Chairperson and vice chairperson.--The members shall
select a member to be chairperson and another member to be
vice chairperson.

0332a
(f) Transparency and ethics.--The board shall be subject to
the following laws:
(1) The act of July 19, 1957 (P.L.1017, No.451), known as
the State Adverse Interest Act.
(2) The act of October 4, 1978 (P.L.883, No.170), referred to
as the Public Official and Employee Ethics Law.
(3) The act of February 14, 2008 (P.L.6, No.3), known as the
Right-to-Know Law.
(4) 65 Pa.C.S. Ch. 7 (relating to open meetings).
(g) Information gathering.--The board may conduct
hearings and otherwise gather relevant information and
analysis that it considers appropriate and necessary to fulfill
its duties.
(h) Reimbursement.--Members of the board shall be
reimbursed for reasonable expenses.
Section 15.1. Section 1853 of the act is amended to read:
Section 1853. Violations of Provisions Relating to Absentee
[Electors] and Mail-in Ballots.--If any person shall sign an application
for absentee ballot, mail-in ballot or declaration of elector on the
forms prescribed knowing any matter declared therein to be false, or
shall vote any ballot other than one properly issued to [him] the
person, or vote or attempt to vote more than once in any election for
which an absentee ballot or mail-in ballot shall have been issued to
[him] the person, or shall violate any other provisions of Article XIII
or Article XIII-D of this act, [he] the person shall be guilty of a
misdemeanor of the [first] third degree, and, upon conviction, shall be
sentenced to pay a fine not exceeding [ten thousand dollars ($10,000)]
two thousand five hundred dollars ($2,500), or be imprisoned for a
term not exceeding [five (5)] two (2) years, or both, at the discretion of
the court.
If any chief clerk or member of a board of elections, member of a
return board or member of a board of registration commissioners, shall
neglect or refuse to perform any of the duties prescribed by Article XIII
or Article XIII-D of this act, or shall reveal or divulge any of the
details of any ballot cast in accordance with the provisions of Article
XIII or Article XIII-D of this act, or shall count an absentee ballot or
mail-in ballot knowing the same to be contrary to Article XIII or
Article XIII-D, or shall reject an absentee ballot or mail-in ballot
without reason to believe that the same is contrary to Article XIII or
Article XIII-D, or shall permit an elector to cast [his] the elector's
ballot at a polling place knowing that there has been issued to the
elector an absentee ballot, [he] the elector shall be guilty of a felony of
the third degree, and, upon conviction, shall be punished by a fine not
exceeding fifteen thousand dollars ($15,000), or be imprisoned for a

0333a

term not exceeding seven (7) years, or both, at the discretion of the
court.
Section 16. The act is amended by adding an article to read:
ARTICLE XVIII-B
EMERGENCY PROVISIONS FOR 2020 GENERAL PRIMARY
ELECTION
Section 1801-B. Election officers.
(a) Requirement.-(1) Except as provided under paragraph (2), and
notwithstanding section 402 or any other law of this
Commonwealth, an election officer must be a qualified
registered elector of the county in which the polling place is
located.
(2) An election officer shall not be required to be a
qualified registered elector in the election district in which the
election officer is appointed.
(b) (Reserved).
Section 1802-B. Polling place.
(a) Consolidation of polling places.-(1) A county board of elections may, not less than 20 days
prior to the election, select and designate as the polling place
for an election district any public or private building situated
in another election district within the county, notwithstanding
if the building is located in an election district which is not
immediately adjacent to the boundary of the election district
for which the building is to be a polling place.
(2) A polling place may be selected and designated under
this subsection without the approval of a court.
(3) Two or more polling places may be consolidated,
except that the consolidation of polling places may not result
in more than a 60% reduction of polling place locations in the
county, except for necessitous circumstances and as approved
by the Department of State. Two or more polling places may be
located in the same building.
(4) A polling place selected and designated under this
subsection must be directly accessible by a public street or
thoroughfare.
(b) Posting.--A county board of elections shall, not less than
15 days prior to the election under section 1804-B, post in a
conspicuous place at the office of the county board of elections,
a list of each place at which the election is to be held in each
election district of the county. The list shall be available for
public inspection at the office of the county board of elections

0334a
and posted on the county's publicly accessible Internet
website.
Section 1803-B. Permissible polling place locations.
(a) Service.--Subject to subsection (b) and notwithstanding
section 529(a) and (b) or any other law of this Commonwealth,
malt or brewed beverages and liquors may be served in a
building where a polling place is located during the hours that
the polling place is open, except that an election may not be
held in a room where malt or brewed beverages or liquors are
dispensed.
(b) Accessibility.--A polling place under subsection (a) must
be accessible from an outside entrance that does not require
passageway through the room where malt or brewed beverages
or liquors are dispensed.
Section 1804-B. General primary election.
(a) Time.--Notwithstanding section 603 or any law of this
Commonwealth, the general primary election shall occur
throughout this Commonwealth on June 2, 2020.
(b) Calculation.--The following shall apply:
(1) Except for the deadline relating to the nomination of a
candidate under Article IX, any date or deadline in this act, 25
Pa.C.S. Pt. IV (relating to voter registration) or 25 Pa.C.S. Ch.
35 (relating to uniform military and overseas voters) that
depends on, or is contingent on, the date of the general
primary election, shall be calculated based on the June 2, 2020,
date for the general primary election.
(2) Notwithstanding subsection (a), the due date for the
sixth Tuesday pre-primary cycle 1 campaign finance report
shall be March 17, 2020.
(c) Nonapplicability.--This section shall not be construed to
apply to the nominating petition process.
(d) Ballots.--A ballot for the general primary 2020 which
has been purchased, printed or acquired prior to the effective
date of this section and shows an election date of April 28, 2020,
shall not be deemed to be invalid because of the date.
Section 1805-B. Expiration.
This article shall expire on July 3, 2020.
Section 17. This act shall apply as follows:
(1) The amendment or addition of the following shall apply to
elections occurring on or after June 2, 2020:
(i) Section 102(a.1), (q.1) and (z.6).
(ii) Section 1302.2(c).
(iii) Section 1308(g).
(iv) Section 1301-D(a).

0335a

(v) Section 1302.2-D(a).
(2) The amendment or addition of the following shall apply to
elections occurring on or after November 2, 2020:
(i) Section 302(p).
(ii) Section 1302(i)(1).
(iii) Section 1303(e).
(iv) Section 1306(b).
(v) Section 1302-D(f).
(vi) Section 1303-D(e).
(vii) Section 1306-D(b).
(3) The amendment or addition of the following shall apply to
envelopes and ballots purchased, printed or acquired after the effective
date of this section:
(i) Section 1004.
(ii) Section 1109-A(b) and (e).
(iii) Section 1112-A(b)(2),(3) and (4).
(iv) Section 1303(a).
(v) Section 1304.
(vi) Section 1306(a) introductory paragraph.
(vii) Section 1303-D(a.1).
(viii) Section 1304-D(a).
(ix) Section 1306-D(a).
Section 18. Repeals are as follows:
(1) The General Assembly declares that the repeal under
paragraph (2) is necessary to effectuate the amendment or addition of
section 1231(c)(2) and (e).
(2) 25 Pa.C.S. § 1328(c)(4) and (5) are repealed.
Section 19. This act shall take effect immediately.
APPROVED--The 27th day of March, A.D. 2020.
TOM WOLF

0336a

25 Pa. Stat. §(z.6)
The following words, when used in this act, shall have the following meanings,
unless otherwise clearly apparent from the context:
(a) The word “candidate” shall, unless the context otherwise requires, include both
candidates for nomination and election.
(a.1) The word “canvass” shall mean the gathering of ballots after the final precanvass meeting and the counting, computing and tallying of the votes reflected on
the ballots.
(b) The word “county” shall mean any county of this Commonwealth.
(c) The words “county board” or “board” shall mean the county board of elections of
any county herein provided for.
(d) The words “district election board” or “election board” shall mean the election
officers required to conduct primaries and elections in any election district in
accordance with the provisions of this act.
(e) The words “district register” shall mean the cards containing all or any part of
the registry list of qualified electors of the same election district, as prepared by the
registration commissions.
(f) The word “election” shall mean any general, municipal, special or primary
election, unless otherwise specified.
(g) The words “election district” shall mean a district, division or precinct,
established in accordance with the provisions of this act, within which all qualified
electors vote at one polling place.
(g.1) The words “election officer” shall include the judge of elections and the
majority and minority inspectors elected or appointed by a county board of elections
and the clerk or machine inspector appointed by a county board of elections.
(h) The words “general election” shall mean the election which the Constitution of
this Commonwealth requires to be held in even-numbered years.
(i) The words “independent nomination” shall mean the selection by an independent
political body, in accordance with the provisions of this act, of a candidate for a
public office authorized to be voted for at an election.
(j) The words “municipal election” shall mean the election which the Constitution of
this Commonwealth requires to be held in odd-numbered years.
(k) The word “nomination” shall mean the selection, in accordance with the
provisions of this act, of a candidate for a public office authorized to be voted for at
an election.
(l) The words “November election” shall mean either the general or municipal
election, or both, according to the context.
(m) The word “oath” shall include affirmation and the word “swear” shall include
affirm.
(n) The word “party” shall mean a political party, as defined in section 801 of this
act

0337a
(o) The words “party nomination” shall mean the selection by a political party, in
accordance with the provisions of this act, of a candidate for a public office
authorized to be voted for at an election.
(p) The words “political body” shall mean an independent body of electors, as
defined in section 801 of this act.
(q) The words “polling place” shall mean the room provided in each election district
for voting at a primary or election.
(q.1) The word “pre-canvass” shall mean the inspection and opening of all envelopes
containing official absentee ballots or mail-in ballots, the removal of such ballots
from the envelopes and the counting, computing and tallying of the votes reflected
on the ballots. The term does not include the recording or publishing of the votes
reflected on the ballots.
(r) The words “primary” or “primary election” shall mean any election held for the
purpose of electing party officers and nominating candidates for public offices to be
voted for at an election.
(r.1) “Public institution” means institutions primarily maintained by the Federal,
State or local governments and includes but is not limited to veterans’ hospitals and
homes, State hospitals, poor houses and county homes.
(s) The words “public office” shall include every public office to which persons can be
elected by a vote of the electors under the laws of this State.
(t) The words “qualified elector” shall mean any person who shall possess all of the
qualifications for voting now or hereafter prescribed by the Constitution of this
Commonwealth, or who, being otherwise qualified by continued residence in his
election district, shall obtain such qualifications before the next ensuing election.
(u) The words “registered and enrolled member of a political party” shall mean any
qualified elector who shall be registered according to political designation, in
accordance with the provisions of the registration acts.
(v) The words “special election” shall mean any election other than a regular
general, municipal or primary election.
(w) The words “qualified absentee elector” shall mean:
(1) Any qualified elector who is or who may be in the military service of the United
States regardless of whether at the time of voting he is present in the election
district of his residence or is within or without this Commonwealth and regardless
of whether he is registered or enrolled; or
(2) Any qualified elector who is a spouse or dependent residing with or
accompanying a person in the military service of the United States if at the time of
voting such spouse or dependent is absent from the municipality of his residence:
Provided, however, That the said elector has been registered or enrolled according
to law or is entitled, under provisions of the Permanent Registration Law as now or
hereinafter enacted by the General Assembly, to absentee registration prior to or
concurrently with the time of voting; or
(3) Any qualified elector who is or who may be in the service of the Merchant
Marine of the United States if at the time of voting he is absent from the
municipality of his residence: Provided, however, That the said elector has been

0338a
registered or enrolled according to law or is entitled, under provisions of the
Permanent Registration Law as now or hereinafter enacted by the General
Assembly, to absentee registration prior to or concurrently with the time of voting;
or
(4) Any qualified elector who is a spouse or dependent residing with or
accompanying a person who is in the service of the Merchant Marine of the United
States if at the time of voting such spouse or dependent is absent from the
municipality of his residence: Provided, however, That the said elector has been
registered or enrolled according to law or is entitled, under provisions of the
Permanent Registration Law as now or hereinafter enacted by the General
Assembly, to absentee registration prior to or concurrently with the time of voting;
or
(5) Any qualified elector who is or who may be in a religious or welfare group
officially attached to and serving with the armed forces if at the time of voting he is
absent from the municipality of his residence: Provided, however, That the said
elector has been registered or enrolled according to law or is entitled, under
provisions of the Permanent Registration Law as now or hereinafter enacted by the
General Assembly, to absentee registration prior to or concurrently with the time of
voting; or
(6) Any qualified elector who is a spouse or dependent residing with or
accompanying a person in a religious or welfare group officially attached to and
serving with the armed forces if at the time of voting such spouse or dependent is
absent from the municipality of his residence: Provided, however, That the said
elector has been registered or enrolled according to law or is entitled, under
provisions of the Permanent Registration Law as now or hereinafter enacted by the
General Assembly, to absentee registration prior to or concurrently with the time of
voting; or
(7) Any qualified elector who expects to be or is outside the territorial limits of the
several States of the United States and the District of Columbia because his duties,
occupation or business require him to be elsewhere during the entire period the
polls are open for voting on the day of any primary or election or who is or who may
be a civilian employee of the United States outside the territorial limits of the
several States of the United States and the District of Columbia, whether or not
such elector is subject to civil-service laws and the Classification Act of 1949 and
whether or not paid from funds appropriated by the Congress, if at the time of
voting he is absent from the municipality of his residence: Provided, however, That
said elector has been registered or enrolled according to law or is entitled, under
provisions of the Permanent Registration Law as now or hereinafter enacted by the
General Assembly, to absentee registration prior to or concurrently with the time of
voting; or
(8) Any qualified elector who is a spouse or dependent residing with or
accompanying a person who expects to be or is outside the territorial limits of the
several States of the United States and the District of Columbia because his duties,
occupation or business require him to be elsewhere during the entire period the

0339a
polls are open for voting on the day of any primary or election or who is a spouse or
dependent residing with or accompanying a person who is a civilian employee of the
United States outside the territorial limits of the several States of the United States
and the District of Columbia whether or not such person is subject to civil-service
laws and the Classification Act of 1949 and whether or not paid from funds
appropriated by the Congress if at the time of voting such spouse or dependent is
absent from the municipality of his residence: Provided, however, That the said
elector has been registered or enrolled according to law or is entitled, under
provisions of the Permanent Registration Law as now or hereinafter enacted by the
General Assembly, to absentee registration prior to or concurrently with the time of
voting; or
(9) Any qualified war veteran elector who is bedridden or hospitalized due to illness
or physical disability if he is absent from the municipality of his residence and
unable to attend his polling place because of such illness or physical disability
regardless of whether he is registered and enrolled; or
(10) Any qualified, registered and enrolled elector who expects to be or is absent
from the municipality of his residence because his duties, occupation or business
require him to be elsewhere during the entire period the polls are open for voting on
the day of any primary or election; or
(11) Any qualified, registered and enrolled elector who is unable to attend his
polling place because of illness or physical disability; or
(12) Any qualified, registered and enrolled elector who is a spouse or dependent
accompanying a person employed in the service of this Commonwealth or in the
service of the Federal Government within the territorial limits of the several States
of the United States and the District of Columbia in the event the duties, profession
or occupation of such person require him to be absent from the municipality of his
residence; or
(13) Any qualified elector who is a county employe who cannot vote due to duties on
election day relating to the conduct of the election; or
(14) Any qualified elector who will not attend a polling place because of the
observance of a religious holiday:
Provided, however, That the words “qualified absentee elector” shall in nowise be
construed to include persons confined in a penal institution or a mental institution
nor shall it in anywise be construed to include a person not otherwise qualified as a
qualified elector in accordance with the definition set forth in section 102(t) of this
act.
(x) The words “members of the merchant marine of the United States” mean
persons (other than persons in military service) employed as officers or members of
crews of vessels documented under the laws of the United States or of vessels owned
by the United States or of vessels of foreign flag registry under charter to or control
of the United States, and persons (other than persons in military service) enrolled
with the United States for employment or for training for employment or
maintained by the United States for emergency relief service as officers or members
of crews of any such vessels, but does not include persons so employed or enrolled

0340a

for such employment or for training for employment or maintained for such
emergency relief on the Great Lakes or the Inland waterways.
(y) The word “dependent” means any person who is in fact a dependent.
(z) The words “person authorized to administer oaths” shall mean any person who is
a commissioned officer in military service or any member of the merchant marine of
the United States designated for this purpose by the United States Secretary of
Commerce or any civilian official empowered by any State or Federal law to
administer oaths.
(z.1) The words “in military service” shall mean the uniformed services as defined in
section 102 of the Career Compensation Act of 1949 (63 Stat. 804, U.S. Code, Title
37 Par. 231)
(z.2) Repealed by 1968, Dec. 11, P.L. 1183, No. 375, § 2.
(z.3) The words “duties, occupation or business” shall include leaves of absence for
teaching or education, vacations, sabbatical leaves, and all other absences
associated with the elector’s duties, occupation or business, and also include an
elector’s spouse who accompanies the elector.
(z.4) The word “municipality” shall mean a city, borough, incorporated town,
township or any similar general purpose unit of government which may be created
by the General Assembly.
(z.5) The words “proof of identification” shall mean:
(1) In the case of an elector who has a religious objection to being photographed, a
valid-without-photo driver’s license or a valid-without-photo identification card
issued by the Department of Transportation.
(2) For an elector who appears to vote under section 1210, a document that:
(i) shows the name of the individual to whom the document was issued and the
name substantially conforms to the name of the individual as it appears in the
district register;
(ii) shows a photograph of the individual to whom the document was issued;
(iii) includes an expiration date and is not expired, except:
(A) for a document issued by the Department of Transportation which is not more
than twelve (12) months past the expiration date; or
(B) in the case of a document from an agency of the Armed forces of the United
States or their reserve components, including the Pennsylvania National Guard,
establishing that the elector is a current member of or a veteran of the United
States Armed Forces or National Guard which does not designate a specific date on
which the document expires, but includes a designation that the expiration date is
indefinite; and
(iv) was issued by one of the following:
(A) The United States Government.
(B) The Commonwealth of Pennsylvania.
(C) A municipality of this Commonwealth to an employee of that municipality.
(D) An accredited Pennsylvania public or private institution of higher learning.
(E) A Pennsylvania care facility.

0341a

(3) For a qualified absentee elector under section 1301 or a qualified mail-in elector
under section 1301-D:
(i) in the case of an elector who has been issued a current and valid driver’s license,
the elector’s driver’s license number;
(ii) in the case of an elector who has not been issued a current and valid driver’s
license, the last four digits of the elector’s Social Security number;
(iii) in the case of an elector who has a religious objection to being photographed, a
copy of a document that satisfies paragraph (1); or
(iv) in the case of an elector who has not been issued a current and valid driver’s
license or Social Security number, a copy of a document that satisfies paragraph (2).
(z.6) The words “qualified mail-in elector” shall mean a qualified elector. The term
does not include a person specifically prohibited from being a qualified absentee
elector under section 1301.

0342a
United States Code
3 U.S.C. § 15
Congress shall be in session on the sixth day of January
succeeding every meeting of the electors. The Senate and House of
Representatives shall meet in the Hall of the House of Representatives
at the hour of 1 o’clock in the afternoon on that day, and the President
of the Senate shall be their presiding officer. Two tellers shall be
previously appointed on the part of the Senate and two on the part of
the House of Representatives, to whom shall be handed, as they are
opened by the President of the Senate, all the certificates and papers
purporting to be certificates of the electoral votes, which certificates
and papers shall be opened, presented, and acted upon in the
alphabetical order of the States, beginning with the letter A; and said
tellers, having then read the same in the presence and hearing of the
two Houses, shall make a list of the votes as they shall appear from the
said certificates; and the votes having been ascertained and counted
according to the rules in this subchapter provided, the result of the
same shall be delivered to the President of the Senate, who shall
thereupon announce the state of the vote, which announcement shall
be deemed a sufficient declaration of the persons, if any, elected
President and Vice President of the United States, and, together with a
list of the votes, be entered on the Journals of the two Houses. Upon
such reading of any such certificate or paper, the President of the
Senate shall call for objections, if any. Every objection shall be made in
writing, and shall state clearly and concisely, and without argument,
the ground thereof, and shall be signed by at least one Senator and one
Member of the House of Representatives before the same shall be
received. When all objections so made to any vote or paper from a State
shall have been received and read, the Senate shall thereupon
withdraw, and such objections shall be submitted to the Senate for its
decision; and the Speaker of the House of Representatives shall, in like
manner, submit such objections to the House of Representatives for its
decision; and no electoral vote or votes from any State which shall have
been regularly given by electors whose appointment has been lawfully
certified to according to section 6 of this title [3 USCS § 6] from which
but one return has been received shall be rejected, but the two Houses
concurrently may reject the vote or votes when they agree that such
vote or votes have not been so regularly given by electors whose
appointment has been so certified. If more than one return or paper
purporting to be a return from a State shall have been received by the
President of the Senate, those votes, and those only, shall be counted
which shall have been regularly given by the electors who are shown

0343a
by the determination mentioned in section 5 [3 USCS § 5] of this title
to have been appointed, if the determination in said section provided
for shall have been made, or by such successors or substitutes, in case
of a vacancy in the board of electors so ascertained, as have been
appointed to fill such vacancy in the mode provided by the laws of the
State; but in case there shall arise the question which of two or more of
such State authorities determining what electors have been appointed,
as mentioned in section 5 of this title [3 USCS § 5], is the lawful
tribunal of such State, the votes regularly given of those electors, and
those only, of such State shall be counted whose title as electors the
two Houses, acting separately, shall concurrently decide is supported
by the decision of such State so authorized by its law; and in such case
of more than one return or paper purporting to be a return from a
State, if there shall have been no such determination of the question in
the State aforesaid, then those votes, and those only, shall be counted
which the two Houses shall concurrently decide were cast by lawful
electors appointed in accordance with the laws of the State, unless the
two Houses, acting separately, shall concurrently decide such votes not
to be the lawful votes of the legally appointed electors of such State.
But if the two Houses shall disagree in respect of the counting of such
votes, then, and in that case, the votes of the electors whose
appointment shall have been certified by the executive of the State,
under the seal thereof, shall be counted. When the two Houses have
voted, they shall immediately again meet, and the presiding officer
shall then announce the decision of the questions submitted. No votes
or papers from any other State shall be acted upon until the objections
previously made to the votes or papers from any State shall have been
finally disposed of.
3 U.S.C. § 16
At such joint meeting of the two Houses seats shall be provided
as follows: For the President of the Senate, the Speaker’s chair; for the
Speaker, immediately upon his left; the Senators, in the body of the
Hall upon the right of the presiding officer; for the Representatives, in
the body of the Hall not provided for the Senators; for the tellers,
Secretary of the Senate, and Clerk of the House of Representatives, at
the Clerk’s desk; for the other officers of the two Houses, in front of the
Clerk’s desk and upon each side of the Speaker’s platform. Such joint
meeting shall not be dissolved until the count of electoral votes shall be
completed and the result declared; and no recess shall be taken unless
a question shall have arisen in regard to counting any such votes, or
otherwise under this subchapter, in which case it shall be competent
for either House, acting separately, in the manner hereinbefore
provided, to direct a recess of such House not beyond the next calendar

0344a

day, Sunday excepted, at the hour of 10 o’clock in the forenoon. But if
the counting of the electoral votes and the declaration of the result
shall not have been completed before the fifth calendar day next after
such first meeting of the two Houses, no further or other recess shall
be taken by either House.

APPENDIX K

0345a

Pennsylvania Guidance for
Mail-in and Absentee
Ballots Received from the
United States Postal
Service after 8:00 p.m. on
Tuesday, November 3,
2020
Date: October 28, 2020

Version: 1.0

0346a

In recognition of documented United States Postal Service (“USPS”) delays and citing the Pennsylvania
Constitution’s Free and Equal Elections Clause’s guarantee of free exercise of the right to suffrage, on
September 17, 2020, the Pennsylvania Supreme Court (i) held that absentee and mail-in ballots mailed by
voters via the USPS and postmarked by 8:00 p.m. on Tuesday, November 3, 2020 shall be counted if they
are otherwise valid and received by the county boards of election on or before 5:00 p.m. on Friday,
November 6, 2020, and (ii) further held that ballots received within this period that lack a postmark or
other proof of mailing, or for which the postmark or other proof of mailing is illegible, will be presumed to
have been mailed by 8:00 p.m. on November 3 unless a preponderance of the evidence demonstrates that
the ballot was mailed after such time.
Certain parties asked the United States Supreme Court to stay the Pennsylvania Supreme Court’s decision.
The United States Supreme Court denied that request on October 19, 2020. Therefore, the Pennsylvania
Supreme Court’s ruling, summarized above, remains the law.
On Friday, October 23, 2020, certain parties petitioned the U.S. Supreme Court for a writ of certiorari,
asking that Court to vacate the Pennsylvania Supreme Court’s September 17 decision and eliminate the
three-day extension. Those parties also filed a motion for expedited consideration of their petition. On
Monday, October 26, 2020, Secretary Boockvar filed a response to the motion. At this time, both the
petition and motion remain pending before the U.S. Supreme Court.
The Secretary continues to defend the extension to ensure that every timely and validly cast mail-in and
absentee ballot is counted. Because this issue is still-pending before the U.S. Supreme Court, however,
county boards of elections are directed to take the following action to securely segregate mail-in and
civilian absentee ballots received by the county board before 8:00 p.m. on November 3 from those
received via USPS after 8:00 p.m. on November 3 and before 5:00 p.m. on Friday, November 6:

1) All mail-in and civilian absentee ballots delivered by the USPS and received between 8:00
p.m. on Tuesday, November 3, 2020 and 5:00 p.m. on Friday, November 6, 2020 shall be
kept separate and segregated from all other voted ballots.
2) The county boards of elections shall not pre-canvass or canvass any mail-in or civilian
absentee ballots received between 8:00 p.m. on Tuesday, November 3, 2020 and 5:00 p.m.
on Friday, November 6, 2020 until further direction is received. These ballots shall be
maintained by the county board in a secure, safe and sealed container separate from other
voted ballots.
3) For every ballot delivered to the county board by the USPS between 8:00 p.m. on Tuesday,
November 3, 2020 and 5:00 p.m. on Friday, November 6, 2020, each county board shall
maintain an accurate log of the date upon which the ballot was delivered by the USPS to
the county board of elections. The log shall include (i) the name and address of the
elector, (ii) the date of delivery by the USPS, (iii) whether the ballot return envelope has a
legible postmark, and (iv) the postmark date, when present and legible.

Page 2 of 3

0347a

0348a
Effective: November 1, 2020.

STATEWIDE RETURN AND RECOUNT
DIRECTIVE AND PROCEDURES
The Department of State issued this directive and adopted these procedures to implement the
amendments made to the Pennsylvania Election Code by Act 97 of 2004 relating to reporting of
unofficial election returns to the Department of State, the requirement that the Secretary of the
Commonwealth determine whether a recount of returns for statewide public office or ballot
question are required, and to ensure consistency with amendments to the Election Code made by
Acts 77 and 94 of 2019, and 12 of 2020. This Directive supersedes the election return and recount
provisions contained in the Directive dated June 9, 2011, entitled Directive Concerning the Use,
Implementation and Operation of Electronic Voting Systems by the County Boards of Elections
The guidance concerning pre-canvassing and canvassing of ballots in this Directive refers only to
the pre-canvassing and canvassing of ballots received by 8:00 P.M. on Election Day. Guidance
entitled Canvassing Segregated Mail-in and Civilian Absentee Ballots Received by Mail after 8:00
P.M. on Tuesday, November 3, 2020 and Before 5:00 P.M. on Friday, November 6, 2020, issued
separately by the Department of State on November 1, 2020, provides procedures counties should
follow to canvass ballots received after 8:00 P.M. on Election Day, November 3, 2020.

TRANSMITTAL OF RETURNS ON ELECTION NIGHT
By 2:00 A.M. on the day following the election, Sections 1113-A, 1225 and 1228 of the Election
Code require the judge of elections to return to the county board of elections the following
materials:
1. Envelopes;
2. Supplies, including all uncast provisional ballots; and
3. Returns, including all provisional ballots cast in the election district.
25 P.S. §§ 3031.13, 3065 and 3068.
By 3:00 A.M. on the day following the election, each county board of elections must submit to
the Department of State pursuant to Section 1402 of the Election Code returns received from the
district boards of elections for each office for which a candidate must file a nomination petition
with the Secretary of the Commonwealth. 25 P.S. § 3152. These returns must be submitted as
prescribed by the Secretary of the Commonwealth utilizing the Department of State’s election
night reporting system or such other method authorized by the Department.

COMPUTATION AND REPORTING OF UNOFFICIAL GENERAL
RETURNS
As provided for by Section 1308 of the Election Code, the county board of elections shall meet no
earlier than 7:00 A.M. on Election Day to pre-canvass all absentee and mail-in ballots received
prior to this meeting. 25 P.S. § 3146.8(g)(1.1). The county board of elections shall meet no earlier
than the close of polls on the day of the election and no later than the third day following the
election to begin the canvass of absentee and mail-in ballots not included in the pre-canvass
1

0349a
Effective: November 1, 2020.

meeting. 25 P.S. § 3146.8(g)(2). The canvass of mail-in and absentee ballots shall continue until
completed.
No later than 9:00 A.M. on the third day following the primary or election, each county board
of elections must publicly commence the computation and canvassing of the returns from the
various election districts as required by Sections 1403 and 1404 of the Election Code and continue
the same until completed. 25 P.S. §§ 3153-3154. Upon the completion of the computation and
canvassing (including any recount conducted under Section 1404(e) of the Election Code, 25 P.S.
§ 3154(e)), the board of elections must tabulate the figures for the entire county and sign, announce
and attest the returns as provided by Section 1404(f) of the Election Code (25 P.S. § 3154(f)). The
computed and tabulated returns that are announced, signed by the board of elections, and attested
to by the clerks who made and computed the entries reflecting the returns under Section 1404(f)
of the Election Code (25 P.S. § 3154(f)) must be considered unofficial for five (5) days thereafter.
Id.
No later than 5:00 P.M. on the Tuesday following the day of the election, the county board of
elections must submit to the Secretary of the Commonwealth the unofficial returns of the county
for all statewide public offices and ballot questions that appeared on the ballot in every election
district in the Commonwealth. The county board of elections shall submit to the Secretary of the
Commonwealth the unofficial returns for such offices and ballot questions that the county board
of elections announced and signed as required by Section 1404(f) of the Election Code. 25 P.S. §
3154(f).
In the event that the county board of elections has not yet completed, announced and signed the
unofficial returns as provided by Section 1404(f) of the Election Code (25 P.S. § 3154(f)), the
county board of elections shall submit, no later than 5:00 P.M. on the Tuesday following Election
Day, those election returns that have been computed and tabulated by that date and time. With the
submission of partial returns, the county board of elections shall inform the Secretary of the
Commonwealth that the unofficial returns are not yet complete and shall provide to the Secretary
the number of potentially valid ballots that the county board of elections estimates have not been
included in the reported partial computation of returns.
These unofficial returns must be submitted to the Secretary of the Commonwealth by e-mail on
form DSBE UR-CBE (Unofficial Returns Reporting Form) by 5:00 P.M. on or before the
Tuesday following the election to resource account RA-elections@pa.gov. In addition to the
reporting form, the county board of elections must submit a printed report from the election
management system showing the results for each county-wide contest for all the ballots counted.
The report to the Secretary made as required by Section 1404(f) of the Election Code (25 P.S. §
3154(f)) on Form DSBE UR-CBE shall include an accurate accounting of all uncounted
provisional ballots, uncounted absentee ballots, uncounted mail-in ballots, uncounted alternative
ballots, and any other types of uncounted ballots (including any ballots from military and overseas
civilian voters that have not yet been canvassed) for which a final resolution regarding the validity
of the ballots has not yet been made.
In the event that the statutory deadline to receive and count absentee and mail-in ballots from
certain electors has been extended by order of court or by legislation enacted by the General
Assembly to a date that occurs after the date on which the county board of elections is required to
submit unofficial returns to the Secretary of the Commonwealth, the county board of elections
2

0350a
Effective: November 1, 2020.

must also attach to form DSBE UR-CBE a statement describing the total number of absentee and
mail-in ballots that were delivered to absentee electors affected by the court order and that have
not yet been received by the county board of elections. (For example, if the deadline to receive
absentee ballots from military electors and overseas citizens were extended to a date after the date
that the board of elections is required to make its submission of unofficial returns to the Secretary
of the Commonwealth, the county board of elections must calculate the total number of absentee
ballots that might be received from those absentee electors affected by the court-ordered
extension.)
The submission of unofficial returns made to the Secretary of the Commonwealth as required by
Section 1404(f) of the Election Code (25 P.S. § 3154(f)), and recorded on form DSBE UR-CBE,
must be signed by the members of the county board of elections.
Based on assessment of the unofficial returns submitted to the Secretary of the Commonwealth by
the county boards of elections, the Secretary may request a supplemental report regarding
additional returns that have been computed and tabulated by the county boards of elections after
the Tuesday following Election Day and before 5:00 P.M. on the second Thursday following
Election Day when the Secretary is required to determine whether the standards for a Statewide
recount have been met under Section 1404(g) of the Election Code. 25 P.S. § 3154(g).

RECOUNT ORDER BY THE SECRETARY
Unless waived by all affected candidates, Section 1404(g) of the Election Code (25 P.S. § 3154(g))
requires the Secretary of the Commonwealth to order all county boards of election to conduct a
recount if, based on the unofficial returns submitted to the Secretary by the county boards of
election on form DSBE UR-CBE and any required supplements thereto, the Secretary of the
Commonwealth determines:
(1) A candidate for a public office that appears on the ballot in every election district in the
Commonwealth was defeated by one-half of one percent or less of the votes cast for the
office; or
(2) A ballot question appearing on the ballot in every election district in the Commonwealth
was approved or rejected by one-half of one percent or less.
The Secretary of the Commonwealth must issue an order for a recount by 5:00 P.M. of the second
Thursday following the day of the election. The Secretary of the Commonwealth must provide
24 hours notice of the order to each candidate and to each county chairman of each party or
political body affected by the recount. Notice will be provided to each candidate and to each
county chairman affected via e-mail and press release, and other method(s) as the Secretary might
deem necessary and appropriate.
As provided by Section 1404(h) of the Election Code (25 P.S. § 3154(h)), the Secretary will not
order a recount if the defeated candidate by 12:00 P.M. on the second Wednesday following the
election requests in writing that a recount not be made.

3

0351a
Effective: November 1, 2020.

The recount order will be transmitted to each county via e-mail and other means deemed
appropriate by the Secretary of the Commonwealth. The recount order also will be posted on the
Department of State’s World Wide Web Site at www.dos.state.pa.us.
Under Section 1404(g)(5)(ii) of the Election Code (25 P.S. § 3154(g)(5)(ii)), the Secretary of the
Commonwealth must schedule the recount, so it is begun no later than the third Wednesday
following the election.
Under Section 1404(g)(4) of the Election Code (25 P.S. § 3154(g)(4)), a candidate affected by the
recount may be present, in person or by attorney, at the recount conducted in each county. A
political party or political body affected by the recount may send two representatives to the recount.
Section 1404(g)(5)(iii) (25 P.S. § 3154(g)(5)(iii)) mandates that the recount be completed by
12:00 Noon on the Tuesday following the third Wednesday after the election.

CONDUCTING THE RECOUNT
Under Sections 1118-A and 1404(e)(3) of the Election Code (25 P.S. §§ 3031.18 and 3154(e)(3)),
the county board of elections must recount all ballots using manual, mechanical or electronic
devices of a different type than that used for the specific election.
•
•

All ballots containing overvotes, undervotes or marginal marks must be counted
manually.
Counties shall conduct the recount using tabulators of a different type than that used in
the election, or by a hand count of the paper ballots.

By 5:00 P.M on the Friday following the election the county board of elections must submit a
completed Recount Procedures Form. This form will be proscribed by the Secretary, provide an
overview of the county’s recount plan, and will be distributed as necessary.
Under Section 1407(a) of the Election Code (25 P.S. § 3157(a)), appeals of determinations made
by a county board of elections following an order for a recount by the Secretary of the
Commonwealth related to the offices or ballot questions that are the subject of the statewide
recount must be taken to the Commonwealth Court – even after the recount ordered by the
Secretary has been completed.

RECORDING THE RESULTS OF THE RECOUNT
A county board of elections must record the results of its recount on form DSBE RE-CBE (Recount
Tabulation Reporting Form). The recount report shall include the computation and tabulation of
all returns that have been made by the county board of elections.
In the event that the statutory deadline to receive and count absentee and mail-in ballots from
certain electors has been extended by order of court to a date occurring after the completion of the
recount, a county board of elections must attach to form DSBE RE-CBE a statement that describes
the total number of absentee and mail-in ballots that were delivered to such electors and that have
4

0352a
Effective: November 1, 2020.

not yet been received by the county board of elections. (For example, if the deadline to receive
absentee ballots from military electors and overseas citizens were extended to a date occurring
after the completion of the recount, the county board of elections would need to calculate the total
number of absentee ballots that may yet be received by those affected military and overseas
electors.)

TRANSMITTING THE RECORDED RESULTS OF THE RECOUNT TO
THE SECRETARY
As required by Section 1404(g)(6) of the Election Code (25 P.S. § 3154(g)(6)), the county boards
of elections must submit the results of the recount to the Secretary of the Commonwealth on form
DSBE RE-CBE no later than 12:00 Noon on the day following completion of the recount via
e-mail to resource account RA-elections@pa.gov, and via additional means, as may be required
by the Secretary.
###

5

APPENDIX L
0353a


These vote totals do not include any votes from mail ballots received between 8 p.m.
on election day and 5 p.m. the following Friday.

2020 Presidential Election
Tuesday, November 3, 2020
Unofficial Returns

Statewide
Filter Options

Representative in Congress

1st
Congressional
District

17th Congressional District

2nd
Congressional
District

(DEM)

3rd
Congressional
District
4th
Congressional
District
5th
Congressional
District
6th
Congressional
District
7th
Congressional
District
8th
Congressional
District
9th
Congressional
District
10th
Congressional
District

County Breakdown

LAMB, CONOR J

51.15%
Votes: 222,253
Election Day : 80451
Mail : 137568
Provisional : 3528

PARNELL, RICHARD SEAN
(REP)
48.85%
Votes: 212,284
Election Day : 161984
Mail : 45987
Provisional : 3980

Back to Top

0354a


These vote totals do not include any votes from mail ballots received between 8 p.m.
on election day and 5 p.m. the following Friday.

2020 Presidential Election
Tuesday, November 3, 2020
Unofficial Returns

Statewide
Filter Options

Statewide

President of the United States

Statewide

County Breakdown

BIDEN, JOSEPH ROBINETTE JR
(DEM)
50.01%
Votes: 3,458,229
Election Day : 1409341
Mail : 1995691
Provisional : 53168
Runningmate: KAMALA D HARRIS

TRUMP, DONALD J.
(REP)
48.84%
Votes: 3,377,674
Election Day : 2731230
Mail : 595538
Provisional : 50874
Runningmate: MICHAEL R PENCE

JORGENSEN, JO
(LIB)
1.15%
Votes: 79,380
Election Day : 53318
Mail : 24783
Provisional : 1277
Runningmate: JEREMY SPIKE COHEN

